<html>
<title> - SOCIAL SECURITY ADMINISTRATION'S MANAGEMENT OF THE OFFICE OF HEARINGS AND APPEALS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                    SOCIAL SECURITY ADMINISTRATION'S

                      MANAGEMENT OF THE OFFICE OF


                          HEARINGS AND APPEALS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2003

                               __________

                           Serial No. 108-40

                               __________

         Printed for the use of the Committee on Ways and Means





                 U.S. GOVERNMENT PRINTING OFFICE

99-662                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                  E. CLAY SHAW, JR., Florida, Chairman

SAM JOHNSON, Texas                   ROBERT T. MATSUI, California
MAC COLLINS, Georgia                 BENJAMIN L. CARDIN, Maryland
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri           XAVIER BECERRA, California
RON LEWIS, Kentucky                  STEPHANIE TUBBS JONES, Ohio
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                                                                   Page

Advisories announcing the hearing................................     2

                               WITNESSES

Social Security Administration, Hon. Jo Anne B. Barnhart, 
  Commissioner; accompanied by Martin Gerry, Deputy Commissioner 
  for Disability and Income Security Programs....................     9
Social Security Administration, Hon. James G. Huse, Jr., 
  Inspector General..............................................    34

                                 ______

Social Security Advisory Board, Sylvester J. Schieber............    38
Consortium For Citizens With Disabilities, The Arc, and United 
  Cerebral Palsy Public Policy Collaboration, Marty Ford.........    48
National Organization of Social Security Claimants' 
  Representatives, Richard P. Morris.............................    54
Association of Administrative Law Judges, Hon. Ronald G. Bernoski    60
American Federation of government Employees, Social Security 
  General Committee, Witold Skwierczynski........................    70
National Treasury Employees Union, Chapter 224, James A. Hill....    76

                       SUBMISSIONS FOR THE RECORD

Adams, M.J., Seattle Office of Hearings and Appeals, Social 
  Security Administration, Seattle, WA, statement................   157
AIDS Resource Center of Wisconsin, Milwaukee, WI, Dawn R. 
  Caldart, statement.............................................    97
American Bar Association, Robert D. Evans, letter................    98
American Federation of Government Employees Council 215, Falls 
  Church, VA, James E. Marshall, statement.......................    99
Bartel, Jennifer L., Sheboygan, WI, letter.......................   101
Caldart, Dawn R., AIDS Resource Center of Wisconsin, Milwaukee, 
  WI, statement..................................................    97
Clark, Terry G., Sparta, GA, statement...........................   103
Clark, Paul C., Cibola, AZ, statement............................   103
Dane, Dan, Midland, TX, letter...................................   104
Dann, Richard, Auburn, CA, statement.............................   104
Davis, Stephen W., Annandale, VA, statement......................   106
deVries, Margaret, Ladson, SC, statement.........................   107
Evans, Robert D., American Bar Association, letter...............    98
Federal Managers Association, Alexandria, VA, Kristin Royster, 
  statement......................................................   107
Flitsch, Kristen L., Watertown, WI, statement....................   112
Frederick, Phyllis, Hickory Flat, MS, statement..................   114
Fullerton, Linda, Social Security Disability Coalition, 
  Rochester, NY, statement and attachments.......................   161
Gilbert, Mary Jo, Vancouver, WA, statement.......................   114
Glennon, Frances, Barton, NY, statement..........................   115
Halas, Fran, Whitefish Bay, WI, statement........................   116
Hall, Nancy, Wauwatosa, WI, statement............................   116
Henderson, Tanya, Waynesville, GA, statement.....................   117
Holland, Elizabeth S., Dallas, NC, statement.....................   118
Holt, Margaret, Chapel Hill, NC, statement.......................   118
Innes, Janet L., Cambridge, MA, statement........................   119
Innovative Community Solutions, Nashville, TN, Stephanie Varnado, 
  statement......................................................   120
Jennings, Melissa, Freeport, TX, statement.......................   121
Kelly, John, Clovis, NM, statement...............................   121
Kindel, Mary Ann, Cincinnati, OH, letter.........................   122
Krippendorf, Jr., Donald Ray, Knoxville, TN, statement...........   123
Lankford, Richard, Milwaukee, WI, statement......................   124
Marshall, James E., American Federation of Government Employees 
  Council 215, and National Council of Social Security 
  Administration Office of Hearings and Appeals Locals, Falls 
  Church, VA, statement..........................................    99
Martinelli, Peter J., Office of Hearings and Appeals, Social 
  Security Administration, letter................................   135
Masch, Kathy, Milwaukee, WI, statement...........................   124
Maynard, Tracy, Milwaukee, WI, statement.........................   124
McFadden, Stephen A., Dallas, TX, statement......................   125
Miller, Ladonna, Lima, OH, statement.............................   132
Moya, Abel, Milwaukee, WI, letter................................   133
National Council of Social Security Administration Office of 
  Hearings and Appeals Locals, Falls Church, VA, James E. 
  Marshall, statement............................................    99
Office of Hearings and Appeals, Social Security Administration, 
  Peter J. Martinelli, letter....................................   135
Osbon, Connie M., Beaverton, OR, statement.......................   140
Palmer, Kelleen, Massillon, OH, statement........................   143
Parker, Beckie, Olathe, KS, statement............................   144
Pastorini, Bruce and Susan, Jacksonville, FL, letter.............   144
Perkins, Barbara Licha, Middlesboro, KY, letter..................   146
Petri, Hon. Thomas E., a Representative in Congress from the 
  State of Wisconsin, statement..................................   148
Plumlee, Lawrence A., Dallas, TX, statement......................   149
Robertson, Stephen P., Chesapeake Beach, MD, statement...........   157
Rodriguez, Alice, Odessa, TX, statement..........................   157
Royster, Kristin, Federal Managers Association, Alexandria, VA, 
  statement......................................................   107
Seattle Office of Hearings and Appeals, Social Security 
  Administration, Seattle, WA, M.J. Adams, statement.............   157
Shapiro, Sarah, Washington, D.C., statement......................   160
Shaull, Judith A., Fair Grove, MO, statement.....................   160
Sherman, Deborah L., Kansas City, MO, statement..................   161
Social Security Disability Coalition, Rochester, NY, Linda 
  Fullerton, statement and attachments...........................   161
Sonders, Dawn L., Williamsburg, VA, statement....................   170
Stone, Diane, Columbus, OH, statement............................   171
Sullivan, Carolyn U., Ozark, AL, statement.......................   171
Sullivan, Vicki L., Philadelphia, PA, statement..................   172
Taliaferro, Carolyn, Jersey City, NJ, statement..................   172
Thorpe, George J., Cochran, GA, statement........................   173
Upperton, Karen, Janesville, WI, statement.......................   174
Varnado, Stephanie, Innovative Community Solutions, Nashville, 
  TN, statement..................................................   120
Videan, Glenda, Hilton, NY, statement............................   176
Vobach, Lucinda L., Milwaukee, WI, letter........................   177
Weatherton, Dorothy A., Minden, LA, statement....................   179


 SOCIAL SECURITY ADMINISTRATION'S MANAGEMENT OF THE OFFICE OF HEARINGS 
                              AND APPEALS

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2003

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room B-318, Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    [The advisory and revised advisory announcing the hearing 
follow:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
September 11, 2003
SS-5

                     Shaw Announces Hearing on the

                    Social Security Administration's

            Management of the Office of Hearings and Appeals

    Congressman E. Clay Shaw, Jr. (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on the Social Security 
Administration's (SSA's) management of the Office of Hearings and 
Appeals (OHA). The hearing will take place on Thursday, September 18, 
2003, in room B-318 of the Rayburn House Office Building, beginning at 
10:00 a.m.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Also, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee or for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The OHA is responsible for holding hearings and issuing decisions 
as part of the SSA's process of determining whether an individual 
qualifies for Social Security benefits. The OHA directs a nationwide 
field organization of 1,150 Administrative Law Judges (ALJs) who 
conduct impartial hearings and make decisions on appeals of retirement, 
survivors, disability, Supplemental Security Income (SSI) and Medicare 
claims. For fiscal year 2003, the SSA estimates that the ALJs will hold 
approximately 602,000 hearings, most of which are for claimants seeking 
disability benefits provided through the Social Security Disability 
Insurance (DI) or SSI programs.
      
    In January 2003, the U.S. General Accounting Office (GAO) added 
Federal disability programs, including DI, to their list of high-risk 
programs, noting that the disability determination process is time-
consuming and complex and that disability programs rely on outdated 
disability criteria. According to the GAO, one of the most pressing 
problems facing disability programs is the management and workload 
crisis at the OHA. The case backlog at the OHA has risen to record 
levels, from 311,958 cases in September 1999 to 581,521 cases in June 
2003. As the backlog has increased, so has the waiting period; 
applicants who appeal their claim to the OHA must now wait 343 days on 
average for a hearing and a decision. If the applicant receives an 
unfavorable decision and files an appeal, he or she must wait an 
additional 307 days on average for a decision by the OHA Appeals 
Council. These delays are unconscionable and often devastating to 
individuals with disabilities and their families.
      
    To address the long-standing problems and reduce delays at the OHA, 
the SSA implemented the Hearing Process Improvement (HPI) initiative in 
November 2000. According to GAO the HPI failed because the SSA 
implemented the initiative without any testing and without any 
agreement between key stakeholders, including agency employees. The 
Commissioner promised new recommendations for the hearing process in 
the Service Delivery Budget Plan but these recommendations have not yet 
been transmitted to Congress.
      
    Recent events involving OHA offices in Milwaukee and Chicago also 
underscore the crisis in management at the OHA. In February 2003, 
representatives from the Chicago regional OHA led a management review 
of the Milwaukee OHA. The internal review identified serious 
operational deficiencies and lapses in management. For example, 
employees in the Milwaukee office had not opened 700 pieces of mail 
dating back several months and had not entered 1,400 cases into the 
office's computer system. Upon receiving the review, the Regional Chief 
Administrative Law Judge designated the Milwaukee OHA as an ``office in 
need of assistance'' and dispatched six different action teams made up 
of employees throughout the region to address the deficiencies. The 
Chicago regional OHA plans to closely monitor the performance of the 
Milwaukee OHA for the next 2 years.
      
    In addition, in July the SSA confirmed that private contractors 
hired by the Chicago regional OHA to organize medical records and mark 
exhibits in claimants' files improperly tossed documents from those 
files into a recycling bin. The SSA terminated the contract in May when 
the problem was discovered. Although there is no indication that any 
claimants were harmed, the SSA is notifying all impacted claimants who 
have not received a fully favorable decision and allowing them the 
opportunity to review their files.
      
    In announcing the hearing, Chairman Shaw stated, ``Individuals with 
disabilities wait months, if not years to receive a decision from the 
OHA. That's wrong, and they deserve better. Each claim is more than a 
thick file of papers; it represents a person who is suffering and needs 
help. The hard working employees of the OHA must get beyond finger 
pointing and take personal responsibility to make their program work 
better. We must find ways to eliminate this bottleneck so that 
individuals with disabilities can receive the prompt and accurate 
service they deserve.''
      

FOCUS OF THE HEARING:

      
    The Subcommittee will examine the key management challenges facing 
the SSA's OHA, along with actions underway or recommended to improve 
service delivery.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="28404d495a41464f4b444d5a435b065f49515b49464c454d49465b68454941440640475d5b4d064f475e">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Thursday, October 2, 2003. 
Those filing written statements that wish to have their statements 
distributed to the press and interested public at the hearing should 
deliver their 200 copies to the Subcommittee on Social Security in room 
B-316 Rayburn House Office Building, in an open and searchable package 
48 hours before the hearing. The U.S. Capitol Police will refuse 
sealed-packaged deliveries to all House Office Buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea828f8b9883848d89868f988199c49d8b93998b848e878f8b8499aa878b8386c482859f998fc48d859c">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

                   * * * NOTICE--CHANGE IN DATE * * *

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
September 17, 2003
SS-5-REV

                   Change in Date for Hearing on the

                    Social Security Administration's

            Management of the Office of Hearings and Appeals

    Congressman E. Clay Shaw, Jr. (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced the 
Subcommittee's hearing on the Social Security Administration's 
Management of the Office of Hearings and Appeals, previously scheduled 
for Thursday, September 18, 2003, at 10:00 a.m., in room B-318 of the 
Rayburn House Office Building, will now take place on Thursday, 
September 25, 2003, at 10:00 a.m., in room B-318 Rayburn House Office 
Building.
      
    All other details for the hearing remain the same. (See 
Subcommittee Advisory No. SS-5, dated September 11, 2003).

                                 <F-dash>

    Chairman SHAW. Good morning. Today we will hear testimony 
on the current management and workload crisis facing the Social 
Security Administration's (SSA) Office of Hearings and Appeals 
(OHA). This office directs a nationwide organization, including 
over 1,000 administrative law judges who conduct impartial 
hearings and make decisions on appeals of retirement, 
survivors, disability, Supplemental Security Income (SSI), and 
Medicare claims. Members of this Subcommittee have long been 
concerned about the unacceptable delays experienced by 
individuals with disabilities who appeal their claims to the 
OHA. Today individuals wait almost a year to receive a hearing 
and a decision. If the applicant, who is an appellant, by the 
way, receives an unfavorable decision and files a further 
appeal, they might wait another 10 months on average for a 
decision by the Appeals Council. These delays are unacceptable 
and often devastating to individuals with disabilities and 
their families. It is no wonder that the U.S. General 
Accounting Office (GAO) has added disability programs to its 
2003 high-risk list. The GAO is rightfully concerned that the 
program is stuck in outdated concepts of disabilities, 
experiences significant management problems, and has no 
sufficient game plan to address the increased number of 
individuals with disabilities seeking help from the agency. 
Recent revelations of mismanagement involving offices in 
Milwaukee and Chicago underscore the need for change. In June, 
a Milwaukee newspaper reported the existence of an internal 
agency audit that outlined gross mismanagement of the Milwaukee 
OHA. After receiving requests from Members of Congress from 
Wisconsin--including Mr. Kleczka who is with us today, and Paul 
Ryan, who is a Member of this Subcommittee--the agency released 
the audit to the public. The results were alarming: over 1,230 
cases were not entered into the office's computer system. 
Another 712 pieces of mail had not been added to the claimants' 
files. While the agency took quick and decisive action to 
correct the worst problems in the Milwaukee office, the 
question remains: ``How many other offices are experiencing 
these or similar problems?''
    In July, the SSA confirmed that private contractors in the 
Chicago regional office hired in November 2002 had dumped 
documents from almost 1,200 disability cases into a recycling 
bin. This action could have violated individuals' medical 
privacy and potentially harmed the documentation of nearly 
1,200 cases. The agency terminated the contract in May 2003 
when the problem was discovered. Affected individuals have the 
right to review their case file, and a supplemental hearing 
will be offered if they did not receive a favorable decision. 
Following the disclosure of the Chicago events, Members of the 
Wisconsin congressional delegation requested an investigation 
by the SSA's Inspector General. While the final report is not 
expected until the end of this month, Inspector General Huse is 
with us today to report on the preliminary findings of this 
investigation. While the agency is addressing the Milwaukee and 
Chicago region's management and claim processing problems, the 
Commissioner has for many months been developing a long-term 
strategy to improve the entire disability determination 
process. We have just learned that the Commissioner will 
announce her recommendation this morning at this hearing. I 
know I speak for all of the Members of the Subcommittee along 
with our witnesses and audience present, when I say how pleased 
we are to be the first to hear her strategy. Soon, after 
thorough review and consultation, we will have a separate 
Subcommittee hearing to consider her proposal. In addition to 
Inspector General Huse and Commissioner Barnhart, we look 
forward to hearing from our other distinguished witnesses. 
Regardless of the organization they represent, all of our 
witnesses share a common goal of wanting to improve the appeal 
process for individuals with disabilities. I thank them for 
traveling to Washington, and I look forward to hearing their 
testimony. Every claim folder represents a person who is 
suffering and needs help. Individuals with disabilities deserve 
prompt and accurate services from the agency charged to deliver 
them that help. Today I hope we will get beyond finger-pointing 
and focus on finding answers. Without objection, we will accept 
a statement by Mr. Matsui or his designate. Yes, ma'am.
    [The opening statement of Chairman Shaw follows:]
 Opening Statement of The Honorable E. Clay Shaw, Jr., Chairman, and a 
          Representative in Congress from the State of Florida
    Good morning. Today, we will hear testimony on the current 
management and workload crisis facing the Social Security 
Administration's Office of Hearings and Appeals. This office directs a 
nationwide organization, including over 1,000 administrative law 
judges, who conduct impartial hearings and make decisions on appeals of 
retirement, survivors, disability, Supplemental Security Income and 
Medicare claims.
    Members of this Subcommittee have long been concerned about the 
unacceptable delays experienced by individuals with disabilities who 
appeal their claim to the Office of Hearings and Appeals. Today, 
individuals wait almost a year to receive a hearing and a decision. If 
the applicant receives an unfavorable decision and files a further 
appeal, they must wait another 10 months on average for a decision by 
the Appeals Council. These delays are unacceptable and often 
devastating to individuals with disabilities and their families.
    It's no wonder the U.S. General Accounting Office has added 
disability programs to its 2003 high-risk list. GAO is rightfully 
concerned that the program is stuck in outdated concepts of disability, 
experiences significant management problems, and has no sufficient game 
plan to address the increased number of individuals with disabilities 
seeking help from the agency.
    Recent revelations of mismanagement involving offices in Milwaukee 
and Chicago underscore the need for change. In June, a Milwaukee 
newspaper reported the existence of an internal agency audit that 
outlined gross mismanagement of the Milwaukee Office of Hearings and 
Appeals. After receiving requests from Members of Congress in 
Wisconsin, including Congressman Paul Ryan, a member of this 
Subcommittee, the agency released the audit to the public. The results 
were alarming. Over 1,230 cases had not been entered into the office's 
computer system. Nearly 712 pieces of mailed documentation had not been 
added to claimants' files. While the agency took quick and decisive 
action to correct the worst problems in the Milwaukee office, the 
question remains how many other offices are experiencing these or 
similar problems?
    In July, the Social Security Administration confirmed that private 
contractors in the Chicago regional office hired in November 2002 had 
dumped documents from almost 1200 disability cases into a recycling 
bin. This action could have violated the individuals' medical privacy 
and potentially harmed the documentation of nearly 1200 individuals' 
cases. The agency terminated the contract in May 2003 when the problem 
was discovered. Affected individuals have the right to review their 
case file and a supplemental hearing will be offered if they did not 
receive a favorable decision.
    Following the disclosure of the Chicago events, members of the 
Wisconsin Congressional delegation requested an investigation by the 
Social Security Administration's Inspector General. While the final 
report is not expected until the end of this month, Inspector General 
Huse is with us today to report on the preliminary findings of the 
investigation.
    While the agency is addressing the Milwaukee and Chicago Region's 
management and claim processing problems, the Commissioner has for many 
months been developing a long-term strategy to improve the entire 
disability determination process. We have just learned that the 
Commissioner will announce her recommendations at this hearing.
    I know I speak for all the Members of this Subcommittee, along with 
our witnesses and audience present, when I say how pleased we are to be 
the first to hear her strategy. Soon, after thorough review and 
consultation, we will have a separate Subcommittee hearing to consider 
these proposals.
    In addition to Inspector General Huse, and Commissioner Barnhart, 
we look forward to hearing from our other distinguished witnesses. 
Regardless of the organization they represent, all of our witnesses 
share the common goal of wanting to improve the appeal process for 
individuals with disabilities. I thank them for traveling to Washington 
and look forward to hearing their testimony.
    Every claim folder represents a person who is suffering and needs 
help. Individuals with disabilities deserve prompt and accurate service 
from the agency charged to deliver them help. Today, I hope we can get 
beyond finger pointing and focus on finding answers.

                                 <F-dash>

    Ms. TUBBS JONES. Thank you, Chairman Shaw. I would like to 
thank my Ranking Member, Mr. Matsui, for designating me to give 
an opening statement this morning. I would like to welcome 
Commissioner Barnhart back again, and Inspector Huse, and Mr. 
Schieber. I also would like to welcome my constituent James 
Hill, who is the president of the National Treasury Employees 
Union, to present his testimony as well. The SSA OHA continues 
to experience large backlogs with resulting lengthy delays for 
claimants. Earlier this year, the SSA projected that the number 
of undecided cases at the Ohio hearing office would be about 
532,000 by the end of this fiscal year, and would rise to 
557,000 at the end of fiscal year 2004. The reality has already 
exceeded those projections, and as of June of this year, OHA 
had some 582,000 undecided cases. The average wait between a 
request for an appeal and a final decision at OHA is 341 days. 
In 2003, SSA's original forecast for appeal and a final 
decision was 352 days. The Cleveland, Ohio hearing office has 
more than 10,000 cases pending. At the end of 2003, the average 
processing time for Cleveland cases was 523.93 days. I look 
forward to hearing from the witnesses how the backlog in 
Cleveland, Ohio, and throughout the United States, will provide 
Americans a disability decision in a decent amount of time. At 
the same time, I am concerned about the reports of significant 
mismanagement at the Milwaukee office; and Mr. Kleczka, a 
Member of our Subcommittee, has already been recognized--also, 
a situation in Chicago where there is some allegations of 
mishandling of sensitive information. I understand that the 
Commissioner is going to tell us about her plan to reform the 
determination process, and I look forward to working with her 
as we go through to try and address that particular issue. I 
would say to the other witnesses and to the Chairman, today is 
the second day of the congressional Black Caucus legislative 
weekend, so I am going to be coming and going, Mr. Chairman. No 
disrespect to what is going on, but I also have a hearing on an 
urban cancer project that I am putting on today, too. So, I am 
going to be going back and forth. I thank the Chairman for the 
opportunity to be heard.
    [The opening statement of Ms. Tubbs Jones follows:]
      Opening Statement of The Honorable Stephanie Tubbs Jones, a 
           Representative in Congress from the State of Ohio
    Chairman Shaw, thank you for calling this hearing on the Social 
Security Administration's management of the Office of Hearings and 
Appeals.
    SSA's Office of Hearings and Appeals continues to experience large 
backlogs with resulting lengthy delays for claimants. Earlier this 
year, SSA projected that the number of undecided cases at OHA would be 
about 532,000 by the end of this fiscal year, and would rise to 557,000 
at the end of fiscal year 2004. But the reality has already exceeded 
those projections. As of June this year, OHA had some 582,000 undecided 
cases.
    The average wait between a request for appeal and a final decision 
at OHA is 341 days. In 2003, the SSA's original forecast for an appeal 
and a final decision at OHA is 352 days.
    The Cleveland Hearing Office has moreover than 10,000 cases 
pending. At the end of August 2003, the average processing time for 
Cleveland cases is 523.93 days. I look forward to hearing from you on 
how the backlog in Cleveland, Ohio and throughout the United States 
will provide Americans a disability decision in a decent amount of 
time?
    At the same time, I am concerned about reports of significant 
mismanagement at a Milwaukee hearing office, and I understand that Mr. 
Kleczka will be attending the hearing today. Also, the situation in 
Chicago whereby a private contractor mishandled sensitive personal 
information about disability applicants is very troubling. I am eager 
to learn what steps the Commissioner has taken to correct these 
problems and prevent future occurrences.
    I commend Commissioner Barnhart and her staff for their hard work 
in developing a 5-year Service Delivery Budget Plan that aims to 
eliminate the disability backlog and dramatically reduce waiting times.
    Mr. Chairman, I look forward to hearing the testimony of 
Commissioner Barnhart about her plans for improvements at OHA, as well 
as the recommendations of the other distinguished panelists.

                                 <F-dash>

    Chairman SHAW. Thank you. Now we will recognize the 
Commissioner of Social Security.
    Mr. KLECZKA. Mr. Chairman, before we start, could I ask 
unanimous consent that my statement be entered into the record?
    Chairman SHAW. Yes. The gentleman's statement will be 
entered into the record, as will all Members' statements. 
Without objection. Thank you for being with us. I am not going 
to turn the clock on for Ms. Barnhart, because I think what she 
has to say is tremendously important and will come as news to 
probably everybody on this panel.
    [The opening statement of Mr. Kleczka follows:]
Opening Statement of The Honorable Gerald D. Kleczka, a Representative 
                in Congress from the State of Wisconsin
    I would like to start by thanking you, Mr. Chairman, for holding 
this hearing.
    Over the course of this year, my hometown paper, the Milwaukee 
Journal Sentinel, has published a number of articles that detailed 
significant problems in how various Social Security Administration 
offices were executing their duties, as well as institutional practices 
that hinder efforts to counter identity theft.
    To begin with, earlier this year, it was discovered that over 1,000 
cases at the Milwaukee Office of Hearings and Appeals were ``off the 
books,'' meaning they had not been entered into the SSA database, and 
there were boxes of unopened mail that contained important information 
for disability hearings. In addition, a slow processing rate resulted 
in over 900 cases that were over a year old, and some that were over 
1,000 days old. SSA acted to correct this problem, but this cannot 
obscure the fact that far too many people who needed timely assistance 
failed to get it.
    A second issue concerns the conduct of contractors hired to ease 
the backlog in the Chicago regional office. The contractors improperly 
disposed of evidence contained in disability files. This not only 
complicates the ability of claimants to present all the necessary 
evidence at hearings, but also will require hundreds of individuals to 
again review their files for completeness. In some cases an additional 
hearing may even be required. Although I cannot comment on the overall 
contracting process, clearly something was seriously wrong in how 
things were handled in Chicago, which affected residents of Wisconsin 
that I represent.
    There are two further issues that I believe should be addressed, 
although they are not directly related to the subject of this hearing. 
First is the current SSA policy of allowing those who use fraudulent 
documents to apply for a Social Security number to retain possession of 
them.
    The crime of identity theft has grown exponentially over the years, 
and the economic damage done on an annual basis costs individuals and 
businesses billions of dollars. In addition, in an age when we face a 
serious threat of terrorism, is it obvious that those that would do us 
harm will try to obtain a Social Security number to obtain a driver's 
license, credit cards, and other documents that allow them to carry out 
their plans. We cannot simply allow those who try to falsely obtain a 
Social Security number--an identifier that confers legitimacy--to 
simply walk away when they use fake documents. SSA's policy should be 
changed to allow its employees to retain suspect documents until and 
unless they are conclusively proved otherwise.
    Lastly, another roadblock to countering identity theft is SSA's 
administrative rule that requires 30 days' notice before an employee 
can testify in court. A district attorney in my state has told me how a 
case he had brought against a man in possession of someone else's 
personal information was dropped because it took too long to get an SSA 
employee to testify that he had used someone else's identity. This is 
because Wisconsin requires an initial hearing within 10 days of an 
arrest to ensure a speedy trial, consistent with the Constitution. 
Although SSA has offered a myriad of reasons for its 30-day rule, it 
should make exceptions where prudent, such as felony identity theft 
cases. The current rule is handcuffing justice in Wisconsin, and I 
wonder whether prosecutors in other states have encountered the same 
dilemma.
    I look forward to hearing the testimony of the witnesses, and to 
resolving some of the issues before the committee.

                                 <F-dash>

 STATEMENT OF THE HONORABLE JO ANNE B. BARNHART, COMMISSIONER, 
 SOCIAL SECURITY ADMINISTRATION; ACCOMPANIED BY MARTIN GERRY, 
DEPUTY COMMISSIONER FOR DISABILITY AND INCOME SECURITY PROGRAMS

    Ms. BARNHART. Thank you, Mr. Chairman. I want to thank you 
and the entire Subcommittee for your continuing support for the 
people and the programs of the SSA, and most especially for 
your interest in and your commitment to improving the 
disability process. I also want to thank you for holding this 
hearing which provides the opportunity for me to describe my 
approach for improving the Social Security and SSI disability 
process. Our disability programs are critically important in 
the lives of almost 13-million Americans. Claimants and their 
families expect and deserve fair, accurate, consistent, and 
timely decisions. Electronic Disability is a major disability 
initiative that will move all components involved in disability 
claims adjudication and review to an electronic business 
process through the use of an electronic disability folder. 
Implementation of an electronic disability folder is essential 
for process improvements. Therefore, structurally, my long-term 
strategy for achieving process improvements is predicated on 
successful implementation of our Electronic Disability System. 
In designing my approach to improve the overall disability 
determination process, I was guided by three questions the 
President posed during our first meeting to discuss the 
disability programs: Why does it take so long to make a 
disability decision? Why can't people who are obviously 
disabled get a decision immediately? Why would anyone want to 
go back to work after going through such a long process to 
receive benefits? I realize that designing an approach to fully 
address the central and important issues raised by the 
President required a focus on two overarching operational 
goals: first, to make the right decision as early in the 
process as possible; and second, to foster return to work at 
all stages of the process.
    I also decided to focus on improvements that could be 
effectuated by regulation and improvements that ensure that no 
SSA employee would be adversely affected by my approach. I want 
to make clear that my reference to SSA employees includes State 
Disability Determination Services (DDS), employees, and 
administrative law judges. As I developed my approach for 
improvement, I met with and I talked to many people--SSA 
employees and other interested organizations, individually and 
in small and in large groups. I met to listen to their concerns 
about the current process at both the initial and appeals 
levels, and their recommendations for improvement. I became 
convinced that improvements must be looked at from a system-
wide perspective, and that to be successful, perspectives from 
all parts of the system must be considered. I believe that an 
open and collaborative process is critically important to the 
development of disability process improvements. To that end, 
members of my staff and I visited our regional offices, field 
offices, hearing offices, State DDS, and private disability 
insurers to identify and discuss possible improvements to the 
current process. Finally, a number of organizations provided 
written recommendations for changing the disability process. 
Most recently, the Social Security Advisory Board issued a 
report that was prepared by outside experts making 
recommendations for process change. My approach for changing 
the disability process was developed after a careful review of 
these discussions and written recommendations. As we move 
ahead, I look forward to working within the administration and 
with Congress, as well as interested organizations and advocacy 
groups.
    I would now like to highlight some of the major and 
recurring recommendations made by these various parties. The 
need for additional resources to eliminate the backlog and 
reduce the lengthy processing time was a common theme. This 
important issue is being addressed through my Service Delivery 
Plan starting with the President's fiscal year 2004 budget 
submission, which is currently before Congress. Another 
important and often-heard concern was the necessity of 
improving the quality of the administrative record. The DDS 
have expressed concerns about receiving incomplete applications 
from the field office. Administrative law judges expressed 
concerns about the quality of the adjudicated record they 
receive, and emphasized the extensive pre-hearing work that is 
required to thoroughly and adequately present the case for 
their consideration. In addition, the number of remands by the 
Appeals Council and the Federal courts make clear the need for 
fully documenting the administrative hearing record. Applying 
policy consistently in terms of, first, the DDS decision and 
administrative law judge decision; two, variations among State 
DDS; and, three, variations among individual administrative law 
judges, was a great concern. Concerns related to the 
effectiveness of the existing regional quality control reviews 
and administrative law judge peer review were also expressed. 
Staff from the Judicial Conference expressed strong concern 
that the process assure quality prior to the appeal of cases to 
the Federal court.
    The administrative law judges, claimant advocacy, and 
claimant representative organizations strongly recommended 
retaining the de novo hearing before an administrative law 
judge. The U.S. Department of Justice litigators and the 
Judicial Conference stressed the importance of timely case 
retrieval, transcription, and transmission. Early screening and 
analysis of cases to make expedited decisions for clear cases 
of disability was emphasized time and again, as was the need to 
remove barriers to returning to work. My approach for 
disability process improvements is designed to address these 
concerns. It incorporates some of the significant features of 
the current disability process. For example, initial claims for 
disability will continue to be handled by SSA's field offices. 
The State DDS will continue to adjudicate claims for benefits, 
and administrative law judges will continue to conduct hearings 
and issue decisions. My approach, however, does envision some 
significant differences. I intend to propose a quick decision 
step at the very earliest stages of the claims process for 
people who are obviously disabled. Cases will be sorted based 
on disabling conditions for early identification and expedited 
action. Examples of such claimants would be those with 
Amyotrophic Lateral Sclerosis, aggressive cancers, and end-
stage renal disease. Once a disability claim has been completed 
in a SSA field office, these quick decision claims will be 
adjudicated in regional expert review units across the country 
without going to a State DDS. This approach would have the 
twofold benefit of allowing the claimant to receive a decision 
as soon as possible, and allowing the State DDS to devote 
resources to more complex claims.
    Centralized medical expertise within the regional expert 
review units would be available to disability decisionmakers at 
all levels, including the DDS and the OHA. These units would be 
organized around clinical specialties such as musculoskeletal, 
neurological, cardiac, and psychiatric. Most of these units 
would be established in SSA's regional offices. The initial 
claims not adjudicated through the quick-decision process would 
be decided by the DDS. However, I would also propose some 
changes in the initial claims process that would require 
changes in the way the DDS are operating. An in-line quality 
review process managed by the DDS and a centralized quality 
control unit would replace the current SSA quality control 
system. I believe that a shift to in-line quality review would 
provide greater opportunities for identifying problem areas and 
implementing corrective actions and related training. The 
disability prototype would be terminated, and the DDS 
reconsideration step would be eliminated. Medical expertise 
would be provided to the DDS by the regional expert review 
units that I described a moment ago. State DDS examiners would 
be required to fully document and explain the basis for their 
determination. More complete documentation should result in 
more accurate initial decisions. The increased time required to 
accomplish this would be supported by redirecting DDS resources 
freed up by the quick decision cases being handled by the 
expert units, the elimination of the reconsideration step, and 
the shift in medical expertise responsibility to the regional 
units. A reviewing official position would be created to 
evaluate claims at the next stage of the process. If a claimant 
files a request for review of the DDS determination, the claim 
would be reviewed by a SSA reviewing official. The reviewing 
official, who would be an attorney, would be authorized to 
issue an allowance decision or to concur in the DDS denial of 
the claim. If the claim is not allowed by the reviewing 
official, the reviewing official would prepare either a 
recommended disallowance or a pre-hearing report.
    A recommended disallowance would be prepared if the 
reviewing official believes that the evidence in the record 
shows that the claimant is ineligible for benefits. It would 
set forth in detail the reasons the claim should be denied. A 
pre-hearing report would be prepared if the reviewing official 
believes that the evidence in the record is insufficient to 
show that the claimant is eligible for benefits, but also fails 
to show that the claimant is ineligible for benefits. The 
report would outline the evidence needed to fully support the 
claim. Disparity in decisions at the DDS level has been a 
longstanding issue, and the SSA reviewing official and the 
creation of regional expert medical units would promote 
consistency of decisions at an earlier stage in the process. If 
requested by a claimant whose claim has been denied by the 
reviewing official, an administrative law judge would conduct a 
de novo administrative hearing. The record would be closed 
following the administrative law judge hearing. If, following 
the conclusion of the hearing, the administrative law judge 
determines that a claim accompanied by a recommended 
disallowance should be allowed, the administrative law judge 
would describe in detail in the written opinion the basis for 
rejecting the reviewing official's recommended disallowance. 
If, following the conclusion of the hearing, the administrative 
law judge determines that a claim accompanied by a pre-hearing 
report should be allowed, the administrative law judge would 
describe the evidence gathered during the hearing that responds 
to the description of the evidence needed to successfully 
support the claim contained in the pre-hearing report. Because 
of the consistent finding that the Appeals Council review adds 
processing time and generally supports the administrative law 
judge decision, the Appeals Council stage of the current 
process would be eliminated.
    Quality control for disability claims would be centralized, 
with end-of-line reviews and administrative law judge 
oversight. If an administrative law judge decision is not 
reviewed by the centralized quality control staff, the decision 
of the administrative law judge will become final agency 
action. If the centralized quality control review disagrees 
with an allowance or disallowance determination made by an 
administrative law judge, the claim would be referred to an 
oversight panel for determination of the claim. The oversight 
panel would consist of two administrative law judges and one 
administrative appeals judge. If the oversight panel affirms 
the administrative law judge's decision, it becomes the final 
agency action. If the panel reverses the administrative law 
judge's decision, the oversight panel decision becomes the 
final agency action. As is currently the case, claimants would 
be able to appeal any final agency action to a Federal court. 
At the same time that these changes are being implemented to 
improve the process, we plan to conduct several demonstration 
projects aimed at helping people with disabilities return to 
work. These projects would support the President's New Freedom 
Initiative, and provide work incentives and opportunities 
earlier in the process. I believe these changes and 
demonstrations would address the major concerns I highlighted 
earlier. I also believe they offer a number of important 
improvements. People who are obviously disabled will receive 
quick decisions. Adjudicative accountability will be reinforced 
at every step in the process. Processing time will be reduced 
by at least 25 percent. Decisional consistency and accuracy 
will be increased. Barriers for those who can and want to work 
would be removed.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 99662C.000
    
    [GRAPHIC] [TIFF OMITTED] 99662C.001
    
    [GRAPHIC] [TIFF OMITTED] 99662C.002
    
      
    Describing my approach for improving the process is the 
first step of what I believe must be--and I assure you I will 
work to make--a collaborative process. I will work within the 
administration, with Congress, the State DDS, and interested 
organizations and advocacy groups before putting pen to paper 
to write regulations. As I said earlier, and I say again: to be 
successful, perspectives from all parts of the system must be 
considered. Later today, I hope to conduct a briefing for 
congressional staff of the Committee on Ways and Means and the 
Senate Committee on Finance. I will also brief SSA and DDS 
management today. In addition, next week I will provide a 
videotape of the management briefing describing my approach for 
improvement to all SSA regional field and hearing offices, 
State DDS, and headquarters and regional office employees 
involved in the disability program. Tomorrow I will be inviting 
individuals to come to briefings that I plan to conduct for 
representatives of SSA employee unions, and interested 
organizations and advocacy groups, and I will schedule meetings 
to provide an opportunity for those representatives to express 
their views and provide assistance in working through details 
as the final package of this process improvement is fully 
developed. I believe that if we work together, we will create a 
disability system that responds to the challenge inherent in 
the President's questions. We will look beyond the status quo 
to the possibility of what can be, and we will achieve our 
ultimate goal of providing accurate, timely service for the 
American people. Again, Mr. Chairman, I thank the Subcommittee 
for your continuing help and support. I look forward to working 
closely with you to improve the hearing process, and I will be 
happy to try and answer any questions that you may have.
    [The prepared statement of Ms. Barnhart follows:]
 Statement of The Honorable Jo Anne B. Barnhart, Commissioner, Social 
                        Security Administration
    Mr. Chairman and Members of the Subcommittee:
    I want to thank you and the entire Subcommittee for your continuing 
support for the people and programs of the Social Security 
Administration, and most especially for your interest in and commitment 
to improving the disability process. I also want to thank you for 
holding this hearing which provides the opportunity for me to describe 
my approach for improving the Social Security and Supplemental Security 
Income disability process. As I told you and the other members of the 
committee when I first appeared before you, I did not assume the 
position of Commissioner of Social Security to manage the status quo.
    As a member of the Social Security Advisory Board, I was well aware 
that the administration of our disability programs represented one of 
the biggest challenges facing SSA. These essential and complex programs 
are critically important in the lives of almost 13 million Americans. 
Claimants and their families expect and deserve fair, accurate, 
consistent, and timely decisions.
    Early in my tenure I began a comprehensive Service Delivery 
Assessment to thoroughly examine all of SSA's workloads. We began that 
assessment with the disability claims process and mapped out each step 
from the initial claim through a final administrative appeal. Our 
analysis of the process showed that the length of time required to move 
through the entire appeals process was 1153 days--525 days due to 
backlogged cases and 628 days to move through the process.
    Based on that analysis, I developed a Service Delivery Plan which 
formed the basis of our FY 2004 budget submission. The President 
responded to that plan by recommending an 8.5% increase in the 
administrative budget for SSA workloads. Passage of the President's 
budget will put us on a path to eliminating by 2008 backlogs in all 
workloads--including disability.
    While eliminating backlogs is essential to improving processing 
times, we recognized that improving workload management and the process 
itself were also required to achieve our goal of providing timely and 
accurate service. To tackle the management and process issues, we 
developed both a short-term and long-term strategy.
    The short-term strategy is focused on identifying areas where 
immediate action was possible, while the long-term strategy would focus 
on improving the overall disability determination process. Over the 
past year and a half, we have implemented a number of short-term 
initiatives. These include:

          <bullet>  including Administrative Law Judges (ALJs) in early 
        screening for on-the-record decisions;
          <bullet>  developing a short form for fully favorable 
        decisions;
          <bullet>  creating a law clerk (attorney intern) position;
          <bullet>  deploying speech recognition technology to hearing 
        offices;
          <bullet>  ending the practice of rotating hearing office 
        technicians among different positions;
          <bullet>  using scanning technology to track and retrieve 
        folders;
          <bullet>  eliminating the tape transcription backlog, and
          <bullet>  eliminating delays in presenting cases to the U.S. 
        District Courts.

    We are in the process of implementing two other initiatives:

          <bullet>  allowing ALJs to issue decisions from the bench 
        immediately after a hearing; and
          <bullet>  expanding video teleconference hearings.

    And we are preparing to implement an initiative to digitally record 
hearings.
    I am pleased to report that we have achieved some positive results.

          <bullet>  In FY 2001, it took an average of 447 days to get a 
        decision on a hearing appeal. As of July 2003, that time had 
        dropped to 259 days.
          <bullet>  In FY 2002, our hearings offices cleared over 
        530,000 hearings--almost 10 percent above their goal. This year 
        we are on track to process 20,000 more hearings than last year.
          <bullet>  At the end of FY 2002, there were 593,000 initial 
        disability claims pending. As of July 2003, there were 
        approximately 15,000 fewer pendings despite a significant 
        increase in the number of claims filed. In addition, we have 
        already processed in excess of a hundred thousand more initial 
        disability claims compared to this time last year.

    We are proud of our progress, but we know we have a long way to go 
to provide the kind of service the American people expect.
    A prerequisite for our long-term strategy is development and 
implementation of an electronic disability claims system. The 
Accelerated Electronic Disability System (AeDIB) is a major Agency 
initiative that will move all components involved in disability claims 
adjudication and review to an electronic business process through the 
use of an electronic disability folder. These components include the 
field office, regional office, the program service center, the State 
Disability Determination Service (DDS), the hearings and appeals 
office, and the quality assurance staff. When the process is fully 
implemented, each component will be able to work claims by 
electronically accessing and retrieving information that is collected, 
produced and stored as part of the electronic disability folder. This 
will reduce delays that result from mailing, locating, and organizing 
paper folders.
    SSA field offices are currently collecting disability information 
for initial adult and child cases using the Electronic Disability 
Collect System (EDCS). Also, claimants can now use the Internet to 
submit disability information which is then propagated into EDCS. We 
will begin national roll-out of AeDIB in January 2004 starting in the 
Atlanta region. Additional DDS offices and States will come up on a 
flow basis during the 18-month roll-out.
    Implementation of an electronic disability folder is essential for 
process improvements. Therefore, structurally, my long-term strategy 
for achieving process improvements is predicated on successful 
implementation of our electronic disability system.
    In designing my approach to improve the overall disability 
determination process, I was guided by three questions the President 
posed during our first meeting to discuss the disability programs.

          <bullet>  Why does it take so long to make a disability 
        decision?
          <bullet>  Why can't people who are obviously disabled get a 
        decision immediately?
          <bullet>  Why would anyone want to go back to work after 
        going through such a long process to receive benefits?

    I realized that designing an approach to fully address the central 
and important issues raised by the President required a focus on two 
over-arching operational goals: (1) to make the right decision as early 
in the process as possible; and (2) to foster return to work at all 
stages of the process. I also decided to focus on improvements that 
could be effectuated by regulation and to ensure that no SSA employee 
would be adversely affected by my approach. My reference to SSA 
employees includes State Disability Determination Service employees and 
Administrative Law Judges (ALJs).
    As I developed my approach for improvement, I met with and talked 
to many people--SSA employees and other interested organizations, 
individually and in small and large groups--to listen to their concerns 
about the current process at both the initial and appeals levels and 
their recommendations for improvement. I became convinced that 
improvements must be looked at from a system-wide perspective and, to 
be successful, perspectives from all parts of the system must be 
considered. I believe an open and collaborative process is critically 
important to the development of disability process improvements. To 
that end, members of my staff and I visited our regional offices, field 
offices, hearing offices, and State Disability Determination Services, 
and private disability insurers to identify and discuss possible 
improvements to the current process.
    Finally, a number of organizations provided written recommendations 
for changing the disability process. Most recently, the Social Security 
Advisory Board issued a report prepared by outside experts making 
recommendations for process change. My approach for changing the 
disability process was developed after a careful review of these 
discussions and written recommendations. As we move ahead, I look 
forward to working within the Administration and with Congress, as well 
as interested organizations and advocacy groups. I would now like to 
highlight some of the major and recurring recommendations made by these 
various parties.
    The need for additional resources to eliminate the backlog and 
reduce the lengthy processing time was a common theme. This important 
issue is being addressed through my Service Delivery Plan, starting 
with the President's FY 2004 budget submission which is currently 
before Congress. Another important and often heard concern was the 
necessity of improving the quality of the administrative record. DDSs 
expressed concerns about receiving incomplete applications from the 
field office; ALJs expressed concerns about the quality of the 
adjudicated record they receive and emphasized the extensive pre-
hearing work required to thoroughly and adequately present the case for 
their consideration. In addition, the number of remands by the Appeals 
Council and the Federal Courts make clear the need for fully 
documenting the administrative hearing record.
    Applying policy consistently in terms of: 1) the DDS decision and 
ALJ decision; 2) variations among state DDSs; and 3) variations among 
individual ALJs--was of great concern. Concerns related to the 
effectiveness of the existing regional quality control reviews and ALJ 
peer review were also expressed. Staff from the Judicial Conference 
expressed strong concern that the process assure quality prior to the 
appeal of cases to the Federal Courts.
    ALJs and claimant advocacy and claimant representative 
organizations strongly recommended retaining the de novo hearing before 
an ALJ. Department of Justice litigators and the Judicial Conference 
stressed the importance of timely case retrieval, transcription, and 
transmission. Early screening and analysis of cases to make expedited 
decisions for clear cases of disability was emphasized time and again 
as was the need to remove barriers to returning to work.
    My approach for disability process improvement is designed to 
address these concerns. It incorporates some of the significant 
features of the current disability process. For example, initial claims 
for disability will continue to be handled by SSA's field offices. The 
State Disability Determination Services will continue to adjudicate 
claims for benefits, and Administrative Law Judges will continue to 
conduct hearings and issue decisions. My approach envisions some 
significant differences.
    I intend to propose a quick decision step at the very earliest 
stages of the claims process for people who are obviously disabled. 
Cases will be sorted based on disabling conditions for early 
identification and expedited action.
    Examples of such claimants would be those with ALS, aggressive 
cancers, and end-stage renal disease. Once a disability claim has been 
completed at an SSA field office, these Quick Decision claims would be 
adjudicated in Regional Expert Review Units across the country, without 
going to a State Disability Determination Service. This approach would 
have the two-fold benefit of allowing the claimant to receive a 
decision as soon as possible, and allowing the State DDSs to devote 
resources to more complex claims.
    Centralized medical expertise within the Regional Expert Review 
Units would be available to disability decision makers at all levels, 
including the DDSs and the Office of Hearings and Appeals (OHA). These 
units would be organized around clinical specialties such as 
musculoskeletal, neurological, cardiac, and psychiatric. Most of these 
units would be established in SSA's regional offices.
    The initial claims not adjudicated through the Quick Decision 
process would be decided by the DDSs. However, I would also propose 
some changes in the initial claims process that would require changes 
in the way DDSs are operating. An in-line quality review process 
managed by the DDSs and a centralized quality control unit would 
replace the current SSA quality control system. I believe a shift to 
in-line quality review would provide greater opportunities for 
identifying problem areas and implementing corrective actions and 
related training. The Disability Prototype would be terminated and the 
DDS Reconsideration step would be eliminated. Medical expertise would 
be provided to the DDSs by the Regional Expert Review units that I 
described earlier.
    State DDS examiners would be required to fully document and explain 
the basis for their determination. More complete documentation should 
result in more accurate initial decisions. The increased time required 
to accomplish this would be supported by redirecting DDS resources 
freed up by the Quick Decision cases being handled by the expert units, 
the elimination of the Reconsideration step, and the shift in medical 
expertise responsibilities to the regional units.
    A Reviewing Official (RO) position would be created to evaluate 
claims at the next stage of the process. If a claimant files a request 
for review of the DDS determination, the claim would be reviewed by an 
SSA Reviewing Official. The RO, who would be an attorney, would be 
authorized to issue an allowance decision or to concur in the DDS 
denial of the claim. If the claim is not allowed by the RO, the RO will 
prepare either a Recommended Disallowance or a Pre-Hearing Report. A 
Recommended Disallowance would be prepared if the RO believes that the 
evidence in the record shows that the claimant is ineligible for 
benefits. It would set forth in detail the reasons the claim should be 
denied. A Pre-Hearing Report would be prepared if the RO believes that 
the evidence in the record is insufficient to show that the claimant is 
eligible for benefits but also fails to show that the claimant is 
ineligible for benefits. The report would outline the evidence needed 
to fully support the claim. Disparity in decisions at the DDS level has 
been a long-standing issue and the SSA Reviewing Official and creation 
of Regional Expert Medical Units would promote consistency of decisions 
at an earlier stage in the process.
    If requested by a claimant whose claim has been denied by an RO, an 
ALJ would conduct a de novo administrative hearing. The record would be 
closed following the ALJ hearing. If, following the conclusion of the 
hearing, the ALJ determines that a claim accompanied by a Recommended 
Disallowance should be allowed, the ALJ would describe in detail in the 
written opinion the basis for rejecting the RO's Recommended 
Disallowance. If, following the conclusion of the hearing, the ALJ 
determines that a claim accompanied by a Pre-Hearing Report should be 
allowed, the ALJ would describe the evidence gathered during the 
hearing that responds to the description of the evidence needed to 
successfully support the claim contained in the Pre-Hearing Report.
    Because of the consistent finding that the Appeals Council review 
adds processing time and generally supports the ALJ decision, the 
Appeals Council stage of the current process would be eliminated. 
Quality control for disability claims would be centralized with end-of-
line reviews and ALJ oversight. If an ALJ decision is not reviewed by 
the centralized quality control staff, the decision of the ALJ will 
become a final agency action. If the centralized quality control review 
disagrees with an allowance or disallowance determination made by an 
ALJ, the claim would be referred to an Oversight Panel for 
determination of the claim. The Oversight Panel would consist of two 
Administrative Law Judges and one Administrative Appeals Judge. If the 
Oversight Panel affirms the ALJ's decision, it becomes the final agency 
action. If the Panel reverses the ALJ's decision, the oversight Panel 
decision becomes the final agency action. As is currently the case, 
claimants would be able to appeal any final agency action to a Federal 
Court.
    At the same time these changes are being implemented to improve the 
process, we plan to conduct several demonstration projects aimed at 
helping people with disabilities return to work. These projects would 
support the President's New Freedom Initiative and provide work 
incentives and opportunities earlier in the process.
    Early Intervention demonstration projects will provide medical and 
cash benefits and employment supports to Disability Insurance (DI) 
applicants who have impairments reasonably presumed to be disabling and 
elect to pursue work rather than proceeding through the disability 
determination process. Temporary Allowance demonstration projects will 
provide immediate cash and medical benefits for a specified period (12-
24 months) to applicants who are highly likely to benefit from 
aggressive medical care. Interim Medical Benefits demonstration 
projects will provide health insurance coverage to certain applicants 
throughout the disability determination process. Eligible applicants 
will be those without such insurance whose medical condition is likely 
to improve with medical treatment or where consistent, treating source 
evidence will be necessary to enable SSA to make a benefit eligibility 
determination. Ongoing Employment Supports to assist beneficiaries to 
obtain and sustain employment will be tested, including a Benefit 
Offset demonstration to test to effects of allowing DI beneficiaries to 
work without total loss of benefits by reducing their monthly benefit 
$1 for every $2 of earnings above a specified level and Ongoing Medical 
Benefits demonstration to test the effects of providing ongoing health 
insurance coverage to beneficiaries who wish to work but have no other 
affordable access to health insurance.
    I believe these changes and demonstrations will address the major 
concerns I highlighted earlier. I also believe they offer a number of 
important improvements:

          <bullet>  People who are obviously disabled will receive 
        quick decisions.
          <bullet>  Adjudicative accountability will be reinforced at 
        every step in the process.
          <bullet>  Processing time will be reduced by at least 25%.
          <bullet>  Decisional consistency and accuracy will be 
        increased.
          <bullet>  Barriers for those who can and want to work would 
        be removed.

    Describing my approach for improving the process is the first step 
of what I believe must be--and will work to make--a collaborative 
process. I will work within the Administration, with Congress, the 
State Disability Determination Services and interested organizations 
and advocacy groups before putting pen to paper to write regulations. 
As I said earlier, and I say again that to be successful, perspectives 
from all parts of the system must be considered.
    Later today, I will conduct a briefing for Congressional staff of 
the Ways and Means and Senate Finance Committees. I will also brief SSA 
and DDS management. In addition, next week I will provide a video tape 
of the management briefing describing my approach for improvement to 
all SSA regional, field, and hearing offices, State Disability 
Determination Services, and headquarters and regional office employees 
involved in the disability program. Tomorrow, I will be conducting 
briefings for representatives of SSA employee unions and interested 
organizations and advocacy groups, and I will schedule meetings to 
provide an opportunity for those representatives to express their views 
and provide assistance in working through details, as the final package 
of process improvements is fully developed.
    I believe that if we work together, we will create a disability 
system that responds to the challenge inherent in the President's 
questions. We will look beyond the status quo to the possibility of 
what can be. We will achieve our ultimate goal of providing accurate, 
timely service for the American people.
    As to the issue with the file assembly contract in Chicago, it 
cannot be emphasized enough that no member of the public will be 
disadvantaged in any way as a result of this situation. All indications 
are that no medical evidence has been lost. But just to be certain, we 
are contacting every single person whose case has not already been 
favorably decided and providing an opportunity to review the file for 
completeness. We will also provide the opportunity to submit additional 
evidence, and to request a supplementary hearing.
    The contractor behavior was unacceptable and we have terminated the 
contracts in question. We are also fully cooperating with the Office of 
the Inspector General (IG) in its investigation of this incident. 
Additionally, even though the contractors in question were not taking 
work home, future contractors will be forbidden to take work home in 
order to further protect the integrity of the claims folder.
    Regarding the problems in the Milwaukee Hearing Office, while I was 
disturbed that the problems existed, I want to assure you that upon 
discovery of the problems, immediate steps were taken to address them. 
As you know, while press reports characterized the review of office 
performance as an audit, the review was actually carried out as a 
routine part of SSA's internal management oversight. We uncovered the 
shortcomings in the office and we worked to address them expeditiously.
    We sent in a team of 35 staff to correct the problems. Seven of 
them stayed for several weeks, monitoring our efforts to fix the 
problems. We also put in place controls to improve local office 
management and conducted many hours of employee training. We are also 
fully cooperating with the IG who has already confirmed that there was 
no criminal activity involved.
    I have asked my Deputy Commissioner for Disability and Income 
Security Programs, Martin Gerry, to oversee that process personally. 
Recently, Mr. Gerry and other senior staff members visited the 
Milwaukee office. They will continue to make visits and do onsite 
checks of operations, as well as conducting another full review of the 
office early next year.
    Again, I thank the Subcommittee for your continuing help and 
support. I look forward to working closely with you to improve the 
disability determination process, and I would be happy to answer any 
questions you may have.

                                 <F-dash>

    Chairman SHAW. Commissioner, the summary of the changes 
that you have made is like a breath of fresh air in this 
hearing room, I can assure you, because for many years and 
through the many administrations we have been through, it seems 
to be falling further and further behind. I am very pleased and 
appreciative that you have taken this bull by the horns and 
tried to get this moving as quickly as possible. The reviewing 
official, the stage for the reviewing officer, these are new 
employees, aren't they?
    Ms. BARNHART. We would anticipate that many of our current 
SSA employees would move into that position. As I indicated, we 
are planning to have no adverse effect on SSA employees.
    Chairman SHAW. They would have to be lawyers, as I 
understand it.
    Ms. BARNHART. They do. We believe that it is important for 
them to be attorneys. Those would be new positions, absolutely, 
in the agency, and probably would provide for promotions for 
many individuals.
    Chairman SHAW. From the point of taking the original 
hearing to the reviewing official, what time span are we 
thinking about or are we looking for?
    Ms. BARNHART. There are two different ways that I have 
tried to look at that, Mr. Chairman, and one of those has to do 
with the average processing time. Actually, the numbers that I 
brought look at what it takes to go all the way through to the 
quality control and oversight panel as well. We anticipate, 
absent the quality control, absent the oversight panel, if the 
case did not go through, there are 191 days per average case 
processing time, which would compare to a comparable number in 
the process today of 266 days. So, we anticipate a reduction of 
at least 75 workdays. So, we actually believe that we are 
looking at at least 3 months.
    Of course, one of the things that I should point out, too, 
is that we do pick up time depending on whether or not people 
use all of the time that they are allowed to request hearings 
and so forth, because that does add an additional 140 days--60 
days to request the review of the regional official and another 
80 days to request the review of an appeal at the 
administrative law judge. So, you would have to add 140 if they 
exercised all of their appeal rights and took the entire time 
for that, and that would compare to 628 days that we currently 
take for that.
    Chairman SHAW. Mr. Collins.
    Mr. COLLINS. Thank you, Commissioner. Listening as you went 
through your report, I think you are making some very good 
positive moves. That is on the surface. Let us get into the 
actual day-to-day operation of those who are involved. Well, 
will there be any new guidelines for employees? I am not 
talking about the reviewing officer or administrative law 
judges, but those who are the support base for each of those; 
not only reviewing officers and you, but the administrative law 
judges in particular. Will there be any guidelines to how those 
who work to support the administrative law judges and such, are 
there any changes there?
    Ms. BARNHART. Well, yes. We actually believe that in terms 
of the reason the reviewing official position is very important 
is because the administrative law judges have expressed real 
concern. I think this is what you are talking about, Mr. 
Collins, because we have had discussions about this before. The 
administrative law judges have expressed very real and definite 
concerns about the quality of the case that is presented to 
them and the fact that oftentimes by the time it gets to their 
level, sometimes months have had to be spent preparing the case 
and getting it adequately ready for the administrative law 
judge. One of the things that is built into this approach that 
I have described here today is to ensure the quality of the 
record all along; and that, by the time the case would come 
before an administrative law judge for consideration, that it 
would be laid out very quickly for the administrative law 
judge, and it would come to the administrative law judge in 
much better shape than it does today. That is the purpose of 
the pre-hearing report or the recommended disposition that 
would be provided by the reviewing official.
    Mr. COLLINS. Who would have the authority over those who 
prepare the cases for the administrative law judge?
    Ms. BARNHART. Well, we have a structure, as you know, that 
provides for a hearing office director, and the staff reports 
to the hearing office director, who is an OHA employee. We have 
not gotten into the details of that. Those are the kinds of 
things, quite frankly, that once we have a final package--this 
is an approach, and I indicated I want to have an open 
discussion with all interested parties. Once we get to that 
point and look at the absolute implementation, we would 
certainly address those kinds of issues.
    Mr. COLLINS. Well, and I think that is where the critical 
part of this whole change has got to come in. It is great to 
lay it out on paper and have charts, charts with arrows that 
show you going here and you going there. It is the people who 
are involved in every step and who they are accountable to and 
their work patterns and the process in which they deliver them, 
their portion of the load. So, that gets down to the day-to-day 
operation of this, and that is where you have a lot of bog-down 
and a lot of delay.
    Ms. BARNHART. I understand. Many of those issues arose, 
quite frankly, as a result of the hearing process improvement 
(HPI) project that was begun in, I believe, fiscal year 2000. 
As you may be aware, we actually ended HPI. One of the major 
complaints of HPI was the rotation of the staff that provided 
the support to the administrative law judges in terms of 
preparing the cases. That was one reason we got so far behind 
as an agency in terms of cases that have been polled or put 
together and assembled for administrative law judge and 
prepared for administrative law judge consideration. We ended 
the rotation of the employees. We have taken a number of steps 
to try to undo some of the issues that arose as a result of 
HPI. So, I am very much aware of those on-the-ground 
operational issues that you are talking about.
    Mr. COLLINS. Well, I have heard of instances where even on 
hearing days there would be a shortage of staff because of the 
flexibility hours or working from home through the 
telecommunications and such. A lot of those things, they are 
important as to how you actually reach the end resolution of 
what you are trying to do, and that is to process the case to 
determine, yes or no, whether an individual is eligible for 
disability.
    Ms. BARNHART. You make a very important point about 
resources. This approach would work hand-in-glove actually with 
the service delivery budget that I developed. The President's 
fiscal year 2004 budget request is the first year of the 
request that was a part of my service delivery budget, which 
spoke very clearly to increasing resources for the agency. The 
President recommended an 8.5 percent administrative increase 
for the agency. If that were passed, as well as the transfer of 
the hearings, the Medicare hearings function, to Centers for 
Medicare and Medicaid Services (CMS), I would be able to 
redirect 347 additional work years to precisely what you are 
talking about, to administering the disability program. So, the 
increase in resources that we have requested and that currently 
is pending before the Congress in the U.S. Department of Labor-
U.S. Department of Health and Human Services appropriation bill 
is critically important and certainly a part of it. As I said 
at the time that I testified on the service delivery budget, 
one of the major focuses there in terms of that resource 
increase was to eliminate backlogs. My plan was to have those 
all eliminated within 5 years of the first year of the service 
delivery budget.
    Mr. COLLINS. Well, I understand that, but I caution you, 
oftentimes piling more money on won't get the end results if 
you don't have the necessary changes and the people doing the 
job that they are supposed to do. I received this question as 
kind of an analysis of how frustrating some people have been in 
this process. It says: ``Congressman, what if you were to walk 
into your office 1 day and find that your entire staff had been 
selected by someone else? This assembled staff upon whom you 
are expected to depend to perform your duties no longer 
answered to you. You did not hire them, could not fire them, 
supervise them, or evaluate them. Do you think you would be 
able to successfully accomplish your objectives given this 
scenario? No.''
    Ms. BARNHART. I understand that you are talking about the 
fact that--and, again, this goes back to, I think, what 
happened in HPI when the staff was not assigned to a particular 
judge. The unit concept was abandoned, and you had individuals 
rotating around doing different functions for different judges. 
Certainly, I can appreciate that there is a certain way I like 
to have things done, and I am sure you do, too. So, I 
definitely understand.
    Mr. COLLINS. It gets back to accountability, and we are 
having to be accountable. Thank you.
    Chairman SHAW. Mr. Pomeroy.
    Mr. POMEROY. Thank you, Mr. Chairman. Madam Commissioner, I 
echo the Chairman's comments about our concern for the backlogs 
and our appreciation of efforts being made under your 
leadership to address them, but the situation is rather dire, 
as I understand it. A projection earlier in the fiscal year of 
the 532,000 backlog, now actually has jumped by 50,000. So, the 
actual backlog is 582,000 individual cases pending presently in 
the system; is that correct?
    Ms. BARNHART. It is correct that we do have 582,000 pending 
initial cases, yes. We had had unprecedented receipts--and let 
me just explain. I don't want to take too much time, but part 
of the reason that we have such an increasing backlog at the 
OHA, at the appeals level, is because our DDS are moving more 
and more cases through every year. We had anticipated having 
approximately 894,000 claims pending in the DDS level at the 
end of the last fiscal year, and instead we are at about 
582,000 initial claims. I made the decision that we didn't want 
to increase the initial claims pending, so what that has meant 
is, OHA has gotten more claims than we had anticipated.
    Mr. POMEROY. At the end of the line, we have got more than 
half a million people in indeterminate status. Now, what that 
means in real life is you have got someone who can't work, who 
has an application for Social Security determination--they are 
not getting benefits pending resolution. They are just somehow 
out there. The backlog, as I understand it, presently--on 
average the case from request for appeal to final disposition 
is actually longer than a year, about--well, actually a little 
less than a year, but about a year--341 days.
    Ms. BARNHART. That is correct. It is a little less than we 
thought it was going to be, which is really a tribute to the 
fact that OHA has increased productivity. The judges have 
definitely increased the dispositions to date and are working 
at record levels. So, because the staff is working so hard, we 
are doing better than we thought we would. You are absolutely 
right, they are still unacceptably high levels.
    Mr. POMEROY. That is precisely correct. I appreciate your 
perspective from the position of running the whole shop, and 
what an enormous shop it is. On the other hand, the perspective 
of the individual entering the system is just not an acceptable 
situation at all at the present time. I think it was even the 
last time you were here, you talked about the resolution of the 
case that had stopped you from hiring more into the 
administrative law judge ranks. Now, how are we coming then at 
addressing that judicially imposed backlog, hiring freeze that 
created this shortage in the first place?
    Ms. BARNHART. Well, I wish I could give you a better 
report. It is true that the issue has been resolved, but now 
the Office of Personnel Management (OPM) has to develop another 
register, a new administrative law judge register, and go 
through the whole process. I was advised just this week that it 
looks like the entire process is probably going to take a year. 
So, it may well be a year before we can hire administrative law 
judges. We need to hire an additional 200 administrative law 
judges. We have 1,023 administrative law judges on board.
    Mr. POMEROY. How many administrative law judges are you 
short?
    Ms. BARNHART. We estimate that we are at least 200 short.
    Mr. POMEROY. These are the people who ultimately make the 
determination?
    Ms. BARNHART. That is correct.
    Mr. POMEROY. So, I am pleased about the actual productivity 
out of those in the system, but I must say, you want to make 
sure they are spending adequate time on each file as well. So, 
there is only so much that can be achieved by efficiencies 
there. To be 200 short and have some bureaucracy say that we 
can't do anything to fill these 200 position for more than a 
year doesn't strike me as making any sense whatsoever. Can we 
help you put pressure on the OPM to get this done?
    Ms. BARNHART. I have asked my human resources staff to 
identify exactly what the issues are.
    Mr. POMEROY. Mr. Chairman, I would ask that we consider 
holding a hearing on what would cause a backlog, why the 
Commissioner should wait 1 year before being able to move in 
place this backlog of more than 200 vacant positions for the 
very individuals who are determining these claims. We ought to 
run this down and look into it.
    Chairman SHAW. Well, we have covered this issue in previous 
hearings, and I think that the Commissioner's statement here 
is----
    Mr. POMEROY. I don't think it is her fault at all. She has 
been stuck from a lawsuit from hiring these people, and now 
that the lawsuit is resolved, she can go ahead and hire them; 
except she hears from some bureaucrat over at the OPM that a 
year has got to go by before she can get this done.
    Chairman SHAW. Oh, you want a hearing on why she can't fill 
these positions.
    Mr. POMEROY. Right. I commend the Commissioner.
    Chairman SHAW. I think we ought to look into it.
    Mr. POMEROY. I think she is trying her heart out.
    Chairman SHAW. If we see that this is something that really 
should be aired at a congressional hearing, we can certainly do 
that.
    Mr. POMEROY. Excellent.
    Ms. BARNHART. We will be happy to provide information, 
everything we have, Mr. Chairman, and Mr. Pomeroy, to your 
staffs on why it takes a year and what we have been advised. I 
have my folks looking into it, and when I get--because, believe 
me, I was not happy to hear a year either. I was ready to start 
acting almost immediately to hire.
    Mr. POMEROY. A year is unacceptable. I have got to believe 
we can bust this loose within a year. If this Committee could 
give somebody a kick in the ``hinder'' to move that along, that 
is exactly what we ought to do. I thank the Commissioner. My 
time is up.
    Chairman SHAW. That is what we are here for, to kick 
somebody. Mr. Ryan.
    Mr. RYAN. It is my turn to do the kicking? Okay.
    Chairman SHAW. You are the designated kicker. Go ahead.
    Mr. RYAN. Okay. Where do you start? Last time you were 
here, we talked about the Milwaukee office, we talked about 700 
unopened mail pieces, 1,230 cases that hadn't been logged into 
the computer system, basically no one getting service, complete 
management--terrible mismanagement in the Milwaukee office. You 
had an investigation on the Milwaukee case since then. We are 
familiar with the progress that is being made. Then we learn 
about the Chicago office. The last time you were here, we 
talked about the stories that broke in the media essentially 
documenting the fact that contract employees were throwing away 
documents from files before their cases were judged by 
administrative law judges. The impression I was given from your 
testimony and questions the last time was that this was sort of 
an isolated incident, that these were wayward contractors, that 
they had been fired and the problems solved. Well, what we have 
learned since then is that these weren't wayward contractors; 
that these contractors were working under the specific 
direction of their SSA employees who were overseeing them. So, 
we find out that the contractors were in charge of, I think, 
1,230 cases and--I am sorry, 1,200 cases, and the contractors 
threw out a lot of material in the recycling bin, in the trash, 
paper all over the floor, under the management and direction of 
SSA employees, took cases home with them to modify these files. 
What we essentially don't know is, did people lose their case 
because of this kind of mismanagement? Did they have a full 
hearing? We don't know the answers to these questions, and my 
big concern--and I am going to ask more detailed, specific 
concerns of the Inspector General who is up next, but my 
question is, number one, how did this happen? Number two, how 
did it come to the point where people could take these cases 
home, contractors, modify their files, throw things away? 
Number three, I know you have contacted these 1,200 people. 
What is the status of that? Number four, is this the tip of the 
iceberg? Is this something that is occurring all over the 
country? Do we have contractors all over the country modifying 
files, removing files from people's disability claims? How many 
contractors? I am for contracting. I think that is a good 
government thing that can save money, improve quality, all of 
those things, but is this happening all over the country? What 
is happening?
    Ms. BARNHART. Well, you have asked a lot of questions.
    Mr. RYAN. I know. I have got many more, too.
    Ms. BARNHART. Let me try. If I omit any, it certainly is 
not intentionally. Let me say, first of all, that this notion 
that Social Security employees were advising contractors to 
take documents and throw them in the recycling bin is simply 
not correct. There was training conducted for the contractors. 
I can't personally speak to the quality of the training because 
I wasn't in the class. I can tell you, from my discussions with 
the Inspector General after his preliminary investigation, it 
appears the training was not everything that it should have 
been. You are absolutely correct on that.
    Mr. RYAN. If I can interject for a second. Having spoken to 
some of the workers, they were told to throw things away.
    Ms. BARNHART. Well, what they were actually told was that, 
as they went through the files, if there were duplicate 
documents, they were to discard duplicate documents. Certainly, 
they were not advised to discard significant original 
documents, Mr. Ryan. I really think that that is a very 
important point to make.
    Mr. RYAN. Well, your own spokesman Mark Hinkle said that 
all improperly removed material was removed, and reportedly it 
was recovered. Your own spokesman said that improper material 
was removed from these files.
    Ms. BARNHART. Absolutely. I am not disputing that improper 
material was removed by the contractors. What I am trying to 
make clear is that SSA employees did not direct them to remove 
that material. The instructions for the contractor were to 
remove documents that were duplicate documents, not to put all 
the documents they put, certainly not original sole copies of 
documents, in the recycle bin. I think that is the point. There 
is no question that documents were put in the recycle bin that 
shouldn't have been. It was approximately 603 cases that were 
affected. We began an exhaustive process--you had the situation 
exactly right. When we found out, we put a stop order on the 
contracts, and we found out as a result of quality reviews that 
we were doing as an agency, we put a stop order on the 
contracts. We followed the Federal contracting procedures and 
terminated the contracts in July with both contractors. As a 
result of this, to get to your point of, is this happening in 
other places or is this the tip of the iceberg, I certainly 
required a review and that phone calls be made, and analysis 
done of any other issues that may be occurring, any other 
issues that exist in other offices where contractors are 
assembling folders, and I have gotten some reports back about 
various kinds of issues. Nothing of this scope at all; really 
rather minor things, and things that have been taken care of 
and taken care of in a really timely fashion. At the same time, 
there have also been some issues that have come up in terms of 
SSA employees. We are trying to deal with those. Nothing in the 
scope or range of what happened in Chicago. It was a totally 
unacceptable situation. I want to be very clear about that. I 
was very upset about it. I continue to be very upset about it, 
as you and I have discussed. I am doing everything that I 
possibly can to ensure that it, first of all, that the people 
who were affected, whose files were affected by this action on 
the part of the contractors, receive no adverse action.
    Mr. RYAN. What is the status of all that right now?
    Ms. BARNHART. The status of that is, we have identified 
where every case is, the cases that are pending, the cases that 
have moved ahead. We are sending letters to every single person 
whose file was, I guess I would say, tampered with, certainly 
affected, and letting them know that that occurred. We are 
giving them the opportunity for a supplemental hearing if they 
have had one. Further, I have directed that if the claimant 
does not request a supplemental hearing and is found not to be 
eligible, we are going to send another letter to the claimant 
to say, you did not request a supplemental hearing; you may at 
this time. In other words, I am going every extra step. I want 
to make absolutely sure, because some of our claimants, 
obviously--it is a complicated situation, and I want to make 
sure they are not disadvantaged. We are offering to have our 
staff sit down and go through the files with our claimants, and 
also to be responsible to take the steps to recover and get 
copies of any documents that may be missing. We are taking that 
on ourselves.
    Mr. RYAN. I think it is also clear that they threw them 
away in, not just the recycling bin, but in the daily trash. 
That also we will have to ask the Inspector General about. One 
thing that just doesn't add up here is the employees of SSA who 
are overseeing the contractors, who purportedly gave them 
direction to say, remove duplication, duplicative documents, 
were they--they were the people who, after they did this, were 
fishing through the recycling bin to pull these documents out. 
So, why is it that the employees gave direction to the 
contractors and then that evening said, oh, my gosh, look at 
what they are doing. They are going into the recycling bin 
fishing them out. You have an employee, Michelle Lloyd of the 
Social Security office in Chicago, who said: ``These were 
records unstapled and thrown in the bins. Some of the records 
had no identification marks. I am picking up maybe 50, maybe 
100 pieces of paper. This was a hush-hush secret project.'' If 
you gave them the proper direction, then they are just throwing 
away duplicative pieces of paper.
    Ms. BARNHART. That is what it should have been.
    Mr. RYAN. Why later on that day were your employees going 
back into the trash bins trying to fish this paper out 
because--and that just doesn't add up.
    Ms. BARNHART. Well, I can't speak to that particular day, 
but I can tell you that we did go back and fish all the papers 
out so that we could go through and determine what was thrown 
away improperly. In terms of the quality of the direction given 
and project oversight, I completely agree with you that it 
needs to be improved. In fact, several months ago I directed 
our contract staff and our training staff to develop a training 
specifically for project officers, specifically because the 
government has been doing more contracting out. I was very 
concerned about the quality of the project officers throughout 
government, certainly in our agency where I had more direct 
experience. I attended every single one of those myself and 
spoke to the groups. I oversaw the development of that 
training. We just completed videotaping so we could send it out 
to project officers all over the country, including, no doubt, 
those in the Chicago region. The point I make is, I share your 
concern about the quality of the project officers. It is 
absolutely critical, particularly with the number of 
contractors being----
    Mr. RYAN. That then extends beyond--was this rampant, that 
this was done all over the country? I just have no idea whether 
that is the case or not, but I am very concerned that people 
got their cases thrown out because of this kind of 
mismanagement.
    Chairman SHAW. The time of the gentleman has long expired. 
Mr. Kleczka.
    Mr. KLECZKA. Thank you, Mr. Chairman. Let me follow up on 
the other reason that we are here having a Subcommittee hearing 
today, and that is the order of the Milwaukee hearing office, 
wherein boxes of mail was unopened, the backlog was exceedingly 
high. Commissioner, could you briefly inform the Subcommittee 
where we are on that specific problem, which also led to us 
meeting here today?
    Ms. BARNHART. Yes. I would be very happy to discuss that. 
You absolutely stated the case correctly, Mr. Kleczka. The 
situation was, we had unassociated documents with files; we had 
cases that had not been docketed. There clearly was a huge 
management issue in the Milwaukee office. I want to point out 
the management problems were discovered because of an internal 
management review that we do as a matter of course in the 
agency. So, we essentially discovered the problem ourselves, 
just as we did the problem with the contracting and file 
assembly in Chicago. Judge Paul Lillios, who is our regional 
chief judge in Chicago, took immediate action upon getting the 
report, the management report that described the problems in 
the Milwaukee office. He sent 35 people into the Milwaukee 
office to deal with it. Really, within a matter of, I believe, 
less than a month, all of the documents were associated with 
the correct file, all the cases were docketed, and he left 
seven people onsite to continue to oversee the management, to 
work to make sure that that office did not continue to 
experience problems. I took the additional step after the 
hearing we had here the last time and my discussions, and my 
correspondence with you, Mr. Ryan, and others, as a result of 
that. I actually asked Martin Gerry, who is here with me today, 
the Deputy Commissioner for Disability and Income Security 
Programs, personally oversee the running of the Milwaukee 
office. I brought Deputy Commissioner Gerry with me today 
because he has actually done an onsite visit there, and took 
senior management from the OHA, and I thought you might be 
interested in hearing what he found and where we are. If you 
were interested, I would ask Mr. Gerry to come to the table and 
provide that information.
    Mr. KLECZKA. With the indulgence of the Chairman? I have a 
couple other questions.
    Chairman SHAW. I will give the gentleman a few extra 
moments as I did Mr. Ryan.
    Mr. GERRY. Well, as Commissioner Barnhart indicated, I 
visited the Milwaukee hearing office myself and have been 
getting biweekly reports since that visit. So, I think I am 
pretty up to date, at least through last week. Let me just go 
quickly through the problems and the status of them. As far as 
undocketed cases, as far as I can tell, and we can tell, there 
are no undocketed cases at this point in time. The same thing 
is true of what we call Hearing Office Tracking System (HOTS) 
coding; that is, the entry of the case into the case tracking 
system. That has been completed in all cases. Actually, the 
productivity of the administrative law judge, which was another 
issue that was brought up, has increased fairly dramatically 
over the last few months from a level of 1.53 cases per day to 
2.15 cases, which is much closer to the average in the country. 
I think that problem is under good control. I won't go through 
the details. We have improved security measures that were also 
mentioned in the report. The integrity problems that were 
mentioned in the report have been resolved. So, at this point 
in time, it is my judgment that this office is functioning not 
only in curing the identified problems, but functioning well.
    Mr. KLECZKA. You are going to keep monitoring the situation 
every 2 weeks?
    Mr. GERRY. Yes, I am. We haven't set a time limit, so I am 
going to keep doing it until I am told to stop doing it.
    Mr. KLECZKA. Commissioner, I did appreciate hearing of your 
changes to the disability determination operation in the 
agency. My question is, how long will it take under your new 
provisions here from a filing of an application to a quick 
decision? Because we have cases in our offices where the person 
is totally disabled and waiting a year for determination. Under 
this new system, from the minute the person files the 
application to the quick determination, what are we looking at?
    Ms. BARNHART. We are looking at no more than 20 days, Mr. 
Kleczka, and that is all as a result of Electronic Disability 
and the electronic data collection system taking place in the 
field office, the regional expert units that will screen these 
cases out, simply medically document that the individual 
suffers from the condition and is not working. It is a much 
speeded-up process.
    Mr. KLECZKA. Before the public thinks that all cases are 
going to be adjudicated in 20 days, the individuals we are 
talking about are the most disabled of the disabled.
    Ms. BARNHART. Absolutely. Very important point.
    Mr. KLECZKA. With an untrained eye, we know this person is 
totally disabled, and let us not put that person and their 
family through an elongated process.
    Ms. BARNHART. The examples that I often use are individuals 
with Amyotrophic Lateral Sclerosis, people with aggressive 
cancers, people with end-stage renal disease. Absolutely.
    Mr. KLECZKA. This is a very ambitious plan. How long do you 
envision having this plan be put into total operation? How long 
is this going to take?
    Ms. BARNHART. Well, one of the things I think is very 
important is, since it is predicated on Electronic Disability--
we are able to do a lot of the quality reviews and the 
different consideration of the cases all over the country as a 
result of Electronic Disability. That is one of the things that 
provides protections for the SSA employees in terms of not 
having to move, not having to be adversely affected. Very 
important. We are rolling out Electronic Disability starting in 
January; we have three pilots up and operating at this time. 
The schedule for Electronic Disability is that nationally it 
should be completed in 15 to 18 months from January. Because of 
the regional nature of some of the components of my approach, 
it is important that an entire region be up and operating under 
Electronic Disability before we move on to implementing this 
approach. So, I estimate that probably we are looking at 
October 2005 before we really start to implement these changes 
any place across the country. As I say, this is the approach. I 
want to provide this time for discussion, to solicit views from 
the interested organizations, many of whom are going to testify 
after me today. There are countless others that are being 
invited to briefings and so forth. So, from a standpoint in 
making sure the Electronic Disability is up and has been up and 
functioning in the area where we would implement changes, I 
think it needs to be there for at least 9 months before we 
would move ahead, just to be responsible and ensure that the 
system would work.
    Mr. KLECZKA. Totally operational, October 2005. That is 
over 2 years away. That is a very long time. Mr. Chairman, 
thank you very much.
    Chairman SHAW. I would like to inquire for just a moment 
about the efficiency of our administrative law judges. That has 
come to our attention on numerous occasions. Judge Bernoski's 
testimony on page 6 says that the Associate Commissioner of the 
OHA states that the judges of the agency are issuing case 
depositions at the rate of 2.6 cases per judge per day, or 52 
to 65 cases per month, which is characterized as a record level 
of productivity. Do you concur with that?
    Ms. BARNHART. Well, let me say, the 2.6 figure--and I am 
not exactly sure where Judge Bernoski got that, but I think it 
was probably accurate for a particular month. My understanding 
is that the average for the year based on discussions I had 
recently with the head of OHA is going to be somewhere around 
2.3 cases per day, which is still a very high productivity 
rate. For example, going back--I have data before me going back 
to 1994. The highest I see other than that was in 1995, 2.23 a 
day; in 2002, just last year, 2.2. The rest are all around two 
cases a day. So, yes, it is the highest productivity in 
probably 10 years. Certainly the 2.6 that I believe we did 
experience for 1 month this fiscal year would have probably 
been the highest ever.
    Chairman SHAW. Is there a backlog? At what point are the 
backlogs accumulating? Is it before they get to the courtroom, 
or at what point in this process?
    Ms. BARNHART. There are backlogs throughout the process, as 
I indicated. We have backlogs at the initial disability claims 
level, probably around 300,000 at this point. At the hearing 
level, we have backlogs of somewhere approaching 200,000 at 
this point. Frankly, it is all--I assume you are talking about 
the hearing stage, once it would move on to the administrative 
law judge. The backlog is not just the judges, and part of the 
backlog with the judges is due to the fact that we have not had 
as many judges as we need, as I discussed with Mr. Pomeroy 
earlier. We believe we are 200 judges down. The file assembly 
contracts that I was just discussing with Mr. Ryan, quite 
frankly--I put those in place to deal with the backlog that we 
had, because when I came into this job in 2001, judges couldn't 
get cases, which speaks to Mr. Collins's point. There were not 
enough cases being prepared for them to consider them. So, 
there are backlogs throughout the process, Mr. Chairman.
    Chairman SHAW. Do we have a report card on the various 
judges to see--I know from many years of practicing law that 
there are some judges that work harder than other judges, just 
as some Members of Congress work harder than others.
    Ms. BARNHART. Well, we do keep track of the----
    Chairman SHAW. We do have a report card--it is called an 
election.
    Ms. BARNHART. We do keep track of the number of cases that 
each judge deals with every year, yes, we do; and it is quite a 
range. The range exists--it is for various factors. There are 
many judges who are on assignment and away from the office. 
There are judges who are union representatives and engage in 
official time activities on behalf of the union as opposed to 
being full time. Also, details take judges away from the 
office. Our managers--our regional chief judges or managers--
don't actually do cases. So, when we look at the available 
judges that we have, we are really at 958 as opposed to the 
1,023 that are on board at any given point in time. You factor 
in vacations, time away, and the training, continuing legal 
education, all those things, we are really at about 958, which 
is even worse than the situation. There are issues there. I 
would be happy to submit for the record if you would like--I 
have a chart, actually, that I thought perhaps told the story 
of the judges' disposition rates the best. I am having trouble 
locating it.
    Chairman SHAW. If you could submit it for the record, that 
would be fine.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 99662C.003
    
      
    Ms. BARNHART. Basically what it does is, it shows dots on 
the page--we have one right here. We have copies for the 
Members if you would like them. Each of these represents an 
administrative law judge and the dispositions--the number of 
cases that they deal with in a year. So, basically, what you 
can see is most of them are centered pretty much grouped 
together. There are some outliers. There is no question. There 
are some that are way over here, and some that are way over 
here, but we would be happy to provide this to your staff and 
any other supplementary information that you have.
    Chairman SHAW. If you see a judge who isn't really 
fulfilling his responsibility, taking on his caseload, do you 
have any way of reprimanding him?
    Ms. BARNHART. Well, we are not allowed to set production 
schedules for judges because they are independent judges. I am 
allowed to have the judges follow procedures, and that is, 
quite frankly, one of the things in my approach that I 
described in terms of the reviewing official providing the 
report to the judge and the judge responding in the decision to 
each of the things laid out by the reviewing official. That is 
one of the procedural authorities that I do have. I do not have 
authority to tell a judge that they must work so many cases a 
day, because, I guess, of the fear of interfering with the 
judicial discretion and the ability to do their job. We do let 
judges know if they are outliers. We do. Our managers--it is 
something that we have started in the last few years. We do 
notify them and say, we thought you should know that everybody 
else in your region is at this level, or everybody else in your 
office is at this level, and the average administrative law 
judge is doing this and you are in this place, to let them know 
where they stand. As I say, sometimes there are good reasons 
for the fact that they have a lower disposition rate, and some 
judges are not as productive as other judges, just like I think 
in any profession.
    Chairman SHAW. I think, for the record, this independence 
was established by Congress back in 1946.
    Ms. BARNHART. That is right.
    Chairman SHAW. So, it has been in place for a long time. As 
usual, it is a treat to have you come before our Committee, and 
we are particularly pleased today that you chose this as the 
hearing to roll out your proposal. You certainly are reacting 
to many of our concerns, and we look forward to watching your 
progress. Thank you.
    Mr. POMEROY. Mr. Chairman.
    Chairman SHAW. Yes.
    Mr. POMEROY. I just would submit a written question 
relative to the proposed overhaul of the handling of disability 
claims. I am a little bit worried about the elimination of the 
Appeals Council leading to--within the administrative process 
has the appearance of streamlined and accelerated resolution, 
but by dumping people into the Federal court system for their 
perspective actually prolonging the resolution of these 
matters. So, I will submit a question.
    Chairman SHAW. The record will remain open for any 
questions that any of the Members might have that they weren't 
able to ask.
    Ms. BARNHART. I have many points to make on that, Mr. 
Pomeroy. I would be happy to do them for the record, but I 
would like to make just one point now, if I might, Mr. 
Chairman. The Appeals Council currently allows 2 percent of the 
cases that come before it. It remands 26 percent to the 
administrative law judges, and it sustains 72 percent of the 
administrative law judge decisions. So, that suggests that one 
of the major issues for the Appeals Council is the quality of 
the record. We are trying to address that through the quality 
and oversight panel that my approach would suggest. I think 
perhaps the most telling fact, though, is the fact that the 
Federal courts remand 60 percent of the cases that go through 
the Appeals Council back for consideration. So, it suggests to 
me that we need to do something to address the quality of the 
cases moving--even looking at the current situation. As I say, 
I have many other points, and I know you are interested. I will 
try to do my best to lay out an entire----
    Mr. POMEROY. If you will give us some time before 
implementation to really wrestle this down and understand it 
better--but I will want to have some extended conversations on 
this one. Thank you.
    Chairman SHAW. Thank you. We have a vote on the floor. If 
the Members would vote and come back quickly. I believe it is 
only one vote, and I think we will be able to visit with Mr. 
Huse. I am sure there are a lot of questions coming out of 
Milwaukee that Mr. Huse will have all the answers to.
    [Recess.]
    Chairman SHAW. Okay. Mr. Huse.

   STATEMENT OF THE HONORABLE JAMES G. HUSE, JR., INSPECTOR 
            GENERAL, SOCIAL SECURITY ADMINISTRATION

    Mr. HUSE. Good morning, Mr. Chairman. I guess it is still 
morning.
    Chairman SHAW. Welcome back to the Committee.
    Mr. HUSE. Thank you. I would like to begin by expressing my 
appreciation for this opportunity to testify today. The 
concerns raised by this Subcommittee regarding recent reports 
of improprieties within SSA's OHA, are shared by me as well. 
Currently, as a result of a congressional request, my office is 
conducting audit reviews of OHA's Chicago regional office and 
the Milwaukee hearings office. The Office of the Inspector 
General has also conducted investigations of both these 
matters. The SSA notified our office about both situations when 
they were discovered, and that is an important point. While 
this is not the first time we have reviewed OHA, we are 
continuing to conduct additional audits, broader in nature, of 
OHA management. I have submitted my written testimony, which 
contains more detailed information, but our Office of the 
Inspector General investigation of the Milwaukee hearings 
office resulted from two allegations. While no evidence of 
criminal activity was determined, a number of issues and 
concerns were raised as to certain supervisory practices, which 
will need to be resolved. This case was also referred to the 
OHA management for appropriate administrative action. The audit 
of the Chicago OHA regional office, which was requested by 
Wisconsin's congressional delegation, is the second issue 
raised, and that particular audit is continuing. The audit 
centers around allegations that pertinent documents received in 
the office's contract-based file assembly unit had not been 
included in the correct claim folders. Our investigative 
findings resulted in corroboration of the allegation that 
original documents in question had, in some cases, been 
discarded. Further findings indicated that oversight of the 
contractor's activities did not appear adequate. Our 
investigative findings have resulted in the initiation of an 
audit of the Chicago regional office, which we anticipate will 
be completed in November of this year.
    Issues which surfaced as a result of our investigative 
findings regarding OHA personnel in the Chicago regional office 
are: evidence of mismanagement by OHA, which may have in part 
led to the poor performance by the contractor, and instances of 
improper handling of documents. Further, I would like the 
Subcommittee to be aware that the Office of the Inspector 
General has previously conducted a number of audits of OHA 
management practices. A number of these audits raised concerns 
that still await resolution. One audit about OHA's management 
process--that was the process of how complaints about OHA 
activities were handled--revealed instances where no record of 
allegations had been received, and in certain instances, these 
allegations had been referred to OHA by my office. Frequent 
delays were discovered in the processing of allegations, and 
OHA had no record of one-third of the referrals it had 
supposedly received. As a result of further congressional 
inquiries, audits of OHA operations and productivity were 
undertaken, resulting in findings that there were inadequate 
safeguards in place during the destruction of claimant files, 
significant delays occurred in processing times, the case 
management process required improvement, and that the processes 
regulating the use of interpreters and claimant representatives 
were susceptible to fraud. Not all OHA offices received and/or 
reviewed lists of claimant representatives who had been 
disqualified or suspended, and not all hearings offices 
reviewed the qualifications of interpreters or monitored their 
performance. On a broader level, we have looked at how OHA 
measures its own hearings and appeals performance. While we 
find the existing system to be in general compliance with 
Government Performance and Results Act (P.L. 103-62) 
requirements, we also identified opportunities for SSA to 
improve the reliability of OHA's key performance measures. We 
are committed to continue the work I have summarized today, and 
we will continue to report our findings to the Subcommittee. 
Mr. Chairman, I would like to thank you for the opportunity to 
provide this testimony today, and to thank you for your 
attention and concern. I will be happy to answer any questions.
    [The prepared statement of Mr. Huse follows:]
   Statement of The Honorable James G. Huse, Jr., Inspector General, 
                     Social Security Administration
    Good Morning, Mr. Chairman, Mr. Matsui, and members of the 
Subcommittee on Social Security. Recent newspaper accounts and concerns 
from Members of Congress have placed the Social Security 
Administration's (SSA) Office of Hearings and Appeals (OHA) under 
public scrutiny. My office has been asked to conduct an independent and 
objective investigation of the Milwaukee Hearings Office (HO) and the 
OHA Chicago Regional Office (RO) because of complaints that the Agency 
refused to release a management report criticizing the Milwaukee HO. 
There are also allegations that SSA supervisors told contract workers 
in its Chicago RO to throw away documents from the files of disabled 
people applying for benefits from the Government.
    My office takes these allegations very seriously, and we are 
looking into them. The charter of SSA's Office of the Inspector General 
(OIG) is to identify and prevent fraud, waste, and abuse in SSA-
administered programs. The issues raised with regard to these offices, 
as well as their implications for OHA on the whole, are of serious and 
vital concern to my office.
    At the outset, I would like to assure this Subcommittee, Congress, 
and the American people, that most SSA offices run effectively and 
efficiently. Nationally, Social Security continues to be one of the 
best-run agencies in the Federal Government, as witnessed by the July 
14 announcement from the Office of Management and Budget (OMB) that SSA 
is making progress in all five management categories on the President's 
Management Agenda (PMA) scorecard. SSA also holds the distinction of 
being the only Federal agency to receive a Certificate of Excellence in 
Accountability Reporting from the Association of Government Accountants 
every year since the award program began.
    However, the fact remains that some SSA offices have had persistent 
management problems which have a negative impact on those who seek 
their services. Despite significant strides, the Agency knows it must 
do more.
    As you know, Mr. Chairman, in recent weeks we have briefed this 
Subcommittee on investigative and audit information relative to OHA 
issues around the country. We have provided this Subcommittee with 
audit work that contains recommendations made over the last 5 years to 
improve OHA's operations, and we have briefed the Subcommittee on the 
recommendations SSA has implemented. We have also looked into every 
allegation noted in the recent news articles. Let me summarize what we 
have found with regard to these two offices, and with regard to 
management of OHA.
The Chicago and Milwaukee Offices
    Our Office of Investigations (OI) has conducted investigations of 
both offices, and based on these investigations, our Office of Audit 
(OA) has initiated a review regarding these offices. SSA had notified 
our office about both situations upon discovering the problems. OI has 
not found evidence of criminal conduct in either SSA's Milwaukee OHA HO 
or its Chicago RO. We have found instances of mismanagement and poor 
performance. These findings require SSA to take serious and direct 
action.
    Let's look first at the Chicago Regional Office. We began by 
initiating an investigation, which we have completed, upon receipt of a 
letter from the Wisconsin Congressional Delegation. The Delegation 
requested that we investigate the activities of a contract ``File 
Assembly Unit'' within the Chicago RO, which reportedly discarded 
pertinent information from the disability claims folders of applicants 
for both SSI and Title II disability during the file assembly process.
    With regard to the contractors, our investigation has revealed 
that:

          <bullet>  SSA chose the contractors and performed security 
        checks.
          <bullet>  Under certain circumstances, SSA policy allows 
        contractors to take home claimant files, which may contain 
        medical and other personal information. There were 14 contracts 
        in the Chicago Region, 10 of which allowed vendors to take 
        files offsite. The 2 contracts we reviewed required contractors 
        to perform work onsite.
          <bullet>  The contracts required that documents not be 
        destroyed by the contractor, not even duplicate documents.
          <bullet>  According to OHA officials, the unit was assigned 
        1,254 cases for assembly by the contractors. Some of the 1,254 
        claimants have been notified that portions of their claim files 
        may have been discarded. OHA is still reviewing files and is 
        developing a policy and procedure which will allow claimants to 
        review their files for completeness and add necessary evidence, 
        and will allow denied claimants another review and appeal.
          <bullet>  There were 198 claims files of residents of 
        Wisconsin included in the 1,254 claims files sent to the ``File 
        Assembly Unit.'' Discarded original documents of claims files 
        of 86 Wisconsin residents were discovered in the unit's recycle 
        bins.
          <bullet>  Trash cans were overflowing with discarded 
        documents prior to the arrival of the recycling bins. The trash 
        cans were emptied daily, and the recycling bins were emptied 
        once. OHA does not know whether discarded documents were thrown 
        out or shredded. One contract employee admitted that some 
        documents containing sensitive information were put into the 
        normal trash.
          <bullet>  Of the 1,254 cases involved, OHA has made a 
        decision on 176. For those 176 that have been decided, 129 were 
        favorable to the claimant and benefits were awarded, 17 cases 
        resulted in an unfavorable decision to the claimant, 29 cases 
        were dismissed either because claimants withdrew or abandoned 
        their claim. An additional case was dismissed because the 
        claimant is now deceased. The remaining 1,078 cases are pending 
        decisions by OHA.

    With regard to OHA personnel, our investigation of the Chicago 
Region has found evidence of mismanagement and poor performance. One 
problem area was the security of sensitive information. Contractors 
assembled folders out of sight of the reviewer/trainer. The project 
officer took no action to address the initial report that contractors 
were throwing out original documents.
    The process used in the Chicago RO was based on a pilot program 
that had used retired OHA personnel, who knew how to assemble the 
folders, but only one such person was used. Not enough OHA personnel 
were assigned to train, review, or observe the other contractor 
workers. Management did not pay enough attention to the process:

          <bullet>  A manual for assembling files according to SSA's 
        Program Operations Manual System and regulatory requirements 
        was written but not used.
          <bullet>  Trainers and reviewers gave conflicting 
        instructions.
          <bullet>  Not enough reviewers were assigned to observe the 
        contractors and review their work in a timely manner.

    Building on our investigation, we have initiated an audit of the 
Chicago office. Our specific concerns are:

          <bullet>  The disposition of claimant medical records at the 
        Chicago RO.
          <bullet>  SSA policy concerning security checks of 
        contractors.
          <bullet>  SSA policy concerning contractors and/or SSA 
        employees taking claimant files home.

    We expect to report the results of this audit later this year. I 
will keep this Subcommittee apprised of this audit when it has been 
completed.
    I would like to look next at the Milwaukee Hearings Office. As a 
result of an OHA internal review of the Milwaukee HO that the office of 
the Regional Chief Judge conducted in February, our Chicago office 
received two allegations. We investigated these allegations, and found 
no evidence of criminal activity. However, that investigation 
identified significant management concerns. As a result of our 
investigation into the actions taken to address the findings of SSA's 
own OHA internal review, our OA has initiated a separate audit report 
of the Milwaukee office. The most serious concerns our review will 
address include:

          <bullet>  The discovery of over 700 pieces of unopened mail.
          <bullet>  1,200 cases that were not recorded in the Hearing 
        Office Tracking System (HOTS).
          <bullet>  Significant processing delays for disability 
        claims.

    We expect to report the results of this audit later this year, and 
we will report to this Subcommittee on the results.
Prior Reviews Concerning OHA Management
    Prior OIG audits have revealed some problematic conditions 
regarding OHA management. Some of our prior work has focused on issues 
unique to specific OHA offices, while others looked at programmatic 
issues. Although most SSA offices function effectively, we noted some 
areas where improved oversight and management are required. This 
history of audit work yields invaluable insights to OHA's operations.
    For instance, we conducted one review of OHA's allegation 
management process. In this review, we looked at the policies and 
procedures for addressing allegations of mismanagement we referred to 
OHA for resolution, and identified shortcomings in their ability to 
manage allegations properly. Not only were there instances where there 
was no record of referrals, there were significant time delays in 
closing out the referrals that were resolved. For example, OHA had no 
record of 37.5 percent of these referrals and it took an average of 331 
days to process the 29 allegations that had been closed.
    As a result of Congressional inquiries, we also reviewed OHA's 
Huntington, WV and Washington, DC offices to address concerns about 
their operations and productivity. At the Huntington facility, adequate 
safeguards were not taken during the destruction of claimant files, and 
some files were placed in unsecured trash bins outside the office 
building. Productivity statistics for the Washington office indicate 
significant delays in processing times--an indication of potential 
performance problems.
    On a broader perspective, we looked at a number of issues related 
to OHA performance. We identified opportunities for SSA to improve its 
case management process to ensure that file data is consistent with the 
decisions issued by the HOs. We also identified a need for OHA to do a 
better job of screening individuals who are used as interpreters and 
claimant representatives. Specifically, prior audit work revealed 
instances where HOs did not review the qualifications or monitor the 
performance of individuals hired for interpreter services, and did not 
ensure administering of oaths obligating interpreters to translate the 
hearing accurately under penalty of perjury. More importantly, not all 
OHA offices receive and/or review lists that contain information on 
claimant representatives who have been disqualified or suspended. The 
failure to manage both of these functions properly renders SSA 
susceptible to fraud.
    Finally, other prior audit work on OHA has focused on how the 
Agency measures its Hearings and Appeals performance. Although these 
reports concluded that SSA was in compliance with Government 
Performance and Results Act reporting requirements, they identified 
opportunities for SSA to improve the reliability of key OHA-related 
performance measures.
    In general, SSA agreed with the majority of our recommendations and 
has taken steps to implement some of them. Concerning allegation 
management issues, SSA staff were receptive to our findings and 
suggestions for improvement, and had already begun to take corrective 
actions to improve OHA's review of allegations of mismanagement. 
Additionally, SSA issued a memorandum requiring all OHA field offices 
to confirm that a proper records disposal process was in place.
Conclusion
    Mr. Chairman, any allegations of fraud, waste, and abuse in SSA-
administered programs are of serious and vital concern to my office. I 
thank you for your continuing commitment to these critical issues. I 
would be happy to answer any questions members of the Subcommittee 
might have.

                                 <F-dash>

    Chairman SHAW. Thank you, Mr. Huse. Mr. Collins. Oh, I beg 
your pardon. That is her job, to keep me from making these 
mistakes. She corrected me. Mr. Schieber, I beg your pardon.

  STATEMENT OF SYLVESTER J. SCHIEBER, MEMBER, SOCIAL SECURITY 
                         ADVISORY BOARD

    Mr. SCHIEBER. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I am pleased to be here this morning and to have 
this opportunity to testify on this important issue. I am a 
member of the Social Security Advisory Board. Hal Daub, the 
chairman of the Board, sends his regrets. He had a prior 
commitment and could not be here today, but he did ask me to 
convey to you how important he feels these issues are that you 
are addressing, and he applauds your holding these hearings.
    Chairman SHAW. Mr. Daub used to be a Member of this 
Committee.
    Mr. SCHIEBER. Yes, I recall that. The four cornerstones of 
the social security disability program should be fairness, 
efficiency, quality, and consistency; and although the SSA 
today devotes a disproportionate share of its administrative 
resources to its disability programs, we believe that none of 
these goals is being fully met. It is not so much that any 
particular part of the program is broken. It is that the whole 
administrative design is in need of basic restructuring to make 
all of the parts work together in a more coordinated and 
correct way. I am happy personally to hear of the progress that 
Commissioner Barnhart is making in terms of moving forward in 
this regard. In January 2001, the Social Security Advisory 
Board issued a report on the need for fundamental change in the 
disability programs. In that report we identified many areas 
that need reform. Some were of general applicability, such as 
the urgent need for a new quality management system to bring 
about the sorely missing consistency and produce the 
information needed to make sound policy decisions. Others dealt 
specifically with the hearings and appeals process, such as 
revisiting the concept of having an agency representative who 
could explain and defend the initial decision, closing the 
record after the hearing, and reexamining the role of the 
Appeals Council. Our reports in the past have noted a chronic 
resource problem in the system leading to inadequate case 
documentation, frequent appeals, and significant backlogs at 
various stages in the determination process. Not getting timely 
benefits to someone truly disabled is unfair to the vulnerable 
people the program is intended to serve. Awarding benefits to 
those who should not qualify is equally unfair, as it adds to 
the financing burden we face in an aging society. The 
additional resources requested in the President's budget should 
help, as should the significant system improvements now being 
developed, but there remains a need to address many serious 
problems. These include inconsistent decisionmaking from region 
to region, and at different levels of adjudication. That in 
turn reflects problems of policy development, training, and 
communication.
    To some extent, today's hearing arises from the problems of 
the Chicago region with the file assembly contracts. This is an 
issue the Board has been reviewing as a result of information 
brought to our attention during our visit to the Boston region 
in early May, before the public disclosure of the problems in 
Chicago came to light. While the contract has apparently been a 
significant help in reducing backlogs, there have been problems 
even apart from the situation in Chicago. Our examination thus 
far indicates that some of the problems could have been avoided 
by better communication between the various parts of the 
agency. Let me repeat that the real answer to providing the 
kind of prompt, efficient, accurate, and consistent 
decisionmaking that disabled claimants and citizens generally 
deserve depends not so much on introducing a laundry list of ad 
hoc fixes. It requires a comprehensive effort to revise and 
rationalize the structure of the program. Commissioner Barnhart 
has indicated that she is proposing a major reform of the 
administrative processes in these programs, and we encourage 
her in this regard, but the Advisory Board believes that we 
must look beyond the need for administrative restructuring to 
examine some of the underlying features of the program. For 
example, within a month the Advisory Board will issue a report 
that addresses whether the program's definition of disability, 
set in the fifties, is appropriate in the technologically 
advanced economy of the 21st century. We hope you will 
seriously consider our suggestions, and we stand ready to 
provide you input as you deliberate the ways to firm up the 
foundations of this program. Thank you very much.
    [The prepared statement of Mr. Schieber follows:]
 Statement of Sylvester J. Schieber, Member, Social Security Advisory 
                                 Board
    Mr. Chairman, Mr. Matsui, and members of the Subcommittee, I am 
pleased to have this opportunity to address the Subcommittee on the 
issue of management of the Office of Hearings and Appeals. The Chairman 
of the Advisory Board, Hal Daub, could not be here this morning because 
of a prior personal commitment. He has asked that I convey to the 
Committee that he believes the issues you are considering today to be 
of utmost importance and he applauds your holding these hearings.
    The Social Security disability programs are a vital part of our 
nation's system of economic security. Over 5 million disabled workers 
and their families receive income support from disability insurance and 
about 3.5 million additional disabled individuals depend on payments 
from the Supplemental Security Income program. Payments under these 
disability programs total more than $90 billion annually.
    The four cornerstones of these major national programs should be 
fairness, efficiency, quality, and consistency. Although the Social 
Security Administration today devotes a disproportionate share of its 
administrative resources on its disability programs, none of these 
goals is being fully met.
    In January 2001, the Social Security Advisory Board issued a 
report, Charting the Future of Social Security's Disability Programs: 
The Need for Fundamental Change. In that report, we pointed out:

           . . . over the last half-century the original Federal-State 
        administrative structure has had to accommodate a dramatic 
        growth in program size and complexity that it has been ill-
        equipped to handle. In addition to working within a fragmented 
        administrative structure, employees at all levels have been 
        buffeted by periodic surges in workloads and funding 
        shortfalls.

    It is thus not so much that any particular part of the program is 
broken. The whole administrative design is in need of a basic 
restructuring to make all the parts work together in a much more 
carefully coordinated way. We are aware, of course, that the 
Commissioner of Social Security has been developing proposals for 
revising the program. Commissioner Barnhart was, as you know, a member 
of the Advisory Board at the time we issued the report. We will not be 
surprised if her proposals reflect some of our thinking. Many of the 
problems we identified could be addressed administratively, although 
some might need legislative change.
    This hearing is about the Office of Hearings and Appeals, but many 
of the Advisory Board's findings and recommendations apply to the 
entire process. For example, there is an urgent need to develop and 
implement a new quality management system that incorporates all parts 
of the disability determination process. Only such a system can bring 
about the sorely missing consistency among different levels of 
adjudication and produce the information needed to make sound policy 
decisions.
    But let me focus on some of the Board's findings that are 
particularly relevant to the hearings and appeals process.
    At any given moment, there are roughly a half million appeals 
pending in Social Security hearing offices. We hear two major and 
somewhat related issues as to why those appeals are so hard to process 
promptly. One is that they are not adequately developed. The second is 
that they do not contain a comprehensible explanation of the rationale 
for the initial decision. The Board has suggested that one answer to 
these problems might be the use of an individual who would be 
responsible for defending the initial decision in the hearings process 
as a way to clarify the issues and introduce greater consistency and 
accountability. We also suggested that Congress and the agency revisit 
the possibility of closing the record after the hearing decision is 
made. Many Administrative Law Judges feel that the current system 
provides undesirable incentives that work against prompt and complete 
development of the record. Earlier this year, the Board printed and 
sent to you a copy of a study of these issues that was done for us by 
Professors Verkuil, Lubbers, and Bloch.
    The final step in the appeals process is review by the Appeals 
Council. In the Board's 2001 report, we noted that, while the Appeals 
Council performs certain case correction and review functions, it has 
been subject to considerable criticism over the years. We suggested 
that Congress and the agency carefully review and rationalize this part 
of the process.
    These are some elements of the hearings and appeals system that 
need to be addressed. Others are detailed in our January 2001 report. 
But, as I indicated at the start of my testimony, real improvements 
will require a thorough streamlining and rationalizing of the entire 
system.
    Certainly many claims are handled expeditiously, but many--
particularly when they enter the appeals process--drag on and on, 
sometimes for years.
    Our reports in the past have noted a chronic resource problem in 
the system as a whole. Inadequate resources at the State agency level 
lead to backlogs. Backlogs, in turn, can create pressures whose results 
ultimately have adverse effects on the appeals process in the form of 
more appeals, cases requiring additional documentation, and absence of 
clear explanations of the basis for the State agency decision. 
Improvements in the earlier stages, just by reducing the number of 
appeals, could make the hearings process more manageable. Not getting 
timely benefits to someone truly disabled is unfair to the vulnerable 
people the program is intended to serve. Awarding benefits to those who 
should not qualify is equally unfair as it adds to the financing burden 
we face in an aging society.
    Consistency is another serious problem. The Advisory Board has been 
very troubled by the wide discrepancies it sees in the program. This is 
a problem that affects all levels of program administration, but since 
this hearing is focused on the appeals process, let me read you this 
paragraph, again from our January 2001 report on the need for 
fundamental change in the disability programs:
    The percentage of decisions at the hearing level that were 
favorable for both DI and SSI claimants stood at 58 percent in 1985, 
grew to nearly 72 percent in 1995, fell to 63 percent in 1998, and grew 
again to 66 percent in 2000. Hearing offices also vary greatly from 
State to State in the percentage of decisions that are decided 
favorably for claimants. In 2000, the range went from 35 percent in the 
District of Columbia to 86 percent in Maine, with a national average of 
66 percent.
    Unexplained discrepancies of this magnitude are simply unacceptable 
in what Congress intended to be a fair and uniform national program.
    The causes of these problems are many, and they are interrelated.
    There is a problem of policy uniformity. Year after year, six or 
even seven cases out of every ten are decided differently at the 
hearing office than they were in the State agency. That magnitude of 
reversals leads to a strong presumption that different policies are 
being applied at different levels of adjudication.
    There is a problem of communication and teamwork. The Social 
Security Advisory Board makes a practice of going out into the field to 
talk with those who operate the program and to get the views of the 
public. We have visited every one of the agency's regions, some of them 
more than once. At every level of administration, we find hard-working, 
dedicated employees who are doing their very best to make the right 
decisions, to provide a high level of service to the public, and to 
carry out their stewardship obligations to the taxpayers. But we do not 
always find that those at one level have great confidence that the 
rules are being applied correctly at other levels; and we do not always 
find that employees believe that their efforts are being measured 
accurately and that their concerns are being heard.
    Today's hearing, in part, addresses the problems in the Chicago 
region with respect to the file assembly contracts. Even before the 
Chicago reports surfaced, the Board had begun to look into those 
contracts as a result of some problems that we heard about both during 
our visit to the Boston region in May and through other reports that 
came to us. As we now understand it, one hearing office conducted a 
very successful pilot project that was subsequently converted into a 
national contract. Overall, the contract seems to have been very 
helpful in reducing hearing office backlogs. But there were a number of 
places, including, but not limited to, Chicago, where the contract did 
not go smoothly. From what the Board has seen so far, at least a part 
of the reason for the problems is traceable to inadequate 
communication. The national contract may have been developed without 
adequate understanding of all the factors that made the pilot 
successful. Those responsible for the contract at the national level 
may not have adequately communicated how it was to be implemented. And, 
when problems arose, the existence of those problems appears not to 
have been quickly communicated and acknowledged. As the Board said in 
its February 2001 report Agenda for Social Security:
    SSA has a strong institutional resistance to open discussion of the 
agency's problems . . . This kind of problem is difficult to correct. 
It requires a fundamental change in agency culture.
    The problems in the management of the Social Security disability 
process and, in particular, the hearing process are real but they are 
not insoluble. To the extent that the problems arise from 
administrative overload, the additional resources requested in the 
President's budget should help, as should the significant system 
improvements that are currently under development. But more fundamental 
changes are needed as well. There needs to be a greater emphasis on 
developing policy that can be applied more objectively and more 
consistently at all levels of adjudication. There needs to be better 
communication in general and communication of policy in particular. To 
some extent this is a matter of training. A few years ago, the agency 
conducted an experiment in joint training of State agency and hearings 
level personnel. In the Board's conversations with field personnel, we 
sense general agreement that that experiment was very useful, but it 
was never adopted as an ongoing practice.
    As I indicated at the start of my testimony, however, the real 
answer to providing the kind of prompt, efficient, accurate, and 
consistent decision-making that disabled claimants--and citizens 
generally--deserve depends not so much on introducing a laundry list of 
ad hoc fixes. It requires a recognition that the basic administrative 
structure needs to be rationalized and revised in way that addresses 
the problems in a comprehensive manner. And we also must look even 
beyond the need for administrative restructuring to examine some of the 
underlying features of the disability programs. For example, later this 
month the Board will issue a report that addresses whether the 
programs' definition of disability set in the 1950s is appropriate in 
the technologically advanced economy of the twenty-first century. We 
hope you will seriously consider our suggestions, and we stand ready to 
provide input as you deliberate the ways to firm up the foundations of 
these programs.

                                 <F-dash>

    Chairman SHAW. Thank you. Let me ask a question of you, Mr. 
Huse; and again, excuse me Mr. Schieber for----
    Mr. SCHIEBER. Not a problem.
    Chairman SHAW. I think this is the first time that Mr. Huse 
has sat at the table with anybody else. He usually comes in 
here by himself.
    Mr. SCHIEBER. I feel very privileged.
    Chairman SHAW. Well, we are privileged to have both of you 
here. Mr. Huse, we have found problems in several offices now. 
Do you think that it goes beyond this? Do you think this could 
be going on elsewhere in the country that we have yet to 
discover?
    Mr. HUSE. Mr. Chairman, we have investigated these cases 
because they were referred to us.
    Chairman SHAW. That is three of them, right? Milwaukee, 
Boston, and Chicago?
    Mr. HUSE. We have not investigated Boston. We have only 
anecdotal information about the issues in Boston, but to date 
no referral has come to us to look into them. I can only speak 
to the issues in Milwaukee and Chicago, because we have reviews 
under way. Our approach is, if we are referred a matter, then 
we look into it. To date, no one has referred anything to us 
other than these matters in Milwaukee and Chicago.
    Chairman SHAW. Maybe a spot audit of some other offices 
might be worthwhile. In your determination, did the contractor 
in any way profit, or could have profited, from the actions of 
the employees who contaminated certain files?
    Mr. HUSE. Not in the sense of a monetary profit, no, I 
don't think so. I think this was----
    Chairman SHAW. Just----
    Mr. HUSE. Other than to complete the processing of these 
folders so that they could be placed back into the system.
    Chairman SHAW. Well, it would appear then, as you said in 
your testimony, that there was no criminal intent. I think if 
it were intentional and malicious, there would certainly have 
been some criminal intent.
    Mr. HUSE. We looked for that motivation, and it isn't 
present. We did present the results of our investigations to 
the U.S. Attorney, in both Wisconsin and in Chicago, to see if 
there were any charges----
    Chairman SHAW. Well, it sounds like it was just a product 
of incompetence.
    Mr. HUSE. I would agree with that.
    Chairman SHAW. Yes, sir. Mr. Collins.
    Mr. COLLINS. Thank you, Mr. Chairman. Mr. Chairman, I think 
the reason Mr. Huse has someone here with him--it kind of 
reminds me of the Jerry Clower story of Marcel and Bobcat, a 
shoot-up mystery. One has got to have some relief. I appreciate 
the fact that you are a member of the Advisory Board--and that 
is actually what it is, an Advisory Board. Basically, when you 
look at the authority of the Commissioner, it is just the one 
step above you. Doesn't have a great deal of authority as the 
Commissioner, because there are a lot of things down through 
the ladder that take hold and prevent that authority from being 
actually there in the first place. It is a difficult situation 
to be in for each of you, and I find that the one thing that is 
consistent that both of you have said, though, is you need more 
money. More money won't help this problem in the long run. The 
problem is down beneath the dollar, the dollars that are 
already being spent. How many areas in the country do we have 
contractors, Mr. Huse?
    Mr. HUSE. I know that the use of contractors does extend to 
other regions than the Chicago region. We haven't----
    Mr. COLLINS. You don't have that answer.
    Mr. HUSE. We don't have that answer, but we can get it for 
you.
    [The information follows:]

                                     Social Security Administration
                                          Baltimore, Maryland 21235
                                                    October 7, 2003
The Honorable Mac Collins
Committee on Ways and Means
Subcommittee on Social Security
House of Representatives
Washington, D.C. 20515
    Dear Mr. Collins:
    This is in response to your inquiry during the hearing held on 
September 25, 2003 concerning the number of file assembly contracts 
nationwide. According to the Social Security Administration's Office of 
Acquisition and Grants, there are 89 contracts nationwide with a total 
value of $1.7 million. Enclosed is a table showing the number of 
contracts per region as of August 2003.
    If you have any questions, please contact my Executive Assistant, 
H. Douglas Cunningham.
            Sincerely,
                                                 James G. Huse, Jr.
                                                  Inspector General


 
----------------------------------------------------------------------------------------------------------------
        Social Security Administration Region           Total Number of Contracts      Total Contract Dollars
----------------------------------------------------------------------------------------------------------------
I--Boston                                                                        1                       $65,880
----------------------------------------------------------------------------------------------------------------
II--New York                                                                    14                      $282,090
----------------------------------------------------------------------------------------------------------------
III--Philadelphia                                                               11                      $182,346
----------------------------------------------------------------------------------------------------------------
IV--Atlanta                                                                      1                      $275,382
----------------------------------------------------------------------------------------------------------------
V--Chicago                                                                      26                      $457,630
----------------------------------------------------------------------------------------------------------------
VI--Dallas                                                                      11                      $176,508
----------------------------------------------------------------------------------------------------------------
VII--Kansas City                                                                 1                        $2,750
----------------------------------------------------------------------------------------------------------------
VIII--Denver                                                                    12                       $36,103
----------------------------------------------------------------------------------------------------------------
IX--San Francisco                                                                7                      $124,768
----------------------------------------------------------------------------------------------------------------
X--Seattle                                                                       5                      $101,122
================================================================================================================
  Totals for All Contracts                                                      89                    $1,704,579
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>

    Mr. COLLINS. Well, I think that would be interesting. In 
the private sector, if you are operating a company with 
organized labor and contract, you will get yourself in trouble 
when you talk about outsourcing, and that is exactly what this 
is. It is outsourcing. It is contracting. Particularly when you 
get into the area of governments, you can go to outsourcing. We 
get it all the time in the different areas of the government 
and different agencies where they are attempting to contract 
and outsource. It brings on real heartache and turmoil for 
those who are trying to manage and administer it. It is kind of 
like throwing cats and dogs in the same pen. You are going to 
have some problems if you go and attempt to do it. That is what 
worries me about the Chicago situation here. It is too easy to 
have the conflict within the operation when you have agency 
people working with contract people. There is just a lot of 
displeasure in the fact that that is going on within those who 
are working within that arena. So, it kind of reminds me, too, 
of trying to run an asylum and letting inmates be in charge. It 
can get real critical for you and be a disaster, and that is 
what is happening in Chicago. The problem with what is 
happening in Chicago and what worries me is the fact that there 
are those who actually file the applications, people across 
that region who were waiting on some type of decision as to 
whether or not they were going to be accepted or denied the 
benefits under the disability program. I think, overall, the 
Congress needs to review this thing about how we do 
outsourcing, where the areas are that we are going to try to do 
contracting. If you are going to do it, you do it overall. 
Don't just piecemeal it. You get in trouble.
    We also should review with the authority who is given to 
people who are in charge like the Commissioner, and the 
Advisory Board is an Advisory Board. That is exactly what it 
is. Having sat here and watched and observed and listened to 
the Commissioner, I asked this question, I made this comment to 
her when she came back up to the dais. I asked her what type of 
authority did she have. Why did she hire these 200 
administrative law judges that are unneeded? They can't do it. 
They didn't have the authority to do so. I tell her that is the 
very reason that I didn't take Commissioner of the Internal 
Revenue Service when it was offered to me in August, a year 
ago. I wouldn't have any authority. Those within the agency see 
them come, see them go. I would be one of those who come and 
go. Probably go a lot quicker than the other people, because I 
have a tendency to run a business in the way that the business 
should be run. This is the people's business, and we are not 
conducting it in the fashion it should be conducted when it 
comes to those we are serving, and that is the population of 
this country, those who are paying into this system and are 
eligible for the benefit. We know we have some people that 
apply that may not be eligible, but that has to be the 
process--to prove whether or not. So, it is not easy, not easy 
for the administration. It is not easy for us. We appreciate 
your report, appreciate your service on the Advisory Board, and 
just hope that the Congress will adhere to its jurisdiction and 
what needs to be done within the halls of this building and the 
other buildings. Thank you for your service, sir. Thank you, 
too.
    Chairman SHAW. Mr. Ryan.
    Mr. RYAN. I, too, would like to concur with my colleagues 
in saying that I am very pleased Commissioner Barnhart is 
taking on this challenge of really revising and revamping the 
system, and going to an electronic system. That is very 
encouraging. If you are going to fix the system, you first have 
to see how deep the problems lie, and that is why I press this 
Chicago and Milwaukee issue, because my concern is that this 
could be the tip of the iceberg. This could be a rampant 
problem, and we just don't know the answer to that. So, Mr. 
Huse, most of my questions, as you can probably predict, are 
for you. I have a couple of questions. Number one, from your 
testimony and your investigation, you say that SSA policy 
allows contractors to take home claimant files which may 
contain medical or other personal information, but that is not 
consistent with each contract, correct?
    Mr. HUSE. That is correct. For example, in the case of the 
Chicago contracts, there was no allowance for these files to be 
taken home.
    Mr. RYAN. So, some contractors can take documents home, 
some cannot, and the ones in Chicago could not.
    Mr. HUSE. It depends on how the contract was let.
    Mr. RYAN. Did you examine the contracts from the Chicago 
office, and did the contracts--the contractors at the Chicago 
office prohibit them from destroying or removing documents?
    Mr. HUSE. Yes, there was no allowance for the destruction 
of documents. There was to be a removal of duplicative 
material, that was the function of the contract.
    Mr. RYAN. Not to destroy documents.
    Mr. HUSE. Not to destroy documents.
    Mr. RYAN. Even duplicative documents.
    Mr. HUSE. Even duplicative documents were to be separated 
and then----
    Mr. RYAN. Not thrown on the floor or in the trash or in the 
recycling bin.
    Mr. HUSE. They were to be destroyed by the processes 
normally----
    Mr. RYAN. Under a secure system.
    Mr. HUSE. Right.
    Mr. RYAN. So, did you find that documents were discarded, 
destroyed, and under insecure systems, insecure trash, things 
like that?
    Mr. HUSE. We found that the documents were initially placed 
into photocopy boxes as the process went forward. There is some 
interview testimony that in several instances these documents 
may have been taken out in the trash. However, the idea for the 
photocopy boxes was that these documents were to be put into 
the recycling and document destruction process.
    Mr. RYAN. You said in your opening statement that original 
documents were discarded, meaning it went beyond just removing 
duplicative documents to actually discarding original 
documents. Is that the case?
    Mr. HUSE. That is correct.
    Mr. RYAN. So, I guess the conclusion is, improper controls 
were placed upon the contractors, and they didn't have the 
right safeguards. Is that----
    Mr. HUSE. This is a case of mismanagement across the board.
    Mr. RYAN. Not criminal wrongdoing.
    Mr. HUSE. Not criminal wrongdoing. From the results of our 
investigation, there is no criminal wrongdoing, correct.
    Mr. RYAN. The Social Security employees who were overseeing 
the contractors, were they the people who after the contractors 
discarded these documents, the ones who fished it out of the 
trash, basically, who realized a mistake was made, realized a 
problem was occurring, and went back and retrieved these 
documents from the trash? Can you shed some light on that chain 
of events?
    Mr. HUSE. There is a long timeline from December 2002 to 
July of this year when a lot of these actions occurred, and 
there are a succession of Social Security employees who come in 
and out of this process. Therefore, there is no easy answer to 
your question, other than in some instances, yes, they were the 
same people, and in other instances they were not. It adds to 
this picture of mismanagement----
    Mr. RYAN. Give me your general take on all of this and your 
impression. Also, it is the whole tip of the iceberg question, 
and I guess you haven't done, maybe, spot audits. I think the 
Chairman's suggestion was probably a pretty good one. Maybe 
spot audits are warranted around the country in certain OHA 
areas. Give me your take on whether or not this is an isolated 
incident or whether or not this is a systematic problem that 
needs to be addressed. The contracts with outside contractors, 
do they need to be uniform? Should they be allowed to take this 
documentation home with them? Could you just shed some light on 
that--your opinion on that?
    Mr. HUSE. As an Inspector General, I am pretty conservative 
in my opinions. If I don't have the work, I don't really opine 
on these things, and you can understand----
    Mr. RYAN. Yes.
    Mr. HUSE. That that is the basis for my office. I would say 
that there is no evidence that this is a pandemic problem. We 
have a process where we get allegations about the OHA, both 
from field referrals, and to our hotline. We investigate or 
review all of the allegations. So, I can say, I don't think 
this is pandemic across the entire OHA. There are enough 
instances to say that there are aspects of mismanagement in 
this system. However, I don't want to characterize this system 
as totally failed. That is why I am being careful here; but 
there is a management issue. That is correct.
    Mr. RYAN. Now, since original documents were discarded and 
it wasn't just an unduplicating effort, are you satisfied from 
your investigation that the 1,200--I think you said 1,254 cases 
in question--are you satisfied from your investigation that 
those people have been contacted and that they have been given 
an appropriate second chance to clean up their files and get 
real justice?
    Mr. HUSE. That particular issue is why we are holding our 
audit till we report back to you and the rest of the Wisconsin 
delegation on what you referred to us. We will answer you in 
our audit.
    Mr. RYAN. Please let us know when you--Mr. Schieber, one 
quick question. From your vantage on the Advisory Board, what 
is your opinion not just of the situation, but of whether or 
not this is a systemic problem that runs throughout the country 
or not? What is your take on this?
    Mr. SCHIEBER. Well, in this particular case, the only other 
evidence that I have seen specifically is when we visited 
Boston. Now when we visit some of the areas--and I think we 
have gone to all of the regions. I have now been on the 
Advisory Board for nearly 6 years. So, I have been there for a 
while. We usually meet with groups from different levels of the 
staff, and this issue came up in Boston, not of the same 
character or scope of problem that has turned up in Chicago, 
but there were specific concerns about this set of contracts 
related to this file creation process. One of the things we 
have found as we have gone around the country, though, is that 
there are consistent administrative concerns about this program 
all the way up and down. When I called, in my testimony, for 
review of this thing on a broader systemic basis, that is what 
I was relating to. We certainly do not serve in nearly the same 
kind of capacity as Mr. Huse and his staff do, and we are not 
doing audits in any way, shape, or form. We are an advisory 
board. We are dealing at fairly high levels. We are trying to 
identify systematic problems and issues that we need to bring 
to the Commissioner and we need to bring to you, and I think we 
have done that. We have done it, certainly, extensively in 
relation to the disability program. I agree with Mr. Collins. I 
have spent many, many years in the private sector myself. I am 
there today, have been for the last 20 years; and I think there 
are very definite accountability problems. There are authority 
issues here also that need to be addressed.
    Mr. RYAN. All right. Thank you. Thank you, Mr. Chairman.
    Chairman SHAW. Mr. Huse, one quick question. Did your staff 
have the opportunity to interview some of the contracted-out 
employees to determine what was going through their heads, what 
were they thinking?
    Mr. HUSE. We did, Mr. Chairman. We interviewed all of them 
concerned. The original conception of this contract was that 
these contracts would be let to vendors who re-employed retired 
social security employees who would have some skill sets to 
bring to this type of work. They would be familiar with the 
documents, familiar with the folder issues, and have some sense 
of what they were doing. In these two particular contracts in 
Chicago, this did not occur. These were people that were off 
the street doing piecework. Of course, the more work that was 
performed, the bigger the reward.
    Mr. RYAN. Mr. Chairman, would you yield for just 1 quick 
second----
    Chairman SHAW. I will.
    Mr. RYAN. For an additional question on that point.
    Chairman SHAW. Well, let him finish answering this, and 
then I will.
    Mr. HUSE. The point is, what was going through their head 
was just getting the job done. They earnestly were confused 
about what they were supposed to do and asked questions, but 
the management process was so insufficient they never got the 
answers.
    Chairman SHAW. Well, what was their job? To make the files 
thinner?
    Mr. HUSE. Their job was merely to move duplicative material 
to the back of the section, and then to organize these folders 
in a fashion so that they could go to an administrative law 
judge for a hearing. The folders being organized----
    Chairman SHAW. It sounds like a good idea.
    Mr. HUSE. It does.
    Chairman SHAW. They were throwing out the only copy of some 
things.
    Mr. HUSE. I learned many, many years ago when I was a young 
lieutenant in the army, a unit only does well what its leader 
checks. That is what this is all about. There was no 
management.
    Chairman SHAW. No accountability. Go ahead.
    Mr. RYAN. Just a quick question on that. Did the Chicago 
office have the option or opportunity to hire a contractor that 
had former Social Security employees?
    Mr. HUSE. We will look at that in our audit, but the answer 
is, there were other applicants or----
    Mr. RYAN. Bids or whatever you call it.
    Mr. HUSE. Bids--that is the word I was looking for . . . 
for this particular contract.
    Mr. RYAN. Some of those bids did include former Social 
Security employees.
    Mr. HUSE. My understanding was, one of the contractors 
would have re-employed, former Social Security employees.
    Mr. RYAN. Thank you, Mr. Chairman.
    Chairman SHAW. Go ahead.
    Mr. HUSE. One of the employees involved with one of these 
two vendors was a retired Social Security employee.
    Chairman SHAW. Well, I thank both of you for being here 
with us. We appreciate your insight into what is going on; and 
we look forward, Mr. Huse, to receiving a copy of your audit.
    Mr. HUSE. Thank you, Mr. Chairman.
    Chairman SHAW. The final panel that we have is made up of 
Marty Ford, who is Co-Chair of the Social Security Task Force, 
Consortium for Citizens With Disabilities; Richard Morris, who 
is President of the National Organization of Social Security 
Claimants' Representatives (NOSSCR), from Midland Park, New 
Jersey; the Honorable Ron Bernoski, who we have talked about 
already today, Association of Administrative Law Judges in 
Milwaukee, Wisconsin; Witold Skwierczynski, who is the 
President of American Federation of government Employees 
Council 220, the National Council of the SSA; and James Hill, 
President of the National Treasury Employees Union, from 
Cleveland Heights, Ohio. Welcome, all of you. We have your full 
statements, which will be made a part of the record, and you 
may proceed as you see fit. Ms. Ford, welcome back to the 
Committee.

 STATEMENT OF MARTY FORD, DIRECTOR OF LEGAL ADVOCACY, THE ARC, 
   AND UNITED CEREBRAL PALSY PUBLIC POLICY COLLABORATION, CO-
    CHAIR, SOCIAL SECURITY TASK FORCE, AND WORK INCENTIVES 
    IMPLEMENTATION TASK FORCE, CONSORTIUM FOR CITIZENS WITH 
                          DISABILITIES

    Ms. FORD. Thank you, Mr. Chairman, and Members of the 
Committee, for this opportunity to testify on behalf of the 
Consortium for Citizens with Disabilities. Once again, thank 
you for all of your work on H.R. 743. We look forward to final 
enactment. Ten million people with disabilities under age 65 
rely on Title II and SSI disability programs. These 
beneficiaries and claimants can be very vulnerable. Their 
average monthly benefits are relatively low. Applicants have 
low earnings due to their impairments and may have mental 
impairments that complicate the application process and their 
understanding of the requirements for hearings and appeals. The 
Commissioner's proposal that she is announcing today is of 
great interest to us, because excessive delays in the 
disability determination process have a major impact on the 
daily lives of people with disabilities. In May of 2002, the 
Commissioner unveiled a chart here in this Subcommittee that 
vividly illustrates that the process from application through 
final Appeals Council decision can exceed 1,153 days. Granted, 
some improvements have been made in the last year. However, 
using the chart's estimated averages, a claimant who submits an 
application today could wait until November of 2006 before the 
claim clears the Appeals Council's step. Imagine the stress of 
trying to cope with a severe disability with little or no 
income and possibly--or probably--no health insurance until 
November of 2006.
    For the 5 percent of cases that go beyond the hearing stage 
and the 1 percent that go to the Federal courts, this is 
devastating to claimants and their families. It also damages 
the public perception of the SSA. Real improvements to this 
process must have a high priority. We support the 
Commissioner's efforts to make technological improvements and 
support the necessary appropriations to do that. Much delay is 
still caused by the need for manual handling and transmission 
of paper files. The Commissioner has instituted initiatives 
which could reduce the delays and provide better service to the 
public that do not necessarily require fundamental changes to 
the current process. These include electronic folders, which 
she mentioned earlier, digital recording of hearings, and 
teleconference hearings. We support such improvements to ensure 
a full and fair evaluation of a claim and to ensure the 
claimant's right to a full and fair hearing on appeal. We have 
testified that SSA should ensure collection of accurate 
information as early as possible so that correct decisions are 
made the first time, and I understand that is a goal in the 
Commissioner's new proposal. The SSA should also provide 
claimants special assistance when they are unable to read, show 
evidence of cognitive or other mental impairments, or give 
other indications of being unable to negotiate the process 
alone. A claimant's evidence must be protected and preserved by 
SSA. We are concerned about the loss of evidence and failure to 
open mail for months at a time in OHA offices. It goes without 
saying that allowing contractors to discard potentially 
important evidence from case files can seriously harm 
claimants. SSA must be vigilant in fulfilling its 
responsibilities.
    We are also disturbed by reports that SSA employees and 
contractors have been allowed to remove files from OHA offices 
and take the files to work at home. This practice should be 
halted. Case files contain very personal information about an 
individual's medical conditions and the impact on their daily 
life. They include names of health care providers and 
hospitals, recommended courses of treatment, and prescribed 
medications. Files contain names, addresses, dates of birth, 
and Social Security numbers. Access to this information would 
make identity theft very possible. Files can be lost, 
misplaced, damaged or destroyed when removed from OHA offices. 
Loss of evidence can create even more devastating delays for 
individuals waiting for decisions. Even if SSA could assure 
that all workers would handle files with utmost care and 
responsibility, SSA can make no assurances about workers' 
family members, house guests, or visitors. There are also many 
opportunities for damaging or losing files during 
transportation by car, bus, or subway. We urge the immediate 
halt of this work-at-home practice until such time as SSA can 
reliably ensure that all privacy and security concerns have 
been addressed with adequate safeguards. We believe the 
solutions to management issues must respect the required 
functions of SSA and that key elements must remain in the 
hearings and appeals process. These include preserving a 
requirement for a full and fair hearing before an 
administrative law judge, allowing new evidence at the 
administrative law judge and Appeals Council stages, and 
maintaining a non-adversarial administrative law judge hearing. 
I want to reemphasize the importance of protecting claimants' 
rights and ensuring that improvements to OHA do not circumvent 
these critical rights. We will be looking carefully at the 
Commissioner's proposal and look forward to working with the 
Commissioner and this Subcommittee in improving disability 
determination and appeals processes. Thank you.
    [The prepared statement of Ms. Ford follows:]
    Statement of Marty Ford, Co-Chair, Social Security Task Force, 
    Consortium for Citizens with Disabilities, and Director, Legal 
      Advocacy, The Arc, and United Cerebral Palsy Public Policy 
                             Collaboration
    Chairman Shaw, Representative Matsui, and Members of the 
Subcommittee, thank you for this opportunity to testify regarding 
management of the Social Security Administration's Office of Hearings 
and Appeals.
    I am Director of Legal Advocacy for The Arc and UCP Public Policy 
Collaboration, which is a joint effort of The Arc of the United States 
and United Cerebral Palsy. I am testifying here today in my role as co-
chair of the Social Security Task Force and the Work Incentives 
Implementation Task Force of the Consortium for Citizens with 
Disabilities. CCD is a working coalition of national consumer, 
advocacy, provider, and professional organizations working together 
with and on behalf of the 54 million children and adults with 
disabilities and their families living in the United States. The CCD 
Social Security and Work Incentives Implementation Task Forces focus on 
disability policy issues in the Title XVI Supplemental Security Income 
program and the Title II disability programs.
    The CCD Task Forces welcome the opportunity to testify here today 
and appreciate your holding a hearing regarding management of the 
Office of Hearings and Appeals.
    As the Subcommittee is aware, 10 million people with disabilities 
under age 65 receive disability benefits: 5.2million people with 
disabilities depend upon Title II disability benefits, 3.5 million 
depend upon Supplemental Security Income disability benefits, and 1.3 
million depend upon a combination of both Title II and SSI disability 
benefits. Therefore, the management and administration of the Title II 
and SSI disability programs are of critical importance to people with 
disabilities and to the members of CCD.
    Claimants for Title II and SSI disability benefits can be very 
vulnerable. The average monthly benefit of people with disabilities in 
the Social Security Disability Insurance program is $834. People with 
disabilities of working age in the SSI program have monthly benefits 
that average $428. Many people applying for disability benefits have 
very low incomes, due to their impairments, and many have mental 
impairments that further complicate the application process and their 
understanding of the requirements for hearings and appeals. Claimants 
for the SSI program tend to have less work experience and education 
than their counterparts applying for Title II disability benefits.
    Unlike most of the witnesses here today, we cannot provide insight 
about the day-to-day management of the Office of Hearings and Appeals. 
What we can provide, however, is an understanding of the impact of 
management problems and failures on people who are intended 
beneficiaries of the Social Security disability programs. I also hope 
that we can imbue a sense of urgency to the discussion, because 
management problems that result in delay impact on the daily lives of 
people with disabilities who must turn to the Office of Hearings and 
Appeals to appeal unfavorable decisions on their claims for benefits 
under Title II or SSI.
    Further, since solutions to management issues are inextricably tied 
to the expected functions of OHA, I also want to reinforce the key 
elements that we believe must remain in the hearings and appeals 
process. This includes preserving a requirement for an Administrative 
Law Judge hearing on the record, allowing new evidence at the ALJ and 
Appeals Council stages, and not having SSA represented at ALJ hearings.
    For people with disabilities, it is critical that the Social 
Security Administration address and significantly improve the process 
for hearings and appeals. The backlog of cases waiting for ALJ and 
Appeals Council decisions is clearly unacceptably long, as so vividly 
and visually illustrated by the Commissioner at this Subcommittee's 
hearing on May 2, 2002. People with severe disabilities who by 
definition have limited earnings from work are often forced to wait 
years for a final decision, from the time of application through the 
final Appeals Council decision. This is damaging not only to the 
individual with a disability and his/her family, but also to the public 
perception of and integrity of the program.
    We believe that it is necessary to reduce unnecessary delays for 
claimants and to make the process more efficient. Improving how the OHA 
functions should not require any significant changes that would 
diminish the fairness of the process in determining a claimant's 
entitlement to benefits.
I. Improving the Office of Hearings and Appeals
    While we cannot address all of the factors that go into making an 
office efficient and productive, there are some elements of the OHA 
structure and practices which come to our attention regularly and could 
be resolved to contribute to a more efficient and productive system of 
hearings and appeals.
Technological Improvements
    We support the Commissioner's efforts to make technological 
improvements at SSA. Whatever funds are necessary should be 
appropriated to ensure that the process works as intended by the law. 
Much of the delay in the current process is caused by a system that 
still requires a great deal of manual labor, including handling and 
transmission of paper files. Several initiatives have been announced 
that could reduce delays, provide better service to the public, and 
would not require fundamental changes to the current process. They 
include: electronic folders (eDIB), digital recording of hearings, and 
video teleconference hearings. We support such modernizations where 
they are used to ensure a full and fair evaluation of a claim and 
ensure the claimant's access to a full and fair hearing on appeal, 
where necessary.
    The electronic folder: ``eDIB.'' The Commissioner is moving forward 
to develop the electronic disability folder, ``eDIB,'' as soon as 
practicable in light of available resources. This would reduce delay 
caused by moving and handing-off folders, allowing for immediate access 
by whichever component of SSA or the DDS is working on the claim. 
Further, this would allow adjudicators to organize files to suit their 
preference.
    In terms of preparing a record for federal district court, eDIB 
would allow for electronic filing of the administrative record, which 
is consistent with the Judicial Conference of the United States' policy 
and initiative to move towards electronic filing of documents and 
pleadings. The Appeals Council has had difficulty reproducing copies of 
the record, whether needed by the claimant or for federal court filing. 
Files are too often lost or difficult to locate, leading to delays at 
the Appeals Council and district court levels. The electronic folder 
would certainly ease the workload in this regard and, consequently, 
reduce delays.
    We believe that using electronic folders will allow much faster 
processing, eliminating delays while folders are moved from place to 
place, avoiding loss of valuable records, and allowing immediate 
recording of updates, new evidence, or other actions regarding the 
file. However, we believe that it is critical to establish that 
electronic files contain all of the claimants' evidence in an exact, 
unalterable electronic copy of the original, including complete copies 
of originals that are received electronically. Important details and 
nuances in the paper reports must not be lost. In addition, nothing 
should preclude the claimant from presenting available evidence in any 
format.
    We do not consider summaries or partial documents acceptable 
substitutes for inclusion in a folder. Technology is now widely 
available to allow such ``paper'' evidence to be fully included in the 
electronic folder without alteration. We urge the Commissioner to 
ensure protection of this valuable, sometimes irreplaceable, evidence 
by requiring that exact, unalterable electronic copies of all originals 
be permanently maintained in the electronic folder. Otherwise, we could 
not support this move toward a fully electronic record.
    Digital recording of hearings. Another important component of 
technological improvement is digital recording of ALJ hearings. 
Currently, hearings are often taped on obsolete tape recorders, which 
are no longer manufactured. If copies are needed, they must be 
transferred to cassette tapes, which is time-consuming. Tapes are 
frequently lost because they are stored separately from the paper 
folder. Given the age of the taping equipment, the quality of tapes is 
often quite poor, which also results in remands from the Appeals 
Council or the district court. A digitally recorded hearing would not 
only be of high audio quality but also would be easy to copy or 
transfer to the district court as part of the administrative record.
    Use of video teleconferencing at ALJ hearings. The Commissioner 
also has announced an initiative to expand the use of video 
teleconference ALJ hearings. This allows ALJs to conduct hearings 
without being at the same geographical site as the claimant and 
representative and has the potential to reduce processing times and 
increase productivity. Claimants and their representatives have 
participated in pilots conducted by SSA and have reported a mixed 
experience, depending on the travel benefit for claimants, the quality 
of the equipment used, and the hearing room set-up.
    In February 2003, SSA published final rules on video teleconference 
hearings before ALJs. In general, we support the rules and the use of 
video teleconference hearings so long as the right to a full and fair 
hearing is adequately protected and the quality of video teleconference 
hearings is assured.
Gather and Protecting Evidence
    It is critical that SSA collect the correct information at the 
earliest possible time in the process to ensure that correct decisions 
are made the first time. SSA must improve the collection of medical and 
non-medical evidence by explaining what is needed and asking the 
correct questions, with appropriate variations for different treatment 
sources.
    Claimants should be encouraged to participate to the extent they 
are able. To that end, SSA should assess, as early in the process as 
possible, the claimant's need for special assistance and provide it. 
Such assistance could be triggered when applicants are unable to read, 
show evidence of cognitive or other mental impairments, or give other 
indications of being unable to negotiate the process alone.
    Evidence that has been gathered must be protected and preserved by 
SSA. We are concerned about the loss of evidence from the Chicago 
office (mentioned in the Advisory for this hearing). It goes without 
saying that allowing contractors to discard potentially important 
evidence from case files can seriously harm claimants. SSA must be 
vigilant in fulfilling its stewardship responsibilities. This is also 
true for the failure to open mail for months at a time in the Milwaukee 
office (as mentioned in the hearing Advisory).
Need to Protect Personal Privacy
    We are disturbed by the reports in the press, discussed at this 
Subcommittee's hearing on July 24, 2003, that contractors for SSA have 
removed files from the OHA offices and taken the files to employees' 
homes to telecommute or work from home. We also learned during the 
hearing that SSA employees are allowed to work on these files at home. 
We are very concerned about this practice and urge that it be halted 
for contractors as well as employees. At a minimum, the following 
concerns should be addressed:

          <bullet>  Personal Medical Information--Case files, by their 
        nature, contain very personal information about an individual's 
        medical conditions and the impact of those conditions on the 
        individual's daily life. Names of health care providers and 
        hospitals are included, as are recommended courses of treatment 
        and prescribed medications.
          <bullet>  Personal Identification Information--Files contain 
        names, addresses, dates of birth, and Social Security Numbers. 
        Access to this information would make identity theft possible.
          <bullet>  Impact of Loss of Files--Files can easily be lost, 
        misplaced, damaged, or destroyed when allowed to be removed 
        from OHA offices. The loss of evidence can create devastating 
        delays for individuals waiting for decisions.

    Even if SSA could assure that its employees and contractors would 
handle all files with the utmost care and responsibility, SSA can make 
no such assurances about the employees'/contractors' family members, 
roommates, houseguests, visitors, or household employees. There are 
also many opportunities for damaging or losing files during 
transportation by car, bus, subway, etc. We urge the immediate halt of 
this ``work at home'' practice, until such time as SSA can reliably 
ensure that all privacy and security concerns have been addressed with 
adequate safeguards.
II. Preserving Major Characteristics of the Current System
    In the effort to ensure that the Office of Hearings and Appeals 
achieves higher efficiency and productivity, it is important not to 
``throw the baby out with the bathwater''. The purpose of OHA is to 
provide claimants with a fair opportunity to appeal unfavorable 
decisions regarding benefits that the individual needs and to which he/
she may be entitled. Improvements in the implementation of OHA's 
responsibilities should not alter the purpose of those responsibilities 
or the rights of the claimants. This Subcommittee has addressed many of 
these issues in past hearings; however, in repeating some of the CCD 
Task Forces' positions here, I wish to emphasize the importance of 
protecting claimants' rights and ensuring that improvements to OHA do 
not circumvent these critical rights.
The Right To A Full And Fair Hearing Befor An Administrative Law Judge
    A claimant's right to a hearing before an Administrative Law Judge 
(ALJ) is central to the fairness of the adjudication process. This is 
the right to a full and fair administrative hearing by an independent 
decision maker who provides impartial fact-finding and adjudication, 
free from any agency coercion or influence. The ALJ asks questions of 
and takes testimony from the claimant, may develop evidence when 
necessary, considers and weighs the medical evidence, evaluates the 
vocational factors, all in accordance with the statute, agency policy, 
including Social Security Rulings and Acquiescence Rulings, and circuit 
case law. Claimants have the right to present new evidence in person to 
the ALJ and to receive a decision from the ALJ that is based on all 
available evidence. These elements of the ALJ hearing should be 
preserved.
Importance of Considering New and Material Evidence
    For claimants, a fundamental principle of the right to an ALJ 
hearing is the opportunity to present new evidence in person to the 
ALJ, and to receive a decision from the ALJ that is based on all 
available evidence. If new and material evidence were available, but 
not allowed at the ALJ hearing, SSA would suffer from public 
perceptions of an agency that makes arbitrary decisions regardless of 
the weight of the evidence available. If the Appeals Council were to 
ignore new and material evidence that relates to the time period before 
the ALJ decision, the public would similarly conclude that the 
disability determination process is arbitrary and flawed.
Restoring the Senior Attorney Position
    In the 1990's, as an initiative to reduce the backlog of cases at 
hearings offices, senior staff attorneys were given the authority to 
issue fully favorable decisions in cases that could be decided without 
a hearing (i.e. ``on the record''). This program was well received by 
claimants' advocates because it provided an opportunity to present a 
case and obtain a favorable result efficiently and promptly. And, of 
most importance, thousands of claimants benefited. While the Senior 
Attorney Program existed, it helped to reduce the backlog by issuing 
approximately 200,000 decisions. Unfortunately, the initiative was 
phased out in 2000.
    We support reinstating senior attorney authority to issue decisions 
in cases that can be favorably decided on the record and support 
expanding ways that they can assist ALJs. For instance, they also can 
provide a point person for claimants' representatives to contact for 
narrowing issues, pointing out complicated issues, or holding pre-
hearing conferences.
Retaining an Informal ALJ Hearings
    We do not support efforts to have SSA represented at the ALJ 
hearing because past experience shows that it does not result in better 
decision-making and reducing delays, but instead injects an adversarial 
element and increases formality and technicality in a system meant to 
be informal and non-adversarial. In the 1980's, SSA tested, and 
abandoned, a pilot project to have the agency represented. It was 
terminated following Congressional criticism and a judicial finding 
that it was unconstitutional and violated the Social Security Act. In 
the end, the pilot did not enhance the integrity of the administrative 
process.
    SSA and the claimant should not be viewed as parties on opposite 
sides of a legal dispute. SSA already has a very heavy say in what goes 
on: SSA implements the law through development and publication of 
regulations, including the medical listings; provides guidance to 
claims workers and Disability Determination Services staff through its 
Program Operations Manual System (POMS); contracts with the states for 
determinations made in accordance with its regulations and POMS; and 
hires the ALJs. The claimant's role is to show that he/she has an 
impairment with limitations that fit within the parameters constructed 
by Congress and implemented by SSA. Very few claimants would have the 
wherewithal to know and understand all of the things that could or 
should pertain to their cases. SSA has a vital role in helping the 
claimant through a very complex process. SSA's role is not to 
``oppose'' the individual's claim; but rather to ensure that people who 
are eligible as contemplated by Congress are enabled, as a result of 
the claims process, to receive the benefits to which they are entitled. 
Where an individual has representation, whether legal or lay 
representation, SSA should view the individual's representative as an 
ally in facilitating the collection of relevant evidence and 
highlighting the important questions to be addressed in making the 
disability determination.
Review By The Appeals Council
    SSA has been testing the elimination of a claimant's right to 
request review of a hearing decision by the Appeals Council. We 
strongly oppose the elimination of a claimant's right to request review 
by the Appeals Council. The Appeals Council currently provides relief 
to nearly one-fourth of the claimants who request review of ALJ 
denials, either through outright reversal or remand back to the ALJ. 
The Appeals Council has made significant improvements in reducing 
processing times and its backlog.
    The Appeals Council, when it is able to operate properly and in a 
timely manner, provides claimants with effective review of ALJ 
decisions. In addition, elimination of Appeals Council review could 
have a serious negative impact on the federal courts. In 1994, the 
Judicial Conference of the United States opposed elimination of the 
claimant's request for review by the Appeals Council prior to seeking 
judicial review in the district courts, stating that such a proposal 
was ``likely to be inefficient and counter-productive.'' The Judicial 
Conference also recognized the Appeals Council's role as a screen 
between the ALJ and federal court levels, noting that ``[c]laimants 
largely accept the outcome of Appeals Council review.'' Further, the 
Conference expressed concern that allowing direct appeal from the ALJ 
denial to federal district court could result in a significant increase 
in the courts' caseloads.
    We agree with the conclusion of the Judicial Conference of the 
United States. Access to review in the federal courts is the last and 
very important component of the hearings and appeals structure. Court 
review is not de novo, but rather, is based on the substantial evidence 
test. We believe that both individual claimants and the system as a 
whole benefit from federal court review. The district courts are not 
equipped, given their many other responsibilities, to act as the 
initial screen for ALJ denials.

    Again, thank you for this opportunity to testify on these important 
issues. The CCD Social Security and Work Incentives Implementation Task 
Forces looks forward to working with the Subcommittee and the 
Commissioner on improving the disability determination and appeals 
processes.

ON BEHALF OF:

American Association on Mental Retardation
American Council of the Blind
American Foundation for the Blind
American Network of Community Options and Resources
Association for Persons in Supported Employment
Association of University Centers on Disabilities
Brain Injury Association of America
International Association of Psychosocial Rehabilitation Services
National Alliance for the Mentally Ill
National Association of Councils on Developmental Disabilities
National Association of Disability Representatives
National Association of Protection and Advocacy Systems
National Mental Health Association
National Organization of Social Security Claimants' Representatives
NISH
Paralyzed Veterans of America
Research Institute for Independent Living
The Arc of the United States
United Cerebral Palsy

                                 <F-dash>

    Chairman SHAW. Thank you, Ms. Ford. Mr. Morris.

      STATEMENT OF RICHARD P. MORRIS, PRESIDENT, NATIONAL 
   ORGANIZATION OF SOCIAL SECURITY CLAIMANTS' REPRESENTATIVES

    Mr. MORRIS. Mr. Chairman, Members of the Subcommittee, I 
want to thank you for inviting me to testify at today's 
hearing. My name is Richard Morris. I am the current President 
of the NOSSCR. The NOSSCR is a national organization with a 
current membership of approximately 3,400 members from both the 
private and public sectors and is committed to the highest 
quality of legal representation for claimants. As an attorney 
in a law firm, I have been representing claimants for the last 
26 years. The majority of my cases are hearings before Social 
Security administrative law judges as well as appeals to the 
SSA's Appeals Council. This is also true for most NOSSCR 
members. A claimant's right to file a request or hearing before 
an administrative law judge is central to the fairness of the 
adjudication process. In addition, the Appeals Council, when it 
is able to operate properly and in a timely manner, provides 
claimants with effective review of administrative law judge 
decisions. Because the administrative law judge hearing is a 
key part of the appeals process, and of critical importance to 
claimants, we have been very concerned that OHA processing 
times continue to be unacceptably high. We agree with the 
Commissioner that reducing the backlog and processing time must 
be a high priority, and we urge commitment to resources and 
personnel to reduce delays and make the process work better for 
the public. We strongly support efforts so long as they don't 
affect the fairness of the process to determine a claimant's 
entitlement to benefits.
    We must provide SSA with adequate resources to meet current 
and future needs. To reduce delays, better develop cases, and 
implement technological advances, SSA requires adequate 
staffing and resources; and we urge commitment of these 
resources and personnel to help resolve the waiting times and 
make the process work better for the benefit of the public. An 
additional personnel problem at OHA is that SSA has not been 
able to fill administrative law judge vacancies for several 
years, and we feel that allowing SSA to operate at a full 
complement of administrative law judges will be an important 
factor in improving processing times. In March, Commissioner 
Barnhart announced an initial series of initiatives that SSA 
planned to implement to improve the hearings and appeals 
process. The NOSSCR generally supports these initiatives. We 
are in favor of short-form favorable decisions, and we feel 
they should be adopted for favorable decisions. When I began 
practicing back in the seventies and eighties, short-form 
decisions were widely and often utilized, and they speeded up 
the processing time of getting out a decision and closing out 
cases. To borrow a phrase, it may be time to go back to the 
future for SSA. Bench decisions ought to be utilized by 
administrative law judges in connection with voice recognition 
software to speed up the processing of cases. Video 
conferencing has the potential to reduce processing time and 
increase productivity. My personal experience with video 
conferencing has been very favorable. It has enabled cases to 
be heard by out-of-town judges that would take many extra 
months to be heard by local judges.
    I am told that digital recording of hearings would result 
in a higher quality product and fewer lost tapes. The quality 
of the present tapes used is often poor because of antiquated 
tape and equipment which results in remands from the Appeals 
Council and the Federal courts rather than adjudication by 
these appellate bodies. It is my understanding that the agency 
has abandoned the HPI initiative, and we applaud this decision. 
My clients and their cases have spent countless months trapped 
in the conundrums caused by HPI, and the delays have proven to 
be unconscionable. However, we strongly urge the continuation 
of the practice of keeping evidentiary records open for new 
evidence. While NOSSCR supports the submission of evidence as 
early as possible so a correct decision may be made as soon as 
possible, there are many legitimate reasons for keeping a 
record open. Often, with managed care being what it is today, 
insurance companies cause long delays in permitting diagnostic 
tests to be performed, and it often takes longer for physicians 
to diagnosis a condition and arrive at an opinion. We do not 
believe, however, that SSA should be represented at the hearing 
level by counsel. I can only imagine how much more delayed the 
scheduling of hearings will be and how much longer the actual 
hearing will take, causing even fewer cases to be heard and 
fewer decisions made each month. I thank you for this 
opportunity to testify, and I would be glad to answer any 
questions that you might have.
    [The prepared statement of Mr. Morris follows:]
  Statement of Richard P. Morris, President, National Organization of 
  Social Security Claimants' Representatives, Midland Park, New Jersey
    Mr. Chairman, Congressman Matsui, and the Members of the Social 
Security Subcommittee, thank you for inviting me to testify at today's 
hearing on the Social Security Administration's Management of the 
Office of Hearings and Appeals (OHA). My name is Richard P. Morris and 
I am the current president of the National Organization of Social 
Security Claimants' Representatives (NOSSCR).
    Founded in 1979, NOSSCR is a professional association of attorneys 
and other advocates who represent individuals seeking Social Security 
disability or Supplemental Security Income (SSI) benefits. NOSSCR 
members represent these individuals with disabilities in legal 
proceedings before the Social Security Administration and in federal 
court. NOSSCR is a national organization with a current membership of 
3,400 members from the private and public sectors and is committed to 
the highest quality legal representation for claimants.
    As an attorney in a four-person law firm in New York City, I have 
represented claimants for the past twenty-six years. While I represent 
claimants from the initial application through the Federal court 
appellate process, the majority of my cases are hearings before Social 
Security Administrative Law Judges and appeals to the Social Security 
Administration's Appeals Council. This also is true for most NOSSCR 
members.
    Initially, I would like to thank the Subcommittee for its support 
of H.R. 743, the Social Security Improvement Act of 2003, which was 
passed by the full House of Representatives in April 2003. The bill 
includes many provisions that will expand protections for claimants and 
beneficiaries. In particular, we thank you for supporting the expansion 
of direct payment of attorneys fees to the SSI program. SSI claimants 
are represented at a significantly lower rate than Title II claimants, 
which is, undoubtedly, one factor in the lower rate of favorable 
decisions for SSI claimants. This provision of H.R. 743 will improve 
the access of SSI applicants to representation, since more attorneys 
will be willing to represent claimants if payment is guaranteed.
    A claimant's right to file a request for hearing before an 
Administrative Law Judge (ALJ) is central to the fairness of the 
adjudication process. This is the right to a full and fair 
administrative hearing by an independent decision-maker who provides 
impartial fact-finding and adjudication, free from any agency coercion 
or influence. The ALJ asks questions and takes testimony from the 
claimant, may develop evidence when necessary, considers and weighs the 
medical evidence, evaluates the vocational factors, all in accordance 
with the statute, agency policy including Social Security Rulings and 
Acquiescence Rulings, and circuit case law. For claimants, a 
fundamental principle of this right is the opportunity to present new 
evidence in person to the ALJ and to receive a decision from the ALJ 
that is based on all available evidence.
    In addition, the Appeals Council, when it is able to operate 
properly and in a timely manner, provides claimants with effective 
review of ALJ decisions. The Appeals Council currently provides relief 
to nearly one-fourth of claimants who request review of ALJ denials, 
either through outright reversal or remand back to the ALJ. The Appeals 
Council has made significant improvements in reducing processing times 
and its backlog. SSA has been testing the elimination of a claimant's 
right to request review of an ALJ hearing decision by the Appeals 
Council. We support the continued right to request review by the 
Appeals Council and oppose implementation of this pilot.
    Because the ALJ hearing is a key part of the appeals process and of 
critical importance to claimants, we have been very concerned that OHA 
processing times continue to be unacceptably high. A claimant cannot 
proceed with an appeal in federal district court until the ALJ and 
Appeals Council have acted. Thus, while their medical and financial 
situations are deteriorating, claimants are forced to wait for many 
months, if not years, before receiving a decision.
    We agree with the Commissioner that reducing the backlog and 
processing time must be a high priority and we urge commitment of 
resources and personnel to reduce delays and make the process work 
better for the public. We strongly support such efforts so long as they 
do not affect the fairness of the process to determine a claimant's 
entitlement to benefits.
PROVIDE SSA WITH ADEQUATE RESOURCES TO MEET CURRENT AND FUTURE NEEDS
    To reduce delays, better develop cases and implement technological 
advances, SSA requires adequate staffing and resources. We urge 
commitment of sufficient resources and personnel to resolve the waiting 
times and make the process work better for the benefit of the public. 
To this end, NOSSCR has testified previously before this Subcommittee 
that it supports removing SSA's administrative budget, like its program 
budget, from the discretionary domestic spending caps.
    An additional personnel problem at the OHA level is that SSA has 
not been able to fill ALJ vacancies for several years, at the same time 
that processing times have increased. This is due to ongoing litigation 
regarding the scoring formula for the ALJ examination used by the 
Office of Personnel Management (OPM). A recent court decision permits 
OPM to resume its examination process. Effective August 25, 2003, OPM 
lifted the suspension on the ALJ examination, which had been in place 
since 1999. This means that OPM will be able to respond to SSA's need 
to fill vacant ALJ positions.
    While the hiring of additional ALJs is not the only answer to 
management issues at OHA, allowing SSA to operate at a full complement 
of ALJs will be an important factor in improving processing times.
SHORT-TERM INITIATIVES TO IMPROVE THE HEARINGS AND APPEALS PROCESS
    In March 2002, Commissioner Barnhart announced an initial series of 
initiatives that SSA planned to implement to improve the hearings and 
appeals process. NOSSCR generally supports these initiatives:
            1. Early screening and analysis
    The goal is to review cases as early as possible. Screening would 
be mandatory and would be done either by senior attorneys or ALJs. 
Cases to be targeted in the screening would include:

          <bullet>  dismissals
          <bullet>  on-the-record decisions
          <bullet>  ``difficult cases'' that need to be set aside for 
        more work

    OHA believes this would involve about 28% of the cases, based on FY 
2001 records.
    We support the expansion of early screening, particularly as it 
pertains to on-the-record decisions. While we strongly believe that 
claimants for disability benefits should retain the right to a de novo 
hearing before an ALJ, we support the use of non-ALJs in one decision 
making situation that could assist ALJs: when a fully favorable 
decision can be issued, without the need for a hearing, i.e., an ``on 
the record'' decision.
    There is precedent for this limited use of non-ALJ decision makers 
at the hearing level. In the 1990's, as an initiative to reduce the 
backlog of cases at hearings offices, OHA senior staff attorneys were 
given the authority to issue fully favorable decisions in cases that 
could be decided without a hearing. At the time, this program was well 
received by claimants' advocates because it offered an opportunity to 
present a case and obtain a favorable result in an efficient and prompt 
manner.
    This program did not impair the claimant's right to a hearing 
before an ALJ. Procedurally, notice of the wholly favorable decision 
was sent to the claimant who, if he or she made the request, could 
still proceed with a hearing before an ALJ. If the senior staff 
attorney could not issue a wholly favorable decision on the record, the 
case was sent to the ALJ who then held a hearing.
    Of most importance, thousands of claimants benefited from this 
program. While the program existed, it helped to reduce the backlog by 
issuing approximately 200,000 decisions. Unfortunately, the initiative 
was phased out in 2000.
            2. Short form favorable decisions
    A short form decision will be adopted for favorable decisions and 
ALJs will be required to use it. The form will meet all regulatory 
requirements. It is estimated that this initiative could reduce 
processing times by 15 days.
            3. Bench decisions
    ALJs would have the discretion to issue bench decisions. Voice 
recognition software would be part of the process. Processing time 
could be reduced by 25 days for the case involved and 2-3 days for 
total processing time.
            4. Expand video teleconferencing
    The Commissioner has announced her plan to expand the use of video 
teleconferencing for ALJ hearings. The initiative has the potential to 
reduce processing times and increase productivity.
    Where available, ALJs can conduct hearings without being at the 
same location as the claimant and representative. Final regulations 
were issued in February 2003. In general, we support the use of video 
teleconference hearings, so long as the right to a full and fair 
hearing is adequately protected and the quality of video teleconference 
hearings is assured. NOSSCR members who have participated in pilots 
have reported a mixed experience, depending on the travel benefit for 
claimants, the quality of the equipment used, and the hearing room set-
up.
            5. Expand use of speech recognition software
    This would be coordinated with the bench decision process.
            6. Digital recording of hearings
    Digital recording of hearings would result in a higher quality 
product, fewer lost tapes at the Appeals Council, and the need for less 
storage space. Currently, hearings are taped on obsolete tape 
recorders. If copies are needed, they must be transferred to cassette 
tapes, which is time-consuming. Our members report that tapes are 
frequently lost at the Appeals Council and federal court levels, 
resulting in yet more delays for claimants. Further, the quality of 
tapes is often quite poor because of the antiquated equipment, which 
also results in remands from the Appeals Council and the federal 
courts.
    Allowing representatives to submit draft favorable decisions. While 
not part of the short-term initiatives announced in March 2002, we 
would like the Commissioner to consider allowing representatives, on a 
nationwide basis, to submit draft favorable decisions to ALJs. 
Currently in some OHAs, but not on a system wide basis, ALJs ask 
representatives to draft a favorable decision, which the ALJ then 
reviews and edits as needed. This process is similar to that used by 
judges in courts and can expedite the decision-writing process where 
delays exist.
    As an experiment, some OHAs are sharing a decision-drafting 
software program, the Favorable Electronic Decisional Shell (FEDS), 
with experienced representatives in the local community. FEDS produces 
a draft Microsoft Word document for use in favorable disabled adult 
claims. With appropriate user input, FEDS distinguishes between Title 
II, Title XVI and concurrent claims and produces suitable language. At 
the end of the FEDS process, a Word document is produced that can be 
proofed, edited and assembled in a final product that is suitable for 
signature by an Administrative Law Judge.
    We believe that expanded use of FEDS for submission of draft 
decisions could reduce the time between the hearing and issuance of the 
decision, especially since use would be limited to favorable decisions.
HEARINGS PROCESS IMPROVEMENT INITIATIVE
    The Hearings Process Improvement Initiative (HPI) was intended to 
improve the ALJ hearing process for claimants by reducing the time to 
receive a decision. It was implemented nationwide in November 2000.
    After the full implementation, NOSSCR members raised numerous, 
critical concerns about the current state of affairs in hearing offices 
around the country. In response to a request from the Office of 
Hearings and Appeals (OHA) in 2001, we asked the more than 3000 NOSSCR 
members for information, observations, and suggestions in order to 
improve the process for claimants. NOSSCR received hundreds of 
responses from members across the country. While there was some 
positive feedback, the overwhelming majority of reports expressed 
extreme dissatisfaction with HPI.
    Clearly, the key concern of our members then, as it is now, was the 
delay in getting a hearing scheduled, and the delay in receiving a 
decision after the hearing was held. After HPI was implemented, the 
average length of time between filing a request for hearing and 
scheduling the hearing drastically increased. In some cases, claimants 
waited more than one year just to have a hearing scheduled. Further, 
because of problems in preparing files for ALJ review, the number of 
hearings scheduled plummeted. A brief sample of comments from our 
members describes the impact of delays on their clients. While these 
refer to the situation in the 2001, the concerns are just as applicable 
today:

          <bullet>  ``My clients are losing their life savings, going 
        without medical treatment and, in some cases, losing their 
        homes.'' New York
          <bullet>  ``Clients call me often asking about the status of 
        their claims--Our clients continue to learn a lot about 
        patience and perseverance.'' Connecticut
          <bullet>  ``My clients are losing their cars, their homes, 
        their spouses, and their sanity.'' Tennessee
          <bullet>  ``The clients don't understand the delays--Despite 
        the fact that these are all TERI [terminally ill] cases, we are 
        running 8-12 months between the request for hearing and the 
        hearing.'' California

    An SSA Executive Task Force, established by former Acting 
Commissioner Massanari to evaluate HPI, provided NOSSCR an opportunity 
to present the complaints voiced by its members. The main problem areas 
we identified included:

          <bullet>  Processing times after the Request for Hearing is 
        filed;
          <bullet>  Development of evidence;
          <bullet>  Lack of on-the-record decisions;
          <bullet>  Conduct of hearings; and
          <bullet>  Processing times after the hearing

    Specific concerns included duplicate requests for medical evidence; 
inability to speak to a ``point'' person on the case; mail not being 
associated with the file prior to the hearing; organization of files; 
preparing cases for hearing; and confusion over when a case is ready 
for hearing.
    Some of the recommendations NOSSCR presented to the Task Force 
included:

          <bullet>  Creating the same claims folder earlier in the 
        process;
          <bullet>  Reinstating senior attorney authority to issue 
        decisions in certain cases;
          <bullet>  Identifying a ``point'' person who is available to 
        ensure that a case is ready for hearing;
          <bullet>  Better mechanism for review of requests for on-the-
        record decisions;
          <bullet>  Single requests for information; and
          <bullet>  Advance notice of hearings so that submission of 
        evidence can be targeted.

    It previously was announced that the Executive Task Force would 
issue a final evaluation report on HPI by October 31, 2001. It is our 
understanding that a report was not issued. However, in 2002, 
Commissioner Barnhart announced that she was not going to implement 
HPI. NOSSCR supported this decision.
    While NOSSCR supported the goals of HPI, we approached the HPI 
plan, as we would any plan to change the hearings process, with serious 
concerns for any violations of a claimant's due process rights to a 
full and fair hearing, as well as any encroachments on the decisional 
independence of ALJs.
OTHER ISSUES AT THE OHA LEVEL
    Last year, the Commissioner stated that she would be proposing 
changes to the administrative appeals process. Though not yet 
announced, a number of proposals to change the disability determination 
process have been issued. We strongly support efforts to reduce 
unnecessary delays for claimants and to make the process more 
efficient, so long as these changes do not affect the fairness of 
proceedings and protect the rights of claimants. In addition to 
retaining the right to a hearing before an ALJ, there are other 
concerns that are of critical importance to claimants.
    Keep the record open for new evidence. Many of the recent proposals 
recommend that the record be closed to new evidence after the ALJ 
hearing level. In the past, similar proposals have been rejected by 
both SSA and Congress because they are neither beneficial to claimants 
nor administratively efficient for the agency.
    Under current law, new evidence can be submitted to an ALJ and it 
must be considered in reaching a decision. However, the ability to 
submit new evidence and have it considered becomes more limited at 
later levels of appeal.
    NOSSCR strongly supports the submission of evidence as early as 
possible, since it means that a correct decision can be made at the 
earliest point possible. However, there are many legitimate reasons why 
evidence is not submitted earlier and thus why closing the record is 
not beneficial to claimants, including: (1) worsening of the medical 
condition which forms the basis of the claim; (2) factors outside the 
claimant's control, such as medical provider delay in sending evidence; 
and (3) the need to keep the process informal and focused on 
determining whether the individual is eligible for disability benefits 
to which he or she is statutorily entitled.
    SSA should not be represented at the ALJ level. We do not support 
proposals to have SSA represented at the hearing level. Past 
experience, based on a failed project in the 1980's, demonstrated that 
government representation at the hearing level led to extensive delays 
and made hearings inappropriately adversarial, formal, and technical. 
Based on the intended goals of better decision-making and reducing 
delays, the pilot project was an utter failure.
    In addition, the financial costs could be very high. Given the past 
experience and the high costs, we believe that the limited dollars 
available to SSA could be put to better use by assuring adequate 
staffing at the DDSs and OHAs and developing better procedures to 
obtain evidence.

    Thank you for this opportunity to testify before the Subcommittee 
on issues of critical importance to claimants regarding management of 
OHA. I would be glad to answer any questions that you have.

                                 <F-dash>

    Chairman SHAW. Thank you, Mr. Morris. Judge.

   STATEMENT OF THE HONORABLE RONALD G. BERNOSKI, PRESIDENT, 
            ASSOCIATION OF ADMINISTRATIVE LAW JUDGES

    Mr. BERNOSKI. Thank you, Mr. Chairman. We believe that the 
Commissioner's statement this morning was positive and 
constructive, and we will cooperate with her in any way that we 
can to make the process more efficient for the American people. 
There has been, Mr. Chairman, a longstanding problem with the 
relationship of Social Security with the adjudication function 
in the agency. This problem developed when the policymaking 
part of the agency started asserting its influence on the 
adjudication component, which led to conflict. The problem was 
elevated during the eighties during the Bellman review program, 
and again appeared when the agency started the new HPI plan 
without conferring with us or other employee groups in the 
agency. The chief judge of the agency was also against the 
adoption of HPI. The HPI has been a failure because it removed 
the support staff from the judges and placed them in work 
groups. The judges lost control of their work products. Staff 
employees were moved from positions they performed well to 
decision-writing positions that they were not trained or 
qualified to perform. The hearing offices were placed in a 
state of confusion. Mail and exhibits were frequently not 
filed, and files were frequently lost. There has been an 
elimination of individual responsibility for staff work 
product, and the quality of the decision writing has declined. 
As a result of HPI, case backlogs have increased, and employee 
morale is declining. By the end of 2002, as the Commissioner 
noted, there was an increase of 191,000 cases waiting to be 
prepared for judge review; and as the Commissioner also noted, 
we did a survey of our judges which showed that many of them 
would have scheduled more hearings if they had had the cases 
available.
    Most of these problems, I want to emphasize, were present 
in the Milwaukee office, and were highlighted in the articles 
that appeared in the newspaper. However, despite these 
problems, the judges have tried to make some changes and have 
produced large numbers of cases. During the last year, the 
Social Security judges disposed of about 531,000 cases. This 
production actually exceeds the projections of the redesign 
program, which estimated that a judge could produce between 25 
to 55 cases a month. At recent meetings with the Associate 
Commissioner, which you alluded to, with our organization, he 
stated that the judges were now producing 2.6 cases a day, 
which, as we indicated, translates to 52 to 65 cases a month. 
The Commissioner refined these facts during her testimony. I 
want to bring to your attention, that this production has not 
been easy in the difficult work environment that has been 
presented by HPI. Some judges in the Cleveland office tried to 
improve the system and reduce processing time by using pre-
hearing orders to have all of the evidence at the hearing. The 
agency resisted this effort and has filed insubordination 
charges against them before the Merit Systems Protection Board. 
The Association of Administrative Law Judges has been a leader 
in calling for change. We have met with agency officials, 
Members of Congress, their staffs, the Social Security Advisory 
Board, and other groups. Some of the suggestions that we have 
made included the following--a support staff should be assigned 
to a particular judge. Each judge must be in charge of their 
work product. Decision writing must be improved, and each judge 
should be assigned a clerical worker, a paralegal, and a staff 
attorney.
    I was encouraged to hear that the Commissioner said today 
that she is going to address these issues as part of her reform 
program. The change, however, that we believe is essential is 
that there should be a separation of the adjudication function 
from the policymaking function of the agency. A separate 
adjudication agency should be created or, in the alternative, 
the adjudication function within the agency should be placed 
under the control of a chief judge who reports directly to the 
Commissioner. We have presented these reforms to the Committee 
in some detail in other written statements. One of the tenets 
of our reform, Mr. Chairman, is increased accountability for 
the entire system. Accordingly, we have recommended adopting 
the American Bar Association Code for administrative law 
judges. This Code provides a standard for maintaining, 
enforcing, and observing the highest standards of professional 
conduct. We also believe that the current disciplinary process 
for the administrative law judges under the Administrative 
Procedures Act (P.L. 79-404) should continue. In closing, with 
regard to the Chicago regional office and the newspaper 
articles that reported the destruction of exhibits in the 
contracting-out process for the assembly of case files, I think 
the lesson to be learned from that experience is that this is 
not a simple task. It cannot be done at minimal occupational 
levels. There is some skill and some expertise involved in this 
particular function. The destruction of evidence is not 
acceptable and could result in serious harm to claimants, as 
you have stated; and we believe that these charges should be 
investigated by either the agency or this Subcommittee. Thank 
you very much.
    [The prepared statement of Mr. Bernoski follows:]
 Statement of The Honorable Ronald G. Bernoski, President, Association 
 of Administrative Law Judges, and Administrative Law Judge, Office of 
               Hearings and Appeals, Milwaukee, Wisconsin
    Mr. Chairman and Members of the Subcommittee:
I. INTRODUCTION
    Thank you for the opportunity to testify before you today. My name 
is Ronald G. Bernoski. I am an Administrative Law Judge (``ALJ'') who 
has been hearing Social Security disability cases at the Office of 
Hearings and Appeals (``OHA'') of the Social Security Administration 
(``SSA'') in Milwaukee, Wisconsin, for over 20 years.
    This statement is presented in my capacity as the President of the 
Association of Administrative Law Judges (``AALJ''), which represents 
the administrative law judges employed in the SSA OHA and the 
Department of Health and Human Services (``DHHS''). One of the stated 
purposes of the AALJ is to promote and preserve full due process 
hearings in compliance with the Administrative Procedure Act (``APA'') 
for those individuals who seek adjudication of Social Security Act 
benefits program entitlement disputes within the SSA.
II. THE ROLE OF SSA ADMINISTRATIVE LAW JUDGES
            A. The ALJ Function
    The hearing system of the SSA is one of the oldest in the Federal 
system. The Social Security hearings and appeals system started in 1940 
with 12 referees and it has grown into the largest institution for the 
administration of justice in the western world. The first Chairman of 
the Office of the Appeals Council (now Office of Hearings and Appeals) 
was the Honorable Joseph E. McElvain. Chairman McElvain was 
particularly interested in the decisional independence of the referees. 
In fact, in 1966 he told an interviewer that decisional independence of 
the Appeals Council had been a concern to him even before he agreed to 
head the organization. Chairman McElvain went on to tell the 
interviewer that he continued to protect the independence of the 
referees, even insisting on completely separate office space for the 
referees in the Regional Offices.<SUP>[1]</SUP>
---------------------------------------------------------------------------
    \[1]\ A Quest For Quality, Speedy Justice, Department of Health and 
Human Services, Social Security Administration, (1991, pages 1 and 2).
---------------------------------------------------------------------------
    In 1946, the Congress adopted the APA to ensure that the American 
people were provided hearings that were not prejudiced by undue agency 
influence. The securing of fair and competent hearing adjudicators was 
viewed as the heart of the APA.
    The U.S. Supreme Court acknowledged the history and tradition of 
the Social Security hearing system in the case of Richardson v. 
Perales, 402 U.S. 389, 409 (1971), when the Court stated that:

         We need not decide whether the APA has general application to 
        Social Security disability claims, for the Social Security 
        administrative procedure does not vary from that prescribed by 
        the APA. Indeed, the latter is modeled upon the Social Security 
        Act.

    In Universal Camera Corp. v. National Labor Relations Board, 340 
U.S. 474, 495 (1951), the U. S. Supreme Court discussed the impact of 
the APA on the function of the hearing examiners (now Administrative 
law judges) as follows:

         Sec. 11 of the Administrative Procedure Act contains detailed 
        provisions designed to maintain high standards of independence 
        and competence in examiners. . . . Both statutes thus evince a 
        purpose to increase the importance of the role of examiners in 
        the administrative process.

    In Butz v. Economou, 438 U.S. 478, 513-514 (1978), the U.S. Supreme 
Court defined the function and authority of a Federal ALJ in some 
detail. The Court described this function as follows:

         There can be little doubt that the role of the modern hearing 
        examiner or administrative law judge within this framework is 
        ``functionally comparable' to that of a judge. His powers are 
        often, if not generally, comparable to those of a trial judge. 
        He may issue subpoenas, rule on proffers of evidence, regulate 
        the course of the hearing, and make or recommend decisions. . 
        .More importantly, the process of agency adjudications is 
        currently structured so as to assure that the hearing examiner 
        exercises his independent judgment on the evidence before him, 
        free from pressures by the parties or other officials within 
        the agency. Prior to the Administrative Procedure Act, there 
        was considerable concern that persons hearing administrative 
        cases at the trial level could not exercise independent 
        judgment because they were required to perform prosecutorial 
        and investigative functions as well as their judicial work . . 
        . and because they were often subordinate to executive 
        officials within the agency. . . . Since the securing of fair 
        and competent hearing personnel was viewed as ``the heart of 
        formal administrative adjudication,'' . . . the Administrative 
        Procedure Act contains a number of provisions designed to 
        guarantee the independence of hearing examiners. They may not 
        perform duties inconsistent with their duties as hearing 
        examiners. . . . When conducting a hearing under the APA, a 
        hearing examiner is not responsible to or subject to the 
        supervision or direction of employees or agents engaged in the 
        performance of investigative or prosecution functions for the 
        agency. . . . Nor may a hearing examiner consult any person or 
        party, including other agency officials, concerning a fact at 
        issue in the hearing, unless on notice and opportunity for all 
        parties to participate. . . . Hearing examiners must be 
        assigned to cases in rotation so far as practicable. . . . They 
        may be removed only for good cause established and determined 
        by the Civil Service Commission after a hearing on the record. 
        . . . Their pay is also controlled by the Civil Service 
        Commission.

    The Supreme Court recently reaffirmed its holdings in Butz that a 
Federal ALJ's role is similar to that of a trial judge and that 
administrative adjudications are similar to judicial proceedings when 
it held that state sovereign immunity bars the Federal Maritime 
Commission from adjudicating a private party's complaint against a non-
consenting state. Federal Maritime Commission v. South Carolina State 
Ports Authority, 535 U.S. 743, 756-757 (2002).
    It was to protect this decisional independence, that Congress 
established the APA system which kept the ALJs in the agencies as 
``qualified employees,'' but then provided them with additional 
safeguards to protect their judicial independence. Congress did 
consider establishing a separate corps of ALJs, but instead decided to 
maintain the ALJs within the agencies. In Ramspeck v. Federal Trial 
Examiners Conference, 345 U.S. 128, 131-32 (footnotes omitted) (1953), 
the U.S. Supreme Court stated that the Committee recommended that 
hearing examiners (now administrative law judges) be made partially 
independent of the agency by which they are employed. The Court stated 
that:

         Several proposals were considered, and in the final bill 
        Congress provided that hearing examiners should be given 
        independence and tenure within the existing Civil Service 
        system.

         Congress intended to make hearing examiners ``a special class 
        of semi-independent subordinate hearing officers'' by vesting 
        control of their compensation, promotion and tenure in the 
        Civil Service Commission to a much greater extent than in the 
        case of other federal employees.

    There is a long history of conflict from SSA management's intrusion 
of its policymaking function into the adjudication function of the SSA 
ALJs. In the 1980s, the SSA attempted to assert undue influence on the 
ALJs to force them to award fewer disability claims. This devastating 
agency action led to litigation between the AALJ and the agency. This 
agency policy shows the effect that undue agency influence on 
decisional independence can have on the American people. In Association 
of Administrative Law Judges, Inc. v. Heckler, 594 F.Supp. 1132 
(1984),the Federal District Court Judge stated that:

         In sum, the Court concludes, that defendants' unremitting 
        focus on allowance rates in the individual ALJ portion of the 
        Bellmon Review Program created an untenable atmosphere of 
        tension and unfairness which violated the spirit of the APA, if 
        no specific provision thereof. Defendants' insensitivity to 
        that degree of decisional independence the APA affords to 
        administrative law judges and the injudicious use of phrases 
        such as ``targeting'', ``goals'' and ``behavior modification'' 
        could have tended to corrupt the ability of administrative law 
        judges to exercise that independence in the vital cases that 
        they decide.

    The American Bar Association also recognized the valor of the SSA 
ALJs in resisting agency action and in protecting the Constitutional 
due process rights of the American people. In 1986, the American Bar 
Association issued a citation to the SSA ALJs that provided as follows:

         Be It Resolved, the American Bar Association hereby commends 
        the Social Security Administrative Law Judge Corps for its 
        outstanding efforts during the period from 1982 to 1984 to 
        protect the integrity of administrative adjudication within 
        their agency, to preserve the public's confidence in the 
        fairness of governmental institutions and to uphold the rule of 
        law.

    This citation is an outstanding tribute to the honesty and 
professionalism of the SSA ALJ corps. It commends the Social Security 
judges in three areas of distinction; (1) protecting the integrity of 
the administrative adjudication process in the agency, (2) preserving 
the public's confidence in the fairness of governmental institutions, 
and (3) upholding the rule of law. Any of these tributes standing alone 
merit distinction.
    The Congress also has recognized the importance of the ALJ as an 
independent decision maker in Social Security cases. The Congress has 
reviewed the function of the ALJ in the SSA. In 1983, a Senate 
Subcommittee on Oversight of Government Management of the Committee on 
Governmental Affairs conducted a hearing that inquired into the role of 
the ALJ in the Title II Social Security Disability Insurance Program. 
The Committee issued its findings on September 16, 1983, which provided 
in part as follows:

         The APA mandates that the ALJ be an independent impartial 
        adjudicator in the administrative process and in so doing 
        separates the adjudicative and prosecutorial functions of an 
        agency. The ALJ is the only impartial, independent adjudicator 
        available to the claimant in the administrative process, and 
        the only person who stands between the claimant and the whim of 
        agency bias and policy. If the ALJ is subordinated to the role 
        of a mere employee, and instrument and mouthpiece for the SSA, 
        then we will have returned to the days when the agency was both 
        prosecutor and judge.<SUP>[2]</SUP>
---------------------------------------------------------------------------
    \[2]\ S. Report 98-111.

    The conflict from SSA management's intrusion of its policymaking 
function into the adjudication process of the SSA ALJs has continued, 
as is stated below.
            B. Recent Abuse of the Merit System Protection Board 
                    Disciplinary Process for ALJs by SSA
    The law provides that an action may be taken against an ALJ by an 
agency for good cause established and determined by the Merit Systems 
Protection Board (``MSPB''). The actions permitted by the law include 
removal, suspension, reduction in grade, reduction in pay, and furlough 
for 30 days or less.<SUP>[3]</SUP>
---------------------------------------------------------------------------
    \[3]\ 5 U.S.C.  7521.
---------------------------------------------------------------------------
    We are concerned that the SSA now has adopted a policy to use the 
disciplinary process of the MSPB as a means to interfere with the 
legally protected judicial independence of ALJs in the wake of a recent 
MSPB decision to end an ALJ's right to file a constructive removal 
complaint with the MSPB pursuant to the APA to redress his or her 
employing agency's interference with the ALJ's judicial independence 
that is guaranteed by the APA, unless the interference results in an 
actual involuntary termination of the ALJ's employment.<SUP>[4]</SUP> 
In the Chicago Region, the agency has filed charges against three ALJs 
in the Cleveland, Ohio, hearing office for sending pre-hearing orders 
to claimant representatives requesting that they have the evidence in 
the case submitted prior to the hearing date. The letter requests the 
representatives to send the evidence to the group leader. The agency 
claims that this is an ``assignment of work'' which is a function that 
only management personnel can perform. The Regional Chief ALJ ordered 
the judges to stop sending these letters which has lead to a charge of 
insubordination and a request for a 15 day suspension from duty. This 
action will have a ``chilling effect'' on judicial independence. It is 
of even greater concern because the orders are consistent with the 
directions of the SSA OHA Associate Commissioner to use pre-hearing 
orders to aid in having cases ready to decide at the close of the 
hearings.
---------------------------------------------------------------------------
    \[4]\ A significant means by which the APA provisions for ALJ 
judicial independence is enforced has been removed by the MSPB in Tunik 
v. Social Security Administration, 2003 MSPB LEXIS 361 (June 27, 2003). 
In Tunik, the MSPB barred an ALJ constructive removal complaint that 
was brought by an ALJ employed by SSA under 5 U.S.C.  7521, the 
removal section of the APA, and 5 C.F.R.  1201.142 to redress agency 
interference with the ALJ's judicial independence on the ground that 
the MSPB has jurisdiction over such a constructive removal action under 
that statute only when the ALJ is involuntarily separated, and thus 
``removed,'' from his ALJ position. Examples given of involuntary 
separation include a retirement or resignation that was not voluntary.
      In this decision, the MSPB expressly overturned its 1985 decision 
in In re Doyle, 29 M.S.P.R. 170. Doyle states that an ALJ who still is 
employed as an ALJ may file a complaint with the MSPB under 5 U.S.C.  
7521 that alleges that his employing agency has interfered with his 
qualified decisional independence to the extent that the interference 
constitutes an unauthorized action under 5 U.S.C.  7521. After issuing 
Doyle, the MSPB promulgated a regulation, 5 C.F.R. 1201.142, that is in 
accord with the Doyle holding. The MSPB states in Tunik that Doyle and 
the related regulation permitted an ALJ who still is employed as an ALJ 
to establish that he has been constructively removed from his ALJ 
position under 5 U.S.C.  7521 if his employing agency interferes with 
his decisional independence by actions such as reassigning some of his 
work, giving him directions on how his duties should be carried out, 
seeking to send him to training, or not assigning cases to him that he 
should have received. The MSPB now states the Doyle interpretation of 
what is a ``removal'' under 5 U.S.C.  7521 is incorrect, and that the 
MSPB will overrule Doyle and later issue new regulations to conform to 
its new interpretation of the statute that is set forth in Tunik.
      The MSPB's strict construction of the APA removal section 
eliminates a currently employed ALJ's legal capacity to challenge 
independence-destroying agency action, such as the agency's changing 
the ALJ's workload or cases assigned, the agency telling the ALJ how to 
handle hearings, decide cases, and otherwise do the ALJ's work, and 
sending the judge to ``counseling'' or ``training'' simply because the 
agency does not like the outcome of the ALJ's cases. In fact, in 
reliance upon Tunik, the MSPB has reopened and dismissed appeals in two 
other pending SSA ALJ constructive removal cases on the ground that a 
prerequisite for the MSPB's ``jurisdiction over such a removal appeal 
is that the appellant no longer occupies an ALJ position. In other 
words, the [MSPB] has jurisdiction over a complaint filed by an ALJ . . 
. only if the agency has separated or reassigned an ALJ from his 
position as an ALJ, or the ALJ establishes that a separation which he 
requested, such as a resignation, was actually involuntary and thus 
should be treated as a removal.'' Dethloff, et al. v. Social Security 
Administration, 2003 MSPB LEXIS 411 (July 28, 2003); Schloss v. Social 
Security Administration, 2003 MSPB LEXIS 423 (July 28, 2003).
---------------------------------------------------------------------------
    The SSA ALJs have devoted their professional careers to providing 
full and fair hearings for the American people, as required by the 
Constitution and the APA. The SSA ALJs have a rich and proud history 
dedicated to protecting the rights of the American people. As the 
foregoing shows, this feat has not been accomplished without personal 
risk to the ALJs, including threats of discipline. These actions by the 
SSA ALJs show that judicial independence is for the protection of the 
American people and not for the protection of the judge.
            C. SSA ALJ Productivity
              1.  Using Agency Data, Overall ALJ Productivity Is at a 
                    Record High Level
    ALJs in the SSA have responded to the expectations of the Congress 
and have worked hard to protect the rights of the American people by 
providing them with full and fair hearings for benefits claims arising 
under the Social Security Act. During fiscal year 2002, the 
approximately 1,150 to 1,200 ALJs of the SSA issued about 531,000 
cases.<SUP>[5]</SUP> This is more cases than any other administrative 
judicial system in the world.
---------------------------------------------------------------------------
    \[5]\ Memorandum, From Associate Commissioner A. Jacy Thurmond, 
Jr., dated October 1, 2002.
---------------------------------------------------------------------------
    At recent meetings with representatives of the AALJ, the Associate 
Commissioner of OHA stated that the ALJs of the agency were issuing 
case dispositions at the rate of 2.6 cases per judge per day (or 52.0 
to 65.0 cases on a monthly basis), which he characterized as a ``record 
high level of productivity.''
    This level of case dispositions is at the high end or exceeds 
agency expectations. During the 1990's, the agency worked on developing 
a plan for a new disability process which became known as ``Redesign.'' 
As part of this plan, a timeline or benchmark criteria was created for 
the times required to complete the various parts of the disability 
process. Based on this criterion, the SSA concluded that an ALJ can 
reasonably produce between 24.7 to 54.5 cases a month.<SUP>[6]</SUP> 
Present overall ALJ productivity of 52.0 to 65.0 cases per month 
(depending on if it is a four or five week month) is at the high end or 
exceeds this agency benchmark.
---------------------------------------------------------------------------
    \[6]\ Plan for a New Disability Claim Process, Social Security 
Administration, September 1994.
---------------------------------------------------------------------------
              2.  The Agency Formula for Calculating ALJ Productivity 
                    Understates ALJ Productivity
    The disposition productivity index for ALJs should be the ratio of 
total dispositions divided by actual time the ALJ is at work. This is 
the formula that the agency uses to calculate the productivity index 
for Senior Attorneys and decision writers.<SUP>[7]</SUP> Each hour a 
Senior Attorney or decision writer is absent from duty due to ``leave, 
holiday, or compensatory time'' is deducted from availability. However, 
with regard to ALJs, the agency understates ALJ productivity by using a 
different formula that significantly overstates ALJs' actual time at 
work. Unlike any other SSA OHA employee, an ALJ must be absent for many 
days during a month before there is any reduction in the time that the 
ALJ is considered to be at work.<SUP>[8]</SUP> This results in an 
understatement of the ALJ's productivity. Congress should require the 
agency to justify its method of calculating ALJ productivity.
---------------------------------------------------------------------------
    \[7]\ Hearing Office Tracking System (HOTS) Report Manual, Section 
C--Monthly Activity Report 20, 29 (MARS INSTRUCTIONS--SEPTEMBER 2000) 
hereinafter MARS.
    \[8]\ MARS at 3.
---------------------------------------------------------------------------
              3.  The OHA Associate Commissioner Agrees that 
                    Productivity of Individual ALJs cannot be Compared 
                    to Each Other
    On April 29, 2003, the OHA Associate Commissioner issued a 
memorandum to all OHA employees, the purpose of which was to clarify 
information that the agency recently had released in response to a FOIA 
request for certain ``ALJ-specific information.'' The memorandum 
contained an attachment which responded to the question of ``why 
numbers of hearing decisions and allowance rates sometimes vary by 
administrative law judge.'' The Associate Commissioner explained:

        Why Numbers of Hearing Decisions and Allowance Rates
        Sometimes Vary By Administrative Law Judge

    Attached are the decisional outcomes for the administrative law 
judges (ALJ) covered by your FOIA request. When reviewing the data, one 
must be careful to avoid misinterpretation. For example: There are 
significant differences in the number of cases decided by each ALJ 
during fiscal year (FY) 2002. A simple comparison of these totals can 
be misleading. Some of these Judges did not work on cases fulltime for 
the entire FY. For example, some served on details for part of the 
year; others were not on duty for the full year. Still others are 
management administrative law judges not expected to carry full 
dockets. There is also a large Medicare workload not included in these 
numbers which may have fallen more heavily on some Judges.
    All Administrative law judges do not allow, deny or dismiss the 
same percentage of cases. That such variance exists should not be 
surprising given the many factors at play in the hearing process. 
Examples include:

          <bullet>  The ALJs who serve as Hearing Office Chief Judges 
        sometimes handle a large portion of the dismissal workload, 
        particularly those that involve late filing.
          <bullet>  Depending upon the types of cases worked, these 
        differences could either increase or decrease individual 
        allowance rates. Factors such as the age of claimants, their 
        education and work history, and the nature of their impairments 
        can affect outcomes.
          <bullet>  The demographics of different regions play a part 
        in the ``mix'' of cases, and thus the allowance/denial/
        dismissal rates vary from region to region.
          <bullet>  To expedite the hearing process, some Judges are 
        involved in Agency initiatives identifying cases that can be 
        paid without a hearing. Decisions on a large number of those 
        cases will increase a given Judge's allowance rate.
          <bullet>  ALJs are independent decision-makers. They cannot 
        be influenced by the Agency into issuing specific decision 
        (i.e., favorable or unfavorable). A part of the variation seen 
        here is evidence of that independence.
          <bullet>  When issuing decisions, Judges rely on SSA law, 
        regulations and rulings. However, they are also influenced by 
        case law, which can and does vary among the judicial 
        circuits.<SUP>[9]</SUP>
---------------------------------------------------------------------------
    \[9]\ Memorandum, To All OHA employees, From A. Jacy Thurmond, Jr., 
Associate Commissioner, Office of Hearings and Appeals, Social Security 
Administration, dated April 29, 2003, Refer to: 73-300-4410.
---------------------------------------------------------------------------
            D.  Other Needs to Ensure that the American Public Receives 
                    Timely and High Quality Hearings and Decisions from 
                    SSA ALJs
              1.  The Need to Adopt the ABA Model Code of Judicial 
                    Conduct for Federal Administrative Law Judges
    We recognize that judicial independence of ALJs is for the 
protection of the American public and not for the protection of the 
judges. We have long requested the agency to join with us in an effort 
to adopt the American Bar Association Model Code of Judicial Conduct 
for Federal Administrative Law Judges. The Code covers the professional 
conduct of ALJs. The goal of the Code is to provide for an independent 
and responsive administrative judiciary that is indispensable to 
justice in our society. It provides that ALJs should participate in 
establishing, maintaining, enforcing, and observing the highest 
standards of conduct so that the integrity and independence of the 
administrative judiciary may be preserved.<SUP>[10]</SUP> We believe 
that the Code should be made applicable to all ALJs in the Federal 
service.
---------------------------------------------------------------------------
    \[10]\ American Bar Association, Model Code of Judicial Conduct for 
Federal Administrative Law Judges, February, 1989.
---------------------------------------------------------------------------
              2.  The Need for Judicial Deliberativeness
    According to information published in The OHA Law Journal, a Social 
Security Disability case is valued at about $200,000.<SUP>[11]</SUP> We 
suggest that it is not too much to allow a judge to spend on the 
average of four hours of work time on a case that could cost the Social 
Security trust fund $200,000 or more.
---------------------------------------------------------------------------
    \[11]\ The OHA Law Journal, The Social Security Administration, The 
Office of Hearings and Appeals, Vol.5/No.1, Appellate Administrative: A 
Comparative Survey, Winter 1995, page 12.
---------------------------------------------------------------------------
              3.  The Need for a Permanent Chief Administrative Law 
                    Judge
    We have been without a Chief ALJ for over two years and in the last 
ten years we have had a permanent Chief Judge for only half of the 
time. This professional leadership is necessary to provide national 
guidance and policy for ALJ adjudication function of the agency. The 
Chief ALJ is a vital component of the agency and is responsible for all 
field adjudication operations.
              4.  The Need for the Agency to Access the ALJs as a 
                    Resource for Improvements of the Adjudication 
                    Process
    The ALJs are a valuable resource for the agency and are employed 
after a rigorous merit-based civil service selection process. Our ALJs 
have a broad range of legal, judicial and other leadership experience 
upon which the agency can draw for suggestions to improve the 
adjudication process. The AALJ stands ready to work with the 
Commissioner on improving the hearing process for the benefit of the 
American people.
III. THE MILWAUKEE HEARING OFFICE
    Recent articles have appeared in a local newspaper in the city of 
Milwaukee that reported ``wide-ranging mismanagement at the Milwaukee 
office.'' The articles reported problems in the office which include 
hundreds of backlogged cases, more than 700 pieces of unopened mail, 
delay, mail not filed, a chaotic work environment, unprocessed mail, 
and medical exhibits not filed. The problems described in the Milwaukee 
office are generally correct. However, according to the information 
that we have received from our judges, these same problems are present 
to a greater or lesser extent in many other Social Security hearing 
offices. It also is clear that the problems in the Milwaukee hearing 
office are not directly related to the employees in the office, but 
instead are directly related to the agency reform plan known as the 
Hearing Office Improvement Plan (``HPI''). HPI was implemented without 
meaningful consultation with the AALJ by the agency in January 2000. 
The goal of HPI was to (1) reduce processing times; (2) improve quality 
and productivity; (3) promote individualized case management; and (4) 
increase employee job satisfaction.<SUP>[12]</SUP> The ``key element of 
the HPI process was the creation of ``processing groups.'' This change 
removed the support staff from the ALJs and placed them in several 
small teams under the control of management personnel. The plan also 
resulted in many support staff employees being moved from positions 
that they could perform very well to decision writer positions that 
they were not qualified to perform. The result has been devastating. 
The hearing offices have been placed in a state of confusion, mail has 
been frequently lost or not filed, hearing exhibits frequently have 
been misplaced and often are not included in the hearing exhibit file, 
sufficient cases have not been prepared for administrative law judge 
hearings, and the quality of the decision writing has substantially 
declined and in many cases is not legally sufficient at a minimum 
level. The judges have no assigned staff. No particular staff person is 
dedicated to work on the work product of a particular judge. The result 
has been the elimination of individual responsibility for staff work 
product and the creation of general office confusion and employee 
despair. The HPI experiment has been a failure and it has not 
accomplished any of its intended goals. Processing times are 
increasing, quality and productivity is declining, individual 
responsibility for staff work product has been eliminated, and employee 
morale has substantially declined. Reports and studies by the SSA 
Office of the Inspector General, SSA Office of Workforce Analysis, and 
United States General Accounting Office all have been critical of HPI.
---------------------------------------------------------------------------
    \[12]\ The New Hearing Office Process Hearings Process Improvement 
Plan, October 21, 1999, page 1.
---------------------------------------------------------------------------
    Additional problems in the Milwaukee hearing office relate to the 
fact that the office is authorized to have approximately 14 ALJs and 10 
ALJs are currently assigned to the office. The office is authorized to 
have about 50 support staff employees (including management) and 43 
support staff employees are currently assigned to the office. During 
the last year, 7 support staff employees have left the office and no 
new employees have been hired to fill these vacancies. The Milwaukee 
hearing office has a satellite office in Madison, Wisconsin, which is 
authorized to have 2 ALJs and 8 support staff employees. The service 
area for the Milwaukee hearing office includes most of the State of 
Wisconsin and most of the Upper Peninsula of Michigan.
    The agency long has encouraged us to ``do more with less,'' but any 
organization or system will show severe signs of stress when it reaches 
its culmination point. Therefore, we strongly recommend that the 
problems caused by HPI be immediately addressed by this Subcommittee 
and the agency. The ALJs should be placed in control of their work 
products with dedicated support staff assigned to work on the work 
product of each ALJ. The hearing offices should be brought to full 
authorized staffing levels and the quality of decision writing must be 
improved by hiring more attorney writers. As is stated below, the 
adjudication function of the SSA should be removed from the agency or 
placed in a separate organization under the operational control of a 
chief judge who reports directly to the Commissioner. Also as is stated 
below, the Appeals Council should be replaced with local panels ofthree 
ALJs modeled after the existing Bankruptcy Court system.
IV. CHICAGO REGIONAL OFFICE
    Recent articles in a local Milwaukee newspaper reported that SSA 
supervisors in the Chicago Regional Office told contract workers to 
``throw away documents'' from the files of people seeking disability 
benefits. The AALJ has no first hand knowledge of the reported problems 
in the Chicago Regional Office and we first learned of this situation 
in the newspaper articles.
    However, the reported problem in the Chicago Regional Office does 
raise caution signs for the ``contracting out'' of Social Security 
disability case file exhibit preparation (known as ``pulling''). This 
reported problem clearly shows that it is not practical to use 
untrained contract workers, paid at a minimum level, to assemble 
hearing exhibit records for disability cases. It has been reported that 
the contracted workers were making decisions on which exhibits to 
include in the exhibit record and then destroying the excluded 
documents. This is extremely troubling, because in a regular hearing or 
trial setting a record is made in the form of an ``offer of proof'' for 
any document that is offered but not received into evidence. This 
record later can be reviewed on appeal and any error can be corrected. 
However, if the rejected document is destroyed, there can be no review 
of the action and any error can not be subsequently corrected. This 
destruction policy is more problematic if the destroyed document is the 
only copy of the document preventing replacement. This action could 
cause permanent damage for the Social Security claimant if the 
destroyed document can not be replaced.
    Therefore, the AALJ recommends that a complete review be conducted 
by this Subcommittee and the agency of the program for ``contracting 
out'' of the exhibit record assembly for Social Security disability 
cases before permanent damage is caused to the American people.
V. STRATEGIES TO REDUCE CASE PROCESSING TIME AND INCREASE QUALITY OF 
        SERVICE AT OHA WHILE PRESERVING DUE PROCESS
    On numerous occasions during the past several years, the AALJ has 
advised both the agency and the several Congressional Subcommittees of 
the problems resulting from HPI. We repeatedly have advised the agency 
of the disruption to the hearing process caused by lost files, exhibits 
not being filed in case files, judges being assisted by inadequately 
trained support staff, poor quality decision writing, lost hearing 
files, insufficient number of cases pulled for judges to schedule for 
hearing, judges spending more time on clerical tasks (filing exhibits, 
``pulling'' case files, etc.), judges not having assigned staff to work 
on their work products, judges spending more time reviewing and 
rewriting decisions, lack of a stated person for the claimants to 
contact on a claim, and general office confusion. On June 20, 2002, the 
AALJ appeared before this Subcommittee and presented both oral and 
written statements for the record.<SUP>[13]</SUP> In part, the AALJ 
suggested reforms for the Social Security hearing process as follows:
---------------------------------------------------------------------------
    \[13]\ United States House of Representatives, Committee on Ways 
and Means, Subcommittee on Social Security, Hearing on the Social 
Security Disability Programs' Challenges and Opportunities, June 20, 
2002.
---------------------------------------------------------------------------
    Needed Reforms for the SSA Hearing Process: Because of the failure 
of HPI, SSA should reorganize the hearing office process. The 
reorganization should correct the defects in HPI. We propose that the 
recommendations of the Commissioner's HPI Steering Committee be used as 
a guide for the reorganization. The reorganization should consist of 
both short term and long term changes. The short term changes should be 
structured in a manner that permits easy transition to the long term 
reforms. The objective should be to immediately return to the 
efficiency and level of case production that existed in the hearing 
offices immediately before the introduction of HPI (over 500,000 cases 
a year). The long term reform should then build on that base. There is 
no single change that will accomplish this objective. It instead must 
be accomplished by a series of coordinated changes in several different 
areas. The changes will allow the agency to improve the service 
provided to the American public.

          1.  Short term recommendations: We recommend that the short 
        term changes should include the following elements:

             (a)  The process must be simple, and ALJs should be 
        assigned to cases from master docket according to law.
             (b)  Each ALJ should have adequate and properly trained 
        support staff. The support staff should include a clerical 
        worker, paralegal and attorney/writer.
             (c)  The support staff should be assigned to perform the 
        work product of a particular ALJ according to the instructions 
        and guidance of the judge.
             (d)  The ALJ should have control of all case development.
             (e)  The ALJ should have the responsibility to determine 
        when a case decision is legally sufficient and the judge should 
        have the authority to return the decision for rewrite to 
        achieve the same.
             (f)  Case files of each ALJ should be maintained 
        separately.
             (g)  The assigned support staff of each ALJ should be 
        under the supervision of the hearing office management staff 
        for personnel actions.
             (h)  Staff members should be accountable for their work 
        product. Case work should be assigned on an individual basis to 
        support staff to provide for accountability and enhance the 
        employees' sense of ownership.

          2.  Long term recommendations: We recommend that the long 
        term changes should include the following elements:

             (a)  Close the hearing record after the ALJ hearing as of 
        the date of the ALJ's decision.
             (b)  Assignment of SSA representatives to represent the 
        agency at administrative hearings. Such representatives would 
        be responsible to defend the position of the agency at the 
        hearing, recommend favorable cases, exercise settlement 
        authority, and assist unrepresented claimants. When most 
        claimants were unrepresented, having a non-adversarial process 
        made sense to keep the benefits process simple and not 
        intimidating. However, now, approximately 82% of the claimants 
        who have an ALJ hearing are represented, according to recent 
        statistics assembled by the SSA OHA Office of the Chief ALJ.
             (c)  Create a case manager and law clerk position for the 
        support staff of each ALJ (as recommended by the Commissioner's 
        HPI Steering Committee).
             (d)  Allow ALJs to issue bench decisions and short form 
        decisions.
             (e)  Adopt regulations for issue exhaustion as suggested 
        by the United States Supreme Court in the case of Sims v. 
        Apfel, 530 U.S. 103 (2000), if SSA representatives are 
        available to assist the unrepresented claimants.
             (f)  Reform the Appeals Council to issue decisions in some 
        cases, limit the scope of appeal for claimants who have 
        received the requested relief from the ALJs, and support the 
        ALJ in ``no-show'' dismissals.
             (g)  Implement a sustainable agency policy on the issue of 
        pain and the treating physician rule and defend the same if 
        challenged.
             (h)  Require the DDS to follow the same legal standard as 
        the ALJs when determining disability, which is based upon the 
        Social Security Act, the SSA regulations and rulings, and the 
        federal case law that interpret them.
             (i)  Improve the use of technology in the hearing process 
        (i.e. an improved case processing and management system, an 
        electronic file, voice to print software, improved equipment 
        for recording hearings, etc., most of which already is in the 
        planning and pilot stages).
             (j)  Adopt a policy to implement training to improve the 
        quality of the decision writing work product to meet the 
        expectations of the federal courts and to restore the 
        confidence of the federal courts in the Commissioner's 
        decisions.
             (k)  Adopt rules of procedure for the hearing process. 
        (The SSA/AALJ Joint Rules Committee recently completed proposed 
        rules of procedure that have been submitted to the OHA 
        Associate Commissioner for the agency to consider promulgating 
        as SSA regulations.)
             (l)  Reorganize the Office of Hearings and Appeals: 
        Congress has expressed frustration for decades with the 
        intractable problems that SSA has had in managing the OHA 
        adjudication function. AALJ believes that the chronic 
        mismanagement of OHA is a result of the conflict inherent in 
        having the managers who are responsible for the policymaking 
        function of the SSA programs also be responsible for the 
        appellate adjudication function that determines the correctness 
        of the managers' initial decisions of who is eligible for 
        benefits. Consistent with the APA, which mandates a separation 
        of the policymaking and adjudication functions of the agency, 
        the AALJ recommendsthat the Congress reform the hearing system 
        by creating a separate organization either within the SSA or 
        separate from the SSA for the final adjudication of all 
        benefits claims arising under the Social Security Act.
              The new organization would be under the operational 
        control of a chief ALJ. The final administrative adjudication 
        step that now is performed by the Appeals Council would be 
        replaced by numerous regional panels of three ALJs. The 
        appellate recommendation is modeled on the Bankruptcy Court 
        appellate panel system, which has been working well. Based upon 
        the Bankruptcy Court experience, the appellate panel model (1) 
        is an appellate system that can handle a large caseload, unlike 
        a small body like the Appeals Council, (2) results in higher 
        quality decisions because of expertise, (3) results in 
        substantially fewer appeals to the courts and a substantially 
        lower reversal rate by the courts because of the confidence in 
        the high quality of the decisions, which reflects a higher 
        degree of decision accuracy, (4) results in a substantially 
        reduced federal court caseload, (5) results in a shorter 
        disposition time because the large pool of over 1,000 ALJs 
        permits the timely determination of appeals that cannot take 
        place with a small body such as the Appeals Council or a 
        Commission, and (6) affords the claimants access to a local 
        appellate process.<SUP>[14]</SUP> The details of this 
        recommendation were presented to this Subcommittee in both oral 
        and written testimony during a hearing conducted on June 28, 
        2001.<SUP>[15]</SUP> A copy of AALJ's full Report and 
        Recommendations for the Transfer of the Authority to Make Final 
        Administrative Adjudications of Social Security Act Benefits 
        Claims from the Social Security Administration to a New 
        Independent Adjudication Agency accompanies this statement as 
        an exhibit.
---------------------------------------------------------------------------
    \[14]\ Thalia L. Downing Carroll, Why Practicality Should Trump 
Technicality: A Brief Argument for the Precedential Value of Bankruptcy 
Appellate Panel Decisions, 33 Creighton L. Rev. 565 (2000); Hon. 
Barbara B. Crabb, In Defense of Direct Appeals, 71 Am. Bankr. L.J. 137 
(1997); Tisha Morris, The Establishment of Bankruptcy Panels Under the 
Bankruptcy Reform Act of 1994: Historical Background and Sixth Circuit 
Analysis, 26 U. Memphis L. Rev. 1501 (1996); Thomas A. Wiseman, Jr., 
The Case Against Bankruptcy Appellate Panels, 4 Geo. Mason L. Rev. 1 
(1995).
    \[15]\ United States House of Representatives, Committee on Ways 
and Means, Subcommittee on Social Security, Hearing on June 28, 2001.

---------------------------------------------------------------------------
                                 <F-dash>

    Chairman SHAW. Thank you, Judge. Mr. Skwierczynski, if you 
had one more letter in your name, it wouldn't have fit on your 
nameplate.

    STATEMENT OF WITOLD SKWIERCZYNSKI, SPOKESPERSON, SOCIAL 
 SECURITY GENERAL COMMITTEE, AMERICAN FEDERATION OF GOVERNMENT 
                           EMPLOYEES

    Mr. SKWIERCZYNSKI. That is a common problem that I run 
into. Thank you, Chairman Shaw, for the opportunity to testify 
at this hearing. My name is Witold Skwierczynski. I am with the 
American Federation of Government Employees. It is the union 
that represents the bulk of the Social Security bargaining unit 
employees, about 50,000 of them. We work in OHA offices, field 
offices, program service centers, headquarters, data operations 
center, and program integrity. We do represent about 5,000 
people in OHA. I would like to comment on the Commissioner's 
presentation. It is interesting that she presented this new 
disability idea of hers here at this hearing. Despite her 
statements, she has made no effort to communicate with the 
union prior to this time to solicit our ideas and our proposals 
with regards to what would cure the problems in the disability 
program in Social Security, and she also hasn't discussed this 
with our employees. The plan that she has laid out is a plan 
that was put together by a very few high-level people after she 
consulted basically with managers around the country. So, we 
haven't had an opportunity to see it or hear about it or know 
anything about it, but this approach of decisionmaking is 
similar to what happened with HPI, and this is the kind of 
approach that makes things fail within the agency. The HPI was 
put together by a small group of people, no bargaining unit 
people. It was implemented. Employees were sort of forced to 
buy into it, and they didn't. Unless the Commissioner changes 
her approach with the union at this time, she is going to run 
into this same problem, because you are talking about some very 
radical changes, just from listening to her, that will affect 
people's jobs and entire components.
    We would hope that she would be more open in the future 
with us and bring us into the process so that any changes that 
are made to improve the disability process would have employee 
buy-in. Claimants--and just some reactions to some of her 
proposals. Claimants, as was evidenced in the Disability Claim 
Manager project, want to deal with a decisionmaker. They want a 
caseworker approach. They want to deal with the person who is 
going to make a decision on their disability claim. The 
Commissioner's proposal lacks that. There is a hand-off to some 
person on supposedly cases that are easily determined where 
people are obviously disabled. There is a hand-off to another 
person in a regional office setting. Right now, our claims 
representatives can make presumptive disability decisions on 
obvious disabilities, effectuate payment, send it to the State 
disability determination service for an actual decision; and 
the person gets paid quickly. That could be expanded so that 
the initial person that a claimant deals with, the claims 
representative, can have an expanded number of so-called 
obvious disabilities where they can make decisions. I think 
also her solution to the hearing backlog situation is--and I 
think you are going to have to look at this very closely--is 
certainly you can cut the processing time if you eliminate 
appellate steps. What the Commissioner is proposing is to 
eliminate the five appellate steps she sliced in two, the 
reconsideration and the Appeals Council. By doing that, you are 
going to flood, literally, the hearings office with appeals, 
because there will be no reconsideration step that will 
eliminate a chunk of those cases; and you are going to flood 
the courts with appeals on the back end by not having an 
Appeals Council. She even said there was a 28 percent number of 
cases that are remanded or reversed by the Appeals Council.
    Now if that is the last step of the appeals procedure, 
anyone who can't find an attorney is in trouble because--can't 
afford an attorney is in trouble--because they are not going to 
have the ability to have a non-judicial step of further appeal, 
and it appears about over a quarter of those are either sent 
back or reversed. So, you need to look at that. The linchpin to 
the proposal, which would be the computer system, is not 
working now at the initial step. When somebody comes in and 
files a claim on Electronic Disability, on the new Electronic 
Disability Collect System, interviews are taking 45 minutes 
longer. No staff has been provided for field office employees 
to take into account that extra workload. There is a big, huge, 
additional workload up on the front end because of this 
computer system, because what it does is it eliminates self 
help. The claimants before would fill out the form, and we 
would sort of fill in the blanks. Now every claim we have to 
type in the entire thing. It takes 45 minutes longer per claim. 
The agency has made no staffing consideration for that. Our 
people in the field offices, our employees are dying because 
they are expected to pump out the same amount of work, and it 
is taking longer. The adjudication officer position I wanted to 
point out I think, which was piloted which was a step before--
between the reconsideration and the administrative law judge, 
when that was piloted back between 1997 and 1999, those 
adjudicative officers were able to make favorable decisions on 
17 percent of all hearings that were filed, and that cut the 
workload back down to the judges, and they also worked--met 
with claimants and attorneys to explain the process. They 
secured additional evidence. A part of their job was to narrow 
the issues of the case. They prepared stipulations which would 
be used at the hearing, and they made favorable decisions on 
the record where the evidence warranted. I think that is the 
answer.
    [The prepared statement of Mr. Skwierczynski follows:]
Statement of Witold Skwierczynski, Spokesperson, American Federation of 
  Government Employees (AFGE), Social Security General Committee, and 
 President, AFGE Council 220, National Council of SSA Field Operation 
                      Locals, Baltimore, Maryland
    Chairman Shaw, Ranking Member Matsui, and members of the Social 
Security Subcommittee, I thank you for the opportunity to present this 
testimony regarding the Social Security Administration's Management of 
the Office of Hearings and Appeals (OHA).
    As the Spokesperson of AFGE Social Security General Committee, I 
speak on behalf of approximately 50,000 Social Security Administration 
(SSA) employees in over 1500 facilities. These employees work in Field 
Offices, Program Service Centers, Teleservice Centers, Regional Offices 
of Quality Assurance, Offices of Hearings & Appeals, and Regional 
offices, Headquarters offices, the Wilkes-Barre Data Operations Center, 
and other facilities throughout the country where retirement and 
disability benefit applications and appeal requests are received, 
processed, and reviewed.
    I regret that James Marshall, the President of the AFGE Office of 
Hearings and Appeals Council, could not be here today to assist with 
AFGE's testimony. However, Mr. Marshall will submit a statement for the 
record and I would encourage each member, after reading his statement, 
to contact him about these important issues. Notwithstanding his AFGE 
leadership role, Mr. Marshall has 45 years experience with the Social 
Security Administration and OHA.
HEARING PROCESS IMPROVEMENT INITIATIVE (``HPI'')
    As verified in GAO's report of February 2002, entitled ``Social 
Security Disability-Disappointing Results From SSA's Efforts to Improve 
the Disability Claims Process Warrant Immediate Action,'' 
<SUP>[1]</SUP> this initiative was implemented nationwide in 2000. This 
was done without any testing or piloting by SSA. The changes through 
this initiative were expected to reduce the time it takes to process 
cases, increase productivity and enhance the quality of service proved 
to customers.
---------------------------------------------------------------------------
    \[1]\ GAO Report 02-322, dated February 2002, ``Social Security 
Disability-Disappointing Results From SSA's Efforts to Improve the 
Disability Claims Process Warrant Immediate Action.''
---------------------------------------------------------------------------
    HPI has failed to meet any of its objectives. The initiative has 
failed to improve the timeliness of decisions of appeals. Instead, it 
has slowed processing in hearings offices from 318 days to 341 
<SUP>[2]</SUP> days. As a result, the backlog of cases waiting to be 
processed has reached an all time high of more than 580,000 cases and 
may exceed 600,000 by the end of the fiscal year. This is a sixty 
percent (60%) increase in pending claims than just 10 years ago. 
Unfortunately, OHA has not had a 60% increase in staff to keep up with 
the workloads. In addition, productivity has not increased. Delays in 
decisions have resulted in diminished customer service.
---------------------------------------------------------------------------
    \[2]\ OHA Key Workload Indicator Quarterly Report of June 2003.
---------------------------------------------------------------------------
    Additionally, the HPI failed because of Agency decisions in not 
recognizing the need to include OHA's employees and AFGE leaders as 
continuing key stakeholders in the process. HPI was designed by a 
committee composed of managers who had no recent experience in 
processing the hearings workload. Neither AFGE nor bargaining unit 
employees were consulted by the management committee prior to the 
decision to implement HPI. If the Agency wants to move forward to 
eliminate the longstanding problems in not providing and accurate 
service to the individuals with disabilities, it must recognize that 
AFGE leaders and the long term dedicated OHA employees have the insight 
and knowledge to improve service delivery to the claimants that they 
service. They should be included in meetings to discuss the continuing 
problems and their resolution at OHA.
    President Marshall has on many occasions requested Agency officials 
to meet with him to discuss the failures of the HPI and ways to improve 
it. SSA has refused to meet with him. The Union does not understand why 
the Commissioner and her deputies refuse to meet with AFGE leaders to 
discuss ways to improve the disability process at OHA, increase morale 
of employees, and address the processing problems that occur within 
hearing offices to negate timely processing of disability claims. I 
submit Chairman Shaw and members of the Subcommittee that such a lack 
of effort by the leadership of this Agency is not conducive to creating 
a workable improved hearing process which will benefit disability 
applicants.
    The Union and management organizations, which represent all of the 
employees of SSA have been on record with this Subcommittee for more 
than 3 years, regarding the failure of the Hearing Process Improvement 
Initiative (``HPI''). Our participation in this discussion in years 
past was not to use these hearings to attack or insult SSA's 
Commissioner, but to shed light on a bad investment of Social Security 
Trust Fund dollars. As stated many times before, AFGE is committed to 
serve, as not only the employees' advocate, but also a watchdog for 
clients, for taxpayers, and for their elected representatives.
    Let me be clear, AFGE continues to be committed to working with 
Commissioner Barnhart regarding these complex issues, as well as other 
issues that affect SSA's ability to provide expeditious, high quality 
service.
Recommendations:
          1.  While it is the Union's understanding that SSA is now 
        considering new initiatives for the OHA hearing process, it is 
        imperative that AFGE leaders and OHA employees be afforded pre-
        decisional input. We believe that this would eliminate a repeat 
        of the HPI debacle and a further waste of Trust Fund dollars.
          2.  We strongly urge this Subcommittee and SSA to reconsider 
        the following recommendations by the Social Security Advisory 
        Board made in February 2001:

             a.  Provide SSA the necessary additional resources that 
        are critically necessary to properly administer SSA's 
        disability programs.
             b.  Reconsider federalizing the disability determination 
        process.
             c.  Reconsider giving field offices increased 
        responsibility for taking disability claims.

          3.  We strongly encourage that this Subcommittee, 
        Commissioner Barnhart and President Bush request the additional 
        staff needed to address the many problems that plague SSA 
        disability programs. SSA's Management Association has advocated 
        the need for 5000 FTE's for more than 3 years. It is AFGE's 
        belief that 5000 FTE's would barely meet the needs of the field 
        offices in processing disability claims. Thenew Electronic 
        Disability Claims System (EDCS) has increased initial claims 
        interview time by about 45 minutes. No staff has been provided 
        for this additional work. With increasing workloads caused by 
        disabled and retiring baby boomers, legislative changes (i.e. 
        Ticket to Work) and morale responsibility (i.e. Special T2 
        Disability Workload), even more than 5000 FTEs will be needed 
        for all components, including OHA, to process increasing 
        disability workloads.
ADJUDICATIVE OFFICER
    It is unfortunate that SSA's Plan For A New Disability Claims 
Process, that was issued in September 1994, has been discarded by the 
Agency despite extensive piloting which indicated that various aspects 
of this plan resulted in faster and more accurate disability decisions. 
The Disability Claims Manager (DCM) position of the 1994 plan was 
tested for over 3 years and dumped by SSA despite the fact that 
processing time for disability claims in the pilot offices was reduced 
to half (61 days) of the Agency goal of 120 days. Productivity, 
accuracy and cost were equal to or less than the current process. Why 
would SSA discontinue the DCM when it was a proven success story that 
received many accolades from disability claimants.
    Another portion of the 1994 Disability Plan included the 
establishment of the Adjudicative Officer (AO) position. This position 
was established to expedite processing of Hearings requests on denied 
disability claims. The AO provided claimants and/or their 
representatives with an explanation of the hearings process. The AO 
also was responsible for obtaining new evidence and for attempts to 
narrow the issues in the claim to optimize the possibilities for an 
expeditious and focused hearing. The AO was responsible for fully 
developing the record in preparation of the hearing. The AO also had 
the authority to issue favorable decisions before the hearing, if 
supported by the evidence of record. The AO could be either a federal 
or state employee and, in fact, was located in Disability Determination 
Service (DDS) offices, Administrative Law Judge (ALJ) Hearing offices, 
SSA Field Office and Program Service Centers. By locating the position 
in multiple locations, the Agency insured the public more accessibility 
and individualized service in processing there hearing requests. In 
addition, by situating AO's away from hearing offices, SSA was 
separating these employees from the bureaucratic OHA management 
structure.
    Although SSA never released any valid pilot results for the AO, 
preliminary data indicated that the AO's were able to issue favorable 
decisions in seventeen percent (17%) of the hearings cases. These cases 
were decided based on the evidence of record and did not require 
hearings before an ALJ. For the remaining cases, the preliminary data 
indicated that AO's did a good job of fully developing the record and 
preparing the case for hearing.
    Many hearings offices reported that the AOs work resulted in 
significant time savings in cases decided by an ALJ. The preliminary 
data indicated that the quality of the AO was approaching that of the 
ALJ's midway through the pilot.
    Unfortunately, SSA abolished the AO position in March 1999 despite 
the fact that AO's were responsible for quicker decisions for some 
applicants and a streamlined, efficient, expedition hearing for others. 
The Union suspects that management resistance to their disability 
improvement was centered on OHA bureaucratic flaws of losing 
institutional control of a position of the hearings process. (I.e. AOs' 
could be located in the DDS, field offices, PSC's or OHA offices.)
Recommendations:
          1.  AFGE urges Congress to request final pilot results and 
        evaluation of the AO from SSA.
          2.  AFGE strongly urges Congress and Commissioner Barnhart to 
        reinstitute the AO which results in quicker hearing decisions 
        and a streamline process.
PRIVATE CONTRACTORS HIRED BY SSA
    AFGE is encouraged by the Subcommittee's willingness to look at the 
recent issue involving a private contractor hired by SSA/OHA officials 
in the Chicago Region. However, this incident is just one of many 
problems that SSA has had with contractors.
    The Subcommittee should be very concerned with the serious issues 
that surround these events. Identity theft, privacy act violations, and 
other fraud, waste and abuse are some alarming possibilities. 
Contracting out tasks has long been used by some governmental agencies. 
However, contracting out for an electrician or a plumber is not the 
same as contracting out sensitive aspects of the Social Security claims 
process. President Bush's demands that all Agencies establish 
contracting out quotas has forced SSA to utilize contracting out for 
functions which potentially expose beneficiary privacy and expose SSA 
customers to possible identity theft.
    The recent incident highlighted many of these very issues. For 
example:

          <bullet>  Sensitive medical evidence was improperly disposed 
        of by contract employees. Much of the evidence was considered 
        ``key'' to the claimant's claim for disability benefits. This 
        not only may have violated the privacy of the individual, but 
        would require the agency to reconstruct the file. Such 
        reconstruction will delay the hearing and cause additional 
        staff and time expenditures for duplicating medical records.
          <bullet>  Each page of medical evidence would have contained 
        the claimant's Social Security number (SSN) with other 
        identifying information. This would only promote unnecessary 
        and otherwise preventable identity theft.
          <bullet>  The appeals process was undermined and/or 
        corrupted. Each case may likely require a new hearing and/or 
        decision to ensure that each claimant was properly afforded 
        their appeal rights.
          <bullet>  Efforts to recover medical evidence for 
        approximately 570 cases required OHA employees to sort through 
        hundreds of pieces of paper after the situation was discovered 
        in May. Therefore, abandoning their regular work assignments.
          <bullet>  Although agency officials reported the original 
        number of cases was a mere 109, it was confirmed that medical 
        evidence was recovered for 570 cases. The contractor had 
        handled approximately 1200 cases for that servicing area. OHA 
        employees informed management officials as early as February 
        2003 that documentation was missing from files handled by 
        contract employees. No action was taken until May 2003.
          <bullet>  Contract employees were allowed to remove 
        claimant's medical files from the OHA offices and do assembly 
        work at home. Documents discarded by contract employees at home 
        may have been done in a manner that compromises medical 
        information and SSNs.

    Prior to the media exposing this problem, employees were directed 
to not disclose the Chicago incident. Subsequent to the press 
disclosure of the improper disposal of medical records by contractors, 
employees in other OHA offices have reported that files handled by 
contractors are incomplete. Also the Union has received numerous 
reports of poor work by contractors, file assemblers, which required 
SSA OHA employees to reassemble files. In some cases, complete files 
have been lost and reconstruction of the files is necessary.
    As previously stated, this is not the first time that SSA has 
experienced problems with contractors. On these occasions, contractors 
have sent the Personal Earnings and Benefit Estimate Statements (PEBES) 
to many incorrect addresses. Contractors have sent notices of appeal 
rights to claimants weeks late, adversely affecting their appeal 
rights. The Union has discovered that contractors have sent formal SSA 
notices to the wrong addresses. Such errors have resulted in improper 
disclosing privacy act information.
    When SSA's services are contracted out, accountability is often 
weakened. Many contractors subcontract. SSA exercises little to no 
oversight over subcontractors. In the past when subcontracted services 
have been discovered, the Agency must address theirconcerns or problems 
with the contractor rather than directly with the subcontractor. It is 
not unusual to discover many layers of subcontracting as a result of 
one government contract. Unfortunately, it is difficult to adequately 
scrutinize subcontractor performance. When citizens complain about 
services that have been contracted out, SSA can do very little until 
it's too late. It is difficult for SSA to remedy substandard contractor 
or subcontractor performance.
    Unfortunately, SSA does not have a systematic approach for 
scrutinizing contractor performance. It is even more alarming that 
neither GAO nor SSA review maintenance and security of SSN and other 
personal information that may violate the privacy of our SSA claimants. 
The information SSA stores on each of us is personal and is entitled 
maximum protection. Documents and records that contain personal and/or 
identifying information of a taxpayer or a member of their family 
should be safeguarded at all costs.
    Recently, the Federal Trade Commission announced that identity 
theft cost American taxpayers and business more than $53 billion in 
2002. Nearly 10 million people lives were personally affected by this 
crime. Last July, James Huse, SSA's Inspector General testified that 
``each SSN begins and ends at SSA, and true stewardship over that 
number must reside in the ACT that created it, the Social Security Act. 
That stewardship must focus not only on punishment and deterrence, but 
also on prevention.''
    AFGE and the employees of SSA believe much more should be done to 
safeguard the privacy and SSN of each number holder. While social 
security numbers are issued by SSA, the responsibility for protecting 
its integrity reaches far beyond SSA. SSA cannot have true stewardship 
over SSNs if contractors are given free reign with SSA records. 
Contractors currently have access to electronic records either sent or 
received by SSA computers. SSA does not conduct or require routine 
audits of other governmental agencies or third parties that received 
personal, identifying SSA records electronically. The security of an 
individuals SSN and personal records are as safe as the computer 
firewalls permit. In GAO's May 2002 report, GAO stated that Government 
agencies are taking some steps to safeguard the numbers [SSNs], but 
some protections are not uniformly in place at any level of 
government.'' In that report, GAO found that many of state and county 
records contain SSNs.
    Additionally, SSA's own electronic firewalls are constantly being 
infiltrated by computer viruses and worms. In July 2002, the problem 
became so significant that SSA had to shut down its Web Applications 
due to the discovery of a vulnerability in the SSA application Web 
servers that could permit hackers to launch an attack and access the 
server files. As recently as last weekend, SSA officials were 
scrambling to install a patch on its computer system to prevent the 
latest threat to the Microsoft Window Operating system.
    If SSA is to truly safeguard its records that are entrusted to SSA, 
immediate action is needed to address these issues.
Recommendations:
          1.  AFGE strongly urges this Subcommittee torequest GAO to 
        evaluate the effects of contracting out and the privacy of SSN 
        number holders. The GAO should report its finding and make 
        necessary recommendations to Congress and Commissioner 
        Barnhart.
          2.  Until the GAO findings and recommendations can be 
        properly evaluated and considered by Congress and Commissioner 
        Barnhart, AFGE urges this Subcommittee to seek a legislative 
        means to freeze all contracting out of SSA services that can 
        otherwise be performed by SSA's own workforce.
          3.  AFGE strongly recommends that SSA require all parties 
        (governmental and non-governmental) who receive SSA records 
        electronically to provide bi-annual security evaluations of 
        their computer systems to the Commissioner. The purpose of the 
        evaluations is to establish that appropriate protections are in 
        place to prevent the identity theft of any SSA record holder. 
        Because the expertise of computer hackers seems to advance much 
        faster than protections can be developed, SSA should require 
        routine computer firewall evaluations from those receiving SSN 
        and other information protected by the Privacy Act from SSA 
        electronically. This is the least SSA could do to assure the 
        taxpayers that the information provided to SSA and meant to be 
        maintained in SSA records remains private and cannot be subject 
        to from preventable identity theft. Failure to submit timely 
        evaluations should result in the suspension of access to SSA 
        records.

    Mr. Chairman, this concludes my prepared statement. On behalf of 
the AFGE General Committee and the employees AFGE represents, I thank 
the Chairman and the Members of the Subcommittee for the opportunity to 
testify and I look forward to any questions you may have.

                                 <F-dash>

    Chairman SHAW. We have your complete statement, which will 
be part of the record. I am going to try to finish this up 
before we go to a vote so that everybody won't have to hang 
around. Mr. Hill.

 STATEMENT OF JAMES A. HILL, PRESIDENT, CHAPTER 224, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. HILL. Good morning, Chairman Shaw. It is good to see 
you, particularly with the hurricane not bearing down on us. My 
name is James Hill. I have been employed as an attorney-advisor 
at the OHA for 20 years. I am also the president of Chapter 224 
of the National Treasury Employees Union that represents 
attorney-advisors and other staff members in approximately 110 
OHA hearing and regional offices across the United States. I 
thank the Subcommittee for providing me with the opportunity to 
testify about management challenges facing OHA. I have 
testified before the Subcommittee on more than a few occasions 
since 1994, and the central issue has consistently been a 
backlog at OHA. The temptation to fix responsibility for this 
chronic deficiency is hard to resist. In preparing my testimony 
I was struck by the statement of Chairman Shaw that the 
hardworking employees of OHA must get beyond finger-pointing 
and take personal responsibility to make the program work 
better. That is good advice. I am pleased that the Commissioner 
has announced comprehensive initiatives to improve the 
disability process. I am concerned, of course, that the devil 
is always in the details. Additionally, I am concerned about 
the present. Her plan deals with the future. We have hundreds 
of thousands of people waiting for disability decisions today. 
The disability program is in crisis, and this is not a time for 
timid half measures. The SSA needs bold, decisive leadership. 
Simply having effective leadership will not in and of itself 
solve the disability crisis. We must focus on the primary cause 
of the backlog, which is an insufficient number of 
decisionmakers to efficiently handle the caseload. Solve that 
problem, and the others become far less intractable.
    One solution to this problem is to hire enough 
administrative law judges and support staff to effectively 
handle the current and future caseloads as well as the current 
backlog within an acceptable period of time. Because of the 
current backlog, we estimate that an additional 440 
administrative law judges, and between 1,500 and 2,000 
additional staff persons would be required. Even then, the 
learning curve ensures relief would be years away. The cost of 
that solution is enormous; and, quite frankly, such an 
expenditure would be fiscally irresponsible. This is not the 
first time OHA has faced such a crisis. In the mid-nineties, 
the situation was nearly as bad as the present. In 1995, SSA 
implemented a bold initiative, the senior attorney program, 
which was instrumental in alleviating the backlog program. It 
was terminated because SSA believed HPI rendered it 
unnecessary. Since that time, the backlog has nearly doubled. 
That is not a coincidence. An attorney-adjudicator program 
worked then, and it will work now, but only if SSA avoids 
limited, timid half-measures more directed toward overcoming 
internal institutional resistance than serving the public. The 
OHA may be the only high-volume judicial body in the country 
that does not provide a viable method for making determinations 
without employing a whole formal hearings process. The lack of 
a mechanism for efficiently disposing cases that do not require 
an administrative law judge hearing is a major flaw in the OHA 
adjudicatory system. An attorney-adjudicator remedies that 
deficiency. By authorizing OHA, skilled and experienced 
attorney-advisors to issue fully favorable on-the-record 
decisions, OHA could immediately increase its decision capacity 
by a factor of nearly 20 percent in a very economical manner. I 
estimate that a properly managed--and I emphasize properly 
managed--attorney-adjudicator program utilizing all of OHA's 
experienced attorney-advisors as part-time decisionmakers could 
produce as many as an additional 100,000 quality OHA decisions 
a year. Experience from the old program showed that the 
processing time for these cases would be less than 120 days. 
That is the kind of service the public deserves. There are a 
number of other issues, but time constraints preclude a 
discussion at this time. Please feel free to ask any questions 
that you think will help you better understand the situation at 
OHA.
    [The prepared statement of Mr. Hill follows:]
 Statement of James A. Hill, Attorney-Adviser, Office of Hearings and 
Appeals, and President, Chapter 224, National Treasury Employees Union, 
                        Cleveland Heights, Ohio
    My name is James Hill. I have worked as an Attorney-Adviser in the 
Office of Hearings and Appeals for over 20 years. I am also the 
President of Chapter 224 of the National Treasury Employees Union 
(NTEU) that represents Attorney-Advisers and other staff members in 
approximately 110 OHA Hearing and Regional Offices across the United 
States. I thank the Subcommittee for allowing me to testify about 
management challenges facing OHA and to recommend actions which will 
improve service delivery.
The Backlog at OHA
    The salient fact about the SSA disability adjudication process is 
that it is unconscionably slow causing untold harm to some of the most 
vulnerable members of society. None will dispute that the public 
deserves far better service than SSA is presently providing. Because of 
a persistent lack of vision and leadership at SSA, poor service seems 
to be the norm rather than the exception.
    Disability adjudication at SSA has a long and troubled history. The 
current problems with the SSA disability program began in the early 
1990s when the cases pending at OHA hearing offices rose from 
approximately 180,000 in 1991 to approximately 550,000 in mid-1995. 
Currently the backlog is approaching 600,000 cases and processing times 
in some hearing offices are significantly in excess of one year. A 
quick review of the history of the number of cases pending at OHA 
demonstrates that the backlog problem is not altogether intractable.
[GRAPHIC] [TIFF OMITTED] 99662C.004

      
    The Senior Attorney Program that commenced in 1995 ensured in a 
cost effective manner that there were an adequate number of 
adjudicators to deal with both the new filings and the accumulated 
older cases. During the original Senior Attorney Program, where 
experienced OHA Attorney Advisors were granted limited decisional 
authority to issue fully favorable on-the-record decisions, the number 
of cases pending fell from approximately 550,000 to a nearly optimal 
311,000 cases. The demise of the Senior Attorney Program and the rise 
of the backlog are not coincidental and are illustrative of the 
management deficiencies that have plagued the disability program. 
However, before exploring the management problems that have severely 
hampered the disability program, I wish to discuss the solution to the 
backlog situation.
Reinstitute an Attorney Adjudicator Program
          1.  The delay in disability decisions caused by the backlog 
        is unconscionable.
          2.  The direct causal factor for the backlog at OHA is an 
        inadequate number of decision makers to efficiently process 
        OHA's caseload.
          3.  We have a duty to the taxpayer to find the most efficient 
        use of our resources.

    The solution is a comprehensive Attorney Adjudicator Program at 
OHA.
    OHA may be the only high volume judicial or quasi-judicial body in 
the country that does not provide a viable method for making 
determinations without employing a whole formal hearing process. The 
emphasis placed by every court in reaching settlements without going 
through a trial is recognition that providing a formal hearing for all 
results in an uncontrollable backlog. OHA certainly proves that point. 
The experience of the original Senior Attorney Program certainly 
provides justification for establishing a method of identifying and 
disposing of those cases that do not require a hearing. SSA must 
immediately reinstall an attorney decision maker program that is large 
enough to efficiently address the current backlog and the anticipated 
increase of OHA receipts. The Agency should aggressively attack the 
backlog and not rely upon half measures doomed to failure or so limited 
as to prolong the period during which the public is being poorly 
served. This is not a time for timid half measures. It is time to solve 
the problem once and for all. OHA must permanently adopt a structure 
that permits greater flexibility in decision making without the 
necessity of a formal hearing before an ALJ.
    The only viable way to deal with the ever increasing backlog is to 
engage a larger number of adjudicators. Currently the only adjudicators 
at the OHA hearing office level are the Administrative Law Judges 
(ALJs). Based upon the traditional measure of evaluating ALJ 
productivity, dispositions (decisions plus dismissals) per month per 
ALJ, it appears ALJ productivity has shown a steady increase. However, 
when one views ALJ productivity in terms of actual number of 
dispositions (decisions plus dismissals), dispositions per year per ALJ 
have remained remarkably consistent at approximately 500 dispositions 
(decisions plus dismissals) per ALJ. It appears that SSA is better at 
creative accounting than increasing productivity. While it is essential 
that SSA maintain an adequate corps of ALJs, its duty to efficiently 
use taxpayer dollars demands that SSA do so in a fiscally responsible 
manner.
    The simple fact of the matter is that a hearing, or for that matter 
an ALJ, is not needed to dispose of every case handled by OHA. 
Experience indicates that each ALJ will dispose of approximately 500 
cases on the average per year, but about 14% to 15% of those cases are 
dismissals. Most dismissals result from untimely filings or failure to 
appear. The actual dismissal notices are prepared by staff and signed 
by an ALJ. That is the extent of ALJ participation in most dismissals, 
yet each dismissal is afforded the same degree of weight in determining 
ALJ productivity as a case in which a hearing is held and a formal ALJ 
written decision made.
    In FY 2003 OHA hearing offices will receive approximately 600,000 
cases, and even more are expected during the next several years. At 
that rate 1200 ALJs are required merely to keep pace with the current 
rate of receipts. That is 241 more ALJs than were available in July of 
this year. OHA believes that a pending caseload of 300,000 is optimum, 
but currently OHA has almost 600,000 cases. In order to reduce the 
pending to optimum levels, in addition to disposing of the annual 
receipts, at least 300,000 other cases must be adjudicated. Assuming 
that the Agency is prepared to allow this reduction of the backlog to 
take 3 years, at least an additional 200 ALJs would be required, or a 
total of 441 new ALJs. Even with this prodigious increase in the number 
of ALJs, given the length of the learning curve for new ALJs (6-12 
months), processing times well in excess of one year would continue for 
at least 4 years.
    The problem cannot be solved by merely hiring large numbers of 
ALJs. In order for the ALJs to accomplish this task, however, they 
would have to be fully staffed. Currently, OHA's staffing goals dictate 
a support staff of 4.5 employees for each ALJ. Assuming that OHA is not 
overstaffed at the present, that means OHA must hire an additional 2000 
employees, including an additional 300--400 attorneys. The cost of 
adding 441 new ALJs and the necessary support staff and office space is 
prohibitive.
    The lack of a sufficient number of decision makers is the 
fundamental reason for the OHA backlog. The decision to terminate the 
Senior Attorney Program was a huge mistake resulting from the 
traditionally poor management of OHA and the lack of accountability by 
SSA leadership. The question is how to repair the damage in the most 
expeditious, cost effective manner. The Senior Attorney experience of 
1995-1999 should be applied to the current situation. This would 
immediately add a substantial number of qualified decision makers with 
a minimal learning curve, who could immediately begin to work the large 
number of new and pending cases. While there is a cost, that cost is 
significantly less than hiring over 400 new ALJs and the associated 
staff. While additional ALJs are certainly needed, with a well designed 
attorney decision maker program, as many as 100,000 decisions and 
80,000 dismissals could be issued within 4 months of their receipt at 
OHA. The average processing time for the original Senior Attorney 
Program was less than 120 days. That is the kind of service the public 
deserves.
    Ideally, the Attorney Adjudicators would continue to draft ALJ 
decisions in addition to handling their own adjudicatory dockets 
including the drafting of their own decisions. Skilled decision 
drafting remains a vital component of the ALJ adjudicatory process. The 
value of retaining the services of experienced attorney advisers to 
draft ALJ decisions on even a part time basis should not be 
underestimated. Retaining OHA's most skilled staff to perform that duty 
is essential if OHA is to continue to produce quality decisions. 
Assigning decision making duties to attorneys whose primary duty now is 
to advise ALJs and draft decisions is obviously going to result in a 
decrease in decision drafting capacity. The Agency would have to hire 
an additional 250-300 attorneys to maintain sufficient decision 
drafting capacity and perhaps another 100 additional staff people to 
process the increased number of decisions. Even considering the cost of 
the promotions of current employees consistent with their new duties, 
the total expense is far less than that involved with hiring a massive 
number of ALJs and the necessary staff. Additionally, NTEU is ready to 
work with SSA on reaching an agreement on a new Flexiplace program that 
could eliminate or reduce to a minimum the office space cost for these 
additional attorneys.
    If the current experienced OHA attorney advisers were invested with 
limited decisional authority to pay cases on the record and to dismiss 
cases not entitled to Hearing they could dispose of 180,000 (100,000 
fully favorable decisions and 80,000 dismissals) or more each year, 
while still spending nearly half their time drafting ALJ decisions and 
advising ALJs. These cases would not require the expenditure of any ALJ 
resources and if the basic program of the original Senior Attorney 
Program was reintroduced, very little staff work would be required. 
This would allow the Agency to commit a greater amount of its resources 
to the cases that required ALJ adjudication.
    The Senior Attorney Program was extremely successful and helped 
produce as many as 60,000 decisions a year despite substantial 
managerial resistance at the hearing office and regional office levels 
and in spite of the fact that many Senior Attorneys spent only 25% of 
their time or less making and issuing decisions. With vigorous 
managerial support, I believe attorney adjudicators could produce as 
many as 100,000 or more quality fully favorable decisions and 80,000 
dismissals each year. It is clear that had the original Senior Attorney 
Program been continued, OHA would not have a significant backlog 
problem today. In the original senior attorney program attorney 
decision makers handled, for the most part, what are known as 
``unpulled'' or ``unassembled'' files. Had the program continued, the 
crisis in ``unpulled'' cases could have been avoided, and there would 
not be a need to spend additional taxpayer dollars to contract out case 
assembly. When SSA downsized and later terminated the Senior Attorney 
Program it snatched defeat from the jaws of victory.
    The basic tenets that should be applied in crafting an attorney 
adjudicator role should approximate those that were tried and 
successful in the 1995 Senior Attorney Program. The current GS-13 
Attorney Adviser position description should be amended to include 
decision making duties and to ensure proper grade level. Creating a 
large and diverse group of adjudicators is essential to permit each 
hearing office's management to have the flexibility to deal with its 
caseload as needed. This flexibility is essential for efficient hearing 
office operations and to more efficiently serve the public.
    This necessarily means that Attorney Adjudicators must also retain 
the role of decision writers for ALJ decisions, also a characteristic 
of the original Senior Attorney Program. For a brief time in 1998 OHA 
tested the concept of a smaller number of Senior Attorneys who would 
devote all their time to decision making. The test was unsuccessful 
after only four (4) months and Senior Attorneys returned to a part-time 
decision making and part-time decision writing role. It is foolish to 
implement a limited program that has already shown itself to be less 
effective than a program that assigns a decision making and decision 
drafting workload to all qualified attorney advisers.
    There was one area of intractable controversy that quite frankly 
plagued the original Senior Attorney Program. That was the question of 
quality. There is no question that one of the shortcomings of the 
entire disability program is the lack of a coordinated, effective or 
even realistic quality assurance program. Any adjudicator position, 
whether attorney or ALJ, should be accompanied by an effective quality 
assurance program directed at ensuring the competence of those making 
the disability decisions. To date, none of the SSA quality assurance 
programs have been directed to that end.
    That being said, the issue of unacceptable quality regarding the 
original Senior Attorney Program is unfounded. Within SSA, there has 
been a long-term and almost irrational antipathy toward OHA, centered 
in the Office of Quality Assurance (OQA) and its predecessor entity 
(OPIR). OPIR and many ALJs see attorney adjudicators as a direct 
threat. Certainly, ALJs were no longer the only decision makers at OHA 
hearing offices, but they feared this was the first step in the 
Agency's plan to replace them. The allegations frequently made by ALJs 
that the Senior Attorney Program was intended to pay down the backlog 
were completely baseless. The cases selected for Senior Attorney review 
were those on a historical basis most likely to be favorable to the 
claimant. The payment rate for Senior Attorney reviews was 
approximately 25% of these selective cases which shows remarkable 
restraint in an Agency which has an overall payment rate of 60-70%. In 
fact, the payment rate of OHA actually declined during the pendancy of 
the Senior Attorney Program and increased after its demise.
    Given that perspective, ALJs vigorously opposed the commencement of 
the Senior Attorney Program, and when given the opportunity to attack 
it as part of a ``quality assurance effort'' did so in an 
unconscionable manner. OPIR provided that opportunity by creating a 
review system that was unabashedly biased. While ALJs and other OHA 
reviewers (including eventually the Appeals Council) differed in their 
review of Senior Attorney decisions, there was some consistency. 
Medical Consultants and Disability Examiners from SSA and the State 
Agencies found the accuracy rate of both ALJs and Senior Attorneys to 
be 35% vividly demonstrated one of the fundamental problems in the 
disability system; the difference in perspective of the State Agencies 
and OHA and the courts. The difference in the accuracy rate between ALJ 
and Senior Attorney decisions as found by ALJs was the result of bias. 
The entire review system was in fact biased.
    OHA suspected as much and began a program in which the Appeals 
Council reviewed Senior Attorney and ALJ on-the-record decisions and 
found no statistically significant difference in accuracy. That 
unbiased study should be the final word on the matter of Senior 
Attorney accuracy.
    NTEU recommends that SSA as quickly as practicable commence a 
program of OHA attorney adjudicators based upon the 1995 Senior 
Attorney Program. That program demonstrated over the course of several 
years that it could produce a significant reduction in the OHA backlog 
in a fiscally and programmatically responsible manner. That the 
reintroduction of an attorney decision maker has not occurred is a 
microcosm of managerial inadequacies and indifference that are endemic 
to SSA's management of the disability program.
Mismanagement of the Disability Program by SSA
    Chairman Shaw has quite accurately pointed out that it is time for 
us to stop finger pointing and get to the task of providing the level 
of service the public deserves. So rather than restate in considerable 
detail all the errors of the past, only a brief mention should be made 
to provide a degree of perspective.
    During the early 1990's the disability backlog skyrocketed. 
Eventually, SSA reacted, but not to the immediate problem at hand. 
Rather than deal with the backlog, SSA decided to fundamentally 
redesign the disability system. In 1994 SSA embarked upon a program 
called the Disability Process Redesign (DPR) to radically redesign its 
disability claims process by completing 83 different initiatives over a 
six year period. DPR failed.
    While DPR was a complete failure, a ``shoestring'' program, the 
Short Term Disability Plan, achieved remarkable results with little 
expense primarily due to the Senior Attorney Program. Rather than 
attempt to redesign or remake the entire SSA adjudication process the 
Senior Attorney Program addressed the basic problem that produced the 
backlog, the lack of a sufficient number of adjudicators. By affording 
qualified, experienced OHA Attorney Advisors the authority to issue 
fully favorable on-the-record decisions where the documentary evidence 
established disability, the problem of an insufficient number of 
adjudicators was eliminated, and done so with minimum expense. The 
backlog at OHA declined to a manageable and nearly optimal level of 
311,000 cases.
    However, SSA failed to learn from its own successes. After finally 
regaining control of its pending caseload and beginning to deliver the 
service that the public has a right to expect, SSA chose to introduce 
arbitrary and fundamental changes into hearing office operations on the 
excuse that future receipts would deluge the agency. The resulting 
program, the Hearings Process Improvement Plan (HPI), many parts of 
which were first proposed as part of DPR, has proven to be an 
unmitigated disaster. SSA has also failed to learn from its own 
failures.
    Despite the fact that HPI is regarded by nearly everyone, including 
Commissioner Barnhart, as a failure, it remains largely in place today. 
To date SSA has made no substantial effort to effectively address the 
growing backlog. In mid-2002 SSA initiated what it called its ``Short 
Term Initiatives'' which were intended to at least mitigate the adverse 
effects of HPI but have had no significant impact upon the primary 
problem; the growing backlog. Unfortunately, at the operational level, 
OHA employees knew that the ``Short Term Initiatives'' would have no 
significant impact on the growing backlog problem, leading many to 
question the understanding and vision of the Agency's leaders. Indeed, 
the lack of faith of OHA's employees (including many managers) in the 
ability of the SSA's (and OHA's) leadership to solve the backlog 
situation is one of the crucial problems facing the Agency.
    GAO contends, and rightly so, that former SSA initiatives such as 
DPR and HPI suffered from a lack of ``buy-in'' by key stakeholders 
including SSA and OHA employees. GAO could have added the ``Short Term 
Initiatives'' and Accelerate e-dib to that list. It is important that 
this Subcommittee understand the nature of employee skepticism. It does 
not emanate from a reluctance to face changes. It is not the result of 
obstructionism. It does not indicate a lack of desire to change or 
improve the process. The lack of buy-in is the result of a belief that 
the initiatives would not meet operational necessities at the site 
where work is actually being performed. Employees at OHA have 
frequently been subjected to programs designed by individuals who do 
not understand the details or nature of the work at the operational 
level. In short, the planned initiatives have been and continue to be 
unrealistic and unresponsive to the problems that they purport to 
address. Recently, inaction and an apparent indecision seem to best 
characterize SSA's current leadership. In fact, many OHA employees 
believe that SSA has no interest in resolving the backlog problem.
    SSA management does not accept the basic theoretical, 
organizational, or operational tenets of OHA. SSA is a typical 
hierarchical organization in which the superior makes the decisions and 
the lower ranked employees carry out those decisions. Disability 
decision makers in OHA are much less constrained in their decision 
making process. To some extent, the process at OHA results in a loss of 
control by Management. Many in SSA find this intolerable.
    The reason that SSA Management repeatedly conceives and implements 
programs that not only fail, but actually make the situation at OHA 
even worse is that the primary purpose of these programs is not to 
improve the adjudication process at OHA. They are intended to bring the 
adjudication process at OHA in conformance with the administrative 
process at SSA. Each of the unsuccessful programs has been designed to 
reduce the quasi-judicial nature of OHA proceedings. Depriving or at 
least limiting the public's access to the quasi-judicial determination 
of their rights currently afforded by OHA and placing it in the hands 
of a bureaucrat easily controlled by the Agency. Administering a 
judicial entity is certainly more difficult than administering a more 
traditional subordinate component.
    NTEU recommends that SSA accept the quasi-judicial nature of OHA 
and formulate operational programs that enhance rather than impede 
OHA's judicial function. SSA needs to look to various court systems, 
including federal as well as state and local court systems for programs 
that can be adapted to serve OHA's function. This could include 
concepts such as magistrates, referees, government representatives, and 
a viable effective appeal process within OHA.
Mismanagement in OHA
    There are serious management deficiencies in OHA which impede the 
efficient accomplishment of its mission. There is a widespread and I 
fear justified perception that the business of OHA is directed toward 
serving the ALJs rather than serving the public. Often the terms OHA 
and ALJ are used interchangeably such as ``at the ALJ level'' and ``at 
the OHA level''. Many in OHA believe that the purpose of OHA is to 
provide claimants with an ALJ hearing. I assure you that the claimants' 
primary interest is securing a favorable decision, and that they could 
care less about who makes the favorable decision. The purpose of OHA is 
to decide the appeals of disability determinations made at a lower 
level. As already noted, requiring every claimant to go through the 
entire process is unnecessary and constitutes an irresponsible use of 
the taxpayers' money.
    One of the inescapable facts about OHA is the necessity of the 
decisional independence of ALJs. This decisional independence is 
essential if the claimants are to believe that they will receive a fair 
and unbiased hearing. However, previous administrations have allowed 
the concept of decisional independence to permeate to every aspect of 
the ALJ--Agency relationship, severely eroding the normal employer-
employee relationship. For far too long OHA has permitted the 
decisional independence of ALJs to extend to their personal conduct. A 
balance needs to be struck. The Agency and the ALJs need to come to an 
understanding of where decisional independence begins and ends and the 
extent to which OHA may rightfully exercise administrative control over 
the actions of ALJs. The importance of ALJs to the OHA adjudicatory 
process is undeniable. However, the ALJs must recognize that service to 
the public rather than pursuing their parochial institutional interests 
must take precedence, and they must behave accordingly.
    OHA suffers from a massive loss of accountability at many levels. 
HPI destroyed any concept of accountability of individual employees at 
the group level. Hearing Office managers frequently provide inaccurate 
information to higher level management officials to protect their 
interests but at the cost of discrediting the reliability of management 
information upon which agency operations are based. Management 
officials cannot realistically be held accountable for the non-
productivity of the hearing office because in most cases the 
productivity or lack thereof is beyond their control. In order to 
ensure the essential level of accountability, the Office of Hearings 
and Appeals needs to strengthen managerial control of field operations 
consistent with the maintenance of decisional independence.
    Finally, the lack of even a superficial quality control function in 
OHA permits an overwide variance in decision making damaging both the 
claimants and the trust fund. Currently, OHA's ALJs pay nearly two 
thirds of the cases upon which a decision (as opposed to a dismissal) 
is made. The difference in the payment rates between individual ALJs, 
between hearing offices, and between regions is difficult to explain. 
While the decisional independence afforded ALJs rightfully accounts for 
some of the discrepancies, it does not account for all of them.
Milwaukee and Chicago
    While OHA management has many failures, the Chicago Regional Office 
timely discovered the problems in the Milwaukee office and acted with 
dispatch to correct them. Within a month the situation was normalized 
and since that time Milwaukee operations have improved markedly. The 
problem was discovered and corrected long before it became public. In 
fact, had SSA permitted OHA officials to present a full and open 
accounting of the problems and the solution to those problems, a public 
relations disaster could have been avoided. With as many hearing 
offices as there are, instances will develop resulting from poor local 
management. It is far more important to recognize that the Chicago 
Regional Office quickly addressed the problem than it is to overreact 
to inevitable local managerial shortcomings.
Contracting Out Agency Work
    The recent incident in which contract workers improperly discarded 
medical evidence while engaging in file assembly is an unavoidable 
consequence of contracting out work. That this problem was not quickly 
identified should be a matter of concern. The delay in discovering 
irregularities was directly related to the lack of managerial control 
Agency managers had over the work at the contract site. I note that the 
IRS had a similar problem with contract workers destroying tax returns. 
SSA needs to devise a process to assure the integrity of its medical 
records files before it proceeds to further contract out case assembly.
Leadership
    Last, but certainly not least, is the failure of the current SSA 
management team to provide the leadership required. Providing effective 
leadership is very different from providing effective management. 
Leaders forge a bond with those whom they lead. Leaders inspire those 
they lead to greater accomplishments than they believed possible. 
Leaders engage in a dialogue with those whom they lead. Leaders are 
concerned with the welfare of those they lead. Under Commissioner 
Barnhart's ``leadership'' SSA is nearly unique in that it does not pay 
its employees' fees for the Flexible Spending Accounts. Her attack on 
another of the quality of life issues so important to employees 
(flexiplace) sends a clear message that the Commissioner has little 
regard for her own employees. SSA is an Agency in crisis, and more than 
anything else it needs effective leadership.

                                 <F-dash>

    Chairman SHAW. Thank you, Mr. Hill. I want to thank all of 
you. I do have a number of questions, as I am sure Mr. Collins 
and other Members of this Subcommittee will have. We will 
submit the questions to you in writing and would ask that you 
please respond to them as best you can. There is a series of 
votes--this hearing was supposed to last only 2 hours, but you 
can see we have gone substantially beyond that. Rather than 
impose upon your time and make you wait around until we finish 
voting, and there are some four votes on the floor, I believe, 
we will just submit the questions in writing. Thank you for 
being with us, and this hearing is concluded.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]

    [Questions submitted from Chairman Shaw to Mr. Barnhart, 
Mr. Bernoski, and Mr. Hill, and their responses follow:]
 Questions from Chairman E. Clay Shaw, Jr. to the Honorable Jo Anne B. 
                                Barnhart
Question: How you will proceed from this point onward in obtaining and 
incorporating further input as you draft the regulations to implement 
the new process and who is responsible?
    Answer: In my testimony I pledged that I would work collaboratively 
with the administration, Congress, the State Disability Determination 
Services and interested organizations and advocacy groups before 
drafting regulations. Immediately after the announcement, I met with 
employees, advocacy groups, union representatives and the leadership of 
interested organizations to discuss the approach. These groups were 
offered the opportunity to meet again with either myself or Martin 
Gerry, the Deputy Commissioner for Disability and Income Security 
Programs. Many of those follow-up meetings have already been scheduled. 
In addition, feedback, suggestions and questions are being solicited 
and the answers to questions will be posted on an SSA Internet website. 
No regulations will be prepared until I have considered the feedback 
and finalize my approach.
Question: How many contracts does the SSA have nationwide? What is the 
dollar value of these contracts? Are you confident your employees are 
able to provide adequate oversight of its contract employees?
    Answer: As of September 25, 2003, SSA had 77 active folder assembly 
contracts with a value of $1.4 million. OHA has initiated a training 
plan to ensure that all project officers fully understand their role. 
Under the new contracts for FY 2004, all contractors will work onsite 
in SSA space, where project officers will be available to provide 
oversight of the contractors.3. What is the policy regarding SSA 
employees or private contractors taking claims home? What is the 
rationale for this policy? Who can do this? Employees? Contractors? Can 
you tell us how many files were taken home by SSA employees and by 
contractor employees in the past year? How does the OHA keep track of 
files taken out of the office, what procedures must they follow to make 
sure that the case files are kept intact and confidential?
Question: What is the policy regarding SSA employees or private 
contractors taking claims home? What is the rationale for this policy? 
Who can do this? Employees? Contractors? Can you tell us how many files 
were taken home by SSA employees and by contractor employees in the 
past year? How does the OHA keep track of files taken out of the office 
by employees? When an employee or contractor takes a file out of the 
office, what procedures must they follow to make sure that the case 
files are kept intact and confidential?
    Answer:
Employees:
    Consistent with the May 2003 guidance from the Office of Personnel 
Management (OPM), the Social Security Administration (SSA) has 
implemented a flexiplace program, also referred to as telework. We are 
obligated by our collective bargaining agreements, negotiated in 2000, 
to continue a flexiplace program in which the home is referred to as an 
alternate duty station. All SSA employees who work at home are reminded 
of their obligation to safeguard SSA records and not to share the 
information with anyone. At SSA, where flexiplace arrangements are in 
place, employees are required to sign a ``flexiplace program 
participant agreement,'' and abide by their component's negotiated 
flexiplace agreement. These agreements require adherence to applicable 
government regulations in place at SSA governing information management 
and electronic security procedures for safeguarding data and data 
bases. The following conditions are required with regard to 
safeguarding SSA confidential documents in all flexiplace arrangements:

          <bullet>  Employees must have a locking file cabinet or desk 
        drawer for storage of confidential material at the alternate 
        duty station.
          <bullet>  Alternate duty stations are subject to inspection 
        by the employees' supervisors.
          <bullet>  A tracking system is utilized when case files are 
        taken to the alternate duty site and returned to the office.
          <bullet>  Employees are required through the use of a locking 
        device, such as a brief case or satchel, to ensure that all 
        Government and/or Agency records are safeguarded and protected 
        from theft and damage while being transported.
          <bullet>  Employees who work at home do not have access to 
        the Agency's main frame computer systems from the alternate 
        duty site.

    When and if there are instances of violations of the above 
conditions, an employee who improperly discloses confidential 
information or who fails to take appropriate steps to protect the 
information in their care is subject to disciplinary action. These 
penalties may range from reprimand to removal, depending on the 
seriousness of the violation.
    As noted above, a tracking system is utilized in flexiplace 
arrangements; however the numbers of cases removed from the offices 
under the Flexiplace program is not tracked nationally. We estimate 
that several thousand cases are taken out of the office for work at 
home each year.
    Some employees also take cases home to work under SSA's Work-at-
Home by Exception procedure. Under this program, SSA employees with a 
medical condition limiting their ability to commute to work are 
permitted to work-at-home if their job duties are compatible with 
performance at an alternate worksite.
Contractors:
    During FY 2002-2003, contractors assembled more than 40,000 files, 
affording OHA's Senior Case Technicians more time to complete the case 
preparation process and schedule more cases for hearings. When 
contractors were given cases to assemble, they completed and signed a 
form (generally an invoice form) that was also signed by the Project 
Officer. The Project Officers tracked the cases that were given to the 
contractors to assemble and those that were returned from the 
contractors.
    The contract itself contained provisions to protect the 
confidentiality of the information in the folders. For example, the 
contractor was required to protect the confidentiality of the records 
and in such a way that unauthorized individuals could not retrieve 
them, including storing them in areas that are physically safe from 
unauthorized access. The contract informed the parties that violation 
of these safeguards could subject them to various criminal penalties 
prescribed by the Privacy Act, the Social Security Act and the Internal 
Revenue Code (5 USC 552, 42 USC 1306, 28 USC 7213).
    During FY 2002-2003, it was common practice to allow contractors to 
take work home because space was not provided for the contractors. 
However, FY 2003-2004 contracts for file assembly require that all work 
be done onsite in SSA facilities.
Question: It has recently been brought to our attention that OHA 
managers have asked current OHA employees whether they know of anyone 
who would be interested in working for a contractor to assemble case 
files. Is this standard practice of managers to solicit information for 
a contractor? Is it legal for SSA employees to use government e-mail to 
gather this type of information?
    Answer: It is acceptable for a contractor to contact the OHA 
Project Officer to ask for referrals of interested workers. OHA is not 
obligated to provide any information. Providing referrals may allow the 
contractor to provide better service to the Agency. It is neither 
standard practice nor is it acceptable for OHA managers to solicit 
employment opportunities on behalf of the contractor. Such an act 
constitutes inappropriate use of the Agency's computer system.
Question: By our calculations, the SSA paid the contractors in the 
Chicago Regional OHA about $48,000 to assemble the 1,200 cases files in 
question. How much taxpayer money will be spent to correct the mistakes 
made by the contractors and to contact affected individuals? In 
addition, how much taxpayer money has been spent to investigate this 
issue to prevent mistakes like this in the future?
    Answer: The estimated cost to correct mistakes made by the 
contractors and to contact affected individuals is $122,925. The OHA 
cost to investigate the issue is currently $13,392. These figures were 
calculated using actual hours worked to reconstruct the cases in the 
regional office and estimated figures for work performed on these cases 
in hearing offices. Our ongoing management analysis and review will 
employ these findings to prevent similar problems in the future. It is 
not possible to quantify these costs.
    It is important to note that folder assembly contracts were 
implemented in late Fiscal Year (FY) 2002 as part of our short-term 
initiatives to reduce the volume of cases awaiting hearing and to 
improve the efficiency of the hearing process. Before we began contract 
folder assembly some offices did not have enough cases ready for 
hearing to fully utilize available ALJs. The folder assembly contracts 
help ensure that there are an adequate number of cases ready for 
hearing and free office staff from routine clerical tasks, allowing 
them to concentrate on more complex case preparation duties. Although 
we experienced some problems in Chicago, nationally the contractors 
assembled over 40,000 cases, which assisted the hearing office staff in 
filling ALJ hearing dockets with over 605,000 hearings in FY 2003, 
nearly 39,000 more than in FY 2002.
Question: As you know, the Azdell and Fishman v. OPM court case has 
prevented the SSA from hiring administrative law judges (ALJs) in 
recent years. Now that the Court of Appeals has ruled in favor of the 
Office of Personnel Management (OPM), and agencies can now ask for 
lists of eligible ALJ candidates, what are the SSA's hiring plans? What 
steps are in this process, how long will these steps take, and what is 
the role of the SSA and the role of the OPM in this process? When do 
you expect new judges to be brought on board, and how many?
    Answer: SSA is working with OPM to bring on qualified ALJs as soon 
as we can, given the rules that bind us and the limitations imposed by 
the age of the hiring register, which dates to 1999 and was last used 
by SSA in 2001.
    Usually, SSA begins the hiring process by performing a ``needs 
assessment.'' Under the needs assessment, SSA considers workload data 
from its offices, available office space, support staff resources and 
available budget authority and determines the hearing office locations 
where ALJ needs are greatest and the number of additional ALJs needed 
in each office. Upon completion of these tasks, SSA is required under 
its collective bargaining agreement with the Association of 
administrative law judges to consider meeting those ALJ needs with 
incumbent ALJs whose names appear on a ``reassignment register.'' Once 
SSA has finished the reassignment process, and OPM has approved these 
reassignments, it has completed the final step in the ALJ needs 
assessment. SSA then readjusts the locations where ALJs are needed and 
prepares a request for a certificate of eligibles from OPM.
    OPM is responsible for developing an ALJ examination, determining 
the qualifications of applicants, conducting examinations, scoring 
applicants, maintaining a register, preparing certificates of eligibles 
in response to requests from employing agencies and auditing the 
selection process to ensure compliance with applicable civil service 
laws. As you know, because of the Azdell case, OPM has not been able to 
perform these functions since 1999.
    The names of all eligible ALJ candidates are maintained by OPM on a 
register that reflects, among other things, their examination score, 
veteran's status, and geographic preferences. In response to SSA's 
request, OPM prepares a certificate of eligibles containing the names 
of the highest scoring ALJ candidates who have expressed a willingness 
to accept ALJ appointments in the geographic areas where SSA has 
identified vacancies. Generally, OPM provides the names of three or 
four candidates for each vacancy identified. SSA then interviews the 
candidates and subsequently makes selections.
    After the U.S. Court of Appeals for the Federal Circuit issued its 
decision allowing OPM to issue certificates of eligibles, OPM took the 
following steps: on August 25, 2003, OPM reactivated the existing 
register but closed it to the receipt of new applications. Current ALJ 
eligibles and applicants were provided the option to update their 
resumes for informational purposes. OPM is continuing to develop a new 
ALJ examination. When the new examination is completed and announced, 
OPM will terminate this register and require the candidates on it to 
apply as new candidates. This will be a complicated process.
    In the interim, SSA is working with the Office of Personnel 
Management (OPM) to begin the process of hiring new administrative law 
judges (ALJs) from the current OPM register of candidates. Considering 
that the current OPM register of candidates has not been significantly 
refreshed for several years due to the Azdell litigation, SSA is 
concerned about the likelihood of obtaining a strong list of interested 
and qualified candidates. This is the same list that we used when we 
hired 126 ALJs with the help of this Committee in 2001. OPM has 
recently taken some measures to update the current register. They have 
contacted the ALJ register candidates and requested a response 
regarding the candidates' continued interest in being considered for an 
ALJ position. Additionally, they have begun to place a limited number 
of new candidates on the register for those individuals whose 
applications were being held in abeyance while the litigation was 
pending for the last few years. Nevertheless, given the importance of 
these selections to the disability program, we have chosen to proceed 
cautiously by pursuing a register of candidates for the 20 most heavily 
impacted hearing offices. We believe that this will give us an 
opportunity to carefully consider the candidates and determine whether 
the steps that OPM has taken to ``refresh'' the register have been 
effective. If we are able to make acceptable selections from this 
current register for these offices, we will consider proceeding to 
request another certificate of candidates to hire additional ALJs.
Question: Several initiatives to improve the disability insurance 
process have failed, in part because the SSA failed to secure the 
support of various stakeholders, including employees in the OHA. On 
several occasions, the U.S. General Accounting Office has recommended 
that SSA management work harder to secure support from employee groups 
before implementing large changes. Given this recommendation, can you 
respond to the allegation by Witold Skwierczynski of the American 
Federation of government Employees that the agency continues to refuse 
to meet with union leaders to discuss ways to improve the disability 
process at OHA, increase morale of employees, and address the 
processing problems with disability claims?
    Answer: SSA has made extensive efforts to involve various groups in 
our current plans to redesign the disability process. As I was 
developing my new approach to improving the disability determination 
process, I met with Agency employees in our field components and OHA, 
representatives from the State Disability Determination Services and 
other interest groups to discuss possible improvements to the 
disability process. The approach would not affect the work of SSA field 
office staff, and I have made clear that no SSA or DDS employee will be 
adversely affected by the approach.
    In the course of a number of meetings with SSA employees to discuss 
my new approach, I recently met with officials, including Mr. 
Skwierczynski, from each of the unions that represent SSA's employees. 
The meeting provided an opportunity for these employee representatives 
to express their views and to work through their concerns as the final 
package of process improvements is fully developed. These unions were 
offered the opportunity to meet again with either myself or Martin 
Gerry, the Deputy Commissioner for Disability and Income Security 
Programs.
Question: Inspector General Huse's testimony gives several examples of 
where prior audits have revealed problematic conditions at the OHA. In 
one instance, the Office of the Inspector General (OIG) conducted a 
review of the OHA's allegation management process. The Office of the 
Inspector General found that: ``not only were there instances where 
there was no record of referrals, there were significant time delays in 
closing out the referrals that were resolved. For example, OHA had no 
record of 37.7 percent of these referrals and it took an average of 331 
days to process the 29 allegations that had been closed.'' Could you 
please comment on whether this issue has been resolved?
    Answer: We believe that the issues involving the allegation 
management process have largely been resolved. The concern that OHA had 
no record of 37.7 percent of the referrals was due to Office of the 
Inspector General's original practice of sending Hotline referrals 
directly to the OHA regional office in which the complaint arose, 
rather than to the central OHA Headquarters location responsible for 
tracking and monitoring referrals. It was only when Office of the 
Inspector General performed the allegation management audit that OHA 
learned that not all referrals were coming to OHA Headquarters for 
login and processing. The percentage for which Office of the Inspector 
General records that OHA had no record reflects those referrals sent 
directly to the field, without any notice to OHA Headquarters. Office 
of the Inspector General revised its practice, and now sends all 
referrals to one person at OHA Headquarters, which we believe has 
resolved this issue.
    Processing times continue to be lengthy, largely because many of 
the referrals involve complaints against Administrative Law Judges 
(ALJ) that fall under SSA's procedures for handling complaints of bias 
or unfair hearing. Resolution of these types of referrals is dependent 
on a final decision by an ALJ or the Appeals Council, which may take 
several months or more.
Question: Judge Bernoski, who testified representing the Association of 
Administrative Law Judges, is concerned that the SSA has adopted a 
policy to refer judges to the Merit Systems Protection Board (MSPB) for 
what he sees as minor infractions of agency procedures. Has the SSA 
changed its policy to when to use the disciplinary process of the MSPB?
    Answer: There has been no change in Agency policy on referral of 
ALJ conduct or performance issues to the MSPB to initiate an adverse 
action. SSA follows a policy of progressive discipline and tries to 
handle issues in a way that will most effectively and efficiently 
resolve the Agency's concerns. In determining the appropriate penalty 
to pursue, SSA considers the well-known factors set forth in Douglas v. 
Veterans Administration, 5 MSPR 280, 305-06 (1981). These ask agencies 
to examine, among other things, the nature and seriousness of the 
offense; its relation to the employee's job duties; the employee's job 
level, work record, past disciplinary record and potential for 
rehabilitation; the clarity with which the employee was on notice of 
the rules that were violated or had been warned about the conduct in 
question; and the adequacy and effectiveness of alternative sanctions 
to deter such conduct in the future. Only after weighing the relevant 
factors does SSA determine the course of action it wants to follow.
    Progressive discipline usually entails first counseling the ALJ for 
an offense, then issuing an oral warning if the improper conduct 
continues and, finally, issuing a formal reprimand if the inappropriate 
conduct persists in spite of earlier disciplinary actions. However, any 
of the outlined steps may be bypassed if the nature of the incident is 
severe enough to warrant the Agency taking a more forceful action.
    Hearing Office Chief ALJs and Regional Chief ALJs may counsel and 
give oral warnings. Reprimands may only be issued by the Chief ALJ. The 
Office of Hearings and Appeals must file a complaint with the MSPB if a 
particular action of a judge warrants a penalty. The Board hears and 
decides the complaint and possesses sole authority to select a penalty 
and authorize its imposition. Longstanding MSPB precedent states that 
an agency's suggestion of a penalty is not due a high degree of 
deference. SSA v. Glover, 23 MSPR 57, 78-79 (1984); Department of 
Commerce v. Dolan, 39 MSPR 314, 317 (1988).
Question: How does OHA management at the regional and national levels 
receive and respond to concerns from front-line staff about workloads, 
office management and other hearing office issues?
    Answer: OHA employees may submit concerns at any time to any 
level--local, regional, or national--including SSA's Hotline. 
Submitting concerns first to the local hearing office (HO) level 
enables onsite managers, who often are in the best position to 
investigate and resolve matters, to take immediate action.
    OHA's Equal Employment Staff and SSA's Office of Inspector General 
also contribute to OHA's efforts to assure that informal and formal 
complaints are addressed aggressively and timely.
Question: Do you consider employee morale in hearing offices to be a 
problem? Is anything being done to address low morale in offices where 
there is a problem?
    Answer: SSA is always concerned about the well being of its 
employees and strives to provide a safe, functional, and rewarding work 
environment. SSA has a proven track record in providing its employees 
the necessary training and tools, career development opportunities, 
recognition of achievements through monetary and honor awards, and 
listening to employee input regarding operational issues. This year, 
OHA solicited a number of suggestions and recommendations from the 
regions and updated its guide of best practices for efficient 
processing of the hearings workload.
    Nevertheless, SSA recognizes that heavy hearing office workloads 
present a significant morale challenge to our frontline employees 
striving to better serve the public. Since I became Commissioner, I 
have visited our local field offices, teleservice centers, hearings 
offices, program service centers and regional offices. During each 
visit, I make it a point to meet with employees to get their 
perspective and ideas, communicate my vision for the agency and make 
clear my expectations. I am impressed with the talent in our work force 
and moved by their commitment to serving the American people.
    My service delivery plan and the President's Fiscal Year (FY) 2004 
budget request called for sufficient funding for 1,000 new staff in 
SSA's field offices and 300 new disability determination services 
staff. Unfortunately, it appears that the FY 2004 appropriation will 
provide in excess of $200 million less than the budget request. I do 
not know how serious a blow this reduction will be to our staffing 
plans. The 2004 budget also redirected 347 workyears to OHA based on 
our plan to transfer the Medicare appeals workload to the Department of 
Health and Human Services (HHS).<SUP>[1]</SUP>
---------------------------------------------------------------------------
    \[1]\ This transfer has not taken place yet, but Secretary Thompson 
and I recently signed a cost reimbursable agreement with HHS for the 
processing of the Medicare appeals workload.
---------------------------------------------------------------------------
    In addition, we expect to make a substantial investment in 
automated systems development and the supporting technology 
infrastructure throughout the hearings and appeals process. The 
strategy includes digital recording of hearings, video 
teleconferencing, speech recognition software and, most importantly, 
implementation of the accelerated electronic disability process, or 
AeDib, which is central to achieving process improvements. All SSA 
staff will benefit from these initiatives, and they should help relieve 
pressure on the hearing process. SSA will begin to roll out the new 
electronic process nationally in January 2004.
    SSA is also working closely with the Office of Personnel Management 
to initiate the ALJ hiring process. We hope to be able to hire 
additional ALJs in FY 2004, which should improve morale and eventually 
make an impact in reducing the backlog.
Question: When an ALJ is performing poorly, what kinds of corrective 
action does the SSA management take? What tools are available to the 
SSA managers to improve performance while protecting the decisional 
independence of ALJs?
    Answer: The Chief administrative law judge in OHA develops the 
broad policies, goals, and objectives for SSA's ALJ corps. SSA's 
primary concern regarding decisions by individual ALJs is decisional 
accuracy and quality. In this regard SSA has created various quality 
assurance mechanisms such as the current ALJ peer review program, 
reports issued by the Office of Quality Assurance, ongoing ALJ training 
initiatives and strengthening key program instruction material.
    Moreover, local hearing office management constantly monitors 
management information reports to ensure that the scheduling needs of 
all ALJs are met on a monthly basis. If there is a specific situation 
regarding individual ALJ performance that the hearing office cannot 
resolve, it will raise the issue with the Regional Chief Administrative 
Law Judge (RCALJ) who provides direction, leadership, management, and 
guidance to the ALJs and hearing offices within his/her region. RCALJs 
may counsel the ALJ and/or correspond with the ALJ asking for 
cooperation in moving cases along.
    In providing ALJ oversight, the Office of Personnel Management 
regulations govern various aspects of the ALJ program that restrict 
SSA's ability to involuntarily reassign or transfer an ALJ, preclude 
SSA from rating ALJ performance or establish the procedures for 
dismissing an ALJ.
Question: How does the SSA determine the number of ALJs assigned to a 
hearing office? How does the SSA determine the number of support staff 
assigned to a hearing office? Who has the authority to allocate or 
reallocate staffing at any specific hearing office?
    Answer: OHA regularly assesses the needs of its hearing offices 
with respect to ALJ and support staff placement in an effort to balance 
workloads. ALJs and staff are strategically placed in those offices 
with the most critical need. Of course, we must honor our bargaining 
unit obligations, including pending ALJ reassignment requests, when 
considering placement. However, staffing imbalances can and do occur 
not only among regions but also among HOs, and this can result in some 
service disruption. It is the responsibility of regional management to 
ensure, within approved staffing levels, the appropriate mix of staff 
based on each office's unique workload requirements.
Question: How is productivity and performance in a hearing office 
measured? If a particular hearing office is found to be performing 
below expectations, what kinds of corrective actions does the SSA take?
    Answer: Basically, hearing offices are measured by their 
performance in achieving core fiscal year goals, including:

            Dispositions
            Average Processing Time
            Percent of Aged Cases

    Hearing office management continually monitors hearing office 
performance, and if the office is experiencing operational problems, 
redirects resources to address the specific problem or advises their 
regional office management that they need assistance. RO management 
identifies other hearing offices in the region that have the capacity 
to assist in a specific need (e.g., case preparation, decision 
drafting, and so forth.) and directs intraregional assistance.
    If there are no such offices in the region that can provide the 
needed assistance, RO staff contacts the Office of the Chief 
Administrative Law Judge to request interregional assistance. The 
Office of the Chief Judge will review the management information at the 
hearing and regional levels and direct interregional assistance, as 
appropriate. The goal of this collaboration is to achieve the highest 
performance possible for all hearing offices throughout the country. 
Assistance can take many forms: additional staff or overtime, temporary 
or permanent workload transfer, reexamining local procedures that are 
not producing the hoped for results, or sharing ``best practices'' that 
have been beneficial in other offices.
    Hearing offices with persistent performance issues undergo a 
comprehensive management review so that corrective actions can be 
implemented to help the office achieve its performance goals. We 
recognize that more can be done to proactively improve hearing offices 
with persistent productivity problems. OHA headquarters plans to 
conduct management reviews in as many as 30 hearing offices this fiscal 
year. Offices will be selected based on several factors including known 
performance and management/administrative issues. These reviews are in 
addition to routine hearing office management reviews conducted by 
regional office management.
Question: The Judicial Conference, representing district courts, 
reportedly has requested that the SSA not eliminate the Appeals 
Council, fearing that their courts would be flooded with appeals. Also, 
consumer groups have testified that the Appeals Council provides 
meaningful relief to claimants in a significant fraction of cases and 
should not be eliminated. How does your proposal to eliminate this 
third level of administrative appeal and replace it with a quality 
review step address these concerns?
    Answer: We have heard the concerns that elimination of the Appeals 
Council might result in an increase in the number of cases being 
appealed to the District Courts. If the only change to the current 
process was the elimination of the Appeals Council, the number of cases 
moving to the Courts would likely increase. However, my approach 
includes substantive changes at all levels of the disability 
determination process as well as strengthened quality reviews. These 
changes are in part designed to ensure a more complete record at every 
stage in the process. The approach, which contains a quality assurance 
review of ALJ decisions and Oversight Panels, would enhance the quality 
of the decisions that are of concern to the Judicial Conference. It is 
expected that the Agency could increase or decrease the percentage of 
the ALJ decisions that were selected for review by the quality review 
process, thus managing to some extent, the percentage of cases that 
were immediately subject to appeal by the Courts. This, along with the 
substantive changes in the process, and the establishment of Oversight 
Panels, should address concerns of a flood of cases moving to the 
District Courts.
    Although the Appeals Council does remand 26 percent of the cases 
back to ALJs, a more significant fact is that the Federal courts remand 
60 percent of the cases that passed through the Appeals Council. These 
Federal court remand numbers indicate that many claimants must pay a 
high price for relief, having to wait even longer and incur additional 
expense, only to have their claims returned to the Appeals Council and 
the ALJ. A more aggressive quality review process at each stage, as 
well as implementation of an oversight panel, will ensure that the 
right decisions are being made as soon as possible in the process so 
that claimants will not have to endure lengthy waits to receive the 
appropriate decision.
    Since announcing my approach, Martin Gerry, my Deputy Commissioner 
for Disability and Income Security Programs, and I have had several 
meetings with various advocacy organizations, as well as a number of 
representatives from the American Bar Association, to hear their 
thoughts and concerns. We will also be meeting again with 
representatives of the Judicial Conference to review the approach, 
answer their questions and discuss their concerns. I also look forward 
to meeting with individual members of Congress to discuss the approach.
    I remain committed to ensuring that all interested parties are 
provided an opportunity to share their comments, concerns and 
suggestions.
  Questions from Chairman E. Clay Shaw, Jr. to Mr. Ronald G. Bernoski
Question: Recently the Subcommittee on Social Security obtained the 
audit from the February 2003 review of the Milwaukee Hearing Office 
conducted by Regional Chief Administrative Law Judge (ALJ), Paul 
Lillios. In that audit, Judge Lillios expressed concern over the low 
ALJ disposition rate of 1.53 cases per day, the lowest rate in the 20-
office region. Since you work in the Milwaukee office, do you believe 
the findings of the audit report were accurate? How do you account for 
the low disposition rate your office was experiencing?
    Answer: The finding of the Milwaukee Hearing Office audit as to the 
number of cases disposed of per judge per day (1.53) for the 5 month 
period from October 2002 through February 2003 may or may not be 
accurate. The Association of administrative law judges was not given a 
complete copy of the audit report and we can not comment on its 
accuracy or on the manner in which it was prepared. However, in any 
case, that statistic does not accurately reflect the work effort of the 
judges in the office.
    As discussed in more detail in the answer to your question number 
2, the reorganization of the hearing offices in the Office of Hearings 
and Appeals (OHA), known as HPI, destroyed the last vestiges of any 
direct oversight judges had over their own dockets and case flow. Prior 
to HPI, in the Milwaukee OHA two clericals were specifically assigned 
to each judge to work on that judge's cases. This included, inter alia, 
setting up the case files in preparation for hearing, scheduling the 
cases for hearing, associating mail and documents with files, handling 
correspondence and telephone calls for that judge's cases and typing 
and mailing out decisions. With the advent of HPI, that relationship 
between a judge and the two clericals was destroyed. Now it is 
difficult hold any staff member accountable for a given work flow task 
on a given case for a given judge.
    In the context of statistical ``productivity'' of judges and when 
questions of ``accountability'' of judges are raised, the fact that 
judges have no supervisory authority over any staff--including staff 
attorneys, paralegals, and clericals--is often overlooked. Because 
judges themselves are not allowed to supervise any of the staff under 
the current system, they must rely on and are at the mercy of OHA 
management to effectively do so. Those hearing offices that are blessed 
with good managers and supervisors, and that have staff with a good 
work ethic, may have been able to overcome some of the obstacles 
impeding case flow that HPI created. Unfortunately, the Milwaukee 
Hearing Office was not one of those offices. The former Hearing Office 
Director (HOD), who was appointed in Milwaukee at the beginning of HPI, 
was completely inexperienced with OHA and had no knowledge of how a 
good hearing office is supposed to run. That individual also had a 
``hands off'' management style and was disinclined to learn how the 
office should operate. To further exacerbate the problem, the HOD would 
reject suggestions from experienced judges and supervisors which were 
made to improve or correct matters in areas that needed attention. 
Regional Chief Judge Lillios' expressed ``concern'' over the result of 
the audit should have come as no surprise to him. The former Milwaukee 
Hearing Office Chief Judge and other judges had for over two years 
prior to the audit explained the problem with the HOD to Judge Lillios 
and yet no action was taken until after the results of the audit 
appeared in the local newspaper and Members of Congress began to make 
inquiries. To this date the administrative law judges in the Milwaukee 
office have not been brought into any planning process for correction 
of any deficiencies in the office.
    In addition, and perhaps just as important, the Milwaukee Hearing 
Office had been, for a long time, very understaffed, as Associate 
Commissioner Thurmond himself acknowledged during his visit to the 
Milwaukee office in Spring, 2003. Again, judges in Milwaukee had 
requested Regional Chief Judge Lillios to provide more staff and for 
help in taking action to correct deficiencies in the quality of the 
work of some of the employees. However, it was not until the adverse 
publicity occurred that any new employees were given to Milwaukee.
    Further, to completely understand the situation in the Milwaukee 
office, one must consider that the Milwaukee Hearing office is hard-
pressed in comparison to other hearing offices in terms of the 
territory and the population base it serves. Milwaukee (and its Madison 
``satellite'') receives all appeals from nearly the entire State of 
Wisconsin plus the Upper Peninsula of Michigan. A simple arithmetic 
comparison between Wisconsin and the nearby States of Illinois, 
Michigan, Indiana and Ohio in terms of both the number of hearing 
offices and the number of judges per state clearly shows that Wisconsin 
has gotten short-shrift and our judges serve a larger population on a 
proportional basis. As a general rule, smaller hearing offices which 
cover smaller areas and smaller population tend to be more efficient 
than larger offices with more judges serving larger populations.
Question: In your testimony, you state that the problems in the 
Milwaukee office are present to a greater or lesser extent in many 
other Social Security hearing offices. Please provide more detail as to 
why you believe this is the case?
    Answer: As described in both our oral and written testimony for the 
hearing, the major factor leading to the problems in the Milwaukee 
hearing office was a direct result of the changes implemented pursuant 
to the Hearings Process Improvement Plan (HPI) coupled with agency 
mismanagement. HPI was implemented in January 2000 in a three phrase 
process. The basic change in HPI was to remove the support staff 
employees from the direct support of the administrative law judges and 
to instead place them in groups under the control of management 
employees. With this change, support staff now provides indirect 
support to the administrative law judges. The administrative law judges 
do not have any particular staff person dedicated to work on the work 
product of a particular judge. The result has been the elimination of 
individual responsibility for staff work product. The offices have been 
placed in a state of confusion with resulting employee despair. Mail is 
frequently lost or not filed, hearing exhibits are frequently misplaced 
or not filed in the hearing record, and frequently sufficient cases are 
not prepared to be scheduled for hearing. The quality of decision 
writing has substantially declined and in many cases it is not legally 
sufficient at a minimum level. These problems are present to a greater 
or lesser extent in many hearing offices and they were also present in 
the Milwaukee hearing office. The evidence shows that HPI has been a 
general failure through out the OHA system. This finding is supported 
by reports and studies by the SSA Office of the Inspector General, SSA 
Office of Workforce Analysis and the United States Accounting Office 
which have all been critical of HPI. The Commissioner's HPI Steering 
Committee conducted an extensive study of HPI in 2001. As part of the 
study the Committee visited about 40 OHA hearing offices and concluded 
that ``HPI did not meet its stated objectives''. The Committee found 
that the HPI work process resulted in more handoffs, confusion, lost 
files, inadequate mail association, lack of individual accountability 
for case work, case pulling backlogs and management unable to assign 
staff. The evidence developed by the HPI Steering Committee clearly 
shows that the problems from HPI were common in the OHA hearing 
offices. The committee also found that smaller offices performed better 
and had higher morale. This evidence shows the HPI problems were 
present in OHA hearing offices to a ``greater or lesser extent''. The 
Milwaukee hearing office is a larger office with an authorization for 
up to 14 administrative law judges which explains why the HPI problems 
were more profound in this office. The stated HPI problems together 
with the mismanagement described in the answer to question number 1, 
explain the source of the difficulties found in the Milwaukee hearing 
office.
    The problems with staff support in OHA was most dramatically 
demonstrated by Rep. Collins during the hearing when he read part of a 
letter from a constituent asking him if he could function as a member 
of Congress if his support staff was in a pool, if they were selected 
by someone else, if they were managed by someone else, and if he could 
not direct their work or rate their performance? His answer was ``no''. 
This is the HPI environment that SSA administrative law judges function 
in on a daily basis.
Question: ALJs have a long history of judicial independence that was 
established by Congress through the Administrative Procedure Act 1946 
and supported by a number of court cases. While this tradition of 
judicial independence ensures that disability claimants receive a fair 
and impartial hearing, some would claim that it also makes it more 
difficult for ALJs to be held accountable for their performance. How 
should Judges be held accountable in your view?
    Answer: It is correct that Congress intended to provide 
administrative law judges with decisionmaking independence within the 
scope of the Administrative Procedure Act. During the debate on the 
Administrative Procedure Act the Congress considered creating a 
separate Corps of administrative law judges to adjudicate 
administrative claims. The Congress decided to leave the administrative 
law judges within the various agencies and provide them with additional 
protections that did not extend to other Federal employees. In the case 
of Ramspeck v. Federal Trial Examiners Conference, 345 U.S. 128 (1953), 
the United States Supreme Court stated that Congress provided ``that 
`hearing examiners' (now administrative law judges) should be given 
independence and tenure within the existing Civil Service system. 
Congress intended to make hearing examiners `a special class of semi-
independent subordinate hearing officers' by vesting control of their 
compensation, promotion and tenure in the Civil Service Commission to a 
greater extent than in the case of other Federal employees.'' The Court 
went on to explain that this independence was further protected by the 
requirement that administrative law judges can only be removed for good 
cause established by the Civil Service Commission after opportunity for 
hearing on the record.
    The law currently contains a process to ensure accountability of 
Federal administrative law judges. The disciplinary provisions of the 
Administrative Procedure Act are implemented by 5 U.S.C. section 7521 
which provides that ``an action may be taken against an administrative 
law judge appointed under section 3105 of this title by the agency in 
which the administrative law judge is employed only for good cause 
established and determined by the Merit Systems Protection Board on the 
record after opportunity for hearing before the Board.'' The actions 
permitted by the law include removal, suspension, reduction in grade, 
reduction in pay and furlough for 30 days or less. The elements for the 
various causes of action are established by the case law of the Merit 
Systems Protection Board and include a cause of action for 
inefficiency.
    The Association of administrative law judges has long been an 
advocate of accountability at all levels of the Social Security 
Administration. We recognize that judicial independence is for the 
protection of the American public and not for the protection of the 
judges. In this regard, we have long requested that the agency join us 
in an effort to have the Federal government adopt the American Bar 
Association (ABA) Model Code of Judicial Conduct for Federal 
administrative law judges. The goal of the Code is to provide for an 
independent and responsive administrative judiciary that is 
indispensable to justice in our society. It provides that 
administrative law judges should participate in establishing, 
maintaining, enforcing, and observing the highest standards of conduct 
so the integrity and independence of the administrative judiciary may 
be preserved. This code should be applicable to all Federal 
administrative law judges. Governance by a code of professional conduct 
such as this, is the manner by which members of professional groups are 
held accountable to both their profession and the American people.
    In the 106th Congress Rep. George Gekas (R-PA) introduced 
legislation to create an administrative law judge Conference of the 
United States (H.R. 5177). The bill was modeled on the Judicial 
Conference of the United States Conference for the Federal Courts. The 
legislation transferred the responsibilities for administrative law 
judges from the OPM Office of administrative law judges to the 
Conference, left the administrative law judges in the agencies and 
placed the operational control of the conference under a Chief Judge. 
The Chief Judge was also mandated to develop a code of professional 
conduct for administrative law judges based on the ABA model code.
    The legislation would address current problems relating to the 
inability to appoint new administrative law judges raised by Rep. 
Pomeroy (D-ND) at the hearing. This is much needed reform legislation 
and should be supported by all members of this Subcommittee in 
cooperation with the House Judiciary Committee. This legislation will 
create a formal system to regulate the administrative law judge system 
in the Federal government.
     Questions from Chairman E. Clay Shaw, Jr. to Mr. James A. Hill
Question: In your testimony, you state that the SSA is engaging in 
creative accounting to show improvement in productivity among 
administrative law judges (ALJs). You believe that productivity has 
remained remarkably consistent at approximately 500 dispositions per 
year per ALJ. Can you explain why you do not trust the productivity 
numbers that the SSA releases?
    Answer: The issue of the reliability of OHA management information 
data is a complex matter. It must be understood that production 
statistics are prepared in each hearing office, and that these 
statistics are used by higher level management as a measure of the 
competence of hearing office management. Needless to say, there is an 
interest in presenting data in as favorable a light as possible. While 
many hearing offices rigorously document case flow, many others neglect 
to do so through carelessness or intent. Perhaps the extreme example is 
the Milwaukee Hearing Office situation. While the magnitude and nature 
of the problem in that office rendered the problem visible, less 
flagrant situations go unnoticed or uncorrected.
    Nonetheless, it is clear that much of the management information 
data is tainted. Few have faith in the integrity of the management 
information system leading to a healthy skepticism of all the data 
produced. The chain of command for all personnel in hearing offices 
includes a Hearing Office Chief administrative law judge, a Regional 
Chief Administrative Law Judge, and a Chief administrative law judge, 
all of whom have a vested interest in presenting ALJ performance in the 
best light.
    Additionally, SSA management eliminated the Senior Attorney 
Program, thereby relying entirely on ALJs for decisionmaking in OHA's 
hearing offices. Enhancing apparent ALJ productivity is essential to 
justify that decision. An example of the extent some will go to inflate 
ALJ productivity is seen in the instructions issued in several regions 
to attribute the number of cases identified by Senior Attorneys in a 
screening process as on-the-record (OTR) fully favorable decisions to 
ALJs enhancing the productivity of a parallel ALJ file review program.
    When one views the statistic usually cited for demonstrating ALJ 
productivity (Dispositions per ALJ per day), the alleged improvement is 
significantly impacted by the methodology employed. That occurs because 
the factors that go into making that statistic have changed over the 
years. A major change occurred in FY 2003 involving the counting of 
management ALJs as less than a full ALJ thereby reducing the number of 
available ALJs. While that would seem to make sense, ALJs with 
management responsibilities have less time to devote to decisionmaking, 
nonetheless it results in a higher production index with the same 
number of ALJs and dispositions. Ironically, because these individuals 
are accountable for the performance of their hearing office, they tend 
to be very productive judges despite their other duties. Nonetheless, 
over the course of time, ALJ productivity measured in dispositions per 
ALJ per year has shown a remarkable consistency as demonstrated below.
[GRAPHIC] [TIFF OMITTED] 99662C.005

      
    [GRAPHIC] [TIFF OMITTED] 99662C.006
    
      
    However, the problem with basing productivity on the number of 
dispositions per ALJ per day is far more fundamental. ALJ productivity 
is based on a 250 day work year. Usually, there are 250 work days in a 
work year. Few if any ALJs work 250 days a year. The calculation of 
productivity does not take into account annual, sick, or administrative 
leave.
    In addition to the unrealistic 250 day work year, ALJ productivity 
is based on dispositions consisting of decisions and dismissals. This 
would be reasonable if there was a level of equality between decisions 
and dismissals. The simple fact of the matter is that most dismissals 
are usually the result of a failure to timely file a Request for 
Hearing without just cause or failure to appear. The dismissal notices 
are drafted by the staff and signed by the ALJ. ALJs spend very little 
time disposing of most dismissals. A far more accurate picture of ALJ 
productivity would be presented by considering decisions issued and not 
dismissals. Finally, the inclusion of the Medicare workload, which is 
not equally distributed from hearing office to hearing office, can 
significantly distort ALJ productivity.
    It is difficult to give much credibility to a production measure 
that is so unrealistic. Such an artificial and meaningless figure is 
not likely to inspire ALJs to increase productivity. Evaluating the 
productivity of ALJs based upon this single, very suspect, figure is 
nonsensical. OHA needs better measures of productivity.
    Of course none of the above precludes an actual increase in ALJ 
productivity as alleged by SSA. In fact, recently released production 
statistics (unavailable when I testified) indicate that there has been 
an increase in ALJ productivity based upon the number of dispositions 
(including Medicare cases) in September 2003.
Question: In your testimony, you state that there is a widespread 
perception that the business of OHA is directed toward serving the ALJs 
rather than serving the public. Can you explain this statement further?
    Answer: As I indicated in my testimony, there is a widespread 
perception in OHA that the business of OHA is directed toward serving 
the ALJ rather than serving the public. It is difficult to explain why 
that is so without appearing to engage in ``ALJ bashing'' and that is 
not my intent. There are many fine ALJs in OHA who put public service 
first and who recognize the proper role for ALJs in an administrative 
decisionmaking process. However, too often, when the idiosyncrasies of 
individual or small groups of ALJs and service to the public are in 
conflict, OHA management places a higher priority in accommodating the 
ALJs that it does on providing the best possible service to the public. 
I suspect that there are two major factors contributing to this 
unfortunate scenario. The senior management officials in hearing 
offices and regional offices are themselves ALJs. Additionally, ALJs 
are the only decisionmakers in hearing offices.
    When SSA had a problem with a clerical employees fraudulently 
issuing a favorable decision in cases that an ALJ did not intend to 
make a favorable decision on it instituted a security system (AVID) 
that required the ALJ to take a moment to make a computer entry to 
assure that he intended to issue that favorable decision. OHA has 
instructed ALJs to make that AVID entry and no other employee, other 
than the Hearing Office Chief administrative law judge (e.g., if the 
ALJ is unavailable), can make that entry on behalf of the ALJ. However, 
it is common practice for some ALJs to rarely if ever make the AVID 
entry, forcing the HOCALJ or some other employee to make the entry. In 
spite of the fact that this is common knowledge to management 
officials, the Agency has made no serious attempt to make ALJs follow 
this security practice. The desire of individual ALJs not to have to 
make a computer entry is given precedence over the duty of the Agency 
to protect the disability trust fund from fraud.
    Another example of management serving the whims of the ALJs to the 
detriment of disability applicants involves stylistic changes to 
decision drafts. SSA does not require that the decision be drafted to 
comply with the stylistic mannerisms of the individual ALJ, but 
nonetheless recognizes that the ALJ has nearly unlimited freedom to 
craft his/her decision. However, each individual decision writer 
prepares decisions drafts for many different ALJs, some of whom have 
somewhat exotic idiosyncrasies. Many decisions are drafted by writers 
who are not located in the ALJ's hearing office and have no or little 
contact with the ALJ. OHA has long recognized that requiring decision 
writers to meet the specific stylistic demands of individual ALJs would 
negatively impact on decision drafting productivity thereby increasing 
processing time. As a matter of policy, OHA requires that it is the 
responsibility of the individual who drafts an ALJ decision to produce 
a legally defensible decision draft that conforms to the instructions 
of the ALJ, and that purely stylistic changes desired by the ALJ should 
be made by the ALJ in the ALJ editing process.
    Nonetheless, individual ALJs still demand that each draft be 
tailored to his/her individual whims regarding stylistic matters, and 
in order to placate these ALJs, individual Hearing Office Chief 
administrative law judges frequently require Agency attorneys and 
paralegals to make stylistic changes in ALJ draft decisions thereby 
slowing the whole process. Fewer decisions are drafted and those that 
are drafted take longer than necessary, all to satisfy the whim of an 
individual ALJ. For example, some ALJs require that all their decisions 
be in the first person, which requires significant editing to the 
Agency's decision drafting macros. Other requests are simply 
ridiculous, such as requiring that the terms ``whether'' or ``due to'' 
be excised from the decision, or refusing to allow the use of the word 
``the'' in front of the word ``claimant'' when referring to the 
claimant. The issue is that given a caseload of almost 600,000 cases 
and a processing time approaching a full year, should Agency assets be 
diverted from drafting as many legally defensible decisions as quickly 
as possible in order to placate the stylistic whims of individual ALJs? 
All too often management opts to placate the ALJ.
    Many ALJs, and their Union, AALJ/IFPTE of the AFL-CIO were 
correctly perceived as opponents of the Senior Attorney Program from 
its inception in 1995 and they were instrumental in convincing SSA that 
the Program was unreliable, unwarranted, and unnecessary and should be 
terminated. They viewed the program as competition for ALJs and a 
threat to their jobs. The persistent opposition of ALJs including many 
ALJs in management limited the effectiveness of the program and 
eventually ended it. The program, in spite of active opposition from 
these ALJs produced over 220,000 cases in an average of 110 days. Most 
of those 220,000 cases did not require any staff time for pulling or 
any ALJ time at all. It is not a coincidence that the huge rise in the 
number of unpulled cases is concurrent with the advent of HPI and the 
demise of the Senior Attorney Program. Since the program ended the 
number of on-the-record cases has dropped dramatically thereby 
subjecting those claimants to an unnecessary hearing, and significantly 
delaying the award of disability benefits to needy and deserving 
claimants. Had the Program been continued the number of cases waiting 
to be pulled would not have risen dramatically causing substantial 
delays in case processing. Further, there would have been no need to 
contract out case assembly and more than 1200 claimants in the Chicago 
Region would not have had their applications put at risk by contract 
workers who threw out medical evidence. Had the Program been continued 
as many as 150,000 claimants would have timely received a decision and 
not be part of the record backlog of cases currently pending at the 
Office of Hearings and Appeals. The ALJs were placated but at what 
cost.
    Had the Agency put the needs of the public first rather than 
serving the wishes of ALJs, it never would have terminated the Senior 
Attorney program and it would not have failed to resurrect it for the 
last 3 years even after GAO recommended it be revived. However, it was 
terminated and has not yet been revived. However, the pressure to 
revive the program from GAO, claimant advocacy groups, NOSSCR, and 
others has forced the Agency to consider reinstituting an attorney 
decisionmaker duty. But the pressure from some groups internal to SSA, 
including many ALJs, is leading the Agency to propose a program which 
simply cannot meet the needs of the Agency or the public. OHA senior 
officials have stated for some time that they are under constraints to 
limit the size and effectiveness of an attorney adjudicator program. 
The plan currently under consideration (for well more than a year) is 
entirely inadequate to meet the demands of the current receipt of cases 
to say nothing of reducing the size of the backlog. Timid, half 
measures, limited by pandering to the institutional concerns of SSA 
components and factions, should be rejected out of hand. The backlog 
crisis must be effectively addressed now, and it should be done with an 
eye to the future.
    NTEU recognizes that the program recently announced by Commissioner 
Barnhart will significantly improve the adjudicatory system, but that 
the Program will not begin earlier than October 2005. We need a bridge 
to that program that addresses the current crisis. It is self evident 
that to seriously address the backlog problem OHA must substantially 
increase the number of adjudicators. Indeed, that is exactly what the 
Commissioner's plan for the future will do. She proposes to do that by 
creating an attorney position, the Reviewing Official (RO), which will 
have the responsibility of reviewing every case appealed from the DDS. 
The RO will be invested with full decisional authority. Unless the 
claimant files an appeal for a hearing before an ALJ, the RO's decision 
becomes the final decision of the Commissioner. In short the RO is a 
very responsible position.
    It is clear that the Commissioner intends to fill the over 1000 RO 
positions with experienced attorneys from the Office of Hearings and 
Appeals. Most of these attorneys are presently employed in hearing 
offices across the United States as Attorney Advisers and Senior 
Attorneys. These are the people from whom Management proposes to select 
a limited number of attorney decisionmakers in a temporary program 
until the Commissioner's Disability Plan is commenced. At that point 
many of the attorneys that have not participated in the attorney 
decisionmaker program will become ROs, a much more difficult and 
responsible position.
    NTEU suggests that SSA address two issues, reducing the current 
backlog and training and preparing its current attorneys for the 
responsibilities they will assume as RO at the same time, now. What 
better training for the decisionmaking position of RO than actually 
gaining long term experience in a similar, but less demanding 
decisionmaking position. Additionally, few could dispute that 
evaluating the decisionmaking performance of individuals over a several 
year period certainly provides a better basis for identifying those 
individuals who will be successful ROs than any merit promotion 
process. Providing all qualified attorney advisers and senior attorneys 
will decisional authority now not only serves the interests of the 
future, but also will deal effectively with OHA's current caseload. 
These individuals, in addition to decisionmaking responsibilities, 
would continue to draft ALJ decisions, thereby providing continuity and 
maximizing current productivity. Individual hearing offices could 
assign work in the manner necessary to most effectively deal with its 
individual and unique caseload. As many as 100,000 fully favorable on-
the-record (OTR) decisions could be issued by these attorney 
adjudicators in addition to dispositions made by ALJs.
    Obviously, some decision writing capacity will be lost due to the 
decisionmaking activities of the attorney adjudicators. It is however, 
a considerable smaller loss of capacity than will occur when the RO 
positions are filled. It makes a good deal of sense to begin to address 
the issue of decision writing expertise for hearing offices under the 
Commissioner's Plan now rather than wait until it is implemented. The 
acquisition of decision writing assets now, when the Agency still 
retains its full reservoir of decision writing talent, will facilitate 
the integration of newly hired attorney decision writers in the 
disability process ensuring that they will have acquired the expertise 
to produce high quality decision drafts for ALJs after the 
Commissioner's Plan is implemented. In the interim they will provide 
the additional decision writing resource permitting experienced 
attorneys to adjudicate as well as draft decisions. This would permit 
the greatest number of both ALJ and attorney adjudicator decisions to 
be issued thereby effectively reducing the backlog now.
    It is time for the Social Security Administration to maximize the 
effectiveness of its current and future resources to ensure that 
claimants applying for disability benefits have there claims 
adjudicated in a fair and timely manner. The Commissioner has presented 
a plan, which if implemented properly, holds the promise of finally 
solving the chronic problems that plague the current system. Until that 
Plan is implemented, SSA must promote programs that meaningfully 
address the current backlog crisis. It must avoid the pitfalls of 
placing its institutional interests or those of any of its internal 
factions ahead of the interests of the people. SSA adopt policies and 
programs consistent with its duty to serve the public. Internal 
constraints, particularly those without operational basis, should not 
dictate the policies and programs of the Agency. It is time to address 
both the needs of the present and the needs of the future with an 
extensive attorney adjudicator program based upon the tested and 
successful original Senior Attorney Program commenced in 1995 and move 
resolutely toward finally providing the level of service that the 
public deserves.

                                 <F-dash>

    [Submissions for the record follow:]
   Statement of Dawn R. Caldart, AIDS Resource Center of Wisconsin, 
                          Milwaukee, Wisconsin
    To Whom It May Concern:
    In Milwaukee, questions have been raised regarding the creditials 
of a vocational expert, Ms. Victoria Rei. Ms. Rei's curriculum vitae 
reveals a doctorate in Philosophy of Religion from ``UCL.'' (See 
Janisiak v. Barnhart, 01-CV-648 (ED. WI 2001). A private investigator 
has determined that UCL does not exist and that it appears Ms. Rei paid 
the Universal Life Church in Modesto, California $100, read a book and 
answered 20 true/false questions to earn her `Doctorate.' (See id.). If 
true, this misrepresentation implies dishonesty and casts doubt upon 
her ability to honestly assess claimant's ability to work.
    The Commissioner has been aware of the issues surrounding Ms. Rei's 
credibility as an expert since 2001. Despite questions about her 
credibility, Ms. Rei was still used as an expert at the time of the 
claimant's hearing on June 13, 2002. The claimant and his attorney had 
no reason to believe the Commissioner would use a VE under 
investigation for misrepresentation and dishonesty. The case is know 
being reviewed at the AC.
    Not only is the thought of this unfathomable but it is extremely 
unjust. There are no safeguard mechanisms in place to prevent this from 
happening. Even after the issues were raised regarding the VE's 
veracity, OHA in Milwaukee continued to use her as an ``expert'' at the 
expense of some very sick and disabled individuals. This conduct is 
egregious and inhumane.
            Respectfully Submitted.

                                 <F-dash>

                                           American Bar Association
                                               Washington, DC 20005
                                                    October 6, 2003
The Honorable Clay Shaw
Chair, Subcommittee on Social Security
Committee on Ways and Means
U.S. House of Representatives
Washington, DC 20515-4315
    Dear Chairman Shaw:
    On behalf of the American Bar Association, I thank you and the 
Subcommittee members for your continued focus on the Social Security 
Administration's management of disability cases. SSA is confronting few 
challenges as pressing as that of reducing unnecessary backlogs and 
delays while ensuring that the system is efficient, accurate, and fair. 
We are pleased that the Commissioner has taken on this challenge, and 
we look forward to examining her proposal in more detail.
    We support the Commissioner's premise that a correct decision 
should be made as early in the process as possible. If the quality of 
intake and the development of evidence is improved at the early stages, 
it follows that there will be fewer appeals and a reduction in 
backlogs. Indeed, we have urged the Social Security Administration for 
many years to provide claimants with information to help them 
understand the determination process and their responsibilities, and to 
notify them of the availability of legal representation. We have 
encouraged SSA to take affirmative steps to compile accurate 
documentation and supplement insufficient reports, and to provide 
claimants the opportunity to submit further evidence before a claim is 
denied. We have recommended pre-decision interviews between SSA staff 
and claimants, and we have urged that these interviews be face-to-face 
wherever possible. In cases where denial is possible, the interview 
could provide the opportunity for staff to inform claimants of reasons 
why the finding of disability cannot be made, ensure that the file 
includes all evidence submitted, provide claimants the opportunity to 
submit further evidence, and advise health providers of deficiencies in 
the medical evidence and give them the opportunity to supply additional 
information. We have also suggested eliminating the reconsideration 
level of appeal.
    While we have encouraged a focus on improvements to the early 
stages of the process, we recognize the need for additional resources 
and for changes at the hearing level. The ABA strongly believes that 
each and every claimant for disability benefits under the Social 
Security Act, Title 42 U.S.C.  223 et seq., is entitled to a due 
process hearing, on the record, before an administrative law judge 
appointed pursuant to  3105 of the Administrative Procedure Act, Title 
5 U.S.C., applying standards consistent with the law and published 
regulations. We support having staff attorneys and law clerks assigned 
to individual judges, and we have also recommended the addition of 
federal adjudication officers or similarly positioned staff who could 
develop evidence, make a decision to allow a claim, and in appropriate 
cases act as a ``presenter'' at the hearing, provided that 
administrative law judges retain authority for developing the record 
when the claimant is not represented. This recommendation is not 
intended to support a return to the days of the ``Government 
Representation Project,'' and we are pleased to see that the 
Commissioner's proposal does not appear to envision an adversarial 
setting. The ABA has not taken a specific position on the question of 
when to close the record following the hearing, and we understand that 
neither the agency nor the court should be required to consider an 
unlimited stream of additional evidence that undermines the ability to 
make a decision on the claim. However, we would be concerned about a 
bar to reopening within a reasonable amount of time upon a showing of 
good cause. With regard to the final level of administrative appeal, we 
have recommended that Appeals Council review be limited to cases of 
clear error of law or a lack of substantial evidence.
    We have testified before the Committee on these issues in the past, 
and in recent months have explained our positions to Commissioner 
Barnhart's staff and to members of the Social Security Advisory Board. 
We ask that this letter be included in the record of your September 
25th hearing. We look forward to reviewing the Commissioner's proposal 
in more detail, and would appreciate the opportunity to share our 
observations with the Subcommittee. Lillian Gaskin, ABA Senior 
Legislative Counsel, stands ready to work with you and your staff. Ms. 
Gaskin can be reached at (202) 662-1768.
            Sincerely,
                                                    Robert D. Evans
                                                           Director
                                        Governmental Affairs Office

                                 <F-dash>

   Statement of James E. Marshall, American Federation of Government 
    Employees Council 215, and National Council of Social Security 
  Administration Office of Hearings and Appeals Locals, Falls Church, 
                                Virginia
    My name is James E. Marshall. I have been employed by the Social 
Security Administration for more than 45 years and have been an 
employee of the Office of Hearings and Appeals for 31\1/2\ years at OHA 
Headquarters in Falls Church, Virginia. I am also the President of AFGE 
Council 215, National Council of Social Security Administration OHA 
Locals, which represents approximately 5,000 employees in 132 hearing 
offices across the United States, as well as employees at OHA 
Headquarters in Falls Church, Virginia, and employees at SSA 
Headquarters in Baltimore, Maryland.
    In his testimony, Mr. Witold Skwierczynski, Spokesperson, SSA 
General Committee, American Federation of Government Employees, AFL-
CIO, informed you that I would be submitting a statement for the record 
for your consideration and appropriate action as you deem necessary. In 
submission of this statement, I have reviewed the oral testimony and 
statement of Honorable Jo Anne Barnhart, Commissioner of Social 
Security, presented to the Subcommittee on September 25, 2003, as well 
as having attended the Commissioner's briefing with SSA Union 
leadership on September 26, 2003, which addressed her future plans for 
the disability program as set forth in her testimony.
    The Commissioner in her testimony and briefing described her future 
approach for achieving disability process improvements within the 
Agency. The prerequisite for her long-term strategy is predicated on 
the development and implementation of an electronic disability claim 
systems (EDIB) which is expected to begin in October, 2005.
    While I fully support the Commissioner's dream to make such 
technological improvements at the Social Security Administration, there 
are insurmountable roadblocks and questions that must be answered in 
order to expect SSA to possibly begin implementation of EDIB to 
commence in October, 2005, or later. Given the current shortage of 
personnel within DDS and OHA to handle the current and future 
disability claims, careful attention must be devoted to staffing and 
training plans for those employees who will utilize and maintain the 
system. It is vital to note that the Commissioner and approximately 140 
Hearing Office Systems Administrators (HOSAs) throughout the United 
States, during the past several years, have had a significant 
disagreement regarding the computer classification series and grade 
level for the HOSA position. This disagreement, in my opinion, will 
have a significant impact on this redesign initiative and serious 
consideration must be devoted to upgrading systems related positions 
within the Office of Hearings and Appeals. In addition, the 
Commissioner failed to address the impact that will occur due to the 
loss of approximately 25% of the Agency's personnel by the end of 2005 
due to retirements and other means. I submit that many new hires do not 
intend to make SSA a lifetime career, but are waiting for an improved 
economy so that they will have a better opportunity for career 
enhancements in private industry. As such, this Agency could lose up to 
40% of its personnel before full implementation of the electronic 
disability claim file. While it is clear from the Commissioner's 
presentation that using electronic folders will allow faster processing 
of disability claims, there is significant skepticism as to how such 
evidence will be copied into an electronic format to preserve its 
originality. Important details and nuances in medical reports and 
related documents must not be lost or altered in the electronic 
transfer. To my knowledge, there is no available system currently in 
existence that would allow such paper evidence to be fully included 
into an electronic format.
    Now turning to the Commissioner's plan of establishing Regional 
Expert Review Units organized around clinical specialties, it is 
interesting to note that the Commissioner advised the Union that the 
clinical specialists would primarily be nurses. In my opinion, to staff 
these Regional Expert Review Units with sufficient clinical nurses to 
process the expected workload would require hiring at least 500 nurses 
nationally. The Subcommittee obviously is aware there is a significant 
shortage of nurses within the United States and that the Government pay 
scale is lower for skilled nurses than private industry. Accordingly, I 
find it highly unlikely that staffing of these units could be 
accomplished to enhance the processing of disability claims. 
Additionally, while the Commissioner indicated that these units would 
be responsible for adjudication of quick decision claims, normally 
within 20 days, and such decisions would constitute 10% of the 
allowances of disability claims, she failed to recognize that the 
majority of these disability claims would be allowed during the five 
month waiting period, thereby no benefits would be payable immediately 
to the disabled even though the Agency processed the cases 
expeditiously. In my opinion, this is not an enhancement to providing 
quality service to the American people since historically these types 
of seriously ill claimants' claims were expeditiously processed so that 
there were no essential delays in the disabled receiving payment.
    The Commissioner has indicated that these Regional Expert Review 
Units would also be available to disability decision makers at all 
levels, including the DDS and OHA, which, in my opinion, will create a 
roadblock and delay in processing disability claims rather than improve 
the process. More specifically, the Commissioner indicated that these 
units would be responsible for contacting claimants' treating sources 
to clarify and/or obtain additional information, essentially approve 
the types of consultative examinations and medical/laboratory testing 
required, as well as providing vocational information to assist the 
decision makers. Common sense would indicate that to effectively 
perform the duties and responsibilities that are set forth for these 
units would require staffing of approximately 5,000 highly professional 
employees to handle the massive projected future disability claim 
workload. As such, I believe that the Agency would require an 
additional 5,000 FTEs to meet the needs of staffing and processing 
disability claims by these review units.
    While I support the Commissioner in eliminating the reconsideration 
step and creating a reviewing official position to evaluate disability 
claims as the second stage of the process if a claimant files a request 
for review of a DDS determination, I do not believe this position would 
require that the individual be an attorney. I note that in response to 
several questions by me at the briefing, Commissioner Barnhart 
indicated that this reviewing official position would be staffed in 
excess of 1,000 attorneys. I note that if OHA utilized every attorney 
decision writer for this new reviewing official position, the Agency 
would still be required to hire approximately 500 attorneys to fully 
staff the position. Thereafter, the Agency would be required to 
backfill the loss of decision writers for drafting decisions for the 
ALJs. The training needs and loss of productivity by essentially 
depleting \2/3\ of the decision writers and replacing them would be 
extremely costly and obviously would create a significant unnecessary 
backlog of claims at the hearing level. Also, since it is reasonable to 
believe that numerous ALJs' support staff personnel would be promoted 
to the decision writer position, delays would immediately incur in 
scheduling hearings and writing decisions. In retrospect, I submit HPI 
would seem to be a success when compared to the anticipated failures of 
the Commissioner's plan. It is clear that this position must be staffed 
with attorneys and nonattorneys and that clerical support must be 
provided to the reviewing officials to possibly achieve any desired 
success within three years of implementation. Further, I note that the 
Commissioner's proposed plan to solely use attorneys for this review 
step would bring forth a more legalistic process prior to a hearing and 
not a user friendly process that the American people deserve. Finally, 
I submit that approximately an additional 3,000 FTEs would be required 
to fully implement this new second stage of the Commissioner's new 
process.
    I fully support the Commissioner's proposal to continue the de novo 
administrative hearing process and the closing of the hearing record 
upon issuance of an ALJ's decision. I note that the proposed new 
decisional format which an ALJ will be required to utilize will require 
substantial training for decision writers and, most likely, be more 
time consuming to provide a defensible decision. As previously stated 
above, approximately an additional 1,000 FTEs will be required to fully 
implement the hearing process changes.
    I totally oppose the elimination of the claimant's right to request 
review of a hearing decision by the Appeals Council. As the 
Subcommittee is aware, the Appeals Council currently provides relief to 
approximately 30% of the claimants who request review of the 
ALJs'decisions, primarily by remanding the cases back to the ALJs. I 
submit that the end result of this remand process generally is a 
favorable decision being issued to a disabled claimant. Based on 
available information provided to me, I note that during the past 
several years, the Appeals Council has made significant improvements in 
reducing processing time and its backlog, notwithstanding some staffing 
decreases due to retirements and other reasons. With this significant 
improvement, the Appeals Council's pending caseload should be at a 
workable level by the end of this year, noting that some staffing 
enhancements may be required for certain positions. I submit that when 
the Appeals Council has been able to operate properly and in a timely 
manner, it has provided an effective review of ALJs' decisions. 
Unfortunately, the backlog of cases, Management's various initiatives 
and sporadic staffing problems have hampered the Appeals Council's 
primary responsibility to act as a screen between an ALJ and the 
Federal Court level. I believe with the closing of the hearing record 
upon issuance of the decision, the use of digital recording of 
hearings, several other technology changes, as well as other proposed 
short-term initiatives, the Appeals Council review process will be 
streamlined and result in a substantial decrease in voluntary court 
remands. In fact, it is my belief that the majority of cases that will 
be pursued through the Federal Court level will be defensible decisions 
and once claimants' attorneys realize this fact, there will be a 
significant decrease in filings of civil actions. In plain words, both 
the claimants and the legal profession will accept the decision by the 
Appeals Council as the final adjudication of a claim. The 
Commissioner's apparent alternative to create a quality control for 
disability claims by an Oversight Panel will not have the same effect 
in the adjudication of a claim and I submit there will be a substantial 
increase in civil action filings for many years to come if the Appeals 
Council is eliminated.
    In closing, I thank the Chairman and Members of the Subcommittee 
for the opportunity to submit this statement to you for appropriate 
consideration and action regarding the Commissioner's proposed changes 
to the disability process within the Agency.
            Thank you.

                                 <F-dash>

                                         Sheboygan, Wisconsin 53081
                                                 September 23, 2003
Congressman E. Clay Shaw, Jr.
Chairman,
Subcommittee on Social Security
Committee on Ways and Means
1102 LHOB
Washington, DC 20515
    Dear Congressman Shaw:
    My name is Jennifer L. Bartel, and I suffer from a debilitating 
illness which has rendered me unable to work.
    In July of 2002, when after five months on short term disability it 
became apparent I would not be returning, I filed my initial claim for 
social security disability.
    My illness is well documented and has progressed steadily worsening 
over the course of 18 years, with the most sudden drastic change 
beginning two and a half years ago.
    The afore mentioned documentation comes from Walter reed army 
hospital, Bethesda naval hospital, The mayo clinic at Rochester mn. And 
many specialists and medical professionals in between.
    Before becoming ill, I was a single mother of two girls, one 16 and 
the other 9, we lived in a decent three bedroom duplex in a middleclass 
subdivision, I drove a safe reliable vehicle which enabled the three of 
us to get where we needed to go without worrying that we would be left 
stranded on the side of a highway somewhere.
    While I was not able to afford much in the way of extra's as a 
single mother, I was able to provide my girls and myself with clothes, 
food, medical care, medications, a good safe home, and occasionally 
managed a treat like a new bike for one of them.
    Becoming ill as I'm sure you can imagine brought forth many changes 
in not only my life, but the lives of my children as well, they 
witnessed their mother going from a strong independent unstoppable 
force, to a woman who on most days is too ill and in too much pain to 
keep food down, sleep, pick them up from school etc, certainly not the 
least of these changes is the financial change.
    I was advised when I submitted my initial ssdi application the 
decision would be made in 3 to 6 months, if or when I was approved, 
they would back pay my benefits appropriately, by this time, I had been 
living on 60% of my regular income [via short term disability from my 
employer] for five months and was very close to financial ruin.
    In late Oct. 2002 I was denied ssdi, and given 60 days to appeal, 
that appeal was received on dec 2, 2002 by that time, five months had 
passed since my initial application was submitted, and my children and 
I had lost our home.
    My daughter turned 10 and imagine her heart break when she learned 
there would be no party, no presents, not even a cake, because mommy 
had no money to provide it.
    Christmas came, I watched ill and in pain both physically and 
mentally as I saw two children fighting back tears when on Christmas 
morning there was nothing from their mother to unwrap under the 
Christmas tree provided for us by my husband to be, and the 
heartbreakingly painful reality that I was failing as their mother.
    Each month that passes represents $327.00 [whats left after my ltd 
subrogates] that we do not have to help support us, $327.00 may not 
seem like enough to make a difference however, when winter coats and 
clothes have to be gotten at good will, and gloves or mittens can't be 
purchased at all, $327.00 is a great deal.
    When you have lost 120+ pounds due to your illness and you 
literally have no clothes to wear because of it, and no money to buy 
them even at yard sales, $327.00 is a huge amount.
    When once again you have to tell your 10 year old daughter she 
can't go on a class field trip because you can't pay the fee, $327.00 
is a fortune when you desperately need two root canals done on teeth 
that have weakened and broken because you are so undernourished from 
being ill, but you can't afford to have the teeth pulled let alone 
fixed, $327.00 is allot of money not to have.
    The reconsideration, I was told, would take 60-90 days, we waited, 
going without even the most basic things, and then we waited some more:
    90 days passed . . . No new clothes for Easter
    120 days passed no new bikes or clothes this summer
    150 days passed, no, we don't have enough money to stop and get ice 
cream
    180 days passed no you can't go to the pool with your friends, I 
don't have the money for you to get in, no I can't afford to pay for 
you to get your hair cut, my credit cards are maxed out just buying 
food and paying for medication co-pays, my teeth still broken and 
painful, my illness still rendering me unable to work to support myself 
or my children, depression caused by chronic illness and constant pain 
from it is compounded over and over with each ``I can't afford it'' and 
``we have no money'', each ``past due final notice'' stamped across the 
only mail that arrives.
    The stress of being so ill worsened daily as you wait and all you 
get from social security when you call is ``we're working on it''.
    210 days--finally, an envelope arrives from social security--your 
hands shake, your mind racing, ``please god let this be good news'' is 
all you can think for a moment followed by complete and total 
devastation, fear and rage when you see the words ``you are denied''.
    That's when the tears come, exhausted by an illness that has 
already robbed you of literally everything, even your self respect, and 
betrayed by the very system that is supposed to be there to help you.
    Suicide crosses your mind--since than at least your children will 
be provided for and you won't be in pain anymore, then more tears, as 
you try to read and understand the form letter that says despite the 
fact that all of your medical professionals say you are too ill to 
work, ``we'' those who have never seen you, never spoken to you, feel 
your not ill enough to not be able to work, and despite the fact that 
it has already taken them four months longer than it was supposed to, 
it is going to take up to two more years if you appeal this decision.
    They might just as well come right out and say ``oh by the way, if 
you die of your illness in the mean time, we're sorry, we were wrong.''
    365 days--from the initial application I retained an attorney, who 
warned me, ``Jennifer try not to get too frustrated, the process can 
take up to two years''.
    I was so profoundly sad, and feeling completely beaten by the 
process already, at that moment I knew things would get worse.
    380 days--my children and I unable to afford the car payment 
anymore lost our vehicle.
    400 days--no new school; clothes again this year
    420 days--no senior pictures for my eldest daughter, and even if 
she were to be accepted at a college, there is no way I can help her 
even buy a book let alone with tuition.
    You little one won't be getting the filling in a cavity any time 
soon, and we can pretty much forget about braces for her teeth, or a 
birthday present from mommy again this year.
    I won't be getting all of the medication I need, nor will those two 
teeth get fixed, my already dangerously low weight will continue to 
drop, and by the time I get a letter telling me when my alj hearing is, 
it may be too late to matter.
    We are only one family, this is only one story, there are thousands 
like us, many who's stories are even worse.
    Please change this system before too many more of us literally die 
waiting.
            Sincerely,
                                                 Jennifer L. Bartel

                                 <F-dash>

              Statement of Terry G. Clark, Sparta, Georgia
    Radical reorganization of the hearing and appeal process is needed 
immediately if the best interests of disabled citizens are truly to be 
served. While it is true incidences of fraud exist, the internal 
stopgaps imposed currently be the Social Security Administration seem 
to have had only minimal impact on the would-be offenders and have 
greatly impeded the legitimate claims of those with real disabilities.
    In my own case, I have been denied disability payments twice--even 
after two highly qualified cardiologists who have treated me personally 
have attested in writing to my condition. The decision to deny was 
supposedly made by Social Security appointed physicians who reviewed 
only my medical documents. It is interesting to me that no physicians 
within my knowledge find it to be standard operating practice to 
examine and treat patients without having some personal knowledge of 
them, yet the Social Security Administration seems to have no problem 
making decisions in this manner. This, of course, is added to the fact 
that the initial decisions to deny claims are routinely made by hourly 
employees who barely have high school diplomas.
    The current process of applying for and receiving disability 
benefits does contribute to the economy. Routinely attorneys receive 25 
percent of any back disability payments owed to the client once a 
settlement is made. This is because is it impossible for the average 
person to negotiate alone the superhighway of red tape which has been 
laid by the Social Security Administration. Most people retain 
attorneys to assist them after they have been denied benefits at least 
twice. The system takes a minimum of 2 years to act and by that time, a 
person with no income is in dire straights indeed. If my wife were not 
gainfully employed, we would be on welfare.
    I encourage you to stop studying a problem that any average citizen 
who has had any dealings with the Social Security Administration can 
articulate for you clearly. Reconstitute the Social Security 
Administration. Hire educated, highly qualify staff with a background 
in social services and abbreviate the process for citizens needing 
disability assistance. Impose stiff penalties for fraud and return to 
relying on the democratic principle that people are innocent until 
proven guilty. The time would be better spent investigating suspected 
fraud than penalizing honest citizens with needless delays and red 
tape.

                                 <F-dash>

              Statement of Paul C. Clark, Cibola, Arizona
    The local SSA office lost my claim for more than ten months. I 
could not work because of my disabilities received in an automobile 
verses pedestrian accident. My home is 20 miles out of town. I was 
given EBT food stamps and no money for gas or mandatory car insurance 
to drive to town to use the EBT food stamps. Because the local SSA 
office lost my claim for more than ten months, my credit was ruined, I 
had zero income and my home was within 30 days of being repossessed, I 
could not pay any of my creditors, utilities, credit cards or any other 
financial obligations, because of the gross errors of the SSA local 
office. If it were not for the fact that Congressman J.D. Hayworth 
intervened on my behalf, I would surely be dead by now. The SSA has 
never even considered trying to get my credit cleared up due to their 
mistakes and gross negligence. My credit is now ruined for at least the 
next seven years, through no fault of my own. The SSA made no effort to 
apologize for their errors or accept any responsibility for ruining my 
credit. My claim took more than 24 months to settle. The stress of this 
ordeal has caused me to have Chronic High Blood Pressure. The Veterans 
Administration is cheating me out of my Service connected disabilities 
for my Military Service and service in Viet Nam. If I were thirty years 
younger you would know who I am, I would be the one in your face. I can 
not believe how this government has treated an Honorably Discharged 
Veteran of the Armed Forces of this Great Country.

                                 <F-dash>

                                               Midland, Texas 79701
                                                 September 23, 2003
Hon. E. Clay Shaw
Chairman Subcommittee on Social Security
U.S. House of Representatives
2408 Rayburn House Office Building
Washington, DC 20515
    Dear Mr. Shaw:
    Please consider this letter as part of the record of the hearing 
your Subcommittee will conduct on September 25th concerning Social 
Security's management of its Office of Hearings and Appeals.
    Although I have served as an ALJ for Social Security for the past 
eight years I am writing this letter in the exercise of my right as a 
private citizen to communicate with Congress. These remarks are made in 
my individual capacity and not as an administrative law judge or 
government employee.
    I say, ``administrative law judge or government employee'' because 
that is precisely the problem. The SSA Commissioner has historically 
taken the position that the Social Security ALJ's are not judges as 
described under the Administrative Procedures Act. At the same time the 
Commissioner has historically maintained that the OHA division of the 
agency provides a due process hearing at the end of the claims process. 
The discord produced by this fundamental inconsistency has led to the 
mess that exists today in the management of the OHA.
    Undoubtedly, many witnesses will offer different solutions before 
your subcommittee. Most of the proposals will probably be beyond 
anything you can do legislatively.
    One thing is easily within your capacity as legislators. You can 
amend the Administrative Procedures Act to provide that the ALJ's 
appointed by the SSA Commissioner either are or are not covered under 
the Act.
    If they are not judges, but mere employees, then it makes little 
sense to continue expending federal funds to maintain an elaborate OHA 
division under the pretense that they are preparing cases to be heard 
by a judge. If they are not judges, then the present ALJ's should be 
re-designated as government employee hearing officers to provide a 
federal administrative review of the decisions made by the state 
disability determination agencies. There would be no need for a record, 
marking exhibits, Appeals Council review and all the things that now 
delay the process.
    If they are judges, as contemplated by APA, then it makes little 
sense to place them under the control of SSA managers who have no idea 
what a judge is supposed to know or do. If they are judges, then the 
Chief ALJ should have the authority and the appropriate portion of the 
agency budget to make the ALJ's productive and accountable in a 
judicious way. Judges could direct the expeditious preparation of cases 
for hearings and write decisions in ways that would eliminate many time 
consuming and counterproductive practices now imposed by non-lawyer 
managers.
    I am happy to work as an adjudicator for SSA. I think this is the 
most important work a lawyer could be doing in America today. I don't 
care whether I am called a hearing officer or a judge, as long as I 
have a chance to insure that the correct decision is made on the claim 
at the earliest possible time. I am not happy about the amount of time 
and resources I see wasted everyday in this schizophrenic struggle 
which has resulted in little, if any, true accountability by anyone.
    I believe an amendment to the APA would be a significant step 
toward resolving the underlying conflict that results in recurrent 
management crises at OHA.
            Very truly yours,
                                                           Dan Dane

                                 <F-dash>

          Statement of Richard Dann, M.D., Auburn, California
    This e-mail is in regards to SSA Commissioner's Broadcast dated 9/
25/03 and her testimony to the Ways and Means Committee re: SSA 
Disability Redesign. Major changes are proposed, but the integrity of 
the process is threatened. The three questions posed by President Bush 
to Commissioner Barnhart can be answered as follows: ``Why does it take 
so long. . . . decision?''--It is a WEIGHTY decision, costing SSA and 
US taxpayers an average of >$100,000 for single folks, $200,000 for 
married with dependents. I realize that Federal politicos don't always 
consider government expenditures in their decisions, but taking 60-70 
days to assess whether an individual has a long term disability IS 
APPROPRIATE! If the politicos are so concerned about the time involved, 
it is wiser to provide TEMPORARY BENEFITS to those awaiting a Title 16 
decision (Title 2 decisions already mandate a 5 month waiting period 
between date of Disability and start of benefits--Is that right, that 
individuals who actually pay into the system, get a later start on 
their benefits than the indigent who may never have worked a day or 
paid a cent of taxes?!). Three months of temporary benefits are a lot 
cheaper than a rushed, inaccurate decision that could last a lifetime. 
``Why can't people who have an obvious disability get a decision 
immediately?''--This area of concern has some merit, but it applies to 
a tiny percentage of the total number of decisions. The individual with 
a transected spinal cord, or pancreatic cancer, or brain dead on a 
ventilator, or <1200 grams birth weight are clear allowances. These 
cases do not take any substantial time to decide at the DDS level, and 
ALREADY frequently are put into Pay Status immediately via the 
``Presumptive Disability'' (PD) determination by the DDS, pending full 
evaluation. This is an area where further improvements could be made by 
placing the equivalent of a DEA III trained individual at the SSA Field 
Offices to TRIAGE applications for these RARE special circumstances. I 
do not see the need for an attorney in the process. ``Why would anyone 
want to go back to work after going through such a long process to get 
benefits?''--Quite simply, the benefits are a pittance--how would any 
of our Congressional lawmaker friends retiring on their full salary for 
the rest of their lives feel about living on the <$1500/mo.? Can they 
even relate? Most individuals will want more money to live on than the 
modest monthly SSA allowance, and will either strive to find work 
commensurate with their capabilities, or will settle for a very modest 
existence. What we do need to consider is that there are entire 
families living on SSA Disability, sometimes for multiple generations, 
still occurring even with the careful evaluation at DDS with a 
physician input--if you have 4, 5 or 6 individuals in a household 
getting $1500/mo, the household income can be fairly substantial, so 
the disability status of those in the household should be carefully 
assessed and reassessed as appropriate.
    There are a number of problems with the system in my opinion, 
having worked in it for over 5 years. The fact that claimants have 
infinite filing and appeals opportunities is one problem that wastes 
endless time and resources at the DDS--what would be wrong with a 
filing moratorium for a year after the last denial and Reconsideration 
unless substantial new evidence could be shown to the SSA Field Office, 
preferably evaluated by a DEA III trained individual at the Field 
Office? The concept of the Medical Improvement Review Standard at the 
Continuing Disability Review (CDR) is another problem; ongoing 
disability is assessed by comparison to condition at last evaluation, 
aka Comparison Point Decision (CPD), and if no significant changes are 
evident at the CDR compared to the CPD, by statute, Disability 
continues. There is currently NO APPEAL PROCESS FOR SSA in the 
situation of a poor quality allowance decision that allows a claimant 
at CPD but clearly the individual is not disabled by that condition. 
For instance, I have done many, many cases of CDR's where Listings were 
misinterpreted or med/voc rules were misapplied or an ALJ assessed 
Disabled after two full teams of DDS Disability Evaluator Analyst/
Medical Consultants had decided otherwise, and the individual is 
clearly NOT disabled at the CDR. Due to MIRS, the bad decision has to 
be perpetuated ad infinitum, despite a current completely normal exam, 
because the individual was allowed with a similar exam. The best 
example of MIRS gone wrong is the CDR case where the prior folder has 
been lost; rather than reassess the individual for current disability 
status, they MUST be continued due to inability to compare current 
findings to those at the CPD. The current (sometimes completely normal) 
exam becomes the new standard by which the next CDR is done; I have 
seen COMPLETELY NORMAL adults continued on SSA Disability many times, 
due to bureaucratic rules and a total lack of any appeal process of 
inappropriate allowances when such individuals are found by the DDS at 
the CDR process.
    I applaud efforts to streamline SSA Disability Claims processing, 
but the integrity of the system and its large payouts are more 
important than the speed of the decision. A fast erroneous decision is 
much more expensive than a thorough assessment to claimants and 
taxpayers alike. Keep Medical Consultants in the DDS's! Thank you for 
your consideration.
    SSA Commissioner Jo Anne B. Barnhart is proposing some changes to 
the current system for SSA Disability. Unfortunately part of what she 
proposes would eliminate all State level Disability Determination 
Services Medical Consultants and depend only on Regional Medical 
Consultants for medical expertise in evaluating SSA Disability 
applications. There is clear merit to allowing rare obvious clear cut 
cases without going through the full State DDS process, and allow more 
difficult cases to be processed by the State DDS. The problem is that 
Commissioner Barnhart proposes to simultaneously remove the medical 
consultants from those State DDS's! Many attempts have been made to 
decrease the use of ``expensive'' physicians (an MC gets paid $120,000 
per year in CA) from the process in the past e.g. Single Decision 
Maker, Disability Claims Manager, etc. and all attempts have shown that 
the non--medically trained Disability Evaluation Analysts (a six month 
training period is not even close to a medical doctor education!) NEED 
the expertise of medical doctors to help evaluate medical records from 
treating physicians in some instances point out very inappropriate 
``Medical Source Statements'' attesting to their patient's level of 
disability. Attorneys will tell you that only a physician can 
adequately contest another physicians opinion in court. I am an 
Occupational Medicine physician with additional training and 
certification in Disability Examinations, and have worked in the 
Roseville CA DDS for over 5 years. I can tell you that very few 
community physicians have ANY formal training in Disability assessment, 
and that many of their Medical Source Statements (a statement of their 
patients capabilities) are ``shot from the hip''. These MSS's are 
frequently inconsistent with the person's activities of daily living, 
treating physicians own medical records, and Consultative Medical 
Examinations done at DDS expense. Increased dependence on treating 
physician MSS's without professional review at the DDS level will cost 
the SSA far more than it will save. The inclusion of physicians at the 
DDS level enables SSA to avoid paying benefits to those who are not 
disabled. The average cost of an allowance for SSA Disability is 
>$100,000, $200,000 if married with children! Integrity and 
accountaility of the system depends on having MD input on the cases, 
especially the ``difficult'' cases that Commissioner Barnhart intends 
to now concentrate into the DDS's. Bad decisions cost a fortune, much 
more than any savings that will be realized from eliminating Medical 
Doctors from the DDS. Additionally, the current model has MD's working 
steps away from the DEA's in the DDS's, and our expertise is frequently 
sought informally by DEA's as to what medical findings and evidence are 
needed for various cases to properly evaluate them. The Regional 
medical consultants would have to be contacted by phone or e-mail, 
which is much more impersonal and less convenient, so it just won't 
happen. The quality of decision will suffer, and the already difficult 
DEA's job will become even more difficult. I have heard that the 
operating costs of the SSA Disability system run <1% of total budget--
what is wrong with that!!! There is great merit to training ALJ's more 
extensively-they get a skimpy two week course in medical/disability 
training and then have the power to overturn decisions by DDS personnel 
(typically after assessment by TWO different teams consisting of 
experienced medical doctors and a DEA by the time an ALJ gets a case) 
and frequently their decisions appear irrational and emotionally based. 
Please look into the situation further; I believe what I am telling you 
is a fair assessment. All of the Commissioner's plans are outlined in 
the Commissioner's Broadcast dated 9/25/03. Please help to maintain the 
integrity of the SSA Disability application process--keep MC's in the 
DDS! It is in the interest of the claimants, American taxpayers, DEA's 
and obviously the DDS Medical Consultants. Thank you, Chairman Thomas.

                                 <F-dash>

           Statement of Stephen W. Davis, Annandale, Virginia
    I've just read Commissioner Barnhardt's proposal to reform the 
disability process, in part by eliminating claimant's opportunity to 
request review of Administrative Law Judge decisions by the Appeals 
Council of the Office of Hearings and Appeals.
    This proposal, a rehash of an old and bad idea, has floated for 
years. I have been an analyst with the Appeals Council since 1979, 
during which time I have processed thousands of requests for review. A 
significant percentage of those cases were remanded to an 
Administrative Law Judge, as Barnhardt admits, but not solely or 
primarily because the record was incomplete. Most often, the decision 
itself was flawed by legal error, insufficient or inaccurate summation 
of evidence, inadequate consideration of opinion evidence. The problems 
here are like the problems elsewhere in government, where inadequate 
human resources, pressed for production, make errors of logic and 
judgement in service of numbers. Eliminating the request for review 
would deprive literally hundreds of thousands of individual claimants 
the opportunity of having the merits of their claims and the legal and 
evidentiary sufficiency of the decisions made on those claims reviewed 
by a highly experienced cadre of analysts and Administrative Appeals 
Judge's and Officers.
    Further, elimination of the Appeals Council's function would, under 
Barnhardt's proposal, appear to allow claimant's to directly appeal the 
Administrative Law Judge's decision to Federal Court, thereby 
inundating the Courts with a workload they have not the time or 
resources to manage. The Appeals Council serves as a filter whereby 
claims with merit are given every administrative opportunity to prove 
their case. Barnhardt says nothing about individual's whose claims are 
dismissed by Administrative Law Judge's, often in a fashion 
inconsistent with policy and/or fact. Currently, dismissals upheld by 
the Appeals Council cannot be appealed to Federal Court. Does Barnhardt 
propose that appeal rights to Federal Court be given to such 
dismissals, thereby increasing yet again the number of claims on 
already overburdened dockets.
    Since I have been an analyst, including 7 years with the Civil 
Actions Division of the Office of Hearings and Appeals, I have seen 
countless political appointees wander to the podium with schemes like 
these; simple minded and driven by ambition to gut the federal 
workplace. I must protest and I urge the Committee to take her 
proposals with several tons of Morton's.

                                 <F-dash>

         Statement of Margaret deVries, Ladson, South Carolina
    I have tried and failed to get any help from the SS administration, 
Up until 6 years ago I was a productive member of society, for years I 
paid self employment taxes and SS, finally I had to admit I could no 
longer continue to work, I was diagnosed with Fibromyalgia, Myofacial 
pain syndrome, chronic fatigue, osteoarthritis in back and I also have 
a severe hearing loss in both ears. . . . I have since endured 2 major 
back surgeries to fuse the L4 and L5 discs in back this leaves me 
unable to bend or lift, yet the SS seems to think I can lift 20lbs?? I 
am at a loss to describe the letter they send me saying I was still 
employable, suffice to say with all the restrictions they put on me and 
which I have, there is no one who would employ me! Yet they seem to 
think I can get a job! I suffer extreme pain in back and hip area, 
fatigue and depression from trying to cope with my limitations and days 
when I can barely get out of bed. . . . It saddens me to realize few 
people in congress are willing to help us! I am still waiting on a 
reply to my own Congressman here in SC from a letter I wrote in April. 
. . . Why are thousands of people in pain being ignored by those we 
trusted to look out for us? I assure you we all have family, friends 
and neighbors who are appalled by the treatment we get! For many years 
I paid approximately a third of my wages into Taxes and SS and now when 
I need a little help there is none available! It saddens me that such a 
great country as ours can ignore its own people in need.
    Thanks for your time.

                                 <F-dash>

Statement of Kristin Royster, Federal Managers Association, Alexandria, 
                                Virginia
    Mr. Chairman, thank you for allowing us at the Federal Managers 
Association (FMA) to submit a statement on the challenges and 
opportunities facing the Office of Hearings and Appeals (OHA) in the 
Social Security Administration (SSA).
    FMA represents the interests of the 200,000 executives, managers, 
and supervisors in the Federal government. Within FMA, we have 
Conferences divided along agency lines, one of which is the FMA-Social 
Security Administration (SSA) Conference representing executives, 
managers, and supervisors in all Social Security Program Service 
Centers, the Office of Central Operations, and the Office of Hearings 
and Appeals.
    We have read, with significant interest, the testimony of all of 
the Office of Hearings and Appeals stakeholders who testified on 
September 25, 2003 regarding management issues within OHA. Since the 
hearing, we have also examined Social Security Commissioner Jo Anne 
Barnhart's recently released proposal on restructuring OHA and the 
appeals process. While FMA supports certain aspects of the 
Commissioner's proposed plan, we have concerns that there will continue 
to be underlying problems which, if not specifically addressed, will 
continue to inhibit the success of any reform plan. Briefly, FMA 
supports the Commissioner's and other witnesses' remarks on:

          <bullet>  The Due Process Hearing;
          <bullet>  The recommendation to close the hearing record 
        following the decision by the Administrative Law Judge (ALJ);
          <bullet>  Accelerating the use of the Accelerated Electronic 
        Disability Folder (AeDIB), video teleconferencing, digitally 
        recorded hearings, and a strong management information system;
          <bullet>  The need to aggressively address the staffing issue 
        in the Social Security Administration (SSA);
          <bullet>  Agency efforts to make meaningful improvements to 
        the OHA process;
          <bullet>  Elimination of the reconsideration step only after 
        the full implementation of the Reviewing Official (RO) 
        position; and,
          <bullet>  The establishment of the Regional Expert Medical 
        Units.

    Our main concern with the Commissioner's reform proposal is the 
elimination of the Appeals Council in favor of the creation of 
Oversight Panels. Underlying problems that will inhibit the successful 
implementation of these proposals and the full realization of the 
benefits of any reform plan include:

          <bullet>  The lack of a meaningful performance appraisal 
        system;
          <bullet>  Severe staffing imbalances; and,
          <bullet>  The cumbersome and lengthy process to hire and 
        assign ALJs.

    While we believe that some of Commissioner Barnhart's proposals may 
have a positive impact on OHA processes in the long term, others, such 
as the elimination of the Appeals Council, should not be implemented. 
It is also important to note that full implementation of other aspects 
of the proposal will take time. The plan is predicated on the 
successful implementation of AeDIB, which even the most optimistic 
forecasts indicate will take two to three years. Additional changes 
will then be followed by the necessary learning curve for affected 
employees, which will also be a two--to three-year process.
    Meanwhile, OHA is facing a growing backlog of pending cases which 
need immediate attention. Over the past two years OHA has made 
tremendous strides in improving its disposition rate and efficiency. 
However, because of the aging of the American population, OHA is 
receiving more new cases than ever before--while staffing levels remain 
static. The rate of receipts is projected to continue to rise; 
therefore, the backlog will not decrease until staffing levels are 
increased. OHA desperately needs some short-term relief in the form of 
additional employees to deal with the current situation.
Hearing Process Improvement Initiative (HPI)
    Many of the comments presented at the hearing focused on the 
failure of the Hearing Process Improvement Initiative (HPI). However, 
in the last few years, OHA has reached a number of milestones:

          <bullet>  In fiscal 2002, OHA resolved the highest number of 
        cases in its history;
          <bullet>  In FY03, according to preliminary figures, OHA will 
        resolve 563,000 cases, which is an increase of 31,000 cases 
        from FY02; and,
          <bullet>  OHA will report a record daily dispositions-per-ALJ 
        rate of 2.30.

    While we concede that HPI was not a perfect system, it is important 
to acknowledge the beneficial results that it has had on OHA. HPI gave 
OHA an enhanced management structure in which both the clerical and 
attorney/paralegal staff were brought under one umbrella. This was a 
very important enhancement which allowed for a more coordinated effort 
for all levels of ALJ support. There is one source of direction for all 
the support staff--the Hearing Office Chief Administrative Law Judges 
(HOCALJ), Hearing Office Directors (HOD), and Group Supervisors (GS). 
This structure must be maintained and must be given the flexibility to 
manage all the resources in a process that will be more responsive to 
the individual ALJs. It must also allow for recognition of the 
differences in offices, workloads, and, most importantly, staffing 
resources. OHA must allow their managers to do what they were hired to 
do--and that is to manage their programs and people.
    The structure of HPI also introduced group accountability. This 
resulted in a sense of disenfranchisement on the part of most ALJs, and 
initially, there was a lack of personal accountability on the part of 
almost all involved. However, over time, the situation has improved, 
and there now exists a better understanding of group accountability on 
the part of our employees. Nevertheless, measurable performance 
standards would assure individual accountability--and they are sorely 
needed in SSA. We would agree that clear assignments would enhance 
individual accountability; it is imperative that accountability be 
returned to the system. We believe that this would allow for a staff 
that is responsive to the individual ALJ's needs. However, we feel this 
can be achieved under the existing management structure.
    While it is appropriate to be responsive to the individual ALJ, 
there is also an obligation to maintain management oversight of the 
process. Ultimately, this is not about the ALJ, but rather about 
providing the best service possible to the claimants, or to use the 
words of the Association of Administrative Law Judges (AALJ), a unit of 
the Independent Federation of Professional and Technical Engineers 
(IFPTE)/AFL-CIO, in testimony provided in June 2002, it is about a 
``citizen-centered'' process. Resources must always be balanced and 
used appropriately to achieve maximum results for the entire office. 
This cannot be accomplished in an environment in which each ALJ 
operates as an independent entity. The ALJs, while independent, are 
employees of the Agency and are responsible for the Agency's work. The 
ALJs, as part of a different bargaining unit with separate interests, 
cannot be given the authority to direct the work of others.
    Management is obligated to complete all of the Agency's work in the 
best manner possible, and to work with each ALJ to determine the best 
use of available resources in order to achieve the best possible 
working arrangements for all. We would propose that this supervision 
continue to be provided by those with the experience to manage and, 
when necessary, redirect the resources--the group supervisors (GS). 
There is no reason that staff cannot be assigned to do work for an ALJ 
(with appropriate input from the ALJ) and with oversight responsibility 
being done by a GS. It is only with such cooperation that the work of 
OHA is accomplished.
    We need a system that will give us the flexibility to use the 
skills and strengths of individuals across a broad band of tasks. We 
should not be bound by negotiations that dictate who will do what for 
how long.
Automation Initiatives
    Potentially, these initiatives--including AeDIB, video-
teleconferencing, voice recognition, and the use of Reminder Pro 
software--will have the greatest impact on productivity and will 
significantly alter the way we do business. All necessary resources 
need to be devoted to AeDIB, as it will virtually eliminate case 
preparation, in addition to providing significant savings on mail & 
storage. As we move closer to this reality, we need to look at the 
entire structure of the field office and the positions within. We 
cannot start too early on this project considering the impact on the 
senior case technicians (SCTs) and the potential to easily distribute 
work to where the resources are. The positive impact that AeDIB can 
have on the SCTs who spend much of their time preparing the cases for 
review right now would be substantial. The full implementation of AeDIB 
will allow SCTs to spend time on other functions that will help to 
decrease the backlog OHA currently faces.
    The increased use of video-teleconferencing should also be a focus 
area for the Agency. Videoconferencing will have an immediate effect on 
the number of backlogged cases by allowing ALJs with smaller caseloads 
to decide cases in other areas where the workload is higher, thus 
creating a more balanced workload.
Meaningful Performance Measurement
    As we previously mentioned in testimony submitted to the 
subcommittee in June 2002, the development of a meaningful performance 
management system should be a top priority for OHA. The success or 
failure of any of these initiatives will be directly related to 
management's ability to hold all employees accountable for their work. 
Without meaningful performance measurements, we will witness only 
limited success at best.
    Many of the problems within the disability process have run 
parallel to the deterioration of our performance management system. Our 
performance management system began to decay in the late 1980s and has 
steadily regressed. Group-based accountability, under HPI, only moved 
us further from individual accountability. The current Pass/Fail 
appraisal system does not provide incentives for high performance, and 
we are seeing the grave consequences of that.
    Each year the Social Security Administration presents its 
Government Performance and Results Act Annual Performance Plan. This 
plan describes specific levels of performance and outlines the means 
and strategies for achieving those objectives. The objectives are 
supported by indicators, which are used to measure the agency's success 
in achieving the objectives. The performance indicators are translated 
into goals that are shared with SSA executives. These goals are then 
clearly presented to managers and supervisors as expectations for 
performance. At OHA, for example, the indicators are expressed in terms 
of dispositions per day per ALJ, processing time, percent of aged 
cases, etc. As noted above, SSA holds managers and supervisors 
responsible for communicating performance goals to agency employees. 
However, when the goals are communicated to the employees, managers are 
required to communicate in very generic terms due to the absence of 
numeric standards.
    Our current Performance management system in SSA addresses these 
elements, but at an organizational level rather than an individual 
level. We certainly have set performance expectations (Planning), but 
these are agency goals, not individual goals. As directed by the 
system, progress reviews are held (Monitoring), but since there is no 
individual measurement, the discussions are generic. Ideally, we would 
spend time training (Developing) our employees, but in reality, most of 
our offices suffer from significant staffing imbalances and struggle 
just to accomplish our most basic missions. We rate (Rating) our 
employees on a Pass/Fail appraisal system, which fails to distinguish 
individual performance. Finally, our rewards (Rewarding) system is 
essentially a ``do-it-yourself'' process. Rewards are currently 
determined by regional and national panels, which make their decisions 
almost exclusively using written recommendations with little knowledge 
of the offices or the nominees. The recommendations--written by the 
employees themselves--do not always provide an accurate view of an 
employee's workload or their ability. We propose that rewards be 
awarded by local panels as is done in SSA field offices, which allows 
awards to be made by officials who are well-informed about the 
accomplishments of an office and its employees.
    In a September 2003 poll conducted by FedNews Online, many Federal 
employees expressed their displeasure with the current Pass/Fail 
appraisal system that is used throughout the government. Seventy-six 
percent of the poll's respondents do not believe that the Pass/Fail 
system is an improvement from the more traditional five-level 
performance appraisal system. Sixty-eight percent of respondents 
indicated the biggest problem with the Pass/Fail system was that 
outstanding employees were given the same performance rating as 
mediocre employees.
    Our current performance management system sends the message that 
performance does not need to be individualized. Because the standards 
are so generic, performance cannot be measured on an individual level. 
The labor-management contract requires that data focus on the process, 
not the individual. For all intents and purposes, the system is one of 
non-accountability. In spite of an employee's best effort, the employee 
will simply ``pass'' under current criteria. Award money is distributed 
according to a formula based on the number of employees on the payroll. 
This distribution is completely devoid of any recognition for 
performance, even at the office level. Since we have no individually 
measurable standards (numerics) that can be taken into consideration, 
overtime/credit hours/flexiplace must be given to anyone interested.
    It is absolutely critical that our employees are provided with 
clear goals. These goals must be understandable, measurable, 
verifiable, equitable, and achievable. An Associated Press article 
dated May 27, 2002 describes how the Department of Veterans Affairs has 
succeeded in slashing their backlog of pending claims. VA Secretary 
Anthony Principi was quoted as saying, ``We decided to really declare 
war on that backlog and took some rather bold steps to address it. 
We're really getting this backlog under control, and we did it through 
sheer focus and discipline, performance measurements and production 
goals.'' When employees know what is expected of them, they are better 
able to focus their efforts.
    There is an old adage that states, ``What gets measured gets 
done.'' Implementing an effective performance plan within SSA given the 
current culture will be difficult. But if the Agency expects to meet 
its objectives it must be done. OPM has prepared A Handbook for 
Measuring Employee Performance. This Handbook outlines the guiding 
principles for performance measurement as follows: 1) performance 
management must be viewed as a valuable tool, not as an evil; 2) 
acceptance of the process is essential to its success; 3) we must 
measure what is important, not what is easy; 4) the plan must be 
flexible enough to allow for changes in goals to keep the process 
credible; 5) we must rely on multiple measures; 6) employees must 
perceive that performance measurement is important; and, 7) management 
must demonstrate that performance is critical to organizational and 
individual success. These are the principles which must guide efforts 
to reform the current system.
    A strong performance management system will go a long way in 
restoring the Social Security Disability Program to the status of a 
premier program. Our current leadership is committed to reforming our 
performance management system, but we realize it will take several 
years to have an effective system in place. Nonetheless, any initiative 
implemented prior to having a meaningful performance management system 
will have minimal impact.
Staffing Imbalances
    In an April 18, 2003 letter sent to A. Jacy Thurmond Jr., Associate 
Commissioner of OHA, we outlined a number of issues related to the 
staffing of OHA offices. Since the late 1980s, OHA has used the 
employee-to-ALJ ratio of 4.5-to-1 to determine staffing in its OHA 
offices. This ratio is basically applied to all hearing offices 
regardless of individual office dynamics. However, since the ratio was 
established, conditions have changed at OHA offices, therefore making 
it necessary that the staffing of OHA offices reflect the current needs 
of OHA offices.
    We at FMA fully recognize that there must be a general formula in 
place in order for a central office to be able to compare the regions' 
staffing levels. However, a useful staffing formula must be derived by 
performing work studies on various positions to determine the amount of 
time that is required on average to support an ALJ. Since the current 
4.5: 1 ratio was established, OHA's technology capabilities have 
advanced significantly and these advancements have dramatically altered 
numerous work functions and, correspondingly, the time it takes to 
perform the functions. Furthermore, we feel that it is shortsighted to 
use such a formula in the strictest sense, regardless of how much 
effort was devoted to work-studies. Focusing only on the pre-set, 
``ideal'' ratio--without considering other internal or external factors 
that impact an office's ability to serve the public--will prevent OHA 
from placing itself in the best position to meet coming challenges. The 
formula needs to be reviewed and updated as procedures, technologies, 
and dynamics change to ensure a true staffing picture. We believe that 
our actual staffing needs will be better realized with the following 
changes:

          <bullet>  Regions should have the flexibility to staff based 
        on ``actual'' needs and not just ``predetermined'' ratios.
          <bullet>  Position mix must be considered in any staffing 
        determination.
          <bullet>  Ratios or guidelines have their place, but must be 
        reviewed and updated as advancements in technology are 
        realized. In addition, the regions should have the flexibility 
        to surpass the pre-determined ratio when office dynamics 
        warrant additional staffing.
          <bullet>  For purposes of a general guideline ratio, only 
        ``pure'' production employees should be included.

    In order to be in a position to handle the anticipated increase in 
workload, we must have the flexibility to staff offices according to 
their actual needs. Should the agency move forward with its proposal to 
eliminate the reconsideration step, the workload of OHA will likely 
increase immediately. This is currently the experience in prototype 
states which operate with no reconsideration step. Reviewing officers 
should be in place and fully trained before the reconsideration step is 
eliminated nationwide. If this does not occur, employees new to their 
positions will be faced with the inevitable increase in receipts that 
will follow the elimination of this step. In our view, this could 
create another backlog situation. It is critical that new staff is 
already on board, trained, and ready to meet the challenge of this 
anticipated spike in workload.
Appeals Council
    We are most concerned with the Commissioner's proposal to replace 
the Appeals Council with Oversight Panels consisting of two ALJs and 
one Administrative Appeals Judge. As part of her plan to achieve these 
goals, the Commissioner concluded that the Appeals Council level of the 
current process should be eliminated because it, ``. . . adds 
processing time and generally supports the ALJ decision.'' We disagree 
with that conclusion, and submit rather that the Appeals Council level 
of the process contributes to the achievement of the Commissioner's 
goals and provides important benefits to disability claimants.
    While it does require some time for the Appeals Council to consider 
requests for review, great strides have already been made in more 
effectively processing the Appeals Council workload. Pending requests 
for review have decreased by over 100,000 cases in the last three 
years. During the same time period, average processing time has been 
reduced from over 500 days to 229 days, and it continues to fall. 
Technological changes currently being developed (e.g., digital 
recording of hearings and the development of an electronic folder) and 
policy changes being considered (closing the administrative record 
after the hearing) will result in further significant improvements.
    The benefits added to the disability adjudication process by 
Appeals Council review make a substantive positive contribution to 
achieving the goals stressed by the Commissioner:

          <bullet>  Three to four percent of requests for review result 
        in the issuance of a favorable decision without the necessity 
        of the much longer appeal process to Federal court. The Council 
        also remands about 24 percent of the request-for-review cases 
        it considers, ultimately resulting in additional favorable 
        decisions without court action or unfavorable decisions more 
        likely to withstand court scrutiny on appeal.
          <bullet>  Review by the Appeals Council is the only recourse 
        available to claimants who have had their requests for hearing 
        dismissed. The Council grants review in a large percentage of 
        these cases, providing an avenue for the claimant to receive 
        due process and a substantive decision.
          <bullet>  Many claimants are not represented. The Appeals 
        Council is the last recourse for those who lack the 
        understanding or resources to pursue their case in Federal 
        court. For them, the Council provides an avenue to appeal the 
        Administrative Law Judge's decision in a non-adversarial 
        setting.
          <bullet>  The Council's workload also includes review of 
        favorable hearing decisions that have not been appealed. 
        Exercise of this function prevents payment of benefits in cases 
        where an allowance is not warranted by the law and facts of the 
        case.
          <bullet>  The Council also plays a vital role in the 
        preparation of cases for court review, processing requests for 
        voluntary remand, preparing court remands, and reviewing final 
        decisions after court remand. These functions are essential to 
        the efficient processing of the civil action workload.

    In her testimony, the Commissioner stressed the need for disability 
claims to be better developed and indicated the need for consistency in 
disability adjudication. The Appeals Council contributes to the 
achievement of both these objectives. By remanding cases, the Council 
sets a higher standard for case development. The Council is the only 
body that reviews disability cases on a national basis. The Council has 
developed principles and guidelines that have insured consistent 
actions by Administrative Law Judges throughout the country. If 
national consistency is the objective, the Appeals Council is the 
logical body to be tasked with continuing oversight of this effort.
    Stakeholders in the disability process, including claimants' 
representatives and advocacy groups, value the contribution of the 
Appeals Council and support retention of the request for review. 
Previous studies dealing with the elimination of the request for review 
indicated that the workload of the courts would increase dramatically 
if the Appeals Council review level were to be abolished. Reports by 
the Judicial Conference of the United States have indicated that most 
claimants do not seek judicial review after Appeals Council action, and 
that Appeals Council review lessens clogging of court dockets. The 
Conference viewed the prospect of eliminating Appeals Council review 
unfavorably.
    The Office of Hearings and Appeals Management Association (FMA-
Chapter 275) agrees that the disability adjudication process needs to 
foster fully developed case records to support accurate and timely 
decisions which are consistent and of high quality. For 63 years the 
Appeals Council has contributed to the achievement of these goals by 
providing a final level of appeal and review within the Social Security 
Administration. Such experience and public service is extremely 
valuable. The Council should continue to be a driving force in 
improving the disability adjudication process.
Conclusion
    The Office of Hearings and Appeals within the Social Security 
Administration affects the lives of millions of Americans with its 
disability services. With increased staffing and funding, the Agency 
would be able to improve its service to its customers--the American 
public. The missions performed by OHA could be completed at an even 
higher level of proficiency if a meaningful performance management 
system were instituted within the Agency. These changes would allow OHA 
to provide to the public the level of service that is both expected and 
needed by taxpayers.
    FMA has long served as a sounding board for the Legislative and 
Executive branches in an effort to ensure that policy decisions are 
made rationally and provide the best value for the American taxpayer, 
while recognizing the importance and value of a top-notch civil service 
for the future. We at FMA would welcome the opportunity to do the same 
for any initiatives that this Subcommittee, as well as SSA, would like 
to create to further enhance the mission of the Office of Hearings and 
Appeals.
    We want to thank you again, Mr. Chairman, for providing FMA an 
opportunity to present our views and for the hard work and interest of 
the Subcommittee members on this very important topic.
    We look forward to working with Congress, the Commissioner, and 
other stakeholders in finding solutions to the challenges facing SSA in 
our collective pursuit of excellence in public service.

                                 <F-dash>

         Statement of Kristen L. Flitsch, Watertown, Wisconsin
    I am a 28-year-old female living in Wisconsin. I have applied for 
Social Security/SSI and been denied twice already. I entered my 
original application about 1 year ago. I am now at the hearing stage. 
The main reason for my application is due to Epilepsy.
    I was diagnosed as a child as having Petite-Mal Seizures and was 
put on medication at around the age of 8. I have been on theses meds 
since then. Until fairly recently, I have not really noticed a 
significant interference in my life due to my condition.
    About 3 years ago I had the first of numerous serious Grand-Mal 
Seizures. It is unclear to my neurologist the cause of suddenly 
developing this type of seizures. For this reason he now states that I 
suffer from Idiopathic Generalized Seizures. I have only started to 
really try to keep track of the frequency of my seizures, taking note 
of any possible triggers and/or patterns that may develop. The only 
commonality that has shown it's self is stress.
    The stress factor presents a problem of it's own in the way that I 
was diagnosed as a teenager with manic depression, more commonly 
referred to as Bi-Polar Disorder. This causes my stress level to be 
unusually high at times that are sometimes inappropriate. At other 
times, when it would be expected, my stress level can cause anxiety 
attacks and sometimes even trigger my asthma.
    I have tried to keep the SSA updated as to seizure activity as it 
happens but they seem to have little concern for me or my well-being. 
For example, when I called to let them know that I had fallen down my 
back stairs and chipped my ankle due to a seizure they just said thanks 
and seemed to blow me off. A few weeks later I had another seizure 
while walking through my living room and literally broke an end-table/
lamp with my face during the fall. There have been many times when I 
have done damage to my body that caused me to not be able to leave my 
home until I healed, and also many in which I just strained my muscles 
making it very difficult to leave the house due to pain. My pain levels 
usually range from 5 or 6 to a 10+ on a scale of 1 to 10.
    A large part of that pain is in my lower back, my hip, and my left 
leg. This, I believe, is mainly due to the injuries that I incurred 
during that first seizure, 3 years ago. I was at work, and went into a 
seizure. When I fell to the ground, I injured my back. I ended up with 
2 lower disk bulges, a pinched psyatic nerve, much bruising, and months 
of physical therapy and chiropractor appointments. I was given a tens 
unit to use at home but was slow to recover due to additional seizure 
activity.
    I have tried to explain to the best of my ability why it is that I 
am unable to retain ``gainful'' employment and feel that I am disabled, 
but the SSA seems to put off and put off everything so long that by the 
time they get around to dealing with it, there is no evidence. I have 
no medical insurance and no income. I cannot afford to go to the doctor 
or the ER every time a have a seizure so that a physician documents it 
how each debilitate me. I have friends that work in the medical field 
that have witnessed my seizures and wrote up letters and filled out 
questionnaires for the SSA and still there is not enough evidence for 
them. I am getting very frustrated, and frankly feel that this has 
taken entirely too long. I understand that they need to be careful that 
they are not giving benefits to people that don't deserve it but I am 
not one of these people. I mean, what do I have to do . . . Fall down 
the stairs and break my neck so that I'm paralyzed from the neck down . 
. . maybe bite my tongue completely off next time . . .
    I hope that you people can do something because as I said before, I 
understand that the screening process needs to be thorough, but what 
about those of us who are slipping through the cracks and not getting 
the help we need.
    I am also concerned about the fact that my last denial letter gave 
me absolutely no reason what so ever for the denial. It provided me 
with a few names of a couple of my doctors and the date of a report 
from them that was used in making the decision but nothing as to why I 
did not qualify. This struck me as odd due to the fact that I had 
applied for temporary/partial disability at the time of my back injury 
and when they denied me for that It stated very specifically why they 
had denied me. (i.e. my prior work history, trainability, and 
education.) I was not happy with this either but didn't know what I 
could do and frankly between all of the doctor visits and seizures at 
that time, I just didn't have the energy. So I muddled through on my 
workman's comp and then struggled to find a new job as I had been fired 
from that one.
    I am an intelligent woman, but that isn't going to do anything for 
my back or the fact that I have Epilepsy. I have tried to provide as 
much info as I can to the SSA and yet it doesn't seem to be enough and 
it seems that I am not ``wording'' things correctly for them. I do not 
feel that my case is being taken seriously or that my situation is 
being viewed as a ``big picture''. I am afraid that I am not going to 
get the help I need and that I am going to end up with much more 
permanent damage if I don't. It is my hope that you are able to help 
people like me to be able to get that help, if even only in the way of 
insurance to cover the cost of meds and doctor visits. I am not sure 
what else I can do to speed up the process of making a decision on my 
case but I hope that the argument you are presenting will help. Thank 
you for taking the time to read my letter. I am not entirely sure it is 
the kind of letter that you were expecting but thanks nonetheless. I 
hope it will help in some small way.

                                 <F-dash>

       Statement of Phyllis Frederick, Hickory Flat, Mississippi
    I am 48 years old. I first applied Aug 2002 after having knee 
surgery for the second time on my right knee. The knee is totally shot 
and the orthopedic surgeon backed my SSD claim. I also stated that I 
have arthritis in all my joints, severe chronic fatigue but I was never 
sent to any doctors for exam. I was denied twice and since my last 
denial I have been to see a rheumatologist that has diagnosed me with 
rheumatoid arthritis, osteo arthritis multiple sites, fibromyalgia and 
an MRI shows possible herniated discs. My fingers are going crooked and 
I am sick all the time. It is impossible for me to hold a job. This has 
caused terrible stress and I am struggling to try and survive and not 
loose my home. My son helps me financially but is unable to completely 
support me. How can this happen in this country. I am a nurse, LPN. I 
would rather be able to work and earn a decent income than to live on 
SSD, but as things stand I MUST have the SSD. I am awaiting a hearing 
and from what I've been told this could take over a year. How can I 
keep struggling to live? I worked and did my best to be a productive 
citizen. Now that I can't work I am being denied the benefits that my 
tax money paid for. This is a travesty of justice.

                                 <F-dash>

          Statement of Mary Jo Gilbert, Vancouver, Washington
    Dear Mr. Chairman,
    Social Security is flawed but there is one major flaw that is 
incomprehensible. Without going into too much history--I have been 
diagnosed by 3 physicians as having a chronic disabling condition which 
prevents me from working--Chronic Fatigue Syndrome. In order to fully 
understand the situation there are key points in my claim that are 
pertinent.
    The following are examples of some of the evidence presented at the 
hearing:

          <bullet>  Letters from the three doctors confirming my 
        disability.
          <bullet>  One of the doctors is Dr. Paul Cheney, a world 
        recognized CFS specialist and researcher since the early 80's 
        when he was involved in the Lake Tahoe outbreak. He used 
        objective tests, physical findings that are supported by peer-
        reviewed medical literature on CFS to reach his conclusions.
          <bullet>  Some of the objective laboratory tests provided as 
        evidence show:

                  <bullet>  T-cell activation by two-color flow 
                cytometry
                  <bullet>  Decrease in Natural Killer cells
                  <bullet>  Increased Interleukin 1-alpha of 53 (normal 
                is 0-40) and TGF-Beta 1:80 (normal 0-40)
                  <bullet>  Immune system R-Nase-L level of 26, normal 
                is 1--10.
                  <bullet>  Impaired liver function
                  <bullet>  Impaired activation of the hypothalamic-
                pituitary-adrenal axis
                  <bullet>  Metabolic dysfunction

          <bullet>  Functional Capacity Exam. (see below for 
        conclusion)
          <bullet>  Tilt Table Test results in which I passed out after 
        approx 15 minutes of standing (30 minutes is required to pass). 
        This resulted in loss of my driving privileges for a period of 
        one month.
          <bullet>  Affidavits from a co-worker, a friend and several 
        family members explaining their observations about my decline 
        in health and abilities.

    I have also been diagnosed with Encephalopathy, and near 
cardiogenic syncope.
    At the first hearing the judge questioned my credibility and 
alluded that my position at the high tech firm I worked for was no 
longer needed. That was not the case and later that was confirmed when 
he obtained my employee evaluations. The fact that they had to hire a 
contractor to replace me speaks to the need for someone in my position.
    The doctor attending the hearing on behalf of social security 
agreed that I met the criteria for Chronic Fatigue Syndrome.
    However the judge provided an unfavorable ruling. His letter 
included misinterpretations, was revealing and I was personally shocked 
by it. Here are examples:

          <bullet>  The judges letter states that Dr. West, found the 
        blood chemistries normal and that he prescribed exercise. Meed 
        West, N.D., a naturopath, does not run blood tests. Regardless 
        it is well known that the standard blood tests are typically in 
        the normal range for CFS patients. The exercise that Dr. West 
        prescribed is stretching exercises.
          <bullet>  The judge made the comment that I did not continue 
        to see Dr. Bryant because he did not give me a CFS diagnosis. 
        That is not the case and I'm baffled that the judge felt he 
        knew my motives and is using that to deny the claim.
          <bullet>  During the hearing the judge roared ``Oh yea! You 
        have medical insurance. Your husband works at Freightliner!'' 
        This was revealing and I am shocked at his blatant bias.
          <bullet>  Due to extreme exhaustion during the second hearing 
        I was unable to remain sitting upright. Although my attorney 
        said that I could stand up during the hearing he said I should 
        avoid lying down. However, I simply could not sit up any longer 
        and standing was not an option either. It was extremely 
        embarrassing but I simply could not go on. As the tilt table 
        test showed I have trouble standing. The judge's letter pointed 
        to that situation as ``her dramatic laying on the floor''.
          <bullet>  The functional capacity exam conclusion states: ``I 
        feel her fatigue syndrome and it's interference in her daily 
        function would make her a very difficult, if not impossible, 
        person to place into the workforce''. The FCE took 4 hours of 
        one day and afterward I had to lay down for 2 days to recover--
        which is stated in the report. The judge's letter states that 
        the physical therapist ``opined that she could work four to six 
        hours per day''. Are we reading the same report?
          <bullet>  According to the judge's letter, Dr. Rullman 
        testified that ``there was no evidence of immune system 
        activation in the medical record''. The doctor admitted during 
        the hearing that he was not familiar with the R Nase-L test. 
        That test has been around since the early 1990's. However 
        what's totally baffling is how the doctor would be unaware of 
        the significance of the University of Miami's Natural Killer 
        Cell test and the T-cell tests, which clearly show immune 
        dysfunction. AIDS made these terms common vernacular.
COMPLAINT
    Given the above how can I expect a fair appeal to the hearing if my 
claim is referred back to the SAME judge? I am informed that that is 
standard procedure for hearings claims. What judge will reverse his own 
decision? Especially given his handling of this claim to date!

                                 <F-dash>

             Statement of Frances Glennon, Barton, New York
    This is my story:
    Over ten years ago I was declared totally and permanently disabled 
by my physician due to Severe Osteoarthritis and Fibromyalgia. At that 
time I applied for SSD and SSI was made to endure several tests, 
doctors appointments, and fill out endless repeated paperwork, I then 
waited a year to be denied the help I so needed . . . of course I 
appealed the decision then waited again for reconsideration and was 
denied . . . I quit trying for about six months then reapplied again 
and went through the whole vicious circle again only to be denied 
because of my age and previous work history . . . I would more than 
likely be able to live a fuller life now had I not been denied . . . 
but since I was denied and that forced me to live for 8 years at below 
poverty level barely able to afford food on my table To feed my 
daughter and myself let alone The rent, utility bills and the medical 
care I so needed . . . I was forced to repeatedly try and fail to 
return to work causing me to have a load of unpaid bills, more stress 
than any one should have to handle, more pain then anyone should ever 
have to bear and I have now destroyed what few joints I had at that 
time which had not yet been affected . . . because of having to return 
to work I now have bulging discs in my back, carpel Tunnel syndrome in 
my wrist, and the added misery of degenerative disk disease. . . . I 
can't feed my family and I hurt too much to get out of bed. I can't 
afford my meds and doctors visits are financially impossible . . . 
therefore I cannot get the treatment and therapy that I need to give me 
the ever wished for minor amount of relief that comes with the proper 
care . . . I spend most of my time now crying and trying hard to get 
things that need doing done without much success . . . I have applied 
for welfare and will also apply again for SSI but I know that after 
endless appointments, paper work, and waiting a year or more for their 
decision they will find some reason why I should not be able to get it 
. . . I am really not looking forward to the stress and extra 
irritation to my condition that stress will undoubtedly cause . . . I 
so wish that it was different and I did not have to ask for help . . . 
but it isn't so i do ask and I suffer for it and so does my family. . . 
. I Keep going round and round in this vicious cycle and no one out 
there seems to care . . . So show us you do care and Please if you do 
nothing else this year find a way to make this program work and work 
for all who need it . . .

                                 <F-dash>

           Statement of Fran Halas, Whitefish Bay, Wisconsin
    If this is how the Milwaukee and Chicago office of SSI handle 
disability claims how do you think they monitor private party 
disability claims? Answer: THEY DON'T.
    I have been writing, calling and even have personally twice visited 
the Chicago ERISA enforcement office to report Major infractions of 
UNUM Provident's handling of our disability policy that was obtained 
through employment which would fall under ERISA ENFORCEMENT. There is 
no enforcement, the main function of the office is to send out a 
brochure.
    UNUM Provident hides behind the ERISA pre-emption which basically 
they deny a claim without reading it and then force you into costly 
litigation. We have spent $10,000 on an appeal and even though it 
sounds ludicrous, they did not read it. We have been quoted $150,000 to 
go to federal court which is the process of a denied appeal.
    Besides the above, UNUM has twice released sensitive financial data 
of others (names, social security numbers, earnings) of other plan 
participants. We have learned that our financial data was compromised 
as well. UNUM had a physician who did not even have current license 
contend to have review our file.
    The Missouri Insurance Commission and the NAIC are now reviewing 
our matter. I understand 40 states are investigating UNUM. When will 
the Federal Government wake up?
    Please note: I am a 20+ year risk manager and have the 
responsibility for corporate employee benefits. I was trained that if 
plans were non-compliant with ERISA, they would be disallowed by the 
IRS. I have tried calling them as well and that is another runaround.

                                 <F-dash>

             Statement of Nancy Hall, Wauwatosa, Wisconsin
    To Whom It May Concern,
    I am an individual with a disabling illness who has been adversely 
affected by the Social Security Administration's handling of my claim 
for Social Security Disability Insurance benefits. I became disabled 
due to a chronic medical condition in 1996. I had been ill for 29 
years, at that point, but had been able to complete two degrees and to 
work. I applied for SSDI benefits in March of that year, when my 
employer advised me that my work was suffering as a result of my 
illness and my personal physician suggested that my efforts to continue 
working were compromising my health.
    I am an art therapist and rehabilitation counselor, nationally 
certified in both fields and licensed to practice psychotherapy in 
Wisconsin. I have a master's degree in art therapy and I worked through 
various human services agencies in Massachusetts and New York from 1972 
through 1995. My last full-time job was on the forensic satellite unit 
at Attica Correctional Facility, where I worked from June 1991 through 
February 1996. I applied for benefits in the Buffalo, New York Social 
Security office.
    It took two years for benefits to be approved for my two children 
and me. My claim was denied at the first and second steps and approved 
at the third step by an administrative law judge on the basis of the 
evidence in my medical record. By the time the claim was approved, I 
had statements confirming disability from five physicians whom I had 
consulted myself, two physicians hired by my employer, and a 
neuropsychologist who did personality and intelligence testing. Despite 
the evidence that I submitted, the SSA sent me to see two physicians 
and a psychologist at government expense.
    After the second step denial, I retained an attorney. According to 
Social Security guidelines and state law, she could not require a 
retainer but she was entitled to 25% of my lump sum back benefits with 
a cap of $4,800 if benefits were awarded at the third step. As noted, 
my appeal was successful and she received $4,800 from my back benefits.
    I was more fortunate than many who apply for SSDI benefits as I had 
private insurance and savings to help me through the first year of my 
disability. By the second year, I had no income, our savings were gone, 
and my husband was supporting the family on a small stipend from the 
NIH postdoctoral fellowship that he needed to complete in order to 
qualify for work in his field. When my benefits were awarded at the end 
of the second year, we were deeply in debt and struggling to provide 
basic necessities for our two children.
    My application was processed through the Buffalo, New York office 
so I have had little experience with the troubled Milwaukee office. My 
medical review was handled through the Milwaukee office and this was a 
slow process, but not as critical to my well being as the initial 
application because my benefits were not affected during the review. 
Based on my personal experiences, as well stories from friends and 
acquaintances with disabling conditions, it appears that delays in 
processing SSDI claims are not exclusive to the Milwaukee office. This 
is an inefficient system and one that creates enormous and unnecessary 
hardship for Americans who are unable to work due to illness or injury 
and who are entitled to pension benefits based on their contributions 
to the Social Security fund.
    As the Subcommittee on Social Security investigates problems in 
Milwaukee and Chicago, I hope that you will also address some of the 
larger questions. The high rate of first step denial of claims that 
are, ultimately, approved at the third step suggests that the examiners 
who handle claims at the early stages are simply rubber stamping 
denials. It could be argued that claimants are not providing enough 
medical documentation at the early stages, but my claim was denied 
despite that fact that I had a great deal of documentation including 
independent medical examinations ordered by my employer. I have heard 
enough stories similar to mine to believe that my experience was not 
unusual. Many people who apply for SSD have experienced physical 
problems and collected medical information for years before applying 
for benefits.
    The fact that most claimants need legal representation in this 
process is another problem for many people seeking SSDI benefits. While 
attorneys who handle SSDI claims cannot request retainers and are 
generally not paid unless the claim is successful, the fact remains 
that hiring an attorney is a substantial expense for people who can ill 
afford to lose any of their hard won benefits. Attorneys who handle 
SSDI claims are generally paid 25% of a claimant's back benefits up to 
$5,300. This means that substantial sums of money from the Social 
Security fund are being paid not to beneficiaries, but to their 
attorneys.
    I am grateful for your efforts on behalf of those of us who worked 
hard throughout our lives and who must now depend on Social Security 
benefits in order to survive. None of us chose to be in this position 
and I believe that most people receiving SSDI benefits would rather be 
working and pursuing the careers that were left behind when we became 
to ill to work. Although I have already cleared the hurdles and 
completed the SSD obstacle course myself, I hope that you will succeed 
in making this a more efficient, more humane system for others like me 
who are struggling to live while waiting for benefits now or who will 
need this program in the future.

                                 <F-dash>

           Statement of Tanya Henderson, Waynesville, Georgia
    I would like to comment on the backlog of cases at the OHA offices. 
I worked in the Indianapolis, IN office from Aug. 1991 until Oct. 2002 
when I transferred to the Jacksonville, FL office. The backlog occurs 
when you have the Senior Case Techs doing a lot of the pre hearing and 
post hearing work that an administrative law judge wants done. That can 
take up a tremendous amount of your time daily and therefore, you can't 
get a case worked up and ready for hearing. I currently work up cases 
at home on Mondays and can work up 4 to 6 cases each Monday (depending 
on how thick the file is). The main reason that it could take a great 
deal of time to do the pre/post hearing work is that I have worked with 
an ALJ that has cases that are 2 years old (request for hearing date). 
He sends out interrogatories to any and all doctors in the claimant's 
file (treating physicians), his interrogatories have questions 
regarding smoking, drinking, obesity and estrogen use. I recently had a 
case where the doctor did not respond to the interrogatory after 30 
days, but the judge told be to send the interrogatory a 2nd time, 
therefore, we wait for another 30 days and when that time frame is done 
he will send out more interrogatories. I've had a case where the judge 
has requested 3 different consultative examinations. I can work up 
cases on a daily basis if I did not have to do the majority of the pre/
post hearing work. Senior case techs should only have to deal with 
working up cases, answering phone calls and pre hearing development. 
Hearings and post hearing development should be done by the case techs. 
HPI DID NOT WORK. I was a legal assistant before HPI and I worked up 
cases daily, but after HPI went into effect I had to mail decisions, 
send out notices, file mail, update files, pre hearing development, 
post hearing development--my first response after HPI was ``What 
happened to my promotion?'' I applied for a legal assistant job to get 
away from doing notices and mailing decisions. It all boils down to the 
fact that the ALJs must move the cases and not delay with unnecessary 
interrogatories or consultative examinations and the people who can 
work up cases on a daily basis should be freed up to do so. You also 
have some employees who don't want to work as a team to move cases as 
quickly as possible. Maybe you should have more cases go to the 
decision writers for possible on the record decisions. At the present 
time a case is reviewed if the claimant is age 55 or older, why not go 
down to age 50--with the number of cases waiting to be worked up in 
this office I would almost bet you that 1/4 of the are age 50 and older 
and could have possible on the record decisions issued.

                                 <F-dash>

       Statement of Elizabeth S. Holland, Dallas, North Carolina
    I am a 48 year old woman from North Carolina. I am disabled. My on 
going battle is to convince Social Security of what my doctors have 
already told me. This is such a battle that should not be!
    I have lost my home to foreclosure and moved into a rural mobile 
home. My marriage has dissolved as a direct result of this uphill 
battle for Social Security. Now, I must rely on my 2 children, who have 
homes and children of their own, to pay my bills, and buy what of my 
medications they can. I really don't know how much longer than can 
continue to do this. I guess I will be homeless or hospitalized then. I 
am waiting on the results of my Reconsideration Appeal right now. My 
only hope is that it will be approved, and NOT have to go through a 
hearing with a judge. As that will take about a year to be heard. There 
will be NO hope for me if that takes place.
    As I stated, I am 48 years old. I have major depression, panic 
attacks, agoraphobia, which lives me home bound completely. I also have 
crippling rheumatoid arthritis in my spine, neck, hips, knees, hands 
and shoulders. I also have Hepatitis C, that is worsening each day that 
I cannot afford to take the Interferon injections for, because I have 
no insurance! These are just a few of my well documented heath 
problems.
    Speak up for us, the sick, in pain, and hurting people right here 
in the greatest country in the world, America! WE need help.

                                 <F-dash>

        Statement of Margaret Holt, Chapel Hill, North Carolina
    I hope the following information and observations from nine years 
as a disability support group co-facilitator will be helpful.
    I have observed the following results repeatedly:

           Initial delays by sending persons with existing disability 
        documentation by multiple physicians to the same SSA 
        ``specialist'' who have been observed to be more concerned 
        about in-office time than integrity in diagnosis.
           6 months for initial application to be processed
           6 months more for reconsideration to be processed
           6 months more for Administrative Law Judge decision to be 
        processed

    In the mean time, many persons lose their homes, credit, and 
illness is worsened and families disrupted by the severe financial 
stress of navigating an obstructionist system. Many women are 
eventually added to the burgeoning Medicaid roles as a result, and all 
of society foots the burden as they are abandoned by spouses in our 
disposable society. Many weep, many feel as if they are living in a 
nightmare, some commit suicide.
    These persons are upright, hardworking, moral people for the most 
part, who have paid into the system in good faith throughout their 
lives, and through no fault of their own are victimized by that very 
system when they are least able to advocate because of severe and 
permanent disability.
    One ALJ in the Greensboro, NC area was overheard saying at a 
cocktail party; ``I don't want to give these people disability, but 
what can you do when the evidence all points to the contrary?''
    This misuse of process is abuse of the disabled in a nutshell. Many 
times I have noticed that the gender issue also crops up, with men 
receiving their disability at an earlier stage than women. I have also 
seen discrimination based on particular disabilities, with the blind 
receiving a higher level of allowed earnings. The combination of 
minority status, gender and physical disability become a triple 
disability, as was recently pointed out by other countries' disability 
representatives at the United Nations Second Ad Hoc Committee on a 
Convention for Rights and Dignity for Persons with Disabilities. 
(www.rightsforall.org) Our US representative to the Committee, contrary 
to the recommendation of our National Council on Disability, told the 
other member states in essence, that America had it ``all under 
control'' but that we would be happy to advise the other countries. If 
we can't police our own system effectively, how can we be a ``role 
model?'' And what an opportunity we miss to reach out to the world to 
build good will, in these deadly times, by streamlining our model and 
signing on to a non-precedent setting international disability 
convention.
    Surely, in our great nation, this abuse towards American citizens 
by a government agency must stop. Fraud can be filtered out by 
examination at the initial stages by competent medical examiners 
without victimizing the weakest and most vulnerable in our society by 
this extended delay/abuse of process.
    Thank you for addressing this issue, and for bringing in line this 
misuse of power. Please feel free to contact me if I may be of any 
assistance.

                                 <F-dash>

         Statement of Janet L. Innes, Cambridge, Massachusetts
    This letter is written to share with you my experiences in 
attempting to obtain Social Security disability income.
    In early 1994, I contracted Lyme Disease, which was not identified 
for a number of months. In that time I suffered neurological and immune 
system damage which rendered me severely disabled, unable to continue 
work, and which led to further diagnoses at Johns Hopkins of Chronic 
Fatigue Immune Dysfunction Syndrome and orthostatic hypotension 
resulting from neuro-immune compromise.
    In late 1994, I applied for SSDI. In 1995 my application was turned 
down. I appealed the decision, and that, too, was turned down in 1996. 
In 1997, my husband left me, and I moved from Baltimore MD to 
Pittsburgh PA, then to Arlington VA. My case ``followed'' me and, on 
September 23, 1998, I had an Appeals Court hearing before Judge Eugene 
Bond in Washington, DC.
    Judge Bond, at the time of the hearing, did not have my file and 
had not read it because it had been ``misplaced.'' However, it was 
apparently found several days after the hearing, which made his 
decision legal. He rejected my claim in January 1999, noting lack of 
adequate medical evidence and inability to read several doctors' 
handwriting.
    My attorney urged an appeal, especially since the Social Security 
files showed that the physician hired by SS to examine me on my very 
first application had reported that I was, indeed, fully disabled. The 
attorney told me to proceed with asking Social Security for a copy of 
the tape of the hearing, without which an appeal could not be filed.
    Since early 1999, I have been attempting to get that tape and, as 
of now, September 2003, I still have not received it.
    On my first call to the Appeals Council Branch in Leesburg, VA in 
February 1999, I was told they had not yet received the tape and to 
call back in a month or so. Subsequent calls, which I made every two 
months, yielded the same response: that the tape was ``somewhere in the 
warehouse'' and I had to understand that they were very under-staffed.
    In early 2001, the woman I spoke with on my regular bi-monthly call 
to the Appeals Council Branch said that she would put through a request 
to expedite getting the tape to me. That was over two years ago.
    In the meantime, I had moved to Boston, and I informed her of that. 
She took my new address and said that my records would have to be 
switched to whomever in that office handled the Boston region. She said 
that then, when the tape arrived, it would be sent to the ``Boston 
group,'' and they would send it to me. When I asked about timing, she 
said there was no way to predict how long it would take.
    After settling in Boston, I found a new attorney to help me with 
the appeal. He recommended filing a new case at the same time the 
appeal was being pursued. I did file a second case in early 2002, and I 
was granted SSDI on July 17, 2002. However, my disability was backdated 
only to April 1, 2000.
    Finally, in July of this year, I received an SSA ``Notice of 
Affirmation'' that Judge Bond's 1998 ruling had been overturned by the 
Appeals Council on a number of grounds.
    I am now still waiting for my records to be transferred to Boston 
so that the appeal hearing can go forward.
    I fell ill almost ten years ago. It took me eight of those ten 
years to secure SSDI, many of them waiting for a hearing tape that--if 
it even exists--appears lost somewhere in the ``wilds'' of Northern 
Virginia.
    I extend my deepest and most sincere gratitude on behalf of 
myself--and speaking for numerous people I know who have experienced 
unreasonable delays and demands in trying to obtain disability--that 
this issue is being looked into.

                                 <F-dash>

 Statement of Stephanie Varnado, Social Security Disability Coalition, 
        and Innovative Community Solutions, Nashville, Tennessee
    The Social Security Disability Coalition (SSDC) is a grassroots 
organization that began in January of 2003 as a result of a letter I 
discovered on the Congress.org site to various New York State 
Representatives and Senators. This series of letters were written by 
Ms. Linda Fullerton the SSDC's current Chair. After I'd read her letter 
I began a thorough search of the Social Security category in search of 
others like her. That evening yielded approximately 30 heartrending 
pleas for assistance, the bulk of which, based on Ms. Fullerton's 
letter, were probably going unanswered. The very next day I contacted 
Ms. Fullerton and proposed beginning a grass roots movement to push for 
change. At the time Ms. Fullerton was very down regarding the 
difficulties she was experiencing with the SSDI process, and more than 
a bit abject regarding the possibility of implementing real change. To 
counter that, I began a web community on MSN to assist us in building 
our base.
    To date the Social Security Disability Coalition has 495 members 
and has achieved 2,738 signatures on a petition calling for change. 
These members are not lawyers, or disability providers; they are real 
people who are struggling with one of the most debilitating and 
humiliating systems out there. Their needs are many:

          <bullet>  Respect for them as human beings.
          <bullet>  A process that doesn't take so long that they die 
        before benefits become available.
          <bullet>  A process that doesn't leave them destitute and 
        homeless.
          <bullet>  A process that doesn't exacerbate their already 
        frail conditions by creating so much stress that even suicide 
        becomes and option.
          <bullet>  A process that doesn't require them to sacrifice 
        25% of their desperately needed back pay benefit to attorneys, 
        who if the process worked appropriately, wouldn't even be 
        needed.
          <bullet>  Sick people need medical and pharmacy assistance--
        they should not have to wait two years to achieve this after an 
        award. Not providing healthcare creates a bigger expense on the 
        backend as they wind up in crisis.

    As an individual who develops and evaluates systems I can safely 
say that I have never seen one that was such a complete failure. The 
SSDI process is not something I would wish on my worst enemy. In 
working with low-income people, folks who have spent a lifetime 
performing the most menial and physically difficult jobs available, 
I've had the misfortune to watch this process in action. When hard 
working American citizens whose bodies have failed them through illness 
or accident are treated like they were some kind of pariah or evil 
person there is something grossly wrong with the system. I've watched 
as they've lost homes, cars, and other assets. I've seen them go 
without medications and medical assistance due to cost. I am sickened 
at each situation I see.
    This system MUST be fixed immediately. The problems don't just 
exist in the OHA; they exist in the DDS's where random untrained 
personnel are allowed to determine the outcomes of people they have 
absolutely no knowledge off. The system relies on CE's who see patients 
for 15 minutes and then dispute the findings of multiple treating 
physicians. The whole situation is ridiculous; the fix will be 
expensive but necessary if we are to do what we have promised as a 
country to the people who help make America function everyday.
    Our grassroots coalition grows everyday and we are committed to 
making this a national issue. The days of hiding these abuses, is over. 
We will no longer accept others ``speaking for us''. If you want an 
assessment of your system then you must go to the people involved in it 
for appropriate feedback.
    I hope this meeting will be successful. We do appreciate the 
addition of our information to the record and hope that you will 
include us in other meetings. This system has struggled for decades and 
is in crisis now due to the prototype sites that evolved through a 
poorly thought out ``reform'' effort, the ALJ lawsuit, and certainly a 
lack of funding for operations. The only way the SSA will get what it 
needs to function is if a national movement for reform and funding is 
launched through the people. Then perhaps our legislators will take 
notice of the massive number of casualties caused by this failing 
system. American citizens, the disabled, their family support groups, 
and providers like myself are fast losing faith in the ability of this 
country to protect our safety net investments.
    Thank you for your consideration.

                                 <F-dash>

             Statement of Melissa Jennings, Freeport, Texas
    My name is Melissa Jennings. I filed for disability on October 25, 
2001. I have just had my hearing with the Judge and he found my case 
favorable, which was a great relief. I do not understand why it would 
take 2 years to receive this. My husband, myself, and my 2 sons 8 and 
10, have had some very hard times financially because of the wait. Now 
I am told it will be 30 to 90 days before I will see a check from the 
time they receive my file back from the Judge, which could take 30 
days. So basically I am still looking at almost 6 months before I will 
get anything.
    We have faced eviction and utilities being turned off. Both my sons 
are ADHD and I can't afford their medication or mine. I am waiting to 
see about Medicaid for them but that takes forever to.
    I have fibromyalgia and severe depression. The depression is worse, 
because I can not help provide for my family and give the kids what 
they need to make it in school.
    I am 38 years old and have worked since I was 16 years old.
    I do not believe anyone should have to go through the 2 year wait 
to receive something they paid into for 19 years.
    I understand that there are people who take advantage of 
Disability, but there are others like myself who would be willing to 
still be working but cannot.

                                 <F-dash>

              Statement of John Kelly, Clovis, New Mexico
    Please help us! After 4\1/2\ years I was approved for Social 
Security benefits for Disability Insurance. However, they only approved 
sixteen months pack pay. How can I pay back loans that I received from 
others who were so generous to me during this nightmare of application. 
The present system of Social Security Disability Determinations needs 
to be razed, and a totally new set of guidelines installed to protect 
claimants from this unfair ordeal. The laws are so stringent that no 
one fully understands them, and almost any interpretation of them can 
be made. Again, Please help new claimants and others that have gone 
through the system for a more fair and timely decision making process.

                                 <F-dash>

                                             Cincinnati, Ohio 45236
                                                 September 29, 2003
Committee On Ways And Means
Subcommittee On Social Security
Congressman E. Clay Shaw, Jr., Chairman
1102 LHOB
Washington, DC 20515
    To Whom It May Concern:
    After a year of being unable to work, I filed for SSDI on July 9, 
2001. I have a listed impairment, chronic fatigue syndome, along with 5 
ancilliary impairments. I had enough medical evidence that it was not 
necessary for me to be seen SS's doctors for evaluation. Along with 
much other medical evidence, DDS had received a letter from my treating 
physician dated October 18, 2001, but did not use it in the 
determination. The treating physician's evidence is weighted the most 
out of all the evidence.
    While waiting for a determination, I finally ran out of money. I 
had previously been denied for Long Term Disability, retained counsel, 
appealed again, and was denied again. I had spent all of my savings, 
and sold $10,000 worth of my personal items to make ends meet. To make 
matters worse, after I was terminated from my job for being denied LTD, 
the company went bankrupt, so I no longer had health insurance 
coverage, even under COBRA. At this point, faced with the prospect of 
spending down my 401k and trying to get on SSI, I was able to negotiate 
a monthly loan agreement from my sister. This enabled me to stay in my 
house, instead of moving back in with my elderly parents.
    I received my first denial from DDS on December 10, 2001. I 
appealed the decision and submitted additional medical evidence. At 
this point DDS used the previous evidence I had submitted, and the new 
evidence, including the letter from my treating physician.
    I received my second denial on March 28, 2002. I retained counsel 
and submitted a request for a hearing on April 16, 2002. We continued 
to submit additional evidence of continuing disability from my 
physicians every 6 months or so. My lawyer thought that I had a very 
strong case with much evidence.
    On October 4, 2002 I contacted my congressman to get assistance 
with speeding up the process. They told me, they would do what they 
could, but there were so many other people asking for assistance, that 
were a lot worse off than I was. I checked back with them in December 
and was told to keep waiting. I never heard from them again.
    My hearing was finally set for August 18, 2003. On July 29, 2003 my 
lawyer called and stated that the judge was looking over my file and 
might be able to make a determination, but he had a few questions. I 
answered the questions and the next day, my lawyer called and said that 
I was approved. My case was so strong that I was approved on the 
evidence alone; I actually did not have to go to the hearing. I 
received my official approval letter on August 29, 2003, preceded by a 
considerable back pay check.
    Ironically enough, now that I have actually been approved, SS has 
proven to be the model of efficiency, sending me multiple notice 
letters, checks, and Medicare info in short order. The financial stress 
of trying to get on disability was much worse than the actual illnesses 
that I have. I am so relieved and feel so much better now that I can 
pay back my considerable debts, have a monthly income, and can be an 
independant adult once again. Now I can spend what little energy I have 
on healing (and hopefully getting off disability), instead of figuring 
out how to make ends meet. My case with the LTD is still pending, but 
even that seems not so bad, now that I have some financial security.
    Yes, the wait for a hearing was ridiculously lengthy. The time 
between submitting a request for a hearing and getting the approval 
letter was approximately 493 days, much longer than the national 
average. The time to get through two denials at DDS was approximately 
241 days. While waiting 493 days for a hearing was bad, waiting 241 
days and then getting a denial wasn't so great either.
    My point is, that if the judge could look at essentially the same 
paperwork and approve me on the spot, why couldn't DDS have done the 
same thing 2 years before? To help the people waiting right now, the 
quick fix would be to quadruple the number of judges to deal with the 
backlog. However, in the long run, there would be a lot less people 
being sent to the OHA, clogging up the system, if DDS was doing a 
better job in the first place.
            Sincerely,
                                                    Mary Ann Kindel

                                 <F-dash>

     Statement of Donald Ray Krippendorf, Jr., Knoxville, Tennessee
    My wife is writing this for me since it is hard for me to 
correspond and understand questioning. I am 32 years old. I was a 
Police Officer and a member of United States Army. I am a disabled 
veteran. I was injured in a chemical inhalation on September 27, 2000. 
I was working at my employer, Americopy, in San Antonio, Texas, when I 
started to feel sick from inhaling the fumes of the chemical. When I 
went home that day I was very sick at my stomach. When I woke up the 
next day I was coughing up blood, could not eat, and could hardly 
breathe. I called my Family Physician and was told to come to the 
office. When I got there they ran some tests and took X-Rays. They 
showed that I had a chemical burn. The doctor said it should heal 
within a few days. I was given medications and sent home. That weekend 
I continued to get worse and called the Doctor on Monday morning. This 
went on for over a week. The doctor said that I could not return to 
work and I could hardly breathe. My employer told me to take time to 
get better. After 2 weeks of not getting any better, I was sent to a 
Pulmonologist who ran more tests and more X-Rays. I was diagnosed with 
Reactive Airway Dysfunction Syndrome (RADS). I was told I could not 
return to work until they could make me better. I was tried on many 
medications and none that helped with the pain or the fact that I could 
not breathe. In December 2000, I had my first attack of paralysis. I 
suddenly started having temporary paralysis in my body. It started out 
that it happened occasionally but after a year it progressed to a daily 
occurrence. At this time, I currently have at least one to three 
paralysis episodes a day. These episodes can happen at any time of day, 
anywhere, any activity, and can happen one right after the other. I am 
in constant pain in my lungs and throughout my body. My ailments are as 
follows: RADS, Hypokalemic Periodic Paralysis, Chronic Fatigue 
Syndrome, Fibromyalgia, Migraines, Degenerative Arthritis in both legs, 
Knees, and feet, Multiple Chemical Sensitivity, low immune system, 
chronic sinusitis, chronic pain, depression, anxiety disorder, memory 
loss, sleep apneas, carpal tunnel syndrome and obesity. I was in good 
health before the incident on September 27, 2000 except for the 
arthritis in the feet. I was honorably discharged medically from the 
service after a surgery done by the Army caused arthritis in my right 
big toe, which spread to both feet. I filed for SSD 2\1/2\ years ago. I 
have not returned to work since my accident. I am barely able to spend 
a few functioning hours in a day with my family. I can no longer do 
normal things with my family. Due to most of my illnesses I can no 
longer be affectionate with my family members. I can't go to places 
where there are a lot of chemicals (perfumes, smoke, petroleum, etc.). 
I can't even wash my own hair because the chemicals set off an attack. 
When paralyzed I may be paralyzed through out my whole body or only 
parts of my body. I can't drive. I have been ordered by all doctors to 
not drive due to the fact that I can't control the attacks. When 
paralyzed I have to drag myself across the floor to use the restroom. I 
sometimes can't get out of bed because I am paralyzed in sleep. I can't 
read or watch television for long because I can't concentrate on what 
is happening. I don't go anywhere with out my wife because of my 
anxieties. When the ALJ heard my case in March 2003 he denied me and 
told me that I could do the job of a courier. He said it was low stress 
and no chemical interaction. He didn't even take into consideration all 
of my problems or the fact that I am not even allowed to drive due to 
my paralysis. In a 7-day week, I might have 1 good day where I can 
actually get out of the house and do things with my family. Even then 
my wife must drive me and I am still in chronic pain. I am on 7 
different medications right now. Due to the types of illnesses the 
doctors are changing the medications constantly trying to find one that 
will work. This does not include the medications for the paralysis 
since the doctors are still testing and trying to figure out how it 
happens. I can no longer function on my own. I tell you my story 
because I am upset. I have fought a losing battle with SSD and it has 
really hurt my family. We lost our home in Texas, we lost our car, we 
are in debt to the tune of 40K (not including house since it was 
guaranteed by VA) and we are hounded everyday by bill collectors. We 
moved from Texas to Tennessee to be closer to family to help with the 
children and with me when my wife is at work. My wife had to take a 
considerable pay cut. We no longer understand why this happened to us 
and we are so tired of fighting. It is draining on our relationship, 
our health, and our family. I ask that you consider our plight when 
making your decisions today.

                                 <F-dash>

          Statement of Richard Lankford, Milwaukee, Wisconsin
    My wife is 53 years old and has had a claim in process for over a 
year, 14 months to be exact. The social security dept. has been of very 
little help and at times un helpful to my wife's case.
    She suffers from several different ailments and has been well 
documented by her physicians from the beginning. She suffers from 
Diabetic neuropathy, hypertension, fibromyalgia, hypothyriodism, and 
osteoarthritis. She takes insulin twice daily and synthrroid as well as 
topamax and darvocet-n 100 for pain. she suffers from constant 
Migraines and lower back pain as well.
    The reason I write you now is because after 14 months of trying to 
get through the system we finally gave up and hired a lawyer to 
represent her, I think that this is a shame because now after she is 
approved for benefits, and she will be approved; money that should have 
gone to her will now go to a lawyer. and after having to wait such a 
long period there are bills that will eat up most of the rest but in 
the mean while we must put up with a system that neither care or helps 
people who are applying for much needed benefits.

                                 <F-dash>

             Statement of Kathy Masch, Milwaukee, Wisconsin
    Hi my name is Kathy Masch and I have been fighting an up hill 
battle for SSI/DISABILITY. I've been fighting for fourteen months now. 
I had to sell most of my belongings just to get by. My doctors filled 
out all paperwork stating I am no longer capable of working. I was 
issued a disabled parking permit from the motor vehicle department. I 
have been denied twice and then hired and attorney to help with the 
case. I suffer everyday with arthritis, chronic liver disease, diabetes 
(insulin dependent) and severe depression. I finally went for a hearing 
in front of an administrative law judge on Sept. 3rd, 2003. Of course 
I'm still waiting for a decision. And I suppose I'll wait until someone 
finally decides to make that decision even though it was a pretty clear 
cut case at the hearing. There has to be a change in the way things are 
handled now. People who are disabled shouldn't have to beg and fight a 
very steep uphill battle to get some help from the federal government. 
After all the same federal government helps other countries. Why not 
help here at home first. If they are so backlogged then why not hire 
some more people who are out of work to get caught up and stay caught 
up. I guess maybe the people working there now can't handle the work so 
why not clean house and and get people in there that can. It is not 
pleasant to go from being very active to not being able to get around 
easily. It is especially hard not to be able to pick my grandchildren 
up anymore. I live on pain medication daily. Please help to speed 
things up. Years ago all you had to be was a drunk or have a naughty 
child and you recieved it quickly. Now you can have legitimate doctors 
records and tests and you still have to wait for a decision forever. 
Like I said I've been waiting for fourteen long months. Thanks for your 
help.

                                 <F-dash>

            Statement of Tracy Maynard, Milwaukee, Wisconsin
    To Whom It May Concern: my name is Tracy Maynard I'm a 27 yrs old 
female from Milwaukee Wisconsin. I was diagnosed with primary 
progressive multiple sclerosis. When I was first diagnosed In august 
2002 I was relapsing remitting multiple sclerosis it has been over one 
year since I found out what was wrong with me. I applied for s.s. and 
disability and have been denied both times. They told me I have to wait 
until the middle of 2004 to even get a court date. I went to get help 
from the state with food stamps, rent; anything that would help get my 
family by until court nobody will help us not even with daycare. Title 
19 told me if I paid a 540.00 deductible every month then they could 
help us with just insurance. With my husband being the only one able to 
work we can't afford that. I have always worked since I was 16 years 
old. When I found out I had m.s. I was working full time at Walgreen's 
health initiatives. My last day of work was August 5 2002 I lost my job 
August 6 2003 due to it has been 1 year on medical leave. I have been 
on permanent disability since August 2002 my doctor will testify to 
that. I also can't take care of my 3 year old due to my blackouts, 
fatigue, dizziness, lightheaded, and loss of feeling in my legs. So our 
daughter still has to go to daycare why my husband goes to work. He 
tries his best around the house doing dishes, cleaning, washing the 
clothes and playing with our daughter after work. I try the best I can 
but I get light headed or have blackouts so I have to go lay down. With 
us waiting for court and only my husband's income our bill's are 
getting far behind in rent, gas, electric and living with little food. 
We are trying to keep our heads up but it's getting hard knowing we'll 
be on the street soon if something doesn't happen soon. I have taken 
all the shots that they have right know on the market I have also been 
on the I.V steroids twice. I'm on copaxone and taking steroids pill for 
the third time. My doctor Dr. V. Misra has told me I'm his one in a 
hundred patients that the m.s. is so active they can't get it under 
control. I have seen three different neurologists and a total of four 
mri's and it keeps growing. Now that I lost my job and can not afford 
title nineteen co pay and my husband does not have insurance were he 
works my shots alone are 1700.00 a month not including the other meds I 
have to take. Some of the other pills I have to take everyday are 
levora, hydrocodone, amantadine, neuron tin, ambien, prednisone, 
ibuprofen. I have to use a cane eighty percent of the time if I don't 
take my shot and my pills every day I will be in a wheelchair by the 
time I am 29 please don't let that happen to me. If I don't qualify 
please tell me who does. Thank you for your time.

                                 <F-dash>

         Statement of Stephen A. McFadden, M.S., Dallas, Texas
            I.  Introduction:
    I appreciate the Subcommittee on Social Security holding this 
``Hearing on the Social Security Administration's Management of the 
Office of Hearings and Appeals.'' I testify here today on behalf of 
myself, about how I feel operation of the Texas Rehabilitation (TRC) 
Disability Determination Services (DDS) in Austin prejudices the 
determination of Social Security disability in Texas, including 
determinations subsequently made at the Office of Hearing and Appeals 
(OHA).
    Most of what I am going to talk about today pertains to the 
operation of TRC-DDS in Austin and the Houston OHA's, because that is 
what I have facts on. That does not mean that we do not believe that 
similar policies have not been in effect at the Dallas OHA's for the 
last 20 years; rather, we do not have the badges to go behind those 
locked doors--but the Subcommittee does.
            II.  Blowback: 1990 Gulf War Meets Texas Oil Patch in the 
                    Determination of Social Security Disability in 
                    Texas: How the Gulf War Vets Debate Documented a 
                    1996 Austin TRC-DDS Memo Which May have Resulted in 
                    Depravation of Rights Among Houston Oil Workers by 
                    2000.
    What I am going to do is wind a plausible tale involving the 1990 
Gulf War and its Oil Well fires, blue collar workers in the Houston oil 
industry and elsewhere, basic toxicology, the Fall 1996 blowup of the 
Gulf War Veterans health effects issue, an October 1996 Austin TRC-DDS 
internal memo, the fact that Texas had the lowest Social Security 
initial approval rate in the nation in 2000, the varied explanations 
for that low rate in 2001 by SSA Region VI officials, ``Oil Patch'' 
political interests in Texas over the past 7 decades, the abuse of the 
somatoform psychiatric diagnosis, and the operation in 2001-3 of a 
Houston area SSA anti-fraud unit, to explain why Social Security 
disability determination in Texas is, for claimants with a class of 
medical conditions, and who utilize several specific medical treatment 
providers, in violation of national program standards of SSA, violating 
Texan's rights to due process and equal protection of the laws. This 
hypothesis has not been proven--I do not, for instance, have a list of 
Social Security numbers of denied claims of Houston oil industry 
workers; that is the task of a Congressional investigation. Time and 
public scrutiny will determine the extent to which this plausible 
hypothesis is valid.
    If my perspective on this matter seems unique, it may be because I 
am a child of the U.S. Department of Energy (DOE) nuclear fuels and 
weapons laboratories out West with a graduate degree from ``Teller 
Tech'', rather than being a child of the Texas ``Oil Patch''.
    This situation is worthy of investigation by the House Ways and 
Means Committee Subcommittee on Social Security because 1) its 
similarity to the Gulf War health effects issue addressed by Congress 
over the past few years, and 2) given the nature of the Social Security 
Administration, ONLY CONGRESS has the authority to investigate the 
operation of the SSA for administrative purposes.
            III.  Social Security Officials Try to Explain in 2001 Why 
                    Texas Had the Lowest Initial Approval Rate in the 
                    Nation in 2000 for Social Security Disability:
              A.  Spokesman for Federal Region VI Blames ``Blue Collar 
                    Workers'' ``in the Oil Industry and Elsewhere'' for 
                    the Low Social Security Initial Approval Rate:
    ``Asked why the Texas Rehabilitation Commission has the lowest 
initial approval rate in the nation, agency spokesman Glenn Neal 
Promised the Chronicle a full answer. A few days later, he said the 
Social Security Administration had asked to speak on the issue for the 
commission. Wesley Davis, a spokesman in the Dallas regional office, 
essentially said the rate stems from misunderstandings by blue-collar 
workers. He said the reason starts with an abundance in Texas of under-
educated manual laborers in the oil industry and elsewhere. They 
commonly get injured on the job but don't understand that their 
condition is not totall disability, which is required for Social 
Security aid, he said. From: Social Insecurity: Local Judges Prove 
Stingy in Deciding Appeals Cases, Alan Bernstein, Houston Chronicle, 3-
11-01 A.1.
              B.  U.S. Representative States that the ``Blue Collar'' 
                    ``Oil Worker'' is Explanation Has Been Retracted by 
                    the Social Security Administration:
    [U.S. Rep. Sheila Jackson Lee] ``side [Social Security 
Administration] agency officials also disavowed regional spokesman 
Wesley Davis' recent explanations that Texas approves applications at 
the low rate because it has a high proportion of injury-prone blue 
collar workers who misunderstand the disability rules. the officials 
indicated instead that the problem stems from inadequate documentation 
of disability claims, Jackson Lee said.'' From: Julie Mason and Alan 
Bernstein, Houston Chronicle, 3-23-01 p1.
              C.  Spokesman for Federal Region VI Admits that TRC-DDS 
                    Reaches ``Different Conclusion on Cases that 
                    Require Certain Judgments''--Thus Conceding the 
                    Violation of Texans' Rights to Due Process and 
                    Equal Protection of the Laws as Compared to the 
                    Residents of Other States:
    ``In February, when the Social Security Advisory Board revealed 
that the Texas Rehabilitation Commission approved disability 
applications at the lowest rate in the nation, Social Security 
officials said Texas has a high share of industrial laborers who 
mistakenly think that their job injuries meet the agency's test for 
disability. Under questioning in March by Green and other lawmakers 
from Houston, Social Security officials disavowed that explanation and 
issued an apology. This month, a Social Security spokesman said the 
gap--a 31 percent approval rate in Texas, compared to the national 
average of 45 percent--may be a result of the way the Rehabilitation 
Commission interprets the law. Texas case examiners `can have accurate 
decisions under the law and still have a lower allowance rate than 
other states because they reach different conclusions on cases that 
require certain judgments to be made on an individual's capacity to 
work', spokesman Wes Davis said. But the advisory board, appointed by 
the president to monitor Social Security programs, says variations in 
how the law is applied across the country defy explanation and 
undermine the fairness of the program'' From: ``Social Security 
Disability Under Probe for Race Bias'', Alan Bernstein, Houston 
Chronicle, 6-10-01 A.8.
            IV.  Background:
    Let's step back a decade. In 1990, Iraq invaded Kuwait. In January 
1991 the U.S. invaded Kuwait and pushed back the Iraquis. During the 
invasion, Iraq blew up thousands of oil wells while retreating. These 
oil well fires were put out by ``blue collar'' ``roughneck'' oil well 
firefighters, some of whom worked for American companies, many of which 
were based in the Houston area. The amount of oil and smoke released in 
Kuwait by these fires was unprecedented as human activity.
    Basic toxicology indicates that the human body cannot directly 
excrete ``oily'' substances because they are renally conserved by the 
kidneys. Nonpolar ``oily'' substances must first be detoxified by 
oxidation in the liver to a more reactive form (phase I), then 
conjugated (phase II) with an endogenous substances--e.g. glucuronide--
which is a metabolite of glucose, sulfate, or glutathione, in order to 
be excreted in urine or the bile (phase III). The oxidation step is 
done by the Cytochrome P-450 liver enzyme, whose porphyrin-ringed iron 
center makes the liver red, just like the porphyrin-ringed iron center 
in hemoglobin makes blood red. The problem is that, in some persons, 
when the CYP450 synthesis pathway is induced, whether by exposure to 
alcohol, barbituates, or toxic hydrocarbons such as oil and smoke, 
abnormal intermediate porphyrin compounds can build up in the blood, 
which can result in disabling medical symptoms, such as liver pain, 
photosensitivity, and colored urine, but many of which are 
neurological. This is known as porphyria in its extreme genetic form, 
but the milder acquired form is known as porphyrinopathy.
    There are other ways that exposure to oil can cause injury. One of 
the simplest is solvent neurotoxicity. This results when volatile 
hydrocarbons solvate the insulating fatty covering on nerves, 
destroying their conductivity, causing permanent neurological or brain 
damage. The best known example of solvent neurotoxicity is ``glue 
sniffing'' (e.g. of toluene ``model airplane glue'').
    In short, a lot of Houston oil workers were exposed in 1991 to a 
lot of oil and smoke from the Kuwaiti oil well fires, and exposure to 
oil and smoke can induce disability by solvent neurotoxicity at 
exposure to high levels to volatiles, and by porphyria in susceptible 
individuals.
    In the Fall of 1996, the Clinton Administration was ``rattling 
sabers'' for a ``Wag-the-Dog'' war in Iraq on the eve of the 1996 
presidential election. The issue of Gulf War health effects was just 
beginning to heat up, with estimates of 10-50,000 disabled, far short 
of the current estimate of over 200,000 as of 2003. The Kamasiyah 
incident, wherein a U.S. demolition unit blew up a nerve gas bunker 
with tens of thousands of U.S. troops nearby, was revealed about 
August. By October, a month prior to the 1996 presidential election, 
the estimates of the Gulf War veterans exposed to the nerve gas at 
Kamasiyah were running between 10 and 20,000.
    As the 1990-1 Gulf War veterans went after the Pentagon in the 
media over their health problems on the eve of a U.S. deployment to 
Iraq, which culminated with the President's Commission on Gulf War 
Illness report, released just days before the so called ``Aberdeen Rape 
Incident'', shortly before the 1996 Presidential election, some 
industry sympathizers went after the civilian physicians diagnosing 
chemical injury in what appears to be a counter-strike.
    That Fall, John Stossel sent ``fake patients'' undercover into the 
medical office of Dr. Grace Ziem, founder and medical director of the 
organization ``MCS Referral and Resources'', www.MCSRR.org, which 
publishes information on porphyria.
    Ziem quenched the undercover story by suing Stossel under the 
Maryland wiretap law. The ``Wiretap'' news story was reported by Todd 
Spangler and distributed by the Associated Press, and was published in 
the Austin American Statesman on October 19, 1996.
    We have been provided by an anonymous source out of Austin an 
internal TRC-DDS memo of unknown provenance. We have done our best to 
authenticate it, but are limited by the constraints of the Social 
Security Act. The memo, dated October 21, 1996, comments on the 
Stossel/Ziem ``Wiretap'' news story, and makes statements regarding the 
legitimacy of a class of medical conditions, and credibility of several 
specific medical treatment sources in Texas.
    The `October 1996 TRC ``MCS'' Memo', as we call it, which refers to 
Dr. Ziem's practice, is relevant to the condition of blue collar 
workers in the oil industry in places like Houston because Ziem's 
organization, MCSR&R, distributes medical literature on porphyria, 
which is a condition that can be induced in some individuals by 
exposure to large amounts of toxic hydrocarbons--such as might occur 
when fighting an oil well fire, and because many blue collar workers in 
the Houston oil industry were exposed to such toxics, including some 
during the 1991 Kuwaiti oil well fires.
    The October 1996 TRC ``MCS'' Memo has the potential to effect an 
official TRC-DDS policy in Texas--to become in effect an unpublished 
state law--in violation of national program standards of the Social 
Security Administration, in that its distribution list includes ``All 
SAMC's'', the State Agency Medical Consultants evaluating disability at 
the central office of TRC-DDS in Austin. Further, Dave Ward, named on 
the distribution list of the October 1996 TRC ``MCS'' Memo, became the 
TRC Deputy Commissioner for Disability Determination Service in October 
1996, the month that the memo was written, and held that position until 
2002.
    Coincidently, by 2000, Texas had the lowest initial approval rate 
for Social Security disability claims in the nation. It is notable that 
the ``initial approval rate'' is a statistic which directly reflects 
the approval rate of both initial and reconsideration Social Security 
disability claims by the central office of TRC-DDS in Austin, and does 
not refer to subsequent decisions by the OHA's, AC, and FDC. It is thus 
a statistic that uniquely reflects activity at TRC-DDS in Austin.
    When the low Texas initial approval rate became known in the Spring 
of 2001, a number of explanations were provided. Most telling is the 
initial statement by the SSA Region VI spokesman who blamed ``blue 
collar workers'' ``in the oil industry and elsewhere''.
    The SSA Region VI spokesman subsequently stated that it ``may be a 
result of the way the Rehabilitation Commission interprets the law. 
Texas case examiners ``can have accurate decisions under the law and 
still have a lower allowance rate than other states because they reach 
different conclusions on cases that require certain judgments to be 
made on an individual's capacity to work'' thus conceding in a 
statement against interest that TRC-DDS violated Texans' rights to due 
process and equal protection of the laws as compared to residents of 
other states.
    We believe that both of these explanations are correct. We think 
that the October 1996 TRC ``MCS'' Memo ``red-lined'' a class of medical 
conditions and several specific medical treatment sources in Texas, and 
that this de-facto policy resulted in a regionally disproportionate 
impact in the Houston area, where we suspect a large number of the 
Kuwait oil well firefighters had been disabled by that chemical 
exposure. We also think that this policy, a de-facto unpublished state 
law, constitutes a violation of Texans' rights to due process and equal 
protection of the laws as compared to residents of other states.
    To understand how such a de-facto policy can systematically be 
effected in Texas, one must look at the process of disability 
determination at the central office of TRC-DDS in Austin.
            V.  Processing of Social Security Disability Claims by the 
                    TRC-DDS Central Office in Austin.
    The Initial Consideration and Reconsideration of all Social 
Security disability claims in Texas is done at the TRC-DDS central 
office in Austin. Cases are assigned to one of roughly 25 medical 
evaluation units working under 5 Program Directors based on the medical 
characteristics of the claim. (For instance, in 1994 all AIDS cases in 
Texas were determined by Unit 22.) These units are staffed by about 300 
or so Claims Examiners and 50-60 State Agency Medical Consultants 
(SAMC's).
    Thus, no matter where a person lives in Texas, if they have a 
particular medical diagnosis, their claim will be directed to the 
medical evaluation unit handling that specific medical diagnosis at DDS 
in Austin, and will be evaluated by one of about a half dozen to a 
dozen claims examiners working on cases with that diagnosis, as advised 
by a couple of State Agency Medical Consultants with expertise in that 
area who work with that group.
    This method of assigning claims to medical evaluation units for 
determination based on diagnosis allows the opinions of TRC's Chief 
Medical Consultant to control all Social Security Disability Cases in 
the state of Texas uniformly. In short, if the TRC-DDS Chief Medical 
Consultant sets a policy on the credibility of a class of medical 
conditions or of specific medical treatment sources, it can be effected 
by the actions of just 2-3 State Agency Medical Consultants (SAMC's) 
working in a single medical evaluation unit.
            VI.  The October 1996 TRC ``MCS''' Memo:
              1.  Authentication of the October 1996 TRC ``MCS''' Memo:
                A.  We received the memo from a source ``in Austin'' 
                    who knew we were interested in this subject. That 
                    it exists outside TRC suggests that it was widely 
                    distributed inside TRC-DDS.
                B.  The memo is apparently on ``Texas Rehabilitation 
                    Commission Office Memorandum'' letterhead. TRC is 
                    the parent agency of TRC-DDS.
                C.  We have verified the date of the memo, in that it 
                    refers to an AP news article by Todd Spangler 
                    published in the Austin American Statesman on page 
                    A10 on Saturday, October 19, 1996, titled ``ABC 
                    Correspondent, 4 Others Charged With Secret 
                    Taping''.
                D.  We have been able to authenticate some of the 
                    recipients on the distribution list:
          <bullet>  Dave Ward was head of TRC-DDS Administrative 
        Services in 1994, and was promoted to TRC Deputy Commissioner 
        for Disability Determination Service in October 1996--the month 
        the memo was written, and held that position until 2002, 
        including during the ``fake examiner'' scandal.
          <bullet>  David Norman was director of the TRC-DDS Public 
        Information Office in 1994.
          <bullet>  The SAMC's are the 50-60 State Agency Medical 
        Consultants who provide medical consultation to the roughly 300 
        disability claims examiners in the roughly 25 medical 
        evaluation units at the central office of TRC-DDS in Austin.
          <bullet>  The name Rosemary may or may not refer to Rosemary 
        Calk, who was system manager of the Medical Consultants Service 
        in 1994. In any case, the head of the office employing the 
        SAMC's might be expected to be on the distribution list, given 
        that the SAMC's are on the list.
                E.  We have been able to establish the identities of 
                    the individuals named in the memo.
          <bullet>  Dr. Ziem, M.D., Dr.P.H. is a physician practicing 
        in Baltimore, Maryland, and is President and Medical Director 
        of ``MCS Referral and Resources'', www.mcsrr.org.
          <bullet>  Dr. William J. Rea, M.D. is a physician in private 
        practice in Dallas, Texas, who has testified before Congress on 
        health effects of the 1990-1 Gulf War, see www.ehc-d.com.
          <bullet>  Dr. Alfred R. Johnson, D.O. is a physician in 
        private practice in Dallas, Texas, and is a former member of 
        the Texas State Board of Medical Examiners.
                F.  We have not been able to establish the identify the 
                    author of the memo, ``Dr. Vickers''. It would 
                    appear that the Doctor is someone with sufficient 
                    authority to use ``TRC Office Memorandum'' 
                    letterhead to address ``All SAMC's'' consulting on 
                    the determination of disability at TRC-DDS in 
                    October 1996 on the subject of the handling of a 
                    class of medical conditions and on the credibility 
                    of specific medical treatment sources and treating 
                    source medical opinions for the 170-330,000 
                    disability claims that TRC-DDS processes each year 
                    as a contractor for SSA.
                G.  Further authentication of the memo is precluded by 
                    the fact that 1) the Texas open government laws do 
                    not have jurisdiction over TRC-DDS, which is fully 
                    funded by federal funds and operated under federal 
                    law; because 2) Federal FOIA requests to SSA have 
                    in the past required a lawsuit to get even basic 
                    information such as ALJ approval rates, much less 
                    to obtain internal policy documents of state agency 
                    contractors; because 3) DDS and the OHA's are 
                    locked government facilities; and 4) the barriers 
                    to a Federal District Court lawsuit. Investigation 
                    into this matter is thus properly in the 
                    jurisdiction a Congressional oversight committee.
              2.  The Text of the October 1996 ``MCS''' Memo:
           TEXAS REHABILITATION COMMISSION OFFICE MEMORANDUM
TO: C.C. List Below:
FROM: Dr. Vickers (initialed)
SUBJECT:  Austin-American Statement News Item: Saturday October 19, 
        1996 Continued Media Interest in Multiple Chemical Sensitivity
DATE: October 21, 1996
    I am distributing a copy of this release in case any of you missed 
it over the weekend in the local paper. The practice of Dr. Ziem 
parallels that of Dr's Rea and Alfred Johnson in Dallas with whom the 
agency is very familiar. I had not heard reports from any other 
Regional Offices other than San Francisco as having problems with 
claimants with these problem issues.
    It would appear that the ABC Network team has already concluded 
that this non-standard medical practice constitutes ``junk science''.
    When Dr. Rea first brought this issue to the forefront all three 
major networks did evening news or special show revelations on this 
topic as did several news magazines and several major city newspapers.
    The courts did not accept a suit by Dr. Rea against the American 
Academy of Allergy and the American Society of Allergists when they 
criticized his practices as ``non-scientific'' and ``non-standard 
medically''.
    There are now many other physicians in our claimant area following 
this type of practice and these cases continue to constitute major 
medical support issues for acceptable diagnoses to meet program medical 
standards.
C.C.:
David Norman
Kathleen and Rosemary
SAMC's
              3.  Analysis of the October 1996 TRC ``MCS'' Memo:
                A.  The Memo as ``Red Lining'' of a Class of Medical 
                    Conditions and Named Medical Treatment Sources:
    The Memo cites ``Continued Media Interest in `Multiple Chemical 
Sensitivity' '' as its topic. ``MCS'' is a term which describes a class 
of medical conditions, including porphyria, solvent neurotoxicity, and 
pesticide poisoning, but also shares many commonalities with the 
conditions of ``Gulf War Illness'', Chronic Fatigue Syndrome, and 
Fibromyalgia. The memo invokes authority by saying `It would appear 
that the ABC Network team has already concluded that this non-standard 
medical practice constitutes ``junk science'' '. The news media is not, 
however, a scientific source of medical information. The statement that 
``these cases continue to constitute major medical support issues for 
acceptable diagnoses to meet program medical standards.'' would suggest 
that the writer intended that disability claimants with this class of 
medical conditions or who used the 3 named physicians as treatment 
sources ought to be given special scrutiny. In the insurance business 
this behavior is called ``red lining''.
                B.  The Memo as a Violation of National Program 
                    Standards of the Social Security Administration: 
                    Chemical Sensitivity as Acknowledged by SSA:
    National Program Standards of the Social Security Administration 
directly acknowledge the existence of chemical sensitivity as a medical 
condition. Specifically:

          <bullet>  POMS DI 24515.065: ``Evaluation of Specific 
        Issues--Environmental illness'', promulgated in February, 1988, 
        states that ``This evaluation should be made on an individual 
        case-by-case basis to determine if the impairment prevents 
        substantial gainful activity''. This transmittal was issued 8 
        years before the Memo.
          <bullet>  The stipulation was made by SSA that it 
        ``recognizes multiple chemical sensitivity as a medically 
        determinable impairment'' in Creamer v. Callahan, 981 F.Supp. 
        703 (D. Mass 1997), issued approximately one year after the 
        Memo.
          <bullet>  Social Security Ruling SSR-99-2p ``Policy 
        Interpretation Ruling: Titles II and XVI: ``Evaluating Cases 
        Involving Chronic Fatigue Syndrome (CFS)'' cites multiple 
        chemical sensitivities as a possible contributing factor. This 
        regulation was issued 3 years after the Memo.
    In addition, there is no question to the validity of a number of 
medical conditions which might be labeled as ``MCS'' or chemical 
sensitivity, such as solvent neurotoxicity.
                C.  The Memo as a Violation of National Program 
                    Standards of the Social Security Administration: A 
                    Direct Attempt to Violate SSR-96-2p: ``The Treating 
                    Physician's Rule'' Against Specific Treating 
                    Physicians:
    The publication of the October 1996 TRC ``MCS'' Memo must be taken 
in the context of policy changes occurring in the national SSA program 
at the time. ``SSR-96-2, known as the ``Treating Physician's Rule'', 
was published that year with an effective date of 7/2/1996. The Memo, 
published 3\1/2\ months later, would appear to lay the foundation for 
the systematic violation of the ``Treating Physician's Rule'' against 
individuals using as medical treatment sources or treating source 
medical opinions two named Texas physicians, Dr. William J. Rea and Dr. 
Alfred R. Johnson, both with practices in Dallas. The memo notes, 
however, ``There are now many other physicians in our claimant area 
following this type of practice . . .''
    The October 1996 TRC ``MCS'' Memo, taken in the context of its 
writing just months after the publication of SSR-96-2p, strongly 
suggests an official and systematic policy at TRC-DDS--a de-facto 
unpublished state law--of discrimination against a class of medical 
conditions and specific medical treatment sources, an action taken in 
direct violation of National Program Standards of the Social Security 
Administration.
                D.  Impact of the October 1996 TRC ``MCS'' Memo:
    In effect, TRC-DDS has, as a result of `Oil Patch' politics, denied 
a class of individuals the right to Social Security disability 
benefits, for reasons of medical diagnosis which are often related to 
genetics (e.g. susceptibility to porphyria) or chance (e.g. solvent 
neurotoxicity), or by choice of treatment provider or medical opinion 
(e.g. one of the named physicians).
            VII.  The Politics of Power: Abuse of the Somatoform 
                    Disorder Psychiatric Diagnosis, the Handling of 
                    Psychiatric Claims, and the Operation of the 
                    Houston Anti-Fraud Unit in 2001-3:
    TRC-DDS apparently does not believe in certain diseases associated 
with chemical injury. (We believe this also extends to the Texas SSA 
ALJ's at the OHA's at least in Dallas, given the number of ALJ 
decisions written over the past 15 years there labeling claimants who 
have been treated by doctors named in the October 1996 TRC ``MCS'' Memo 
as having a medical condition that is ``iatrogenic''--caused by the 
doctor.) As a result, the only way that many of these desperate injured 
individuals can get Social Security disability is on grounds of 
``somatoform disorder'', a psychiatric condition similar to being a 
hypochrondriac. It is notable that the overall approval rate for SSD 
claims for psychiatric conditions in Texas has been about \2/3\ of the 
national average.
    The Houston Chronicle articles reviewed the operation of a SSA 
anti-fraud unit in the Houston area during 2001-3, whose tactics 
included subjecting claimants including some with mental problems to 
``ruse interviews'', including by falsely accusing some individuals of 
crimes in order to evaluate their mental response. This ceased after 
protests to the SSA Inspector General. These events, taken together, 
demonstrate the violations of national program standards of the SSA in 
Texas and of Texans' rights to due process and equal protection of the 
laws as compared to residents of other states, for instance against 
Houston area workers injured in the oil industry.
            VIII.  Closing:
    The management of rehabilitation in Texas has striking longevity, 
being directed by 4 individuals for 70 of the past 74 years. Further, 
appointments to the TRC Board have not been made on a timely basis in 
recent history. We feel that this lack of management renewal has 
resulted in an inability of TRC to deal with change, including to 
recognize new medical diagnosies such as ``Oil Well Firefighter 
Syndrome''.
    We have established that medical decisions at TRC-DDS are highly 
centralized, being controlled by the Chief Medical Consultant, with 
determinations made in units sorted by diagnosis.
    We have established, subject to rebuttal, that an October 1996 memo 
whose distribution list includes ``All SAMC's'', and the director of 
TRC-DDS appointed that month--who held that position for at least the 
next 5 years, appears to red-line a class of medical conditions--
including porphyria, in violation of several SSA precidents, and to 
red-line several specific medical treatment sources in Texas, in 
violation of SSR-96-2p, ``The Treating Physician's Rule''. We feel that 
this memo affirmed an unwritten standing policy and instituted it as a 
de-facto unpublished state law.
    Coincidently, by 2000, TRC-DDS presided over the worst initial 
approval rate in the nation for SSD claims. Multiple news articles in 
the Houston Chronicle indicate that there was a regionally 
disproportionate impact of disability claim denials in the Houston area 
in 2000-2, which is populated by a large number of ``blue collar 
workers'' ``in the oil industry''.
    The initial explanation for the low initial approval rate in Texas 
given by the spokesman of SSA Region VI was to blame the large number 
of ``blue collar workers'' ``in the oil industry and elsewhere''. It is 
common knowledge that many of the Kuwaiti oil well firefighters worked 
for American oil companies headquartered in the Houston area. 
Toxicology indicates that exposure to hydrocarbons such as produced by 
oil well fires can cause disability by several mechanisms, including 
solvent neurotoxicity, and the induction of porphyria in susceptible 
individuals.
    The second explanation for the low initial approval rate in Texas 
given by the spokesman of SSA Region VI was to state that it ``may be a 
result of the way the Rehabilitation Commission interprets the law. 
Texas case examiners ``can have accurate decisions under the law and 
still have a lower allowance rate than other states because they reach 
different conclusions on cases that require certain judgments to be 
made on an individual's capacity to work''. We agree with this 
statement against interest, a concession by SSA Region VI that this 
situation constitutes a violation of Texans' rights to due process and 
equal protection of the laws as compared to residents of other states.
    We have seen the operation of a SSA anti-fraud unit in Houston 
targeting individuals including some with ``psychiatric disorders'', 
that ``somatoform disorder'' is the only way many desperate chemically 
injured individuals can get Social Security disability in Texas, and 
that the overall approval rate for psychiatric disorders in Texas is 
about \2/3\ of the national average.
    In conclusion, we believe that the policies of TRC-DDS directly 
prejudice the operation of Social Security disability determinations at 
the Office of Hearings and Appeals in Texas, in violation of national 
program standards of the SSA, which constitutes a violation of Texans' 
rights to due process and equal protection of the laws as compared to 
residents of other states.
            IX.  References: Relevant SSA Policy Documents, Legal 
                    Precedents, and Federal Law:
     1.  Social Security Ruling SSR 96-2p (7/2/96): Policy 
Interpretation Ruling: Titles II and XVI: Giving Controlling Weight to 
Treating Source Medical Opinions: (``The Treating Physician's Rule''):
     2.  Social Security Ruling SSR 97-2p (8/8/97): Policy 
Interpretation Ruling: Titles II and XVI: Prehearing Case Review by 
Disability Determination Services:
     3.  DI 24515.064 Evaluation Of Specific Issues--Environmental 
Illness. Social Security POMS section DI 24515.064, 08-29-96.
     4.  Social Security Ruling SSR 99-2p (4/30/99): Policy 
Interpretation Ruling: Titles II and XVI: Evaluating Cases Involving 
Chronic Fatigue Syndrome (CFS):
     5.  Creamer v. Callahan, 981 F.Supp. 703 (D. Mass 1997); 1047. 
Creamer v. Callahan. List of Available Materials 1996-2001, NOSSCR, 
www.nosscr.org.
     6.  Vlantis v. Apfel, Cause No. 3:99CV1306 U.S. District Ct. 
Connecticut 10-18-2000; 1185. Vlantis v. Apfel. List of Available 
Materials 1996-2001, NOSSCR, www.nosscr.org.
     7.  Greenspan v. Shalala 38 F.3d 232 238-239, 46 S.S.R.S. 3, 9-10, 
CCH S14,224B (5th Cir. 1994), HALLEX II-1-5-9 Impairments--
Environmental Illness:
     8.  Brown v. Shalala 15 F.3d 97, 98,99,100, 43 S.S.R.S. 
504,505,506,507, CCH S17,686A (8th Cir. 1994), HALLEX II-1-8-9 
Impairments--Environmental Illness:
     9.  Grant v. COSS, Cause No. 3:CV-88-0921, U.S. District Ct. of 
the Middle District of Pennsylvania, Opinion 8-23-00, http://
www.pamd.uscourts.gov/opinions/muir/88v0921.pdf. ALJ was biased 
generally against disability claimants, and determined their cases 
according to prejudices--e.g. marking many of the instruction sheets to 
the opinion writers with ``no-goodnik'', and unlawfully concluding that 
the claimant was not credible. This action ``deprived them of their 
right to a full and fair hearing in violation of the Social Security 
Act and the due process clause of the Fifth Amendment to the U.S. 
Constitution.
    10.  DI 525510.001 Goodnight, et al., v. Apfel Settlement 
Agreement. Social Security POMS section DI 525510.001, 01-12-00.
    11.  Amendment V, Constitution of the United States.
    12.  Amendment XIV Section 1, Constitution of the United States.
    13.  42 U.S.C. 421--Disability Determinations.
    14.  42 U.S.C. Chapter 21--Civil Rights, Subchapter I--Generally.
    15.  42 U.S.C. 1981--Equal rights under the law.
    16.  42 U.S.C. 1983--Civil Action for depravation of rights.
    17.  42 U.S.C. 1985--Conspiracy to interfere with civil rights.
    18.  42 U.S.C. 1987--Action for neglect to prevent.
    19.  42 U.S.C. 1988--Proceedings in vindication of civil rights.

                                 <F-dash>

                Statement of Ladonna Miller, Lima, Ohio
    Solving the problems with OHA will be pointless and perhaps 
impossible unless the problems with the Disability Determination 
Services are solved first. If unwarranted denials were not given on 
valid claims, the OHA would not be overloaded and backlogged. Aside 
from other reasons in a variety of individual cases, simply because of 
the system of listed impairments, thousands of qualified claimants are 
denied at DDS level. Almost everyone with an unlisted impairment must 
wait for an ALJ to use common sense and find the claimant disabled. If 
some system of common sense were permitted on the DDS level, instead of 
absurd adherence to the listings, the OHA would have only those cases 
that legitimately belong in a hearing room. Severely disabled claimants 
whose medical conditions happen not to be listed impairments do not 
belong at OHA, should not be at OHA, would not be clogging OHA, if the 
Listing of Impairments was either greatly expanded or abolished.
    Fibromyalgia victim, including, neurological problems, weakness, 
lack of concentration, memory, & balance. Tremors, degenarative spinal 
arthritis, 2 herniated discs, 1 in neck, 1 in lower back, drop foot 
which I wear a brace on. Irritable bowel, diverticulosis, with flares 
of diverticulitis, chronic & severe pain, 24 hrs a day. Also being 
treated for depression. Neurologist tells me that the pain will cause 
the depression, and the depression will cause the pain. I will have to 
learn to live with it, because I will be in a vicious cycle of this for 
the rest of my life. I lost my job in February of 2002 because of my 
poor attendance due to all of these symptoms coming on, before I was 
diagnosed. I have not been able to drive for a year now. And have been 
using a walker for a year now. I had gotten so weak that carrying a 
loaf of bread took me to my knees. Your social security offices here in 
Ohio have had reports from 3 neurologists, 2 family drs., 2 hospitals, 
including all kinds of blood tests, x-rays, MRIs, etc. But that was not 
enough for them. They have sent me to 2 more drs for evidence. I truly 
believe that this is nothing but a waste of our governments money! The 
people in Columbus could have made an appointment with me & saw for 
themselves what kind of condition I am in. Not just from this condition 
and all of it's symptoms that come along, but from all of the 
medications and their side affects as well. And what really hurts me is 
that I have been turned down for benefits, after I have worked all 
those years, and paid into this system, just in case something would 
happen that I would need it. I would much rather be out there working 
and making good money than sitting here living with all of this pain 
and everything else with it. It has caused me to sit back and really 
have doubts about my government, when I can go out on the streets and 
see drug addicts and alcoholics receiving ss disability when they did 
this to themselves! I sure didn't do this to myself! And that really 
hurts. Especially when they, or you, are fighting me about a puny 
little $382 a month!
    As I said before, thank you for listening. God bless. You and my 
country are in my prayers.

                                 <F-dash>

                                         Milwaukee, Wisconsin 53219
                                                    October 2, 2003
Subcommittee on Social Security
C/O Honorable E. Clay Shaw Jr.
Room B-318
Rayburn House Office Building
Washington, D.C.
    Dear Congressman Shaw:
    There are other problems besides management problems here in 
Milwaukee, WI at Social Security.
    Although, my son Joshua had been born with a seizure disorder, he 
had suffered no ill effects and could do anything a four year old could 
do. His seizures had long been controlled with Pyridoxine (a Vitamin 
B6).
    In December 1984, the State of Wisconsin Department of Health & 
Social Services Division of Community Services, Bureau of Social 
Security Disability Insurance (that's on their letterhead) tried to 
have Joshua declared disabled due to his seizure disorder. The 
application for Social Security Disability was denied on January 15, 
1985. The Disability Specialist's name was Betty A. Fischer.
    In August 1985, the same people mentioned in the above paragraph 
tried again to have my son Joshua declared disabled, this time claiming 
retardation and hyperactivity unlike in the prior attempt where my 
son's doctor's reports were used. The disability specialists name was 
Rosemary Dykman. The State of Wisconsin hired and paid a Dr. Walter J. 
Cleason to give my son Joshua ``a special examination at our expense''. 
I don't know the name of the drug that was given to Joshua prior to the 
examination or if he acted as described by the doctor. Joshua was a 
good, well-behaved boy.
    In September 1985, the Social Security Administration (S.S.A.) 
declared Joshua disabled even though he was not. His Mother started 
collecting benefits in October 1985. Why would the government go 
through all of this trouble to pay out benefits to someone who is not 
disabled?

          <bullet>  First, to file a bogus lawsuit. It is a big plus 
        when the S.S.A. hands out it's endorsement & benefits
          <bullet>  Second, since my son's mother was and is mentally 
        unbalanced and functions at about a sixth grade level. A well-
        known personal injury lawyer who had been working on my son's 
        mother for about a year filed a suit August 27, 1986 against 
        Children's Hospital. Doctors from Children's Hospital had been 
        working on my son's mother also.
          <bullet>  Third, the State of Wisconsin, who provided and 
        paid the Doctor for the exam that got Joshua declared disabled 
        filed a suit on Joshua's fourth birthday, September 16, 1986. 
        (which is also Mexican Independence Day)
          <bullet>  Fourth, Now that Joshua has been declared disabled 
        and is receiving benefits and the lawsuits have been filed it's 
        time for Joshua to really become disabled. Now the suits can be 
        amended. Now the government Social Services, S.S.A. lawyers can 
        claim catastrophic brain injury

    On December 17, 1986 the Vitamin B6 that used to stop Joshua's 
brain seizures was withheld. He went to Children's Hospital in the 
early morning on the 18th, where he spent three weeks in I.C.U.; three 
months at Children's Hospital and was transported to an institution 
where he remained for 7 years.
    I, Abel Moya, the natural father of Joshua Thomas received custody 
in 1993. I brought Joshua home in August of 1994. I had informed 
Children's Hospital and their lawyer in 1987 of my son's mother and the 
lawyer's intentions.
    In early 1991, the case was quietly settled out of court. This was 
done to shield the various government agencies and the rest of the 
``prominent'' participants who desecrated my son Joshua and my family. 
Social Security started the ball rolling when they declared my son 
disabled.
    The defendants bought an annuity for Joshua in the amount of 
$2,000.00 monthly. From 1991 to the time I brought Joshua home in 
August 1994, Social Security excluded that amount monthly as a resource 
for Joshua because the State of Wisconsin was a major participant.
    Because I had ruined the conspirators' vision of a big pay off, 
Social Security said Joshua did not qualify for benefits or the medical 
card. Joshua and I paid out of pocket for all expenses. I set up an 
irrevocable trust November 7, 1997. On December 3, 1997, I applied for 
disability for myself and Joshua. Social Security denied Joshua and did 
not want to look at the trust at all. I appealed mine and it is sitting 
in Federal Court. Social Security says they don't see how having to 
care for a quadriplegic son caused by them would cause me to suffer 
depression, stress and anger. This diagnosis can be verified by my 
doctor. Mr. Bachinski of the Forest Home Social Security Office told me 
it could not be appealed and that I should not come there because 
S.S.I. was a welfare program.
    I applied again September 19, 2000 and February 20, 2001 and was 
twice more denied.
    In March of 2002, I applied again. This time Joshua qualified. This 
was the same Trust I applied with the previous times. I was told, by 
Mr. Brian Matusiak, that Joshua qualified for $363.00 a month. I later 
found out that this was a lie.
    The following month I received $238.00 that was for May 2002. I was 
told that Social Services had told them that I was receiving child 
support. That was a lie. Social Services was a conspirator also.
    I asked Social Security to show me, in writing, where I was 
receiving child support. They could not, but nevertheless, I did not 
start receiving checks again until January of this year.
    In May I started receiving $370.00 per month, which is way below 
what Joshua is supposed to get.
    They are deducting $206.00 per month for P.M.V. Twice I went to 
appeal and was told outright ``No'' by Brian Matusiak of the 9th Street 
Office and once by Steve Lund of the Forest Home Office. Twice Social 
Security went through the motion on the computer and told me that the 
appeal was in. The last time I believe was in February or March of this 
year. The 37th & Wisconsin Avenue Social Security Office called me 
three weeks ago and told me there was no appeal pending and that I had 
to file again.
    I am sick and tired of Social Security's lies. They owe my son a 
lot more than the maximum of benefits from the time he left the 
institution in Madison, WI.
    I've written to Mr. Kleczka, Mr. Kohl and Mr. Feingold. It does no 
good. Social Security lies to their staff just as easily as they do to 
you. Now I have the staff from three of your Representatives and Social 
Security telling me I'm not entitled to benefits.
    On Monday, the 22nd of September, I called the 37th & Wisconsin 
Avenue Social Security Office and left a message with a Ms. Arnold to 
call me back so I could make an appointment. As of this writing she has 
not called.
    Congressman Gerald D. Kleczka has known about this scam where you 
leave healthy Latino kids to try and enrich themselves since 1992. I 
don't know how many times the government and lawyers have done this but 
you can be sure that it's the taxpayer that is picking up the tab.
    I am very, very serious about the governments' participation. I 
feel that my and my son's lives are in real danger. When you've upset 
the legal profession and the government you're at their mercy. I don't 
know what to expect after you receive this letter.
            Sincerely signed,
                                                          Abel Moya

                                 <F-dash>

                                     Social Security Administration
                                     Office of Hearings and Appeals
                                   Springfield, Massachusetts 01103
                                                 September 30, 2003
Hon. E. Clay Shaw, Jr.
Representative in Congress
Chair--Subcommittee on Social Security
Committee on Ways and Means
1102 LHOB
Washington, DC 20515
    Dear Rep. Shaw and Honorable Members of the Subcommittee:
    I am an Administrative Law Judge with the Social Security 
Administration [SSA], Office of Hearings and Appeals [OHA], and have 
served as such since October 1996. Since September 2000 I have had the 
additional responsibilities of a Hearings Office Chief.
    The job of a judge in these proceedings is very challenging. We are 
required to wear three hats: [1] to provide full and fair hearings; [2] 
to assist claimants with developing the record and presenting their 
cases--even if represented; and [3] last, but definitely least, to act 
as trustee for the Social Security Trust and General Tax Funds. The 
last two duties require a judge to, in essence, ``represent'' opposing 
sides.
    I am elated at hearing that Congress will take a close look at the 
Social Security disability program management, and pray that the less 
than inspired changes implement-ed and in the works by its 
administrators, will be reviewed closely, but also broadly, so as to 
encompass the larger goals of the disability program. I fear the 
administrators of the program have lost sight of the forest, having 
allowed it to be blocked by the minutia of the trees. I find it 
difficult to maintain faith in those the President has appointed to 
administer the Social Security Administration, particularly as pertains 
to due process disability hearings. They appear hell-bent on applying 
bureaucratic remedies to judicial problems, when the true impediment to 
due process and expeditious case movement is the latter. While having 
short term, and all too often short sighted, immediate effect, the 
bureaucratic remedies avoid dealing with the true problems of the 
disability program, and amount to being penny-wise and pound-foolish.
    A big part of the complexity and time involved in disposing 
disability claims is the product of the Agency having succumbed to 
obfuscation in the definition of disability, as well as having ceded 
control of the process to the representative community. These 
representatives are generally paid on a contingent basis, with a 
success rate well in excess of 50%, not because reconsidered decisions 
are wrong, but due to factors addressed below. They are allowed a top 
fee of $5,300.00, and, more often than not, work in a fast food 
restaurant fashion--i.e., high volume, doing a sloppy job and simply 
depending on the above noted success percentage, to collect $10,000 to 
$15,000 each month, doing little more than holding enough claimants' 
hands in a high number of hearings, and soliciting a few documents, as 
will be further addressed below.
    An article, which appeared in the New York Times [Laid-off Workers 
Swelling Cost of Disability Pay, September 2, 2002] deals in general 
terms with a problem that could grow to the point of severely depleting 
the Social Security Trust and the General Tax funds. This is not just 
the product of baby-boomers coming of age, and the past Commissioner's 
loosening of the standards for mental disability. The general attitude 
that has developed is one by which this tribunal is not viewed 
seriously, and misrepresenta-tion within these proceedings is regarded 
as the proverbial ``white lie.'' This was virtually admitted by one 
representative, who took offense when I pointed out the inconsistency 
in his client claiming to have been ``ready, willing and able'' to work 
for purposes of collecting Unemployment Insurance Benefits, while 
claiming the opposite for the same period of time for purposes of SSA 
disability. This representative actually argued that disingenuousness, 
if needed to collect benefits, should not be viewed unfavorably in 
assessing the claimant's credibility.
    The courts and the SSA Appeals Council have created and applied 
case law in a manner such as to have, effectively, shifted the burden 
of proof in contested disability cases to the Administration. This is 
primarily accomplished by having declared the opinions of treating 
physicians as controlling, unless the longitudinal record clearly 
overcomes those opinions [20 CFR  404.1527 (d)(2), 416.927(d)(2)]. In 
a tribunal, in which around 75% of the claimants are represented, and 
the Agency not represented, this permits easy solicitation of favorable 
reports from treating physicians, who are already naturally in sympathy 
with their patients. There are no countervailing forces in play, nor 
any incentives for these treating physicians not to succumb to their 
patients' entreaties for a favorable report. These reports are not 
sworn under the pains and penalties of perjury, as is generally done in 
Workers' Compensation tribunals. The treating physician is never 
subjected to cross-examination, let alone prosecution for 
misrepresentation. When the end ``goal'' of transferring wealth is 
thrown into the mix, such as to salve any guilt the treating physicians 
may have about exaggerating their patients' limitations, the flood 
gates are wide open to abuse. Thus an Administrative Law Judge [ALJ] is 
boxed into a corner, and forced to grant benefits, even when knowing 
the individual is not truly disabled. A very typical 40-year-old spine, 
with a sympathetic treating physician, can easily result in 
qualification for benefits, despite a claimant being fully capable of 
some type of work. The United States Supreme Court is to be applauded 
for not permitting the expansion of this foolish notion beyond the 
realm of Social Security hearings, and it should be reversed here [see: 
Black & Decker Disability Plan v. Nord, 538 US ___(2003), No. 02-469. 
Argued April 28, 2003--Decided May 27, 2003]. SSA should re-think the 
wisdom of this invitation to misrepresentation.
    Administrative Law Judges dedicated to a diligent search for the 
truth, who take seriously the third duty noted above [i.e., to act as 
trustee for the SSA and General Tax Funds], are put into the awkward 
position of having to act as a contestant rather than a neutral in 
order to be true to the so-called ``third hat.'' The alternative is to 
simply pay cases inappropriately, the road all too many are bludgeoned 
into by the Administration's constant push for numbers. As noted above, 
the solicitation of these highly suspect treating physician opinions is 
often the only thing a representative does, but it is suffici-ent to, 
effectively if not formally, transfer the burden of proof to the 
Commissioner.
    The abuses of the disability system via the mental impairment route 
are even worse. Limitations imposed by amorphous diagnoses such as 
depressive disorders, anxiety, personality disorders and a plethora of 
other such impairments, leave the system literally at the mercy of a 
sympathetic treating professional, who is solicited by a representative 
to supply an opinion.
    As I once suggested in a letter to the Commissioner, the law and 
regulations are the engine, which drives this agency, and must be 
reviewed and revised to respond to the factors making disability almost 
a presumed fact by the mere act of applying, with the Commissioner, 
through an ALJ ill equipped to investigate matters, then having to 
prove its absence. The law must be refurbished to return the burden of 
proof to the claimant, and to hold those claimants with representatives 
to a higher standard of duty to produce truly probative evidence. As I 
stated in that letter to the Commissioner, which went unacknowledged, 
the actions to which she spoke for most of her testimony, are akin to 
working on only the transmission of a car with a leaky head gasket and 
sludge throughout the engine, and expecting it to perform well, and go 
faster. The engine cannot be ignored.
    Honorable Committee Members, we are in a position much akin to that 
in the labor relations sphere decades ago. There Congress responded to 
the imbalance of power be-tween employers and organized workers by 
passage of the Wagner Act in 1935, favoring only the rights of workers. 
By 1947 it was recognized that labor had come into its own, and that 
the balance of power had actually shifted in its direction. Thus, we 
saw passage of the Taft-Hartley Act, to even the playing field. Rest 
assured, claimants have come of age, and are very powerful. It's time 
to level the playing field for those who fund the programs.
    As noted above, around 75% of the claimants in Social Security 
disability cases are represented, and this in a tribunal with no 
opposition. To say that the taxpayers are at a distinct disadvantage 
puts it mildly. The regulations that are presently in place to control 
the practice of these representatives do not require them to submit 
evidence, which would tend to disprove disability. Thus, if a 
representative comes into possession of informa-tion disproving 
disability, there is no requirement to present it. How one-sided can a 
program be?
    We are charged to give the claimant every benefit of doubt. 
Superimpose the treating physician rules and the one-sided rules 
mentioned above upon this duty, and you can see how many people capable 
of working slip through the system. Social Security Disability is 
quickly becoming the ``wink and nod'' with which President Clinton 
signed welfare reform.
    A few ideas for changes run along the following lines:

          <bullet>  Tighten up the definition of disability, keying in 
        on case law which has blurred that definition, and return the 
        burden of proof to the claimant. I would suggest a ``blue 
        ribbon'' committee of legal and medical experts, members of the 
        disability and workers' compensation insurance industry, active 
        and/or retired ALJs, personal injury lawyers from both sides, 
        and representatives who practice in this tribunal regularly. 
        The charge should be to clarify the definition of disability, 
        such as to more closely reflect that in the collective mind of 
        those who work to fund these programs. Somehow a person with a 
        typical 40-year old spine, who simply doesn't want to work for 
        a lower wage than obtained in a previous vocation, as may be 
        dictated by his condition, is not that which the average 
        taxpayer envisages when picturing a disabled person.
          <bullet>  Eliminate Childhood Disability benefits [see: Costs 
        Soar for Children's Disability Program; How 26 Words Cost the 
        Taxpayers Billions in New Entitlement Payments, Washington 
        Post, February 4, 1994]. Children are not generally sources of 
        income in a household. The bottom line purpose of these 
        benefits is to replace income that would, but for a disability, 
        be coming into the household. There is simply no basis other 
        than transfer of wealth for children's bene-fits. To make this 
        change more politically palatable, I have suggested, through 
        the Associate Commissioner, that we eliminate all cash 
        payments, but provide Medicare coverage to all children below 
        the poverty line, without regard to disability. This would 
        eliminate that which has become a complicated and costly 
        disability analysis, and clear up a plethora of frivolous cases 
        engendered by the desire of parents to simply get another check 
        in the mail. Since the vast majority of children found disabled 
        are found so for learning disabilities and attention deficit 
        hyperactive disorder, the amount expended by this trade-off 
        would go down, as most of the services needed for these 
        impairments are already provided gratis by the school 
        districts. This would represent a direct response to a specific 
        need, rather than simply throwing more money into the 
        household, with no logical nexus between it and the need.
          <bullet>  After five years living in those portions of United 
        States of America in which English is the commonly used 
        language, the inability to speak English should no longer be 
        considered a vocational detriment in the disability assessment.
          <bullet>  In the true sense of the SSA being part of the 
        Village rearing the nation's children, psychiatric reports by 
        which a primary caretaker of children is described as incapable 
        of main-taining sufficient concentration, persistence and pace 
        to perform even the simplest routine task, should be reported 
        immediately to the local child protective service agency for 
        investigation.
          <bullet>  20 CFR  404.1527(d)(2) and 416.927(d)(2) should 
        be rescinded

    In a more esoteric sense, changes in the hearing process should be 
along the following lines:

          <bullet>  The hearing process should be adversarial, similar 
        to that in the Workers' Compensation system. Since there are no 
        insurers to provide representation, a former President of the 
        Hearing Office Chief Judges Association has suggested the 
        Bankruptcy Court as a model, with an equivalent to the United 
        States Trustee being assigned the role of representing the 
        Commissioner's position. This office could be staffed by 
        eliminating the present Appeals Council, allowing the ALJs to 
        truly act as trial level fact finders without being second-
        guessed, and using the personnel from the Appeals Council to 
        represent the Commissioner. Another alternative, which would 
        more sensibly follow the President's mandate for use of private 
        contractors than the present delegation of clerical tasks 
        [which has not helped us move cases], would be to replace the 
        State Disability Determination Services [DDSs] with private 
        insurers, and then have them provide investigative work and 
        representation at the hearings.

    An adversarial hearing process would likely resolve another source 
of consternation, specifically, the inconsistency of hearing results 
from hearing office to hearing office, and from region to region. 
Specifically, judges who do not take the third hat seriously are now 
able to stay under the proverbial radar screen by simply finding 
favorably, with the knowledge that only 7% of such decisions are ever 
reviewed, while a much higher percentage of unfavorable decisions are 
reviewed. Placing both favorable and unfavorable decisions on the same 
footing would, I believe, infuse much more consistency in the decision 
making process. All decisions should stand the same probability of 
being reviewed.

          <bullet>  Once retained the claimant's representative should 
        be primarily responsible for developing the record from the 
        claimant's side, and the Commissioner's representative from 
        that side. There should be strict rules for the timing of such 
        development, and the availability of sanctions for poor 
        performance by those representatives.
          <bullet>  Strict rules of professional and judicial conduct 
        should be implemented, along with rules for practice and 
        procedure. It should be noted that such rules, as manifested in 
        the Model Rules for both Professional and Judicial conduct, do 
        have provisions for expeditious case movement, and would give 
        the Administration a tool it presently lacks to encourage such. 
        [e.g., see: Model Code of Judicial Conduct, Canon 3 (B) (8)].
          <bullet>  The method of payment of representatives should 
        also be revamped. The contingent fee method encourages 
        representatives to drag out the proceedings as long as 
        possible, so as to grow the back payments from which their fee 
        is paid and calculated. A better method would be to pay 
        representatives of both winning and losing cases, but at an 
        hourly rate in line with the Federal Assigned counsel program, 
        used in the Federal Article III courts. Indeed, I would take 
        that suggestion a step further, by having fee payment 
        administrated out of that program, rather than duplicating such 
        administration at the agency level. In addition to discouraging 
        procrastination, this would lower the incentive to engage in 
        misrepresentation. ALJs should be allowed to assign counsel 
        from a panel maintained by the Assigned Counsel program.
          <bullet>  Eliminate the third step in the sequential 
        analysis, by which disability determina-tions are made. The 
        statutory definition of disability ties an impairment directly 
        to the limita-tions it imposes upon the ability to work; it is 
        a functional definition [see: Social Security Act  216(i), 
        223, 1614(a)(3)(A)]. The third step in the sequential analysis 
        requires the judge to review the medical signs and symptoms, to 
        see if they match a list of such signs and symptoms associated 
        with specific maladies. The notion is that the presence of 
        specific signs and symptoms will lead to a presumption that 
        limitations precluding work exist. The problem is that medicine 
        moves more quickly than law, and products ameliorating the 
        limitations imposed by specific signs and symptoms are 
        discovered daily. The presumptions simply do not hold up to 
        medical progress. Furthermore, some of the signs and symptoms 
        leading to the presumption of disability do not truly do so. I 
        had at least one incident of an individual meeting a listing, 
        whose treating physician opined as capable of working. I've had 
        more than one vocational expert advise that the mental 
        retardation listing is overly broad, and qualifies individuals 
        capable of placement. Suffice it to say, the Listings impose a 
        complicated analysis, often requiring the testimony of medical 
        experts, and often provide that, to which I refer as a ``black 
        hole of obfuscation,'' into which representatives throw the 
        truth.

    Some of these ideas are along the lines of those proposed by the 
Social Security Advisory Board in its January 2001 publication, 
Charting the Future of Social Security's Disability Programs: The Need 
for Fundamental Change. Indeed, one of my greatest disappointments is 
the new Commissioner's tendency to engage in the diminution of due 
process, concentrating her efforts on the minutia of the ways in which 
files are handed off, despite her background with the Social Security 
Advisory Board. While honing down due process may give the illusion of 
streamlining the system, eventually it will have to be achieved, and 
having that take place at the level of Article III courts will 
certainly be much more costly and cumbersome in the long run. Putting 
off real due process, until a matter reaches a court of general 
jurisdiction and no specialized expertise, will be a disservice to the 
claimants and the taxpayers. Yet this seems the underlying theme to the 
constant bureaucratization of the Office of Hearings and Appeals.
    The concentration of effort on the movement of cases, coupled with 
ignoring the substantive changes that need to be made to prevent abuse 
of the program, leads to many, many inappropriately paid cases. These 
have been estimated at a cost of $200,000.00 to $250,000.00 each. With 
over 1,000 judges, each pushed to dispose of about 50 cases per month, 
and ill equipped to get to the truth, you can see where inappropriately 
paid cases could mount up pretty quickly. Paraphrasing, I think it was 
Sen. Everett Dirkson, $200K here and $250K there--pretty soon you're 
talking real money. The Administration seems to have lost sight of a 
notion once addressed by Woodrow Wilson, who said:
                   We need laymen who understand the
             necessity for law and the right uses of it too
             well to be unduly impatient of its restraints.
    The present Associate Commissioner in charge of the Office of 
Hearings and Appeals has set a disposition goal for each judge to issue 
2.72 decisions per day. When taking into account time off for annual 
leave, which is not considered in applying the above referenced 
``goal'', that actually calculates to a judge spending a total of 2 
hours and 39 minutes on each case. This is to accomplish the following:

          <bullet>  Development review, to see what additional evidence 
        may be needed;
          <bullet>  Thorough pre-hearing review of medical records, 
        generally averaging the size of a phone book for a city of over 
        100,000 population [this usually takes me about 2.5 hours 
        alone];
          <bullet>  Conducting the hearing [generally about an hour];
          <bullet>  Reviewing new submissions of evidence;
          <bullet>  Deliberating the decisions and drafting 
        instructions for the decision writers;
          <bullet>  Editing the draft of the final decision.

    I think it a sad anomaly that that which Congress sought, in first 
outlining the need for ALJs and what it hoped to achieve through them, 
has gotten lost in the flurry to bureaucratize this quasi-judicial 
body. Congress, and the Agency in its earlier stages, saw the value to 
seeking judges, whose experience was primarily attained in the day-to-
day grind of arguing cases. The emphasis in terms of qualification for 
the position was placed on the development of an innate sense for the 
truth, developed through practice experience. It was understood that 
any lawyer could become familiar with specific statutes and 
regulations, but only those with a keen sense of fact-finding, honed by 
trial experience, could be entrusted with the practical application of 
the ``three hats'', spoken to above. The appropriateness of that 
priority has recently been re-affirmed in Meeker and James (OPM) v. 
Merit Systems Protection Board and Azdell, decided February 20, 2003 by 
the U.S. Court of Appeals for the Federal Circuit. Indeed, the failure 
of a previously implemented ``Senior Attorney'' program, in which less 
than judges were actually given decision-making authority, underlines 
the importance of the experience of judges in this process. Having 
served as a Quality Assurance Review judge during the ending of this 
program, I had the opportunity to have reviewed many such decisions, 
and, as a taxpayer, felt literally raped at the ease with which cases 
were paid. This was the product of more than one factor, but primarily 
two: (1) the administrations adoption of a ``could pay'' rather than 
``should pay'' basis, meaning that, despite a claimant's actual 
ability, if you can get the right blocks on your ticket punched 
[primarily by way of a solicited accommodation from the treating 
physician, with all the problems therewith noted above]; and (2) the 
fact that the Senior Attorneys making these decisions were only given 
production credit for cases paid. The philosophical change in the first 
of these two factors haunts us to this day, and must be addressed in 
the statutory and regulatory study I suggested above.
    This was a mistake, which is rumored to now be reconsidered. I hope 
it isn't, but, if indeed, the Administration wants to cede decision 
making powers to senior attorneys again, the more sensible way would be 
to limit such to overpayment and Medicare cases. These are cases 
dealing with finite amounts of money (disability payments often go on 
until the recipient dies), and, more importantly, are much less 
dependent on credibility determinations, which require the very 
experience and concomitant innate sense spoken to above. This would 
allow judges to give disability cases the time, analyses and 
deliberation they deserve.
    The Administration's constant emphasis on pumping out more and more 
cases, undermines the goals sought to be achieved via having 
experienced fact-finders applying the time and analyses necessary to 
arrive at just decisions. Its emphasis on the assembly line while 
ignoring the end product, has and will continue to lead to far more 
havoc than would the reverse. Undermining judges' ability to properly 
hear and decide via unrealist-ic quantitative goals, leads to more and 
more inappropriately paid cases, which, in turn, attracts the filing of 
more and more specious claims, as the probability of winning increases 
with every short cut imposed upon judges. This vicious cycle makes 
achievement of the goal of expeditious case handling an impossible 
dream, while costing the taxpayers more and more in the way of 
inappropriately paid cases.
    Your anticipated kind consideration of the points herein is 
appreciated.
            Very truly yours,
                                                Peter J. Martinelli
                                      U.S. Administrative Law Judge
                                               Hearing Office Chief

                                 <F-dash>

            Statement of Connie M. Osbon, Beaverton, Oregon
    Mr. Chairman:
    Thank you for opening these hearings re: SSA's negligence in 
processing, approving and denying valid claims for disability. This is 
a topic which is long overdue for investigation and which has been the 
bane of many individuals including myself seeking disability.
    Firstly, I am a disabled citizen now age 59. I attained disabled 
status effective 12/31/99 which was backdated to August 1997. I 
originally applied in September 1983 due to the same medical problems 
then which were only more exascerbated in 1997. Granted my doctors in 
1983 had not sufficiently investigated and diagnosed my chronic poor 
health conditions, but the basis was there.
    As a support group coordinator since 1997 and active participant in 
3 other support groups, I have been party to hearing many other 
individual difficulties in attaining disability status some bordering 
on the absurd given the medical documentation provided.
    It is my understanding that 25-33% of initial applications are 
approved, thus 75-66% of applicants are denied on the first round.
    In the State of Oregon, the Department of Vocational Rehabilitation 
Services in Salem is the contract agency with SSA to handle initial 
claims processing. Additionally, you need to know this same state 
agency as well as the SSA was sued in a class action suit in l994 over 
unjustified and blatant denial of valid claims by Oregon Legal 
Services, et al where
    VHS consistently denied the initial claims, for which later, 70% of 
those claims were approved at the administrative law judicial hearing. 
The SSA was dismissed from the suit on the grounds that the state 
contract agency was not following the policies, procedures and medical 
guidelines of the SSA. From news reports, VHS was to be under continued 
judicial scrutiny and the SSA Seattle Regional Office for 3 years upon 
the determination of the lawsuit in 2000.
    My complaint consists of these points:

           1.  Unreasonable delays in initiating claim, too many 
        caseworkers on claim, not responding to followup calls by 
        claimant--my claim went unopened for 3 weeks, and through 3 
        caseworkers. I received no help when I could have used it due 
        to handwriting, organizational dysfunction and the need for a 
        time extension for medical reasons. I later heard from others 
        that help from the office was offered to them. I had to drop 
        the 2nd initial application due to serious health problems 
        which did not allow me time and energy to deal with the 
        disability application. That cost me time and benefit dollars 
        ultimately.
           2.  Unreasonable demand for return information/forms to SSA 
        contract office within 10 days, difficult even for doctor 
        reports including the office visit, yet alone the disabled. 
        Most applicants do not know they can ask for an extension.
           3.  Stressful process for sick applicants--I am a mentally 
        strong person, but when I was seriously physically injured, 
        including swollen rigid hands and chronic pain, there was no 
        way I could work on the numerous page packets sent to me on a 
        continuous basis and have legible handwriting. I did word 
        process some pages on my computer but all took more time than I 
        was given, before the time extension. The application is also 
        rigged with trick questions meant to contradict the applicant's 
        condition, all to deny the claim, and sufficient to discourage 
        the application and appeal process.
           4.  VHS employees give out incorrect information regarding 
        the support documentation: I was told to get all my doctor's 
        reports and tests results to submit with my application. That 
        was too time consuming, and a repetitive task which the agency 
        ignored my documents and ordered them from the providers 
        anyway. Since I was incurring ongoing testing in the 
        application process, it meant that I couldn't provide complete 
        support documents also. This is why I did not complete the May 
        1997 filing process. I then had to refile in Jan/Feb. 1998.
          4a.  SSA employees questioning applicant re: unnecessary and 
        privileged information of other outside income as a possible 
        justification for denials and continued delays. I personally do 
        not think the agency needs to know about your other outside 
        nonearned income. The benefits are based on your working 
        quarters. That is none of their business.
           5.  Administrative directive to agency caseworkers to deny 
        the claim on the first application as routine--again an another 
        attempt to discourage and reduce applicants' claims. Many 
        applicants, exhausted by the initial process, simply give up at 
        this stage. I was denied the same day of a prescheduled 
        angiogram, which the caseworker was aware of. I felt she could 
        have waited 10 days more for that report, which in my case 
        showed worsening heart valve function and the necessity for 
        valve replacement surgery in the next 12-36 months. Given the 
        seriousness of this diagnosis and how it affected my life 
        function, there was no reason to deny me and cause an appeal. I 
        did handle my own appeal fortunately, because I had the mental 
        strength and acumen to do so. I simply harped on the agency's 
        failure to consider the debilitating conditions I incurred on 7 
        criteria (as best as I recall.)
           6.  Failure to approve the disability in a timely manner in 
        the face of numerous serious medical conditions and pending 
        surgeries validating the claim when accompanied with doctor's 
        reports, tests, and photo support of applicant. My medical 
        conditions were Scleroderman & Lupus, 2 potentially fatal 
        autoimmune diseases which had been lifelong, Severe Aortic 
        Valve Stenosis, Severe Osteoporosis, unconfirmed Pulmonary 
        Hypertension (later confirmed as COPD), severe injury to my 
        right hip and leg limiting walking for my past job/occupation 
        in Education, a mini stroke with paralysis, chronic infections 
        of sinuses, bronchitis and pneumonia requiring constant 
        antibiotic use, chronic swollen glands (from 1994), 
        degenerative right hip socket, gall bladder attacks and the 
        need for removal surgery asap, GERD, severe muscle spasms in 
        the back and legs, Restless Leg Syndrome, Fibromyaglia--severe, 
        and TMJ (affecting talking and speaking to classes). This was 
        even more pertinent on the appeal than for the initial 
        application, because my claim went to the Seattle Regional 
        office on a random audit selection, and then to the Baltimore 
        office for an unknown reason. VHS did not notify me of this in 
        anyway, but which took more time. Additionally, it was the 
        Baltimore office contract doctor who apparently knew more of my 
        diseases and heart condition that 5 other contract doctors 
        because he was the one who approved my claim. That led me to 
        believe other doctors under contract were not fully 
        knowledgeable of the conditions I listed.
           7.  Ordering unnecessary diagnostic tests and failure to 
        accept ongoing primary care physician's, specialists' 
        diagnoses, reports, and tests, ignoring SSA/SSD regulations: 
        thereby increasing the costs to taxpayers and increasing the 
        inefficiency of the agency. I even stated that to the 
        caseworker emphatically when one of them wanted me to go to 
        another SSD paid doctor. I reminded the case--worker that that 
        need was contradictory to SSA provisions and I did not need to 
        do that. I did go to the psychiatric review, even though I had 
        been seeing a Master of Counseling regularly and felt those 
        records should suffice to substantiate the angst I was going 
        through.
           8.  Agency caseworkers second guessing doctors' diagnoses 
        without medical training and making case judgments without 
        doctor oversight: the Osteoporosis diagnosis of 5/98 stated 
        ``Moderately Severe'' that following three falls to the right 
        hip in Oct. 96 and Jan. 97 on the job and which affected my 
        ability to sit, stand or walk per my job requirements. The dx 
        of ``Severe Aortic Stenosis'' backed by echocardigrams (2) and 
        a pending angiogramsufficiently indicated worsening conditions 
        with each test. The Aortic function from 65% eventually to 59% 
        5 months before surgery, validated my decline, high fatigue, 
        low energy and stamina. I finally asked, ``How many conditions 
        did a claimant have to have to be considered disabled?'' 
        because this was absurd. The caseworker stated the heart 
        surgery was too far off, that I could work in the meantime. 
        Course the fact that I was barely meeting my basic needs did 
        not matter. The valve condition was also considered congenital 
        but was consistent with Lupus SLE. I think this baseless 
        dialogue with the caseworker proves my feeling the agencies 
        (both of them) are not interested in the claimants welfare and 
        health.
           9.  Hiring and paying outside doctors to minimize, and 
        refute patients' documentation of a valid claim and to 
        ``rubberstamp'' nondisability status with the goal of claim 
        denial: The psychiatrist stated in his report that I suffered 
        from ``undifferentiated somatoform disorder''--a common label 
        for supposedly nonphysical basis of medical conditions. This 
        demeans and undermines the patient's medical status, 
        jeopardizing his/her health and mental stress. I would not be 
        surprised if suicide increases with this abuse of professional 
        ethics. I would have taken my reports with me had I known this 
        DOCTOR was going to report bogus statements. Additionally, the 
        5 doctors who reviewed my file prior to the 6th Dr. in 
        Baltimore also appeared to be inept in lieu of financial 
        rewards.
          10.  A 5 or 6 month offset in benefits once approved, thus 
        aggravating declining the financial status of the claimant, 
        creating proverty in itself and with the prior delays: Since 
        most claims take up to 2 yrs to effect, most claimants don't 
        have financial resources to survive especially when they do not 
        receive work-men's compensation as with my case. I lived on 
        $375. for one year, then $875for the next year with monthly 
        expenses of $1150. It should be no surprise I had to resort to 
        local food banks and assistance agencies for utility payments 
        while many of my other homeowner expenses were unpaid. Since 
        1984 I had only worked partime to accommodate my marginal 
        health status.
          11.  Claimants having to resort to legal representation to 
        force benefit approval thus reducing their benefits. I was able 
        to save that expense, but it has been mentioned to me many 
        times that as soon as an attorney is brought into the case, the 
        claim is approved, thus perhaps, suggesting the position and 
        power of an attorney is understood beyond the doctors' reports, 
        etc.
          12.  SSA, its contracting agencies and AlJ's ignoring SSA 
        recent regulations recognizing Chronic Fatigue Immune 
        Deficiency Syndrome as a legitimate, debilitating condition, 
        but deny claimants continually. Fibromyaglia is not even in the 
        SSA jargon, despite the fact that many autoimmune disorders are 
        now known to have FMS as an accompanying condition, compounding 
        multiple muscle pain and immobility much like Multiple 
        Sclerosis. One CFIDS Portland patient has one of the leading US 
        doctors for her claim and she has been denied two times. Scott 
        Davis, an Arizona attorney handling her appeals (onto 2nd one), 
        who specializes in CFIDS/FMS cannot believe the Oregon SSA/AJL 
        mindset in the continual denials.
          13.  Failure to backdate my claim to 1983/84 when I was 
        reduced to partime work basis for the remainder of my career. 
        My benefits thus in 1997 reflected lower earnings in addition 
        to being a woman getting unequal pay in our society. Granted 
        the doctors at that time failed to investigate my chronic 
        unhealthiness, but one wrote on my chart notes that he 
        suspected Non Hodkins Lymphoma which I submitted in 1997. The 
        result meant I struggled to keep on top of life with being a 
        wife, mother, divorced mother. It certainly would have been 
        less stressful to have gotten the '83 approval for the same 
        conditions as in '97. I did not remember my '83 application 
        until recently and probably too late to do anything about it.
          14.  Presumption of most all claimants filing fraudulent 
        claims: Here is a case of the majority of disabled paying for 
        the crimes of the minority. And just because a person may have 
        2-3 good days a week does not mean he/she can tolerate working 
        conditions or hours.

    Conclusion: SSA is an agency intended to effect disability benefits 
for Americans who have already paid for those benefits through payroll 
deductions over the life of their working career . This is not a 
consistent image with the majority of applicantsapplying for SSD. The 
process is equivalent to another job for the disabled, one that 
eliminates many persons alone due to their health status and which I 
incurred both of the 2 of 3 times. And lastly, the agency publicly 
announces that most Americans on disability are on it for a psychiatric 
disorder: depression. When in fact, that is an outcome of the process 
and the disability itself.
    Thank you for this opportunity to submit my experiences to your 
committee. I hope that I have helped in someway to effect necessary 
changes for future applicants.

                                 <F-dash>

              Statement of Kelleen Palmer, Massillon, Ohio
    I was made aware of an investigation into the improper handling of 
Social Security Disability Claims and inappropriate delays of same. I 
am in Ohio and began the long disability process in September of 2001. 
First I would like to state that people with disabilities require 
special assistance and this fact does not seem to be addressed in the 
entire disability process. The amount of paperwork and the short time 
in which they require that paperwork to be submitted is extremely 
difficult due to our disabilities. I have Fibromyalgia and the chronic 
pain and brain ``fog'' that goes along with it, as well as TMJ, and a 
sleep disorder and obsessive-compulsive disorder. If I could comply 
with all that Social Security asked in a successful manner, I could re-
engage myself in being an independent, contributing human being. Here 
are the details of my Social Security fiasco:

    I filled out the paperwork for my original claim as well as getting 
the necessary doctor statements and records. I sent this to social 
security. I was then denied. I resubmitted my claim, and, again 
gathered all my doctor statements and supporting records and sent them 
to Social Security. While waiting for this decision, my father, who 
resides in Florida, collapsed and was diagnosed with a strep infection 
in the mitral valve of his heart. It was therefore, necessary for me to 
go to Florida for the valve replacement surgery he underwent. Following 
the surgery he had complications and I stayed for two months to get him 
back on his feet. In the meantime, I had someone from Ohio forwarding 
my mail to Florida. I tried to contact the Social Security offices and 
when I called the Canton office they referred me to an 800# and I tried 
several times to get through on that number and was on hold for over 20 
minutes on several different occasions. This may be a minor 
inconvenience to some, however, because of the condition of my muscles, 
I cannot hold the phone (or anything else, for that matter) in one 
position for an extended amount of time. So I never got through to a 
real person. I received a letter towards the end of December notifying 
me that I had until December 17th to file for a hearing. I didn't even 
receive the letter until after the deadline. I sent a letter to the 
same person who had sent me the letter notifying them of the 
extenuating circumstances and asking for a hearing. Upon my return home 
(at the end of January) there was a letter from SS stating that they 
were unable to process my request because I failed to put my social 
security number on my letter. So I sent another letter with my social 
security number requesting a hearing. A month later I had not heard 
anything. I contacted the individual in the Canton office who had sent 
the letters to me and was told that they had no record of me ever 
sending a letter! I was then told that I would have to start my request 
from the beginning. I went to a disability attorney to get some help 
and was told that they don't typically handle fibromyalgia cases but 
that mine had enough additional issues that they felt it was a case 
they could win. However, it was to my detriment that in traveling from 
Florida I misplaced the letter from SS and the letter I sent in 
response. So the disability attorneys said I would have to start the 
whole process over again.
    Stress is such a contributing factor to many people with 
disabilities and though I understand that the government has to protect 
themselves from fraudulent claims, it is not necessary to treat people 
the way Social Security treats their ``clients''. I am one of the lucky 
individuals who have a private disability to fall back on. I truly feel 
for those who don't. There are huge holes in the government disability 
system and I am glad to see someone investigating this. On a positive 
note, I have had the pleasure of working with the Ohio Bureau of 
Vocational Rehabilitation and was very impressed with the manner in 
which they treated us as respectable individuals and actually offered 
themselves as a service to those in need. Isn't this the purpose of the 
Social Security disability system also? Perhaps upper management in the 
social security sector could sit down with upper management from the 
Ohio Bureau of Vocational Rehabilitation and do a ``best practices'' 
overview.
    For your information, just providing the information in this email 
has left my fingers and arms numb and past experience tells me that 
they will stay this way for a couple days. This is why I need the 
social security assistance. But I have put myself through the work 
because I feel it is important for government to be made aware of what 
the ``people'' are going through.
    Thank you for your time.

                                 <F-dash>

               Statement of Beckie Parker, Olathe, Kansas
    Dear Mr. Chairman,
    At the request of the Social Security Disability Coalition, a 
grassroots organization representing disabled individuals attempting to 
navigate the SSDI process, I would like to request that you add my 
statement below to the record for the House Ways and Means Committee 
Hearing scheduled for Thursday, September 25, 2003. As a grassroots 
organization we feel that is it important for our representatives to 
fully understand the human toll that the SSDI process is taking on 
previously hardworking American citizens. This system has been deemed 
in ``crisis'' by the General Accounting Office and its time our 
representatives received a first hand look at the causalities.
    My story begins in May of 2001 I had what Drs. believed was a 
stroke at that time. Now two years later they say it was not a stroke 
they do not know what it is. It has effected my speech to the point I 
no longer can work at my previous job, which was a customer service 
Repetitive for a cell phone company. I have very bad fatigue. I can not 
work constant at any thing. I have sent every thing to social security 
and I have appealed again and been turned down. The social security 
physcologist stated in his report that he felt I would not be able to 
work in the public any more and that there is a problem with my brain 
processing information and bringing it up again.
    This is a great dilemma for me since I can not understand their 
thinking. When I sent in the first papers my diagnosis was CVA. I did 
not falsify any papers and I am still with the aphsia and the tremors. 
The Drs. do not know what is wrong with me I have had a lot of tests. 
It leaves me with no way to work and Money is very tight. I worked and 
paid into Social Security but when I need it very badly it is not there 
for me.
    I think the ways and means needs to check in to the process that 
social security puts us through to get what we paid in for years. When 
illness strikes the last thing we need is the ridiculous and cruel 
process we are being subjected to.
    Thank you very much for hearing my side of the story.

                                 <F-dash>

                                        Jacksonville, Florida 32246
                                                 September 17, 2003
Chairman Shaw
Committee on Ways and Means
1102 LHOB
Washington, DC 20515
    Congressman Shaw,
    I am a 50 year old GS12 Government Employee from Jacksonville FL. I 
have been in contact with Mr. Lee Smith of Cong. Crenshaw's staff on 
this matter. My wife is an RN but is also a highly trained Certified 
Emergency Nurse. My family is a victim of this horrible Social Security 
Administration--Office of Hearings and Appeals delay waiting game. Even 
our lawyer says this is one big delay tactic to force good taxpayers to 
return to the workforce. I asked Congressman Crenshaw for help to get 
the Jacksonville docket reduced. I got a letter back that it was SSA's 
policy that I had to be having financial problems to the level of my 
home mortgage foreclosed to get a hearing priority upgrade. These 
bureaucrats have it all wrong, it is not their money, social security 
disability is an individual entitlement that a worker EARNS over their 
working life by payroll deduction contributions.
    The SSA-OHA program has become is a nightmare of application, send 
all medical records, waiting, denial one, more waiting, send updated 
records, denial two, appeal for judicial hearing, more waiting and then 
with a good lawyer the disabled persons gets a hearing and if lucky 
gets the benefits they earned and deserved in the first place.
    American taxpayers should not have to hire a lawyer for an agency 
administrative action. I pity the poor and ignorant because they are 
screwed. My co-worker Monteen Tuten died of cancer before she and her 
disabled husband got benefits for her. Bill never got a hearing for the 
lung damage he got from chemical fumes. He now gets survivor benefits 
and Monteen's widower.
    This OHA program, the managers who run it, the employees and 
contractors who administer it are not serving the taxpayer. It is hard 
to say this as a Federal Employee but the taxpayers would be much 
better served by getting rid of every manager and every employee 
involved with the SSA OHA disability evaluation system and 
reprogramming all the salaries, fringes, pensions and office budgets to 
direct payment of the claimants.
    Instead of a money hole bureaucratic OHA agency which relies on 
administrative judges, develop forums for alternate dispute resolution. 
The current system is very much like Contractor claims system where the 
Contracting Officer makes a ruling and then the case goes to an Agency 
Board of Appeals and then to US Court of Federal Court of Claims.
End this nightmare--
          1.  Stop the marriage penalty--these are individual 
        contributions.
          2.  Change the paradigm--Look at the numbers for first time 
        acceptance versus rejection. Change from ``denial and delay'' 
        to ``fair treatment and trust.''
          3.  Cash flow is killing applicants families--Applicants 
        can't apply for unemployment since they are not medically 
        cleared to work. Give benefits while on the waiting list and 
        put burden on Government to prove ability to work in order to 
        remove them.
          4.  Clear the docket backload--if you have no waiting list in 
        Boise, Idaho and long waiting lists in Miami, Florida 
        involuntarily send SSA-OHA folks from Idaho to temporary duty 
        (TDY) in Miami.
          5.  Why use Judges?--We don't need Judges to determine if a 
        person is disabled and deserves to obtain benefits. Expand the 
        pool and create Hearing Officers with a warrant to bind US 
        Government like Contracting Officers. Use in-house and contract 
        Nurses, Physician Assistants, Occupational Hygienists, and 
        Lawyers with Health Specialty experience as hearing officers. 
        Use Military Reservists, VA and Public Health Service as case 
        reviewers hearing officers to supplement SSA-OHA.
          6.  Use ADR in place of SSA-OHA--basically these are 
        disputes, develop a means for Alternate Dispute Resolution. Use 
        the American Arbitration Association to resolve cases in place 
        of OHA.
Background--My Family's Nightmare
    My wife has had declining health and long periods of unemployment 
since 1994. Before 2001 we were able to pay and keep my oldest daughter 
Tina in Florida State University as a full time student. When our 
financial problems started Tina was forced to get a job, lost her 
bright futures scholarship and attended Tallahassee Community College 
for two years evening school. She is back in FSU with a job and due to 
graduate in June only in 6 years instead of 4.
    My second daughter Lisa was not able to leave home for FSU and 
enrolled at UNF in Jacksonville. She works full time and attends \3/4\ 
time in UNF. We've been helping her with books and tuition. In August 
2000 my Mom died and my blind/deaf elderly Dad moved in and Lisa moved 
into an apartment with three other coeds. Lisa lives on a shoestring 
and we help her when she needs help, when we can; a sample was a $1,000 
transmission repair last spring.
    My oldest son Brian has Attention Deficit Disorder/Hyperactivity 
with Oppositional Defiance Disorder. He works with me at Corps of 
Engineers as a stay in school GS-3 and goes to Florida Community 
College Jacksonville. Because of the financial strain, fighting in my 
home and my wife's health we just asked Brian to move out. He is in a 
private dorm next to UNF. We help with his rent.
    My youngest son Daniel is a senior at Bishop Kenny. He is on 
scholarship from our parish. Because we could not afford car insurance 
for Dan and because he wants to help the family he is working 20+ hours 
per week at Chuckie Cheese restaurant.
    I've just taken a second HELOC mortgage and loan from my Thrift 
Savings Plan to help pay college expenses and reduce $26,000 credit 
card debt. My oldest son Brian and I just took second jobs as a weekend 
Pop Warner football referees to slow the rate of my family's debt 
growth.
    I am hoping I can hang on until the hearing and the money doesn't 
run out cause after the 401 K loan there is no more money.
    Although we've had some prior health and financial issues, our 
nightmare with SSA-OHA system started in February 2002 when my wife 
Susan severely injured her back and neck picking up her bag and 
twisting to put it on her hotel bed on a business trip. She tried to 
return to work but the pain grew so severe a few days later she could 
not get out of bed for a week. She has not been medically cleared to 
return to work since that bed rest incident. Once her sick and vacation 
time ran out in March 2001 it cut our gross family income by $40,000 
per year (38% cut). We incurred medical and drug bills that are about 
$10,000. Of course her employer's insurance company fought the claim as 
being off-the-clock time while traveling and that it aggravated a pre-
existing back condition. We did not receive workman's comp because it 
was disputed and she was fired. Since she was not cleared to work she 
was not eligible for unemployment. In Dec 2002 we obtained $10,000 lump 
sum workman's comp settlement that I promptly used to pay off credit 
card debt from medical bills. We also filed for SSA Disability since 
their was no chance for re-employment.
    My wife is 49 year old Nurse who loves nursing. Unfortunately she 
experienced the profession's typical ``Nurse's Back'' of multiple back 
and neck injuries, with resulting nerve damage. In her work life she 
has had three workman's comp events. She has been disabled with three 
ruptured disks in her neck and three more in her lower back since 
February 2002. In addition to the ``nurse's back,'' she has an 
amputated toe, an ankle replacement and is dependent on narcotics 
delivered through a patch and pain pills and anti-inflametories in 
order to function. She has had dizzy spells from elevated blood 
pressure and recently had drug side effects of heart-beat 
abnormalities. She is suffering from depression, had a breast reduction 
to remove stress from the neck, a hysterectomy for ovarian cancer last 
spring, just this month had a staphylococcus infection in the ankle 
with the implant. What Hospital or Doctor in their right mind would 
hire a nurse with this work record, health record and narcotic 
dependence?
    Mean while the idiots at OHA have twice denied her claim and 
telling us none of it matters because when you figure in the GS12 
salary we make too much to get disability payments. Meanwhile the 
hearing waiting list grows.
    Although we've cut back our lifestyle to one of no vacations, only 
needed minor home repairs, no eating out and little leisure recreation, 
cars with 150,000 miles we are doomed to bankruptcy unless my wife 
receives her deserved benefits. As a result of this financial crisis 
we've talked seriously about separation or divorce. At least she would 
be eligible for some assistance if we separated.
    We are not alone as hard working middle class Americans being 
driven into bankruptcy by this horrible system. Since February 2002 (19 
months) we have more money going out than is coming in. Others who are 
not as lucky as me to have a steady job to support my sick wife and 
family are being driven into much more dire straits very quickly.
    She has been using the narcotic patch, pain pills and physical 
therapy massage in order to just function. What hospital is going to 
hire her as a nurse? Sue can't stand nor sit more than 15 minutes, 
can't lift 10 lbs, needs to lie down every 2 hours to relieve back 
pain.
     Because I make $67,000 gross the Free Application for Federal 
Student Aid formula requires a $7,000 annual family contribution in 
order to get student financial aid. Basically I am a middle class 
working stiff caught between the rock and a hard spot, my kids are 
suffering. The SSA disability is my son Daniel's college tuition.
    Congressman Shaw please call for the resignation of every SES, 
Judge, GS15 and GS14 involved with SSA--OHA. Make the changes I've 
recommended. If you can't get rid of the agency at least you should ask 
for a major house cleaning!
            Sincerely,
                                          Bruce and Susan Pastorini

                                 <F-dash>

                                        Middlesboro, Kentucky 40965
                                                 September 26, 2003
The Honorable Earl Ralph Pomeroy, III
Congressman for the District of North Dakota
Washington, D.C. 20515
    Dear Congressman Pomeroy:
    I hope this message reaches you in time to register my input on a 
very important matter. I am an administrative law judge with the Office 
of Hearings and Appeals, although I am writing in my personal capacity 
and not as spokesperson for OHA.
    I was holding hearings myself yesterday, hearings that did not have 
the policy impact your hearing will have, but which nevertheless, were 
monumentous in the lives of five people. They are the claimants in 
appeals to the Office of Hearings and Appeals. I am concerned about the 
job that is being done for them, for several reasons.
    First, assume a forty-hour work week in terms of ``billable 
hours'', i.e., every hour of that work week is attributed to case work. 
Also assume that judges are expected to close forty appeals cases each 
month.\1\ This would leave a judge with about 4.25 hours per case to 
which he/she can allocate his or her time. This break down does not 
take into account the travel time to remote hearing sites where the 
cases are heard, or the complexity of the case, i.e., whether the case 
is a first time appeal, or a third remand. Actual hearing times vary 
with judges. I spend about one hour in face-to-face time with 
claimants. That leaves 3.25 hours to review the case for readiness, 
write directions to remedy deficiencies and review again for hearing 
preparation, and post hearing action; i.e., if everything goes 
``smoothly'', written instructions for the writer, review and or 
editing of the writer's draft, signature of the finished product and 
verification in the computerized data base if a case is favorable to 
the claimant.
---------------------------------------------------------------------------
    \1\ It is my understanding that there is no official policy of 
production quotas. However, the unoffical policy is to publish each 
judge's tally identified by judge, to the support staff every month, 
and to approve transfer requests and reassignments on the basis of 
numbers of cases closed. In a June, 2003 conference, Associate 
Commissioner Thurmond told me and my colleagues that he approves 
transfers on the basis of production, and that judges who don't put out 
the expected number of cases will not be transferred.
---------------------------------------------------------------------------
    Obviously, the expectations above can only be accomplished with a 
well managed, support staff. However, that is not the case in my 
office, nor is it the case in most offices, as my colleagues have 
related. A typical, non remand case sits without any attention for 
about one year after it is received in our office. By the time it is 
assigned to me it is old enough that it requires additional development 
that would not have been necessary with more timely workup. Rather than 
tackling the backlog at both ends, i.e., workup and assign cases on a 
``LIFO'' as well as ``FIFO'' basis, management initiatives have 
instead, focused on clerical screening of certain categories in which 
the judges are expected to wade through unworked, unindexed and 
untabbed files to decide whether a favorable decision should be made 
``on the record''.\2\ If, after such review, the judge decides that the 
case is not a candidate for such a decision, the case is put back into 
the unworked queue to wait with the rest of the files on a FIFO basis, 
regardless of the time spent by the judge. This happens regularly, even 
when I record my impressions and instructions to staff on what is 
necessary to develop the case for hearing. Thus, I have wasted my time, 
that claimant's time, and time of other pending claimants.
---------------------------------------------------------------------------
    \2\ For reasons unexplained, another system exists whereby Senior 
Attorneys in our office are assigned organized, worked--up files to 
review for recommendations to the judges for OTR decisions. This is 
clearly inconsistent with utilization of judges for review of 
unorganized, unworked files not first reviewed by attorneys.
---------------------------------------------------------------------------
    Judges have no real control of their dockets, as the prior 
paragraph suggests. There are specific examples I can cite in which I 
have given specific written instructions on development, scheduling, 
service and necessary witnesses that have been ignored in toto. And, 
despite the good intentions of your colleagues, I have had cases pulled 
out of my docket, cases earmarked for hearing, that have been assigned 
to Senior attorneys for review of possible OTR decisions. Apparently no 
one in management has told congressional staffers that Senior attorneys 
no longer have authority to issue OTR decisions; they can only 
recommend such decisions to the judge. Thus, rather than saving a 
claimant valuable time, this practice only increases the claimant's 
waiting time.
    When I refer to directions and instructions I give in case 
development and disposition, I am talking about written instructions on 
a case narrative sheet. I do not know who will be reading or 
implementing the instructions. My only knowledge is limited to initials 
on notes of the person generated after my input. This is true with 
paralegal and attorney writers, as well as clerical staff. Because 
abilities and motivation vary so much in people, I feel I must write my 
input in terms of the ``lowest common denominator''. Regardless, it 
still doesn't work And, if I try to communicate directly with staff, I 
am often told that the person is at home on ``flexiplace''. 
Congressman, do you know how a support person can provide support when 
he or she is at home two or three days each week?
    Cases are also churned. That is, if a file has been in one status 
too long, some staff simply move the file to another status 
unnecessarily, usually to the judge's ``court''. For example, I and the 
other judges in my office were told that the writing unit 
electronically ``moves'' cases to ``Edit'' (for judges to review), even 
though the decision draft is not completed and the file is still 
physically with the writer. Support staff rarely refer back to the last 
note I made in the file; therefore, if I have a prior instruction for 
action, it is ignored, and the file comes back to me for the same 
instructions I already rendered. For example, I will instruct the staff 
to obtain a medical consultative examination, and to schedule the 
hearing as soon as the consultation report comes back. This never 
happens. Instead, the consultative report comes back, and the file is 
routed to me with the question, ``ready to schedule?''.
    Finally, once I do decide whether a claimant is disabled, I write 
decision instructions for a writer. I cannot choose the writer. 
Decisions that are unfavorable to the claimant, per policy, require 
more attention to analysis, probably for the simple fact that claimants 
are unlikely to appeal favorable decisions. Consequently, favorable 
decisions are much easier and faster to write. Because of the emphasis 
on production over quality, there is a tremendous pressure on ALJs to 
issue decisions favorable to claimants. While this sounds good in the 
short run, and certainly for that particular claimant, it is this sort 
of unintended result that is jeopardizing the financial viability of 
the Social Security program.
    Furthermore, for those of us who have not been ``worn down'' into 
accepting poor work products from writers, the task of extensive 
editing or rewriting falls to us. In my naivete' as a new judge, I went 
to the Hearing Office Chief ALJ to complain about the quality of work I 
was getting on decision drafts. My concerns were written off as merely 
issues of ``style'' (believe me, they were not). Several months later 
the HOCALJ told me, ``this is not Burger King--you can't have it your 
way.''
    I have come almost full circle since that time; however, I am now 
enmeshed in a backlog of cases because I have tried to do others' work 
as well as my own. I have become an expert in word processing and have 
dabbled in computer programming so that I can automate a system whereby 
I can efficiently write my own decisions. This has come at tremendous 
cost to my ``production'' and to my family life (not to mention, the 
tendons in my hands). I work about 60 hours a week. I have bought my 
own lap top computer to use at hearings, because the red tape it takes 
to check out an office laptop is so user-unfriendly.\3\ Those of us who 
do have a better quality of life and who do ``produce'', have also paid 
a cost. One colleague told me that after he reviews a written decision, 
``I hold my nose and sign''. Another told me something he first said 
long ago, ``This agency doesn't fire people for doing shitty work--they 
fire people for not doing enough shitty work.''
---------------------------------------------------------------------------
    \3\ There are four relatively new notebook computers in our office, 
supposedly for the judge's use. However, no one told us when they 
arrived, and to my knowledge, they are kept in a locked cabinet most of 
the time, not having been used even once by half of our judges.
---------------------------------------------------------------------------
    In closing, I note that the Association of Administrative Law 
Judges has an agenda to increase ALJ pay, in addition to improving the 
effectiveness of OHA operations. As much as I applaud these efforts, I 
would care not one whit whether I got paid more for what I do, if the 
working conditions of my office were remedied. Given the tremendous 
base of knowledge and experience in our judges, I am hopeful that our 
input can be assistive to you and your colleagues as you deliberate the 
future of Social Security.
            Sincerely,
                                              Barbara Licha Perkins

                                 <F-dash>

    Statement of The Honorable Thomas E. Petri, a Representative in 
                  Congress from the State of Wisconsin
    Mr. Chairman,
    I would like to commend Chairman Clay Shaw for holding this hearing 
to look into the management problems which have beset the Social 
Security Administration's Office of Hearings and Appeals. Millions of 
Americans rely on Social Security's disability program, and it is the 
responsibility of Congress to ensure that the program is being 
implemented in accordance with our laws as well as with a sense of 
common decency. It is encouraging that this Subcommittee is exercising 
its oversight powers to look beyond the media stories and the 
corresponding official responses. These problems are important, and I 
am confident that we are now on our way to a proper solution.
    The people of my state have twice been roiled by reports of 
problems at the Office of Hearings and Appeals. Early this year, 
Wisconsinites were told of outrageous delays in processing applications 
at the Milwaukee office. Those disclosures were followed by the 
discovery that certain contract employees at the Chicago Office of 
Hearings and Appeals had removed documents from applicants' files and 
thrown these papers away. Needless to say, discarding important 
supporting documentation is a serious breach of trust and by itself 
represents a substantial breakdown of management protocols.
    It is my hope that this hearing will be the beginning of a 
cooperative effort between the Congress and responsible parties at the 
Social Security Administration to identify the root of these failures 
and begin the process of ensuring that they are never repeated. I am 
confident that everyone in this room today shares with me the goal of 
resolving these difficulties and rebuilding the systems involved in the 
determination of eligibility for disability benefits. Our constituents 
across the country deserve and expect no less than this. Again, I 
commend this Subcommittee for tackling this important problem and I am 
optimistic that we have started on our way towards this goal.

                                 <F-dash>

         Statement of Lawrence A. Plumlee, M.D., Dallas, Texas
            I. Introduction:
    I appreciate the House Subcommittee on Social Security holding this 
``Hearing on the Social Security Administration's Management of the 
Office of Hearings and Appeals''. I testify here today on behalf of 
myself, a physician trained at Johns Hopkins University, a former EPA 
health official, who is president or on the board of directors of 
several disability groups. We have read on the Internet the newspaper 
articles about the ``Mess in Milwaukee'' and the ``Culling of Files'' 
in Chicago. I wish to tell you today that we also have some problems in 
Texas.
    Many of the items I will cite here today refer to the policies of 
the State Agency Disability Determination Service (DDS). These policies 
are directly relevant to the operation of the Office of Hearings and 
Appeals (OHA), in that for many claimants, particularly those who are 
pro-se, case development by DDS provides the record on which the OHA 
Administrative Law Judge (ALJ) makes his or her decision. Failure to 
properly develop a case by DDS prejudices its consideration by the ALJ 
at the OHA, and may lead to remand by the Appeals Council (AC) or a 
denial of rights.
    Some of the items I will cite here are historic, in that they 
happened several years ago. However, these items are in some cases yet 
relevant. Given the pendency of Social Security Disability cases--
roughly 3 years to Appeals Council review, some of the claims impacted 
may still be up at the Appeals Council, some of the cases may be in 
Federal District Court, and some denied cases may have been or may yet 
be reopened, which may occur up to 4 years after a denial.
    The items I will cite here, however, have a common theme: Lack of 
due process and equal protection of the laws in the determination of 
Social Security disability in Texas.
            II.  The Operation of TRC-DDS: A Policy of Systematic 
                    Failure to Properly Develop Evidence of Disability 
                    During Claim Development:
    Texas had the lowest initial approval rate in the nation in 2000 
for Social Security disability claims. A number of reasons were 
suggested to explain this situation in 2001. Many were cultural:
           [U.S. Rep. Gene] ``Greene and U.S. Rep. Nick Lampson, D-
        Beaumont, said that the Texas approval rate is probably 
        affected by a pervasive idea that some applicants are trying to 
        cheat the system.'' From: Julie Mason and Alan Bernstein, 
        Houston Chronicle, 3-23-01 p1.
           ``There is no official explanation for the relatively low 
        rate. Critics say it stems from a cultural bias against 
        government aid programs.'' From: ``Disability Reform Still Lags 
        in Area: D.C. Houston Hearings Sought About Backlog'', Alan 
        Bernstein, Houston Chronicle, 4-22-01 p37.
           ``Dave Ward, a top Rehabilitation Commission official, took 
        a somewhat different approach to explaining the Texas approval 
        rate. He said it is due partly to demographics--its relatively 
        young work force, for instance--and differences in the way that 
        Social Security workers make sure that each state agency is 
        interpreting federal rules correctly. But Carol Schaper, a 
        Plano advocate for the disabled, told the audience of about 130 
        people that the state's ``cowboy culture'' of self-reliance 
        prevents Texas government from providing more assistance to 
        those who can't work.'' From: ``State Needs More Funds for 
        Disability Services'', Alan Bernstein, Houston Chronicle 10-18-
        01 A.29.
    Preconceptions about cultural issues aside, let's look at TRC--DDS 
workflow. A half million Texans receive Social Security disability 
benefits totaling about $4 billion per year. Initial and 
Reconsideration disability determination in Texas are done by TRC-DDS. 
TRC-DDS has during the past decade processed roughly 170-330,000 claims 
for disability each year, receiving 3-6,000 claims per day, being 
funded by the Social Security Administration between $53-83 million per 
year, for an average cost per claim of between $275-$330.
    In '94, each examiner determined about 3 claims per day, but volume 
has increased while staffing has not. Extrapolation suggests that the 
average claim will be determined at an average cost of about $275 by an 
examiner determining maybe 3-5 claims per day. The average case would 
thus appear to get not more than a couple hours of preparation total, 
maybe a medical evaluation, and a consultative evaluation or two, 
before a decision of maybe a third of a page.
           The obvious consequence of those cost numbers is that TRC-
        DDS CAN NOT be doing many claimant examinations, given a total 
        program cost of between $275 and $300 per claim--there is just 
        not enough money to pay the outside experts. In particular, we 
        believe that TRC-DDS is not doing claimant Vocational 
        Evaluations (VE) in accordance with National Program Standards 
        of the SSA, and the failure of TRC-DDS to develop vocational 
        evidence of disability may have an industrial scale impact upon 
        the initial approval rate for Texas disability claims.
    An article in the Houston Chronicle on a seminar sponsored by the 
Disability Policy Consortium on the subject of Social Security 
Disability in Texas quoted former SSA Commissioner Ken Apfel on this 
matter:
           ``Kenneth S. Apfel, Commissioner of the Social Security 
        Administration under President Clinton, spoke at a seminar 
        where government officials and other experts said they were 
        unable to completely explain the state's relatively low 
        approval rates in disability cases. `Half the answer is known, 
        half the answer is not known', said Apfel, now a University of 
        Texas professor. But Texas can start on increasing its approval 
        rates by training case workers at the Texas Rehabilitation 
        Commission to take a wider approach to whether disability 
        applicants can no longer work, he said. Case workers in many 
        other states grant disability benefits more often by looking 
        beyond purely medical evidence to see whether people can 
        continue to function at work, Apfel said. `I don't think you've 
        done enough in Texas', he said.'' From: ``State needs more 
        funds for disability services'', Alan Bernstein, Houston 
        Chronicle, 10-18-01 A.29.
    Former SSA Commissioner Kenneth S. Apfel has ``put a finger'' on a 
policy of TRC-DDS that contributed to their singularly low initial 
approval rate in 2000, resulting in an industrial scale violation of 
Texan's right to due process and equal protection of the laws: 
systematic failure to do Vocational Evaluations.
    A similar problem also existed in 2001 with Medical Examinations. 
Administrative Law Judge Christopher Lee Williams, one of 17 ALJ's at 
the OHA's in Dallas, sued TRC-DDS and SSA for the failure of TRC-DDS to 
perform psychiatric Medical Evaluations (ME) on indigent claimants in 
cases he remanded back to TRC-DDS for further development. (See cause 
no. 03:01CV816, Williams v. Massanari, et al. U.S. District Court, 
Dallas Texas, filed 04-30 2001.) Williams alleged that a TRC-DDS per-
judge funding quota and subsequent refusal to do psychiatric medical 
examinations in excess of that quota were impairing his judicial 
independence to decide cases lawfully. Eventually, the Motions to 
Dismiss made by both the federal and State defendants were granted and 
his case was dismissed as moot--on grounds that he had no standing to 
prosecute the case because he had not been personally harmed by this 
policy. It must be presumed that the indigent claimants denied such 
examinations could not afford to litigate a Federal District Court 
(FDC) civil rights action. Whether the claimants had a right to sue for 
violation of their rights to due process and equal protection of the 
laws when TRC-DDS refused to do an examination after the ALJ indicated 
that a medical examination was necessary to determine their claim 
properly remains an open question.
           It is a critical point that the failure of TRC-DDS to 
        develop VE and/or ME evidence in accordance with national 
        program standards of the SSA is in fact an OHA administration 
        problem, because the Christopher Lee Williams case in Dallas 
        demonstrates that TRC-DDS would not in 2001 do such 
        examinations on remand in any significant quantity FOR EVEN ONE 
        ALJ--in a city with 17 ALJ's, even though a SSR ruling provides 
        for such remand. Further, such remands in any significant 
        quantity would mess up the OHA hearing docket by causing 
        hearings to be rescheduled. It must be concluded that DDS 
        remand for further case development in Texas is a remedy 
        available in theory but not in practice.
    There is a non-obvious incentive for TRC-DDS to find ``difficult'' 
cases not disabled, and to fail to do vocational evaluations on a 
significant percentage of disability claimants:
           ``Scarborough, of the Texas Council for Developmental 
        Disabilities project, offered a third theory. He said the 
        Rehabilitation Commission is reluctant to classify people as 
        disabled because the agency would then have to provide 
        rehabilitation services and related help to a greater portion 
        of the Texas population than state government is willing to 
        serve.'' From: Social Insecurity: Local Judges Prove Stingy in 
        Deciding Appeals Cases, Alan Bernstein, Houston Chronicle, 3-
        11-01 A.1.
    This hypothesis is supported by the fact that there are roughly 
250-300,000 new Social Security Disability and SSI claims per year in 
Texas submitted to TRC-DDS (of which about 31%-40% are eventually 
approved), while the number of vocational rehabilitation cases handled 
by TRC Department of Vocational Rehabilitation is roughly 25,000. In 
short, conditions that TRC-DVR cannot easily rehabilitate TRC-DDS may 
not be inclined to find disabling.
    If one takes the cost of determination of disability in Texas, 
roughly $82M per year at present, and compare it to disability benefits 
paid in Texas, roughly $4B per year, one ends up with the statistic 
that the cost of determination is about 2 percent of the cost of 
benefits paid.
           ``[Social Security Administration] officials indicated 
        instead that the problem stems from inadequate documentation of 
        disability claims, [U.S. Rep. Sheila] Jackson Lee said.'' From: 
        Julie Mason and Alan Bernstein, Houston Chronicle, 3-23-01 p1.
    That inadequate documentation, as compared to other states, is a 
direct consequence of TRC-DDS and SSA trying to process up to a third 
of a million cases per year for about $275 apiece. The failure by TRC-
DDS to request and SSA to fund case development properly, e.g. by doing 
VE and ME examinations, which might add maybe 1% to total program cost, 
renders the process of determining disability in Texas a ``lottery'' of 
first impressions punctuated by multiple remands and long delays, with 
grossly unpredictable results. It also introduces a class bias into the 
system as a result of the financial ability to obtain private medical 
documentation and legal representation in such cases, and ultimately to 
litigate a FDC case.
            III.  The Houston Chronicle Investigation of Social 
                    Security Disability Determination in Texas:
    During 2001-2, the Houston Chronicle did a series of about 45 
articles on Social Security disability determination in Texas. They 
were concerned because Texas had the lowest initial approval rate in 
the nation in 2000, Houston had a lower initial approval rate than the 
State average, and Houston residents had to wait longer than the State 
average to get an AL hearing, and Houston residents faced a greater AL 
hearing rejection rate than the State average. These articles are cited 
below for your convenience. To briefly summarize what they found:

          <bullet>  In 2000, TRC-DDS had the lowest initial claim 
        approval rate in the nation, 31% compared to a national average 
        of 45%. After hearings before the state legislature and 
        meetings between SSA officials and the Houston area 
        Congressional delegation, and Congressional hearings in 
        Houston, the approval rate increased to 40% during the 
        following year, 2001.
          <bullet>  The Houston Chronicle stated that ``Many people in 
        the appeals process complain that the Social Security agency 
        loses records . . .'' The example given was a fibromyalgia case 
        where records listed by TRC-DDS as having been received were 
        missing from the case file of a pro-se claimant. I cite this 
        individual case because we have also heard of unrequested, 
        wrongly requested, missing, and culled medical records during 
        TRC-DDS case development in a Dallas chemical sensitivity case 
        of that era. The consequence of TRC-DDS' refusal to properly 
        develop a case for such a diagnosis is that the Consultative 
        Evaluations (CE) review a grossly incomplete case file, the 
        claimant first sees the case file when it goes to the ALJ--who 
        fails to remand to DDS, and the case ends up at the Appeals 
        Council after about 3 years with a laundry list of grounds for 
        remand.
          <bullet>  TRC-DDS had a backlog of 77,000 cases in 2001, 
        about 3 months worth of processing. (We suspect that the 
        backlog, coupled with the low approval rate, may have induced 
        pressure within TRC-DDS to speed case processing, and may have 
        resulted in failure to develop cases completely.)
          <bullet>  In 2001, TRC-DDS was caught using code names 
        instead of the names of examiners on 12,000 cases evaluated 
        using staff overtime to reduce a backlog, and on at least one 
        occasion, submitted such a fake name to SSA. A photograph of a 
        management memo implementing this practice and a forged name 
        sent to SSA were published in the Houston Chronicle. National 
        SSA officials apparently did not know about this practice. The 
        practice, which at a minimum obscures transparency in legal 
        proceedings but also raises the question of industrial scale 
        falsification of government documents, was promptly halted 
        after the intervention of the Texas Governor's office. It 
        demonstrates, however, the attitude at TRC-DDS toward 
        transparency, equal protection, and due process, at least 
        during this era.
          <bullet>  One Houston ALJ had a reputation so stringent that 
        members of a local union repeatedly picketed his house due to 
        his low approval rate, a rate which was suspected from records 
        kept by local law firms. When the Houston Chronicle was finally 
        able to obtain ALJ approval rate data after FOIA litigation in 
        2001-2, the approval rates of the Houston ALJ's were found to 
        vary from 37 to 69 percent--nearly a factor of two within the 
        same city, in what is supposed to be a uniformly administered 
        federal entitlement program.
          <bullet>  In 1998, an accusation was made to a U.S. 
        Representative by a former Houston OHA staff lawyer, who 
        retired after 15 years in the Houston office, indicating that 
        some Houston ALJ's were biased against blacks and hispanics. A 
        GAO study of race discrimination by ALJ's was subsequently 
        requested by Congress.
          <bullet>  Texas has a much lower Social Security disability 
        approval rate for ``psychiatric disorders'' than other states:

           ``Of Texans who received disability benefits in 1999, only 
        22.8 percent had a psychiatric disability, compared to the 
        national average of 32.1 percent, which is nearly one and a 
        half times higher. Only Arkansas, Louisiana, and West Virginia 
        enrolled a smaller percentage of people with a psychiatric 
        disability.'' From: ``Viewpoints: Disability System Blamed? 
        Needy Social Security'', editorial by Leslie Gerber, director 
        of public policy, Mental Health Association, Houston; Houston 
        Chronicle, 3-18-01 C.3.
    Note that the percentage of psychiatric recipients in Texas is 
about 70% of the national average in a state where the initial approval 
rate was 31% the following year--the lowest in the nation--compared to 
a national average initial approval rate of 45%. The rate is doubly 
low.

          <bullet>  The TRC-DDS' attitude toward public scrutiny was 
        demonstrated the following passage in the Houston Chronicle:

           ``The Texas Rehabilitation Commission doesn't want state 
        Rep. Garnet Coleman criticizing the agency to the news media 
        anymore, at least not before checking in first. . . . The 
        Chronicle has reported on the agency having the lowest approval 
        rate in the nation on applications for federal benefits from 
        sick or injured Texans, on a record-high backlog of 
        applications and on the agency's use of code words in place of 
        case worker's names. Coleman, who specializes in health care 
        issues, reacted to the articles by arranging a legislative 
        examination of the agency's policies and saying a `culture of 
        denial' leads to the low approval rate. In an Oct. 5 letter, 
        Rehabilitation Commission officials asked Coleman for a chance 
        to work with legislative leaders `to ensure the facts are duly 
        considered before making statements to the press'. The 
        officials said there was no `culture of denial' because the 
        agency decides whether people deserve disability status based 
        only on the law. `There is nothing to gain by addressing the 
        issues in a way that causes the public unnecessary concern,' 
        according to the letter, signed by agency board chairman A. 
        Kent Waldrep Jr. and written on the stationary of deputy 
        commissioner Mary Wolfe'' From: ``Letter by Rehabilitation 
        Panel Won't Stop Legislator's Criticism'', Alan Bernstein, 
        Houston Chronicle, 10-14-01 A.39.
    Apparently a TRC deputy commissioner and the TRC board chairman do 
not feel that the systematic deprivation of disabled Texans' rights to 
federal Social Security benefits is something that ought to be 
addressed ``in a way that causes the public unnecessary concern''
            IV.  The Management of TRC and TRC-DDS:
    Let us look consider the ability of the TRC and TRC-DDS to respond 
to change. 
I find that the management of TRC shows striking longevity over the past
 7 decades.

          <bullet>  The TRC Commissioner is Vernon M. ``Max'' Arrell, 
        who was appointed in 1981, and thus, as of 2003, has held the 
        office for 22 years. Jess Irwin was appointed TRC commissioner 
        in 1969 soon after TRC was formed, and held the position for 9 
        years. Thus two TRC Commissioners have managed TRC for 31 of 
        its 34 years. J.J. Brown was director of Vocational 
        Rehabilitation Services of the Texas Vocational Education Board 
        for 31 years, from 1929-1960. C.G. Fairchild held the same 
        position for 8 years from 1960-1967. Thus two directors of VRS 
        directed the TRC's predicessor agency for 39 of 40 years. In 
        total, of 4 individuals have controlled rehabilitation in the 
        State of Texas for 70 of the past 74 years.
          <bullet>  The TRC Board: The Guide to Texas State Agencies, 
        11th ed. states ``The policy making body of the commission is a 
        six-member board, appointed by the governor with the advice and 
        consent of the Senate for overlapping six-year terms. Members 
        must be Texas citizens with a demonstrated interest in 
        rehabilitation services. These are nonsalaried positions, and 
        the governor designates the chair.'' There are 6 positions on 
        the TRC board. One position is vacant as of 2003. Three other 
        filled positions are held based on a policy where ``Board 
        members with expired terms will continue to serve until 
        reappointed or new appointments are made''. Two positions are 
        filled by persons with valid terms of office, of which one is 
        no longer listed as a board member in the 2003 Strategic Plan, 
        and presumably has resigned.
          <bullet>  The TRC Deputy Commissioner for Disability 
        Determination Services is Ed Bloom. His predicessor from 
        October 1996 until 2002 was Dave Ward, whose watch included the 
        year TRC-DDS had the lowest initial approval rate in the nation 
        in 2000, and the 2001 ``fake examiner'' scandal. Mr. Ward 
        replaced Kenneth Wayne Vogel, who was promoted to Assistant 
        Commissioner in October, 1996, but died in a hunting accident 
        on December 14, 1996, roughly 2 months later.

    It seems to me that if there is an absence of change in a state 
agency which has serious problems over an extended period of time, it 
might be inferred that someone in that state may think that things are 
good enough as they are. One might suspect that disability 
determination in Texas is broken by design, because it somehow serves 
powerful economic interests. Unfortunately, any statement by myself as 
to why or how that may be the case would be speculative.
    Congress does not need to be told of the power of the ``Oil Patch'' 
in Texas. The Summer 2003 Texas redistricting conflict demonstrated 
that power. When a redistricting plan that would have disenfranchized 
minority voters in Texas was proposed, Texas elected representatives 
from first one legislative body and then another fled the state to 
break quorum to block the plan, while representatives of the other 
party tried to use both federal forces and State police authority to 
try to hunt down those elected officials, arrest them, and haul them 
back to Austin in order to achieve their partisan goals. There is no 
less a concern about abuse of federal authority in the Social Security 
disability system in Texas. A Houston area SSA anti-fraud team targeted 
300 Houston area Social Security disability claimants in 2001-2, 
including some with psychiatric disorders:

           ``Two plainclothes officers with badges told Cheryl Braxton 
        at her northwest Houston apartment two years ago that she was a 
        possible suspect in a robery investigation. It was a lie. They 
        were Harris County sheriff's deputies. But they were working 
        undercover for a little-known Social Security Administration 
        antifraud unit based near Bush Intercontinental Airport. They 
        were secretly testing Braxton to see if she could think and 
        talk crisply, which would contradict her earlier claim that she 
        was disabled, mostly due to mental illness. There was no 
        robbery case. The `ruse interview,' as Social Security agents 
        call it, was not an isolated tactic. Knowing that such crimes 
        never actually took place, the federal agency's investigators 
        have routinely told several Houston-area disability 
        applicants--including mentally ill and mentally retarded 
        people--that they could be suspects in specific criminal cases, 
        according to documents, testimony and interviews obtained by 
        the Houston Chronicle. Advocates for the disabled say the 
        tactics are out of bounds. . . . The tactics are commonly used 
        against people who claim disability because of mental illness, 
        said Philip Senturia, a lawyer for a Missouri legal aid agency, 
        `and these are people who aren't good at describing what their 
        problems are in the first place'.'' From: ``Social Security 
        unit uses lies to find fraud: Advocates of disabled decry 
        `ruse' tactics,'' Alan Bernstein, Houston Chronicle, 3/2/02 
        A.1.
           ``After reading about a series of Houston cases, the Social 
        Security Administration's top investigator has curbed some of 
        the tactics his agents used when they looked into possible 
        fraud by people applying for disability benefits. James Huse 
        Jr., Social Security's inspector general, took action after the 
        Houston Chronicle reported that undercover agents conducted 
        fake robbery investigations as part of their interrogation of 
        local disability applicants, some with proven mental illness. . 
        . . Starting in July 2000, Social Security's anti-fraud unit in 
        Houston has investigated more than 300 cases in which a claim 
        for disability benefits was suspicious, according to Huse. In 
        about 220 cases, the applicants were denied benefits by the 
        Texas Rehabilitation Commission, which decides from medical 
        evidence whether illness or injury makes Texas applicants no 
        longer able to work. Huse did not say how many cases, if any, 
        led to fraud charges against the applicants. . . . Federal 
        funds pay for two sheriff's deputies and a clerk to work with 
        the Houston unit, which sometimes secretly photographs and 
        videotapes the public activities of disability applicants to 
        see if their physical actions match their disability claims. 
        Undercover agents took pictures of Braxton as she went to visit 
        her doctor.'' From: ``Agents' Tactics in Probing Disability 
        Fraud Curtailed,'' Alan Bernstein, Houston Chronicle, 4-30-03 
        p1.

    Note that the Houston Chronicle states that ``the applicants were 
denied benefits by the Texas Rehabilitation Commission''. It does not 
mention the SSA or OHA. While this may be a loose description of 
events, it appears that this very knowledgeable reporter is suggesting 
that TRC-DDS, a STATE AGENCY, was supplying targets to a FEDERAL anti-
fraud unit, which used FEDERAL FUNDS to hire COUNTY sheriff's deputies 
to go after those targets. The problem with TRC-DDS doing targeting for 
a federal SSA anti-fraud unit against claimants with mental disorders 
in Houston is that, notwithstanding national program standards of the 
SSA, the only way a chemically injured Houston oil well firefighter is 
going to get Social Security disability in Texas is on grounds of 
``somatoform disorder'', a psychiatric diagnosis, and to hit 300 
claimants over 2 years in a city with about 7,000 disability claims per 
year is striking.
            V.  The Social Security Disability System: A Program Out of 
                    Control:
    The Social Security disability system is a system out of control. 
It provides security to workers in name only. It is a patchwork of 50+ 
state subcontractors which has resulted from the historical 
incrementalization of the Social Security Act, coupled with the 
delegation of determination to the states. This was historically done 
because, when the Act was first passed in the late 1920's, the states 
were the only ones who had the capability of doing disability 
assessment.
    I feel that it is time that Congress commission a General 
Accounting Office (GAO) study on the feasibility of federalizing Social 
Security disability determiniation in the U.S. Federal control is the 
only way that there will be uniformity in determinations across what is 
purportedly a fair and uniform federal benefits program.
    In the alternative, I wish to point out that the Commissioner of 
SSA has the power to decertify any State Disability Determination 
Service under ``42 U.S.C. 421--Disability Determinations.'' I also wish 
to point out that, given that ability to prevent the operation of state 
Disability Determination Services in violation of claimant's rights to 
due process and equal protection of the laws, the Commissioner of SSA 
consequently has a personal responsibility under ``42 U.S.C. 1987--
Action for neglect to prevent'' to ensure such violations do not occur.
            VI.  Reform: A Matter of Justice:
    ``No state shall make or enforce any law which shall abridge the 
privileges or immunities of citizens of the United States; nor shall 
any state deprive any person of life, liberty, or property, without due 
process of law; nor deny to any pseron within its jurisdiction equal 
protection of the laws.'' The 14th Amendment of the Constitution of the 
United States, Section 1, sentence 2:
    The actions of TRC-DDS enumerated above place artificial barriers 
to the approval of Social Security disability claims during case 
development and initial consideration, and prejudice such cases at the 
Administrative Law level. This has the potential effect of forcing 
those claimants out of the ``non-adversarial process'' created by 
Congress in writing the Act, in order to force such individuals either 
forfeit rights or file a suit in U.S. District Court. The harm 
resulting from such violation of the rights of disabled Texans to due 
process and equal protection of the laws can be seen by looking at the 
Social Security case flow statistics: In 1995, of the 2.5 million 
initial cases, only 2% reached the Appeals Council, of which 73% were 
dismissed and only 3% approved; and of those which were then filed in 
Federal District Court, only 10% prevailed. In total, 2,220 out of 2.56 
million initial cases--one in a thousand, or 4% of the 51,400 Appeals 
Council cases--were approved ABOVE the ALJ level, although 12,340--over 
5 times as many--were remanded for rehearing. The policies and behavior 
of TRC-DDS in disability determination, and the consequent bias at the 
ALJ level, compromises ``on an industrial scale'' Texans' rights to due 
process and equal protection of the laws.
            VII.  Closing:
    Three quotes seems relevant to the consideration of Texans' rights 
to due process and equal protection of the laws in Social Security 
disability determinations:
    ``It rings a very serious fire bell that the Social Security 
justice system isn ot treating all of the applicants equally or 
consistently' said U.S. Rep. John Culberson, R-Houston. `And that is a 
recipe for disaster under our America system of law.' '' From: ``Judges 
Vary Sharply on Disability Approval: Social Security Rulings Concern 
Lawmakers'', Alan Bernstein and Dan Feldstein, Houston Chronicle, 7-14-
02 A.1.
    ``However, Green said the gap in allowance rates by each judge is 
troubling by itself, and csts doublt on the fairness and integrity of 
the disability program. `If we are having that kind of disparity . . . 
it's just wong,' he said''. From: ``Judges Vary Sharply on Disability 
Approval: Social Security Rulings Concern Lawmakers'', Alan Bernstein 
and Dan Feldstein, Houston Chronicle, 7-14-02 A.1.
    The percentage of decisions at the hearing level that were 
favorable for both DI and SSI claimants stood at 58 percent in 1985, 
grew to nearly 72 percent in 1995, fell to 63 percent in 1998, and grew 
again to 66 percent in 2000. Hearing offices also vary greatly from 
State to State in the percentage of decisions that are decided 
favorably for claimants. In 2000, the range went from 35 percent in the 
District of Columbia to 86 percent in Maine, with a national average of 
66 percent. Unexplained discrepancies of this magnitude are simply 
unacceptable in what Congress intended to be a fair and uniform 
national program. ``Charting the Future of Social Security's Disability 
Programs: The Need for Fundamental Change'', Social Security Advisory 
Board, January 2001.
            VIII.  References: The Houston Chronicle News Articles on 
                    Social Security Disability in Texas:
     1.  Disability hearings can leave applicants baffled, frustrated / 
Lost medical records among the problems. Alan Bernstein, Houston 
Chronicle, 03-11-01 A.20.
     2.  Social Insecurity / Local judges prove stingy in deciding 
appeal cases. Alan Bernstein, Houston Chronicle, 03-11-01 A.1.
     3.  Social Security disability insurance--by the numbers. B.C. 
Oren, Houston Chronicle, 03-11-01 A.20.
     4.  Area Social Security judges built careers in other areas. Alan 
Bernstein, 03-11-01 A.20.
     5.  System to speed disability appeals may delay them. Alan 
Bernstein, Houston Chronicle 03-12-01 A.1.
     6.  Answers sought from Social Security / 4 area lawmakers want 
explanation for disability rejection rates, delays. Alan Bernstein, 
Houston Chronicle, 03-13-01 A.21.
     7.  Corrections. Houston Chronicle 3-14-01 p2.
     8.  Viewpoints. (Letter to the editor). Boon to rehab lawyers. 
Marcella P. Phillips, Pasadena. Houston Chronicle 03-14-01 p25.
     9.  Disability application process eyed / Rehabilitation agency 
chief testifies before House panel. Alan Bernstein, Houston Chronicle, 
03-15-01 A.1.
    10.  Disability woes to be discussed / Special meeting set next 
week. Alan Bernstein, Houston Chronicle, 03-17-01-A.1.
    11.  Debilitating: Answers needed on why Texas lags on disability 
claims. Editorial, Houston Chronicle 03-18-01 C.2.
    12.  Viewpoints: Disability system blamed? Needy Social Security. 
Leslie Gerber, Houston Chronicle 03-18-01 C.3.
    13.  Viewpoints: Disability system blamed? Poor reasons for claims. 
Diana Sewell, Houston Chronicle 03-18-01 C.3.
    14.  Agency vows more judges to fix log jam / Disability case 
problems get high-level attention. Julie Mason, Alan Bernstein. Houston 
Chronicle, 03-23-01, A.1.
    15.  Disability reform still lags in area. D.C., Houston hearings 
sought about backlog. Alan Bernstein, Houston Chronicle 4-22-01 p.37.
    16.  Budget cuts delay expansion of disability benefits project. 
Julie Mason, Alan Bernstein, Houston Chronicle, 4-28-01 p4.
    17.  Disability claims outpace reviewers / Social Security backlog 
grows. Alan Bernstein, Houston Chronicle 05-03-01, A.1.
    18.  Corrections. Houston Chronicle 05-08-01 p2.
    19.  Longevity has its perks. Alan Bernstein, Houston Chronicle, 
05-12-01 A.39
    20.  Dealing out rejection: / Local Social Security Judge Kline is 
criticized for frequent denials in disability-benefits cases. Alan 
Bernstein, Houston Chronicle 05-13-01, A.1.
    21.  Social Security disability under probe for race bias, Alan 
Bernstein, Houston Chronicle, 06-10-01 A.8.
    22.  Panel hears of woes in disability system / Social security 
official asks for help. Julie Mason, Houston Chronicle, 06-29-01 A.8.
    23.  Social Security agency's conduct draws scrutiny / Pending case 
damages woman's personal credit. Alan Bernstein, Houston Chronicle, 07-
16-01 A.1.
    24.  Judges' freeze hurts sick. Alan Bernstein, Houston Chronicle, 
08-11-01 p35.
    25.  Social Security benefits process can take a deadly toll / 
Texas woman's case reveals system's flaws. Alan Bernstein, Houston 
Chronicle, 08-27-01 A.1.
    26.  Initial shock on disability / Social Security claims assigned 
to examiners whose names are codes. Alan Bernstein, Houston Chronicle, 
09-09-01 A.1.
    27.  These examiners perpetually `not in'. Alan Bernstein, Houston 
Chronicle, 09-09-01 A.20.
    28.  State review urged of agency providing services for disabled. 
Dale Lezon, Houston Chronicle, 09-11-01 A.1.
    29.  State agency will halt codes for caseworkers. Alan Bernstein, 
Houston Chronicle, 09-26-01 A.1.
    30.  More judges are approved for disability appeals cases. Alan 
Bernstein, Houston Chronicle, 09-27-01 p19.
    31.  Letter by rehabilitation panel won't stop legislator's 
criticism. Alan Bernstein, Houston Chronicle, 10-14-01 A.39.
    32.  Coleman's Criticism: Elected officials supposed to watch 
agency performance. Alan Bernstein, Houston Chronicle, 10-17-01 p28.
    33.  State told more funds needed to improve disability benefits. 
Alan Bernstein, Houston Chronicle, 10-18-01 A.29.
    34.  Nurse wins long fight over death benefits. Alan Bernstein, 
Houston Chronicle, 08-23-01 A.17.
    35.  Wrap-up: Relief for the disabled. Alan Bernstein, Houston 
Chronicle, 12-01-01 p35.
    36.  Government grinds slowly. Alan Bernstein, Houston Chronicle, 
03-09-02 p41.
    37.  Social Security chief to hear from disabled. Alan Bernstein, 
Houston Chronicle, 05-22-02 p33.
    38.  The pain of denied benefits / Social Security chief agrees 
system has flaws. Alan Bernstein, Houston Chronicle, 05-30-02 p1.
    39.  Social Security's backlog reaching `breaking point'. Alan 
Bernstein, Houston Chronicle, 06-12-02 A.7.
    40.  Judges vary sharply on disability approval / Social Security 
rulings concern lawmakers. Alan Bernstein, Houston Chronicle, 07-14-02 
p1.
    41.  Access to Social Security files granted only after legal 
battle. Alan Bernstein, Houston Chronicle, 07-14-02 A.19.
    42.  Pickets for disabled stir national debate / Judges' group says 
protest violate law. Alan Bernstein, Houston Chronicle, 07-25-02 A.19.
    43.  Judges call for public hearings. Alan Bernstein, Houston 
Chronicle, 08-10-02 p33.
    44.  Social Securty unit uses lies to find fraud / Advocates of 
disabled decry `ruse' tactics. Alan Bernstein, Houston Chronicle, 03-
02-03 A.1.
    45.  Agents' tactics in probing disability fraud curtailed. Alan 
Bernstein, Houston Chronicle, 04-30-03 p1.

                                 <F-dash>

     Statement of Stephen P. Robertson, Chesapeake Beach, Maryland
    My attorney can provide the Congress with information not only on 
my case, but about 1,000 others. Each of whom faced the same faceless 
monster. Please; I beg you to contact his office and he will gladly 
share some real horror stories. Angela Martin, his assistant would also 
prove a valuable resource.
    With this e-mail, I grant permission to the CONGRESS to make 
contact with and discuss with my attorney my case, including the 
actions of ``ROSE'', an SSA reviewer whom my attorney called in open 
court, ``. . . a disgusting human being . . .'' while explaining to the 
judge how she routinely refuses cases without fair and proper review of 
the evidence.
    Senators Sarbanes and Mikulski have been notified in this matter, 
and are aware of my individual case.

                                 <F-dash>

              Statement of Alice Rodriguez, Odessa, Texas
    Hi my name is Alice Rodriguez, I am writing about my husband 
Reynaldo Rodriguez, my husband had a massive heart attack 08/14/2002 
and had 3 stents placed in. On 12/05/2002 he had to undergo a triple by 
pass surgery, 02/03 he had to have another stent put in he also has 2 
herniated disk that he has has steroid shots and doctor has had to go 
in and burn a nerve to ease the pain that should only be temporary, 
Since August he has had to go in the hospital a least every two months 
with chest pains and anxiety. My son 04/25/03 was in a horrible 
accident and was pulled out of the car with the jaws of life and my 
husband had to witness that broke his femur and had surgery to put in a 
rod and screws, a couple of days before that I had to have a complete 
hysterectomy. We applied for Social Security on 09/09/2002 on June/2003 
Social Security Denied the claim and said although you can not go back 
to commercial framing and construction you are able to do less 
demanding jobs. He has an 8th grade education repeated 8th grade 3 
times. On 09/14/03 since we are financially struggling he went to look 
for some yard work and and asked a lady if he could do her yard she 
said no she wanted the limbs of the tree cut. My husband was about 10 
feet up on the tree when he sliped back, and feel right on his head and 
fractured his vertebrae in 2 places. He now has a brace on his neck and 
because his heart there not able to do surgery on him. I have to sponge 
bath him dress him up. The hole family is going through so much. If 
social security with had help him to began with. He would not have 
gotten hurt, I am thinking of going to the news paper about this and 
any one that can help this is ridiculous thank you so much for your 
time.

                                 <F-dash>

Statement of M.J. Adams, Seattle Office of Hearings and Appeals, Social 
              Security Administration, Seattle, Washington
    Disclaimer: I am an Administrative Law Judge employed by the Social 
Security Administration Office of Hearings and Appeals. I am currently 
serving as and Administrative Law Judge in the Seattle Office of 
Hearings and Appeals. I also perform additional management duties of a 
Hearing Office Chief Administrative Law Judge. The statements below do 
not express or imply any position held by the Social Security 
Administration. The statements below are solely for the purpose of 
expressing my concerns about the issues before the Subcommittee on 
Social Security of the Committee on Ways and Means.
    Re: Subcommittee on Social Security of the Committee on Ways and 
Means hearing focusing on examination of key management challenges 
facing the SSA's OHA, along with actions underway or recommended to 
improve service delivery.
    Chairman Shaw states that:

          Individuals with disabilities wait months, if not years to 
        receive a decision from the OHA. That's wrong, and they deserve 
        better. Each claim is more than a thick file of papers; it 
        represents a person who is suffering and needs help. The hard 
        working employees of the OHA must get beyond finger pointing 
        and take personal responsibility to make their program work 
        better. We must find ways to eliminate this bottleneck so that 
        individuals with disabilities can receive the prompt and 
        accurate service they deserve.

    This statement overlooks the achievements of the current process. 
The Supreme Court of the United States described the current process in 
Heckler v. Day et al., 104 S. Ct. 2249 (1984):

          To facilitate the orderly and sympathetic administration of 
        the disability program of Title II, the Secretary and Congress 
        have established an unusually protective four-step process for 
        the review and adjudication of disputed claims.

    The four-step process noted by the Supreme Court may be 
functionally divided into two distinctly different categories. The 
first category is the first two steps in the process, initial 
determination and reconsideration, performed by the State Agency 
Disability and Determination Services (DDS). Second category is the 
third and fourth steps which are performed by the Office of Hearings 
and Appeals (OHA) and the Appeals Council. At the Office of Hearings 
and Appeals, the process is Claims Adjudication following the 
requirements set forth by Congress for the Commissioner to give 
reasonable notice and opportunity for a hearing to any individual 
denied benefits at the first and second steps.
    When the current process is analyzed using these two distinct 
categories: Claims Determination versus Claims Adjudication, it becomes 
apparent that claimants are not being denied timely and fair resolution 
of their claims. To argue otherwise is to discredit the work of the 
State Agencies at the initial and reconsideration levels where 
thousands of claimants with severe medical impairments receive prompt, 
favorable determinations. None of these claimants are complaining to 
their Congressman.
    Once the Claims Determination process has been exhausted at the 
State Agency level, the claimant may request a hearing before and 
Administrative Law Judge at the Office of Hearings and Appeals. This 
begins the process of Claim Adjudication. This process is analogous to 
a claim against an insurance company that has denied coverage. The 
denied policy holder files suit in state or federal district court and 
begins the long process of civil litigation that can last for years.
    The Social Security Administration may be characterized as the 
largest insurance company in the country. Contrast SSA's ``orderly and 
sympathetic administration of the disability program . . .'' supra, 
with the civil litigation remedy available to the policy holder of a 
public insurance company.
    Rather than proceed through the lengthy process of civil litigation 
in state or federal court, the claimant denied by the State Agency is 
provided the benefit of a hearing applying the rules of Administrative 
Law. Administrative Law Judges follow procedures that are the most 
efficient for determination of claims involving large sums of money for 
lifetime benefits. ALJ's conduct hundreds of hearings annually 
resulting in decisions to award or deny benefits. Decisions that 
involve hundreds of thousands of dollars. Each one of these hearings 
requires a support staff performing similar functions to a support 
staff for a civil jurist conducting one trial a week. Each ALJ may 
conduct four to six hearings per day. Each hearing may last from one to 
two hours or longer. Each hearing involves support staff organizing the 
hearing and making certain that all parties arrive at the same place 
and time ready to proceed to hearing. This involves obtaining the 
appearance of witnesses, reporters, the claimants and usually a 
representative. All of these schedules must be coordinated. This is 
accomplished by the support staff at OHA hundreds of times a month in 
the average office. The task is monumental and extremely labor 
intensive.
    Once the claimant has had a hearing before an ALJ, the ALJ must 
prepare a written decision as prescribed in the act and court 
decisions. In all cases where the ALJ has affirmed or denied benefits, 
the decisions require extensive drafting and legal review before 
release.
    Fundamental distinctions between Claims Determination by the State 
Agency employees versus Claim Adjudication by the ALJ's at OHA requires 
more time and more expense at the ALJ level. For example: the State 
Agency employees designated to make determinations at the initial and 
reconsideration level are not required to develop a record of evidence 
that is complete. They may determine a case adverse to the claimant 
with a finding of insufficient evidence when development of the 
evidence of medical impairments falls short.
    At every step of the four-step process, supra, evidence may be 
developed to support the finding of disability. Development of this 
evidence takes time and cost money. The development of the evidence is 
usually where the ``bottleneck'' occurs.
    At the third step or hearing level before the ALJ's at OHA, 
development of a complete record of evidence to support the decision is 
not an option. The ALJ has the duty to fully develop the record. It is 
axiomatic that development of a complete record of the evidence takes 
time and costs money. This is necessary to insure the integrity of the 
system by which it is decided who shall receive benefits and who shall 
be denied.
    A second distinction, between Claims Determination by the State 
Agency employees versus Claim Adjudication by the ALJ's at OHA, affects 
the process and outcomes or results. This distinction is based on what 
the Social Security Administration ``counts''. ``Counts'' as used in 
this analysis means what is the focus of quality review by the Social 
Security Administration.
    What ``counts'' at the first and second steps of Claims 
Determination by the State Agency employees is the cases that are paid. 
These cases must withstand second and sometime third review before a 
favorable decision may be released to a claimant. SSA quality assurance 
requires this review at the first and second steps in the four-step 
process, supra. The favorable or pay case must be developed by the 
State Agency employees with quality review overseeing the process. 
Development of the evidence to support the favorable or pay case takes 
time and costs money.
    Denial of the claim by the State Agency employees at the first and 
second step of the four-step process, supra, does not undergo the same 
quality review by SSA. The claimant is informed of the right to appeal 
and this counts in number of case dispositions for the State Agency 
employees at the first and second steps of the four-step process, 
supra.
    What ``counts'' at the ALJ level are the decisions for denial of 
benefits or affirmations after hearing. These cases have a built-in 
quality review process since the claimant may appeal to the Appeals 
Council and to Federal District Court if needed. Contrast that quality 
review process afforded the claimant with the Social Security 
Administration's ``own motion'' review of an ALJ decision. Incidence of 
``own motion'' review of other ALJ pay or reversal decisions is unknown 
to this author. However, personal experience of issuing thousands of 
decisions since 1986 indicates the number of ``own motion'' reviews of 
my pay or reversal cases is probably less than three 3 percent.
    A focus on what SSA ``counts'' at step one and two versus step 
three and four of the four-step process, supra, reveals that outcomes 
are determined when combined with the need to produce ``numbers'' of 
case dispositions. This is crucial to determining processing times at 
the first and second Claims Determination steps versus the third and 
fourth Claims Adjudication steps.
    At the State Agency Claims Determination steps, it is easier to 
deny a claim due to the quality assurance review of pay cases by SSA.
    At the OHA level it is easier to pay a case. Pay cases 
(``reversals'') are rarely reviewed by the ``own motion'' process. 
Experienced claimant advocates and attorneys appear before judges at 
the hearings. SSA is not represented by an advocate at the OHA hearing 
level. Under the current practice and implementing various initiatives 
to increase ``numbers'', cases may be paid by an ALJ without the 
necessity of development of evidence, processing the file for hearing, 
or conducting a hearing with multiple witnesses. Fewer resources are 
spent to issue a pay case than to issue a legally-sufficient 
affirmation, or denial, decision. The written decision or reversal may 
be a ``short form'' or other abbreviated form of written document 
containing minimal evidence to support the decision. Agency and 
Congressional pressure to produce ``numbers'' and reduce processing 
time results in higher incidence of paying or reversing cases.
Improvement
    A prescription for improvement includes supporting the current 
four-step process for the review and adjudication of disputed claims. 
Support should not be in the form of initiatives that destroy the 
integrity of the system. Nine states are currently involved in a 
process that includes elimination of the second step or reconsideration 
determination. Personal experience with adjudicating Alaska cases, one 
of the nine ``prototype'' states, reveals many of these cases come to 
the hearing level at OHA without sufficient development of the evidence 
and without sufficient time elapsed to establish the duration element 
for disability.
    Replacement of the current ALJ decision maker with other 
adjudicators who are not protected by the Administrative Procedure Act 
safeguards would destroy the rights of claimants to have a fair and 
unbiased judge conduct their hearing and issue decisions without fear 
of Management retaliation.
Summary & Conclusion
    In summary, Claim Determination at steps one and two is analogous 
to the review and determination of claims by an insurance company. SSA 
has a high duty to process these claims timely and accurately by either 
the State Agency or some other substituted informal process. This 
should be the focus of Chairman Shaw. It may be accomplished by 
changing what ``counts'' at the initial and reconsideration, step one 
and two Claim determination levels. It requires resources dedicated to 
the early development of the medical information necessary to support a 
claim. Quality review at the first two steps should include a review of 
all decisions, not just the pay cases.
    Once denied after a fair review and determination by the State 
Agency at steps one and two, the role of the claimant becomes analogous 
to the civil litigant. Claim Adjudication is civil litigation. 
Administrative Law Procedures followed at the hearing level in step 
three are the most efficient civil litigation model in existence for 
determination of claims for money that may approach hundreds of 
thousands of dollars.
    At the third step in the four-step process, supra, due process is 
provided the claimant seeking an award of benefits. Due process takes 
time. Due process costs money. Congress should make sure that the money 
is spent and the time allowed providing each claimant due process. The 
time and money is necessary to insure the integrity of the process by 
which the Social Security Administration decides who shall receive 
benefits and who shall be denied.

                                 <F-dash>

              Statement of Sarah Shapiro, Washington, D.C.
    Solving the problems with OHA will be pointless and perhaps 
impossible unless the problems with the Disability Determination 
Services are solved first. If unwarranted denials were not given on 
valid claims, the OHA would not be overloaded and backlogged. Aside 
from other reasons in a variety of individual cases, thousands of 
qualified claimants are denied at DDS level simply because of the 
system of listed impairments. Almost everyone with an unlisted 
impairment must wait for an ALJ to use common sense and find the 
claimant disabled. If some system of common sense were permitted on the 
DDS level, instead of absurd adherence to the listings, the OHA would 
have only those cases that legitimately belong in a hearing room.
    Severely disabled claimants whose medical conditions happen not to 
be listed impairments do not belong at OHA, should not be at OHA, would 
not be clogging OHA, if the Listing of Impairments was either greatly 
expanded or abolished.
    I am myself disabled, and was approved for Social Security benefits 
only after a 28-month wait from initial application to approval by an 
ALJ after a hearing at OHA. I am also one of the moderators of an email 
group with about 1400 members with ``invisible'' illnesses, whose 
experience applying for disability benefits is similar to mine. We 
encourage newcomers to hang in there, to wait for approval at the ALJ 
level. We are all physically impaired, but not by listed impairments. 
Our financial, emotional, and even medical burdens grow with the delay, 
some members even lose housing while waiting for approval, despite 
medical records and doctors' opinions supporting findings of 
disability. There is no clear reason for denial at DDS levels, other 
than the restrictive Listing of Impairments and the procedural 
inability of the medical review teams to exercise the common sense 
permitted, if not always evidenced, only at OHA.

                                 <F-dash>

          Statement of Judith A. Shaull, Fair Grove, Missouri
    My name is Judith A. Shaull. I have been unable to work ever since 
July 2001. I was having very bad headaches and doctors discovered I 
have 4 bulging disc in my neck all in a row. When my orthopedic doctor 
informed me of this I was in disbelief. He also told me he would not 
perform surgery on me and said I could ask the other doctors in his 
office but he knew they would not attempt it either. The weeks started 
to pass by and my pain continued to get worse. It affects my head, neck 
and shoulders. I was in agony for seven months before I could find a 
doctor to treat me for pain. I already had depression but the pain made 
it terribly worse. I laid in bed or sat in a chair for seven months and 
gained 50 pounds. My husband and I struggled to pay our bills. This has 
put us under unbearable stress. I have been diagnosed with chronic 
pain, Fibromyalja and chronic depression and anxiety. I take medicine 
for the pain and depression. The medicine for the pain makes me groggy 
and affects my personality. It took seven months before I could even 
find a doctor to treat my pain. I don't go anywhere but to see my 
doctors so my husband who works all week and is exhausted has to take 
care of everything else on his days off. We have spent all of our 
retirement money on bills and all of his vacation pay and sick days. If 
he misses work we will lose our home. I have lost contact with my 
friends and have not seen my brother and his family in a year. I am 
frozen with fear and the chronic pain has beat me down mentally and 
physically. I have an attorney but he still can not tell me when my 
case will be heard.
    The stress is also taking as huge toll on our marriage. I am not 
living, only existing. I wish someone could help us before we lose 
everything we have ever worked for.

                                 <F-dash>

         Statement of Deborah L. Sherman, Kansas City, Missouri
    Dear sir/madam,
    First, I'd like to say that we are extremely fortunate and grateful 
to have my ltd. My former employer was USDA, and we did not also have 
to endure the nightmare so many do trying to get LTD through a private 
insurer, ERISA or otherwise. We're not destitute, living in a shelter, 
on the street, or had to move in with family that really doesn't 
understand, or want us there.
    I've been sick with CFS/ME since sept. 1980. My daughter, now 17, 
became ill with the same disease the summer of 1998. I was retired on 
FERS disability in Sept. 1990. SSD I came through a few months later.
    My CDR started in June/July 1998. I have been in front of my ALJ 
two or three times. He totally discounts anything I, and the doctors 
I've seen since 1989, say. He instead uses his own opinion, and that of 
doctors SSA sends me to, that don't know me, and have never seen me 
before. Except for one they sent me to, and told them I was disabled. 
He happened to be my doctor before I found the current one in 1989, but 
SSA people didn't know that. My ALJ then said this doctor could not 
possibly have made the determination in that one visit that I was 
disabled.
    My attorney has done everything ``right'', and my doctors have done 
everything ``right''. I seem to be stuck with an ALJ and SSA docs that 
know very little, if anything, and don't personally ``believe'' in cfs/
me, or the debilitation it causes. It's been a little over five years 
since the CDR started. It looks like until the ALJ retires or passes 
(and NO, I don't wish him dead, maybe just that he could have cfs/me 
for a month, and/or watch it knock his healthy, bright, bubbly 12 year 
old child or grandchild flat) or the appeals council finally overturns 
him, we're just in ``limbo''.
    We had to move from the apartment my daughter pretty much grew up 
in, and I still had to file bankruptcy a little over a year ago. 
Consumer Credit Counseling was unable to help me, because there was no 
money to make payments. Very fortunately, we still have the health 
insurance from my former employer, but we are accumulating hundreds of 
dollars in medical bills because of co-pays and deductibles I can't pay 
more than $25 a month on. We've also burdened my mother with medication 
expense, and car repairs. We wouldn't have a car anymore if it weren't 
for her. And she paid for four years ($150-300 mo) for my daughter to 
continue an over the counter supplement when I could no longer buy it.
    Please, PLEASE, help us, and all the patients out there in much, 
much worse situations than we are!

                                 <F-dash>

  Statement of Linda Fullerton, Social Security Disability Coalition, 
                          Rochester, New York
    Be aware that what I am going to say is 100% fact and is very 
gruesome. I need to tell you all the gory details so you can truly 
understand what a miracle it is that I am alive today. On Sunday 11/3/
96, I bumped my head on the doorframe while exiting from my car. It 
stung a bit for a few moments and I thought nothing else about it. On 
Wednesday of that same week I started to get headaches, and a huge lump 
called a hematoma (blood clot) formed on the back of my skull so I 
starting taking Advil for the pain. I called my doctor and was told 
that it would be very painful for at least a month until the blood 
reabsorbs back into my system. On 11/23 I called the doctor because by 
this time the pain was getting worse not better like he said it would. 
I was referred to an after hours doctor who confirmed that I had a 
blood clot and sent me home. On 12/9 I saw the doctor again and by this 
time the blood clot had grown to a size of 6x2\1/2\'' and could be seen 
from across the room. The doctor ordered a CAT scan to check for a 
skull fracture. The blood clot did not show up on the scan because the 
contrast medium was not ordered and there was no fracture.
    For the next month I went to the emergency room twice and was sent 
home both times with no results. I had x-rays, saw a neurologist, went 
to a pain clinic, saw a neurosurgeon and visited my own doctor several 
times with no relief in sight. I was given every pain killer known to 
man: Fiorinal, Daypro, Amitriptyline, Tylenol 3 with Codeine, Ambien, 
Demerol, Clonazepam, Darvoset and finally Roxicet (Morphine)--none of 
which helped at all. I was taking a regimen of 3 extra strength or 1 
prescription Advil and alternating with 2 extra strength Tylenol every 
2 hours for over a month. Even this did not help me. I even tried 
alternative medicine: feverfew which is normally taken for migraines 
which I have never had, and a topical herbal mixture of St John's Wort 
oil, Arnica oil and Aloe Vera Gel which had a salad dressing 
consistency. I would plaster this greasy mixture onto my head every 
day, which made my long hair a nightmare to look at and had a nasty 
smell to it. During this period I only missed one day of work and 
worked 45 hours a week even though I was not getting any sleep at all. 
I have never been a fan of suicide but Dr Kevorkian was looking real 
good at this point. I could truly understand for the first time why 
someone would not want to live if that was how the rest of his or her 
life was going to be. I would get down on my knees literally crying and 
praying to God to take my life so I would not have to suffer that 
horrible pain anymore. It really felt like something was eating my 
brain!
    On Sunday 1/12/97, I was at my boyfriend Arnold's house and I was 
having a very difficult time walking. The pain was extremely 
excruciating and I had to lie down on the bed. After that I lapsed into 
a coma. The following scenario is what he told me happened, while I was 
in the coma since I remember nothing of the next three days. Sunday, 
after Arnold realized I was in trouble, he called the doctor and he 
told him to let me sleep it off and call him in the morning. Next day 
Arnold called them back and insisted that the doctor see me. He had to 
drag me into the office since I could not walk on my own. The doctor 
then told him that I probably was suffering from a drug overdose and 
sent me home. By Tuesday morning when I still did not wake up, Arnold 
was furious and called the doctor's office back and told them he was 
going to call an ambulance and get me to the hospital. When I arrived 
at the hospital Arnold talked with the neurologist that I had seen 
previously about what was happening and they ordered another CAT scan 
for me, and this time they put the contrast medium in. To the doctor's 
horror they saw a white mass in my cerebellum, which they could not 
identify. At this point a neurosurgeon was called in. He checked out 
the pictures and said that he would need to perform brain surgery on me 
the next day when he could get his team together. Thank God I was in 
the coma because I would have said no way! He said he was going to get 
his people together and be back in the morning.
    After a few minutes he came back and said that after assessing the 
situation further, he felt that he must do emergency surgery on me that 
night instead of waiting because he felt I would not live until the 
next day. Here comes the gory part. My brain was so swollen with fluid, 
he had to put a hole in the top left side of my skull the size of a 
quarter and insert a drainage tube in. He then made an incision from 
the base all the way to the top of my skull. All the neck muscles were 
then stripped from the back of my head. When he opened me up he saw 
that the skull bone was full of holes and soft at the base due to an 
infection (Osteomyelitis) that had eaten it away. He had to cut it all 
away to keep it from spreading further. He then had to remove a 
tablespoon of pus from the cerebellum area, which ended up being the 
white area that had shown up in the CAT scan. The hematoma that was 
originally the source of my pain had become infected with two forms of 
strep and a staph infection, which had eaten it's way through my skull 
and formed an abscess in my cerebellum. If the doctors had only ordered 
a blood test when I was having so much pain, they would have seen that 
my white count was in triple digits and could have given me 
antibiotics, which may have killed the infection and I never would have 
had to have this horrible surgery. Instead they just kept taking my 
temperature, which was never elevated during this whole time. I usually 
don't get a temperature when I am sick, and the all Advil and Tylenol 
they had me on probably kept my temperature down as well. The next 
thing I personally remember was waking up in the ICU with all kinds of 
tubes hanging out of me, and a reverse Mohawk hair cut. They closed the 
huge incision with metal staples so I felt like I had a zipper up the 
back of my head. They had me on a mixture of three different very 
strong antibiotics for the first week because they had to make sure 
they killed all three forms of the infections. These were very strong 
and caused very nasty side effects. After spending two weeks in the 
hospital they sent me home with an IV Pic line implanted in my arm and 
I had to administer IV Vancomyacin to myself several times a day for 
the next month. I eventually developed an allergic reaction to the drug 
called Red Person syndrome. I was covered from head to toe with a 
horrible rash and had trouble breathing. Needless to say they made me 
stop taking the antibiotic. Since there was no other drug that would 
kill this type of infection I had to hope that it had done its work. I 
was put on a pill form of antibiotic called Biaxin for precautionary 
measures. By March I felt that I might be ready to go back to work but 
the story doesn't end here . . .
    A few days before I was scheduled to go back to work I started 
having horrible pain again in the back of my head and neck. It started 
out as a mild stiffness and very quickly got unbearable. It was very 
frightening--it felt like something was eating away at my spinal cord. 
I thought that the Osteomyelitis (bone infection) was back again! I had 
several doctor visits and they could not find anything wrong with me. I 
learned a lot from the ordeal I had just been through and got very 
efficient at surfing the web. I took my life in my own hands now--you 
would think after all I had just been through they would listen to me 
but being a woman they very often don't take you seriously. I 
discovered on the web that one of the best tests to show up a bone 
infection is an MRI with contrast and I insisted that they give me one 
immediately. They put up a fight but I was in no mood to deal with 
incompetence again and I won the battle and had the test. Because I did 
the research myself and insisted on this test--I saved my own life this 
time. The MRI revealed that I had a blood clot in my brain in a very 
dangerous in-operable area--the left internal jugular vein. I had to 
make the decision to take Coumadin, which is the medical name for 
Warfarin (RAT POISIN). This was a tough decision because if I didn't 
take the Coumadin I would die for sure and the Coumadin could cause a 
deadly brain hemorrhage as well. I chose the risk of taking the 
medicine. As you can see, I made the right choice at the time but 
eventually my brain surgeon took me off the Coumadin after he lost a 
patient who bled to death from a brain hemorrhage that he couldn't 
save.
    I now take an aspirin a day and pray as my only treatment for this 
huge clot in my brain. I also now suffer from several autoimmune 
disorders including: Hashimoto's Thyroiditis, Crest Syndrome/
Scleroderma, Raynaud's, Rheumatoid Arthritis, and Fibromyalgia, which I 
believe were caused from my autoimmune system working so hard to fight 
the brain infection, that it never turned off and now is attacking the 
good parts of my body. The symptoms so far are Telangiectasias--red 
spots all over my face, and extreme intolerance to cold caused by the 
Raynaud's. I have already been hospitalized again from what I thought 
was a heart attack but was ruled to be a result of the Crest Syndrome/
Scleroderma affecting my esophagus. It seems to also be affecting my 
digestive tract, swelling of fingers and toes, hardening of skin on my 
hands, and now possibly even my eyes. Scleroderma is a collagen 
disease, which in its extreme form hardens tissues and vital organs 
throughout the body and eventually kills you. The worsening Rheumatoid 
Arthritis causes fatigue and lots of pain in the joints throughout the 
whole body, and Fibromyalgia causes fatigue and pain in the muscle 
tissues and nervous system. I live in a city that is experiencing a 
critical shortage of Rheumatologists and have resorted again to the 
Internet to find a specialist in another part of the country who may be 
able to consult with my doctor about my situation. Since there is no 
cure for these diseases, I just live each day as if it will be my last, 
making the most of every second that I have.
    You may be wondering why I did not sue for tons of money. I thought 
it best to let the New York State Medical Misconduct Board investigate, 
and they found my primary care physician not guilty 2 times because it 
was too unusual of a case to find him guilty. I am not bitter and am 
using the whole ordeal as a learning experience. Hatred is the worse 
form of disease that anyone can have and is very destructive and a 
waste of time and energy. I believe with my whole heart and soul that 
it is very important for my story to be heard by as many people as 
possible especially women who are dying by the day as I write this to 
you because doctors do not take their medical problems seriously 
enough. I have heard many horror stories since this has happened to me, 
and people need to know that they must start taking charge of their 
lives and their healthcare. If they are too sick to do it themselves 
they must appoint someone they trust to be an advocate for them.
    If Arnold was not there, I would be dead and if I did not take 
charge when I was functional I would have been dead a second time! I 
was saved for a reason and I believe part of it is to help others by 
what I have learned and hopefully save some lives in the process. I am 
very grateful for the support of my family and friends without whom I 
may never had made it through this nightmare.
    What am I doing now? I used to work 40 hrs a week as a computer 
hardware & software, purchasing agent until I became a casualty of 
company downsizing. I was hospitalized in the spring of 2001 for what I 
thought was I thought was a heart attack but was ruled to be a result 
of the Crest Syndrome/Scleroderma affecting my esophagus. It seems to 
also be affecting my digestive tract, swelling of fingers and toes, 
hardening of skin on my hands, and now possibly even my eyes, as a 
result of my worsening autoimmune disorders, which are becoming more of 
a challenge each day. I have been recently diagnosed with Osteopenia of 
the hips, Calcinosis and Tendonitis and drying eyes. As a result of a 
car accident in August and my progressively worsening autoimmune 
disorders I also am now suffering from severe neck, spine and back 
pain, numbness, tingling and pain in my arms, hands and feet, 
headaches, major fatigue, severe nosebleeds, irritable bowels, memory 
loss, inability to sleep or concentrate, anxiety and severe depression. 
In November 2002 I was back in the hospital emergency room with a 
horribly painful form of the chicken pox virus called shingles.
    To learn more about the various diseases I have, check out the 
following websites:

          SCLERODERMA AND CREST SYNDROME: http://www.scleroderma.org
           RAYNAUD'S DISEASE: http://www.nhlbi.nih.gov/health/public/
        blood/other/raynaud.htm
          FIBROMYALGIA: http://www.fibromyalgia.com
          RHEUMATOID ARTHRITIS: http://www.arthritis.org
          HASHIMOTO'S THYROIDITIS: http://www.tsh.org
          TELANGIECTASIA: http://tinyurl.com/mddh
          AUTOIMMUNE DISORDERS: http://www.aarda.org
          SHINGLES: http://www.aftershingles.com/faq.html

    I am now unable to work and have become permanently disabled with 
no income. For the last 30 years of my life I have contributed to the 
Social Security System as many millions of people do every day. I never 
expected to have to use the funds till I was old enough to retire. In 
December of 2001 I applied for Social Security Disability which I 
assumed would be there to help me in my time of need. I had heard 
nothing but discouraging stories from others but figured every case was 
different and anyone with the laundry list of illnesses that I have 
would surely be able to get the help that I needed. I was sorely 
mistaken and the following is what I have discovered in the process.
    After filling out several pages of paperwork which I was told was 
greatly reduced from which it had originally been and submitting a huge 
stack of medical records supporting my claim I was told that it would 
take 4-6 months to go through the process. I was shocked and asked what 
I was supposed to live on and I was told to apply for social services 
(Medicaid, food stamps and cash assistance) while my claim was being 
reviewed. I did just that and was denied any sort of help based on the 
cash value of a life insurance policy that is not even enough to bury 
me when I die. Due to all my illnesses if I cashed in that policy I 
would never be able to get insurance again! That process and paperwork 
was very difficult and humiliating and then to be denied, just added 
even more to my stress and misery. I was hoping beyond hope that I 
would get news that my claim would be processed and accepted. On 4/25/
02, I got the incredible news that my claim had been denied! I found 
out that it is common knowledge on the streets and in legal circles 
that almost NOBODY gets accepted the first time they apply and SSD is 
set up to discourage everyone, even those who feel brave enough to 
tackle the system.
    I had heard too many horror stories in doctor's waiting rooms and 
other places I have been, of people who have lost everything, were in 
homeless shelters, totally bankrupt, no health insurance and still 
having to deal with the stress of all their illnesses. I could not 
understand how it was possible that anyone could read about all the 
medical problems I have, and it is not totally transparent that I 
should qualify for benefits and should never have been denied in the 
first place! I know what they meant now since I was almost there 
myself. I immediately filed for an appeal, had to go through an even 
more complicated process and was told it would be at least August of 
2003 before I got my hearing if I didn't die first--where is the 
justice?
    I have also discovered that the Social Security Disability System 
process is set up to suck the life out of it's applicants in hope that 
they die in the process so they don't have to pay out any benefits to 
them. Millions of people across the country become disabled 
unexpectedly (12,000 per week in this country apply for long-term 
disability benefits--over 300,000 annually in NYS alone). Keep in mind 
when reading this, that while this is a nationwide problem, for NY 
State applicants it is worse than most other states in the country. The 
federal offices of the Social Security Administration and the Social 
Security Office of Public Inquiries in MD gave me that information when 
I contacted them about the problem yet even they were not able to help.
    Something is extremely wrong when you have to deal with the pain 
and suffering physically and mentally that comes along with the 
illnesses you have, and then have to struggle so hard to get the 
benefits that you have worked for all your life. The SSD process is 
also set up to line the pockets of the legal system, as you are 
encouraged from the minute you apply to get a lawyer. Why should you 
need to pay a lawyer to get benefits that you have earned? Even a 
lawyer cannot speed up this process any more than if you file on your 
own. The system is structured so that it is in a lawyer's best interest 
for your case to drag on since they get paid a percentage of a 
claimant's retro pay up to $5300--the longer it takes the more they 
get. This is highway robbery without the ski mask and gun and this 
travesty needs to change immediately! I don't know what constitutes a 
dire needs case in the eyes of the Social Security System but I should 
think that not being able to afford health insurance, medicine and 
other necessities of life, wiping out all your financial resources when 
you have no income at all because of your inability to work, is a dire 
need! There is no cure for any of the illnesses I have, which I stated 
earlier and all the diseases are getting worse by their clinical nature 
with each day that goes by, due to the ever increasing stressful 
conditions I have had to live under--yet that is not considered a dire 
need? The clot in my brain and my worsening financial situation kept me 
from taking the medicines and seeing doctors that could help me deal 
with this horrible existence. As mentioned earlier, I ended up in the 
emergency room in November 2002 with an attack of the shingles virus 
which may have caused permanent nerve damage in my right arm. As far as 
I could tell worsening health was not a factor in speeding up SSD 
claims as there are several reported cases of people who have died 
while waiting to get their benefits.
    When I called the Office of Hearings and Appeals in Buffalo NY to 
check on my claim on 9/13/02, to see if I could speed up my claim, the 
receptionist told me, that my file was still in the un-worked status, 
which means that no human has even looked at the file at all since 
March when I originally filed my appeal. She said that nobody had been 
assigned to even look at the folder. I expressed my disgust that after 
six months in their possession that it had not even been looked at yet! 
I called them again on 1/23/03 and they told me that STILL nobody had 
been assigned to my case and it would be a MINIMUM of five months or 
more since they were just starting to work on cases that were filed in 
November of 2001! This is outrageous when something this serious, and a 
matter of life and death could be handled in such a poor manner. No 
other company or other government organization that I know of operates 
with such horrible turn around times. She expressed her sympathy for my 
cause and literally begged me to let others know (especially the 
government and press) about how much of a problem they are having. I 
was told that there are only 50 employees handling hundreds of 
thousands of cases and they, along with all us claimants critically 
need help now! Since my conversation with the Buffalo office I have 
done just that. I contacted several national media outlets (TV, radio, 
print), to no avail even though this issue affects thousands of people 
all across the country. I wrote to my congressperson Louise Slaughter, 
three NY state senators, the attorney general, Governor Pataki, 
President Bush, Vice President Cheney, Senator Charles Schumer, all of 
the NY State members of the House of Representatives, Senator Tom 
Daschle, Senator Edward Kennedy with little or no response. Louise 
Slaughter, Hilary Clinton and Senator Schumer's office informed me that 
unless I was homeless or facing utility shutoff that there is nothing 
they would be able to do to expedite any claim! Even though they can 
help fix the problem none of them has done anything to address the 
issue or initiate reform in this area. The Social Security Office of 
Inquiries and Inspector General's office in MD told me the same thing 
after doing an investigation with the Buffalo office of Hearings and 
Appeals. The government obviously does not care, as they are too busy 
worrying about dropping bombs, invading and investing millions in 
foreign countries while thousands of us are suffering and dying here at 
home. Little is heard about the service men and women who are injured 
and have to go through this same scenario to get their benefits too. 
Horrible treatment for those who give of their lives to protect our 
country. We also keep hearing about the 9/11 victims who were killed 
and that was a horrible thing for sure. What you are not hearing about 
is all the people who survived but are now disabled and facing a 
similar fate and nobody cares about them either. We are all being 
victimized all over again. Keep in mind a country is only as strong as 
the citizens that live there.
    I called the hearings and appeals office again in March 2003 and 
now they were saying that it would be at least August 2003 before 
someone would look at my case. I then did some research and found out 
that I could request copies of the reports of the SSD doctor I was sent 
to, and the notes of the original claim examiner that denied me, and 
when I received them, my worst allegations were then confirmed. Even 
though I have no neurological problems they sent me to a neurologist to 
examine me so of course he would find nothing wrong with me and say 
that I did not qualify as disabled. Even though I filed my disability 
claim based on all physical problems I have as a PRIMARY diagnosis for 
disability, the examiner purposely wrote depression as a primary 
diagnosis instead of a secondary one, so of course I would be denied on 
that as well. This was after I had already submitted tons of documents 
to prove my physical disability--reports/documents that he chose to 
ignore. I also filed a formal willful misconduct complaint to the 
Office of Inspector General's Office in Washington against the DDS 
office. In April 2003 I requested an immediate pre-hearing review of my 
case on the grounds of misconduct and more physical evidence. In order 
to get that process going I had to fax the hearing and appeals office 
copies of their own regulations since the person I spoke with in the 
office had no clue what I was talking about. Once they got all my 
paperwork to request the review a senior attorney and then a hearing 
and appeals judge granted my request and then my case was sent back to 
the DDS office that originally denied my claim. Finally it was seen by 
a person who actually knew how to do their job. In two weeks my case 
was approved at the DDS level and then it was selected randomly by 
computer (7 out of every 10 cases get chosen) for Federal review and it 
took another three weeks to be processed there. I had to wipe out my 
life savings and had been living off my pension from a previous 
employer which is almost gone. Finally one month before I lost 
everything I had worked for the last 30 years of my life--becoming 
bankrupt, homeless, and losing my health insurance, all the retro pay 
just showed up in my bank account on May 6th 2003 exactly 1-1/2 years 
to the day I originally filed. I then started to receive my SSD 
benefits--yet even that is not enough to live on for the rest of my 
life. I actually received my official approval letter on May 26th. I 
finally won by myself with no lawyer representing me.
    To draw awareness to the Social Security Disability System and its 
flaws I have written an essay called ``Social Security Disability 
Nightmare--It Can Happen To You'' and I am using what I learned from my 
experience with the SSD system to help those still struggling get their 
benefits--offering educational tools, support and trying to get 
legislative reform of the SSD system. I am now President/Co-Founder of 
an organization called the Social Security Disability Coalition which I 
started with a woman in Nashville TN named Stephanie Varnado. She is a 
social worker/activist I met in January 2003 after she read a letter I 
posted on Congress.org. She contacted me, offered her services and we 
now have a website offering knowledge, support and the framework for 
legislative reform of the SSD system. We have over 480 members so far 
and have drafted an online petition with signatures from all over the 
country which will eventually be presented to the US Government. We 
hope to one day achieve our goal of complete reform of this outdated 
abusive system. I am now using my experience to help as many other 
people as I can--I don't want anyone else to suffer the hell that I 
just endured. This is an important issue that needs to be addressed 
now, and only our elected officials with your urging can get the 
funding and help needed to fix this critical problem. Please spread the 
word to everyone you can, to get this problem corrected immediately, 
for all the thousands of others that are currently suffering through 
this horrible process. I did not ask for this fate and would trade 
places with a healthy person in a minute. Nobody ever thinks it can 
happen to them. I am proof that it can, and remember disease and 
tragedy do not discriminate on the basis of age, race or sex. Anyone of 
you reading this could be one step away from walking in my shoes at any 
moment!
    I have learned a lot from what happened to me and want the world to 
learn from my experience before I depart from it. Please share this 
story with your friends and family and feel free to contact me if you 
have any questions or comments. Thanks for your precious time to let me 
share this experience with you.

                               __________
               SOCIAL SECURITY DISABILITY REFORM PETITION
    Money is taken out of your paychecks every week for Social 
Security, and SSD and as of January 2003 the US government GAO has 
designated Social Security Disability a HIGH risk area for 2003. You 
could face homelessness, bankruptcy and even death trying to get your 
benefits when you need them the most. Anyone could suddenly find 
themselves in a situation where they need to access this fund--such as 
an accident, catastrophic illness, a victim of a crime, military 
personnel, veterans and now we have the threat of terrorist attacks--
these are unfortunate realities of life. Millions of people across the 
country become disabled unexpectedly--12,000 per week in this country 
apply for long-term disability benefits. What happens if your work 
disability insurance runs out, if you don't have it, or worse yet 
become unemployed? You will then need to turn to the most mismanaged 
system in the country--the Social Security Disability System. What you 
will find is that the current system is set up to kill you so they 
don't have to pay you. Billions of dollars are being spent in foreign 
lands and on pork barrel programs, and we want the government to focus 
on and fix this growing problem here at home now. Here are just a few 
of the major issues we would like to see addressed:
    We are concerned about what transpires from the first point of 
contact, the filing for benefits, and the final outcome or status. 
Disability benefits determinations should be based solely on the 
physical or mental disability of the applicant. Neither age, education 
or any other factors should ever be considered when evaluating whether 
or not a person is disabled. Discrimination of this form is highly 
illegal in this country, yet this is a standard practice when deciding 
Social Security Disability determinations and should be considered a 
violation of our Constitution. This practice should be addressed and 
eliminated immediately. Many people who apply for disability don't 
``look'' sick--you can't tell if a person has cancer, heart disease, 
diabetes or any other debilitating diseases just by looking at them. We 
did not chose this fate it was forced upon us! Yet we are treated as 
``disposable people'' and often viewed as lazy or frauds. The 
extraordinary time it takes to process a claim from the original filing 
date should be eliminated. Why should we have to become homeless, 
bankrupt, starve, lose our healthcare coverage, suffer untold stress on 
top of our illnesses, and even die trying to get our benefits? We are 
now being told that because of the backlog that these are the only 
circumstances that anyone will even look at our paperwork now no matter 
how sick we are. Why should we have to file for welfare, food stamps 
and Medicaid after we have lost everything due to this backlog--another 
horrendous process--because of the inadequacies in the Social Security 
Disability offices and then have to pay Social Services back from our 
measly benefit checks? Nobody else who files for public assistance has 
to do that--why are disabled people being discriminated against?
    If we provide sufficient medical documents when we originally file 
for benefits why should we ever be denied at the initial stage, have to 
hire lawyers, wait years for hearings, go before administrative law 
judges and be treated like criminals on trial? Too much weight at the 
initial time of filing, is put on the independent medical examiner's 
opinion who only sees you for a few minutes and has no clue how a 
patient's medical problems affect their lives after only a brief visit 
with them. An even worse problem is the poor review of cases by DDS 
caseworkers which causes too many unjustified delays and denials. 
Decisions should be based more on the treating physicians opinions, and 
medical records. The listing of diseases that qualify a person for 
disability should be expanded and updated more frequently to include 
newly discovered crippling diseases such as the many autoimmune 
disorders that are ravaging our citizens.
    We have contributed our hard earned money to this system hoping we 
would never need it until we were ready to retire. Where is the money 
going that has been robbed from our paychecks every week? Disease and 
tragedy does not discriminate based upon age, race, sex or any other 
factor. The disabled citizens of this nation have been forced to tackle 
a very daunting system. We challenge you to do the same and expose and 
correct this problem on a national level. The Social Security 
Administration, a Federal program, administered by the states will 
admit that our elected officials have the power to reform the system. 
Why should we have to become homeless, bankrupt, starve, lose our 
healthcare coverage, suffer untold stress on top of our illnesses and 
even die trying to get our benefits? We the undersigned say to all 
members of the US Government:
    For everyone of us that starves, becomes homeless or loses our 
healthcare during this process--we blame you! For everyone of us who 
files for bankruptcy during this process--we blame you! For the 
unfathomable stress and suffering we have inflicted upon us during this 
process--we blame you! For everyone of us who becomes more ill or worse 
yet dies during this process--we blame you!
    We want to know why our elected officials seem to be ignoring this 
crisis and doing nothing to reform it? We want to know what, if 
anything is being done to correct this critical issue that affects 
millions of sick and dying Americans. Please start taking care of the 
US citizens living in this country whom elected you into office. It is 
your duty as elected officials to serve all those that voted you into 
that office and even those of us who didn't. When the next election 
comes around we will not forget those who have forgotten us. The 
government may be trying to rob millions of disabled people from their 
money, and also neglect us, but remember we millions of citizens still 
have, and will use our right to vote. A country is only as strong as 
the citizens who live in it. On behalf of the Social Security 
Disability Coalition we ask, disabled and healthy Americans alike, that 
you please do something to fix this serious problem now!

                               __________
                  SOCIAL SECURITY DISABILITY COALITION
WHO WE ARE:
    The Social Security Disability Coalition has been created because 
we are concerned about what transpires from the first point of contact, 
the filing for benefits, and the final outcome or status. We are a 
group of social services representatives and disabled individuals, who 
are deeply concerned about the way fragile populations in this country 
are suffering under the SSDI application process. Our objective is to 
accumulate a constituency and the data necessary to help implement 
change in this area. We're currently gathering information that will 
assist us in tracking trends and other information necessary for a full 
assessment that can be presented to legislators and media. We are 
working very rapidly to lay a foundation for change.
OUR GOALS:
    We want disability benefits determinations to be based solely on 
the physical or mental disability of the applicant. Neither age, 
education or any other factors should ever be considered when 
evaluating whether or not a person is disabled. Discrimination of this 
form is highly illegal in this country, yet this is a standard practice 
when deciding Social Security Disability determinations and should be 
considered a violation of our Constitution. This practice should be 
addressed and eliminated immediately.
    We want to eliminate the extraordinary time it takes to process a 
claim from the original filing date. Why should we have to become 
homeless, bankrupt, starve, lose our healthcare coverage, suffer untold 
stress on top of our illnesses, and even die trying to get our 
benefits? We are now being told that because of the backlog that these 
are the only circumstances that anyone will even look at our paperwork 
now no matter how sick we are. Why should we have to file for welfare, 
food stamps and Medicaid after we have lost everything due to this 
backlog--another horrendous process--because of the inadequacies in the 
Social Security Disability offices and then have to pay Social Services 
back from our measly benefit checks? Nobody else who files for public 
assistance has to do that--why are disabled people being discriminated 
against?
    If we provide sufficient medical documents when we originally file 
for benefits why should we ever be denied at the initial stage, have to 
hire lawyers, wait years for hearings, go before administrative law 
judges and be treated like criminals on trial?
    Too much weight at the initial time of filing, is put on the 
independent medical examiner's and caseworker's opinion of your claim. 
The medical examiner only sees you for a few minutes and has no clue 
how a patient's medical problems affect their lives after only a brief 
visit with them. The caseworker never sees you at all! The decision 
should be based more on the treating physicians opinions and medical 
records.
    The listing of diseases that qualify a person for disability should 
be updated more frequently to include newly discovered crippling 
diseases such as the many autoimmune disorders that are ravaging our 
citizens.
    We want to know why our elected officials are ignoring this crisis 
and doing nothing to reform it? We hope to raise awareness of this 
problem and join with our elected officials in implementing legislation 
that will correct this crisis situation.
SOCIAL SECURITY DISABILITY COALITION--SYSTEM REFORM GOALS
    We want disability benefits determinations to be based solely on 
the physical or mental disability of the applicant. Neither age, 
education or any other factors should ever be considered when 
evaluating whether or not a person is disabled. Discrimination of this 
form is highly illegal in this country, yet this is a standard practice 
when deciding Social Security Disability determinations and should be 
considered a violation of our Constitution. This practice should be 
addressed and eliminated immediately.
    All SSD case decisions must be determined within three months of 
original filing date. When it is impossible to do so a maximum of six 
months will be allowed for appeals, hearings etc--NO EXCEPTIONS. 
Failure to do so on the part of SSD will constitute a fine of $500 per 
week for every week over the six month period--payable to claimant in 
addition to their awarded benefit payments and due immediately along 
with their retro pay upon approval of their claim. SSD will also be 
held financially responsible for people who lose property, automobiles, 
IRA's, pension funds, who incur a compromised credit rating or lose 
their health insurance as a result of any delay in processing of their 
claim, which may occur after the initial six month allotted processing 
period.
    Waiting period for initial payment of benefits should be reduced to 
two weeks after first date of filing instead of the current five month 
waiting period.
    Prime rate bank interest should be paid on all retro payments from 
first date of filing due to claimants as they are losing it while 
waiting for their benefits to be approved.
    Immediate eligibility for Medicare/Medicaid upon disability 
approval with NO waiting period instead of the current 2 years.
    If we provide sufficient medical documents when we originally file 
for benefits why should we ever be denied at the initial stage, have to 
hire lawyers, wait years for hearings, go before administrative law 
judges and be treated like criminals on trial?
    Too much weight at the initial time of filing, is put on the 
independent medical examiner's and caseworker's opinion of your claim. 
The medical examiner only sees you for a few minutes and has no clue 
how a patient's medical problems affect their lives after only a brief 
visit with them. The caseworker never sees you at all! The decision 
should be based more on the treating physicians opinions and medical 
records.
    SSD required medical exams should only be performed by board 
certified independent doctors who are specialists in the disease that 
claimant has (example--Rheumatologists for autoimmune disorders, 
Psychologists and Psychiatrists for mental disorders)
    ALL doctors should be required by law to have seminars in proper 
procedures for writing medical reports and filling out forms for Social 
Security Disability and SSD claimants. This should be made a part of 
their continuing education program to keep their license. These 
seminars should be provided to the doctors free of charge by the Social 
Security Administration.
    All forms used by Social Security for Disability Determination 
purposes should be made available online for claimants, medical 
professionals and attorneys. The forms and reports should be uniform 
throughout the system. One universal form for claimants, doctors, 
attorneys and SSD caseworkers. Reduce duplication of paperwork. They 
should be more comprehensive for evaluating a claimant's disability and 
coordinated with the Doctor's Bluebook Listing of Impairments.
    Universal network between Social Security, SSD/SSI and all outlets 
that handle these cases so claimants info is available to caseworkers 
handling claims no matter what level/stage they are in the system. Will 
create ease in tracking status and updating info.
    Lost records fine--if Social Security loses a claimants records or 
files an immediate $1000 fine must be paid to claimant.
    Review of records by claimant should be available at any stage of 
the SSD determination process. Before a denial is issued at any stage, 
the applicant should be contacted as to ALL the sources being used to 
make the judgment. It must be accompanied by a detailed report as to 
why a denial might be imminent, who made the determination and a phone 
number or address where they could be contacted. In case info is 
missing or they were given inaccurate information the applicant can 
provide that information before a determination is made.
    Independent medical exams requested by Social Security must only be 
required to be performed by doctors who are located within a 15 mile 
radius of a claimants residence. If that is not possible--Social 
Security must provide for transportation or travel expenses incurred 
for this travel by the claimant.
    The listing of diseases that qualify a person for disability should 
be updated more frequently to include newly discovered crippling 
diseases such as the many autoimmune disorders that are ravaging our 
citizens.
    Why should we have to file for welfare, food stamps and Medicaid 
after we have lost everything due to this backlog--another horrendous 
process--because of the inadequacies in the Social Security Disability 
offices and then have to pay Social Services back from our measly 
benefit checks? Nobody else who files for public assistance has to do 
that--why are disabled people being discriminated against? There should 
be immediate approval for social services (food stamps, cash 
assistance, medical assistance, etc) benefits for SSD claimants that 
does not have to be paid back out of their SSD benefits once approved.
    Audio and/or videotaping of Social Security Disability ALJ hearings 
and during IME exams allowed to avoid improper conduct by judges and 
doctors.
    Strict code of conduct for Administrative Law Judges in determining 
cases and in the courtroom. Fines to be imposed for inappropriate 
conduct towards claimants.
    A state listing of FREE Social Security Disability advocates to be 
provided at time of original filing of claim.
    We want to know why our elected officials are ignoring this crisis 
and doing nothing to reform it?

                                 <F-dash>

          Statement of Dawn L. Sonders, Williamsburg, Virginia
    I am a 43 year old white female who suffers from spinal disease and 
two knees that both did joint replacements which my doctor will not do 
at this time because of my age as these types of surgeries only last 
10-15 years and each surgery after that is harder on the patient and 
has to be done more often. I have worked since I was 14 years old, 
babysitting three boys, cooking their meals, doing their laundry and 
cleaning their house all for $1.00 an hour. At sixteen, I worked at a 
fast food restaurant, at 17 while in high school, I worked at the 
Yorktown Naval Weapons Station as a secretary and other than taking 
time off to raise my children (which, by the way, is one of the most 
important jobs in the world as I didn't want my children to grow up 
without supervision thinking that the world owed them something and it 
was theirs for the taking. I am proud to say both of my children have 
done very well in school and have never been in trouble) I have always 
worked. I am one of those rare people who actually like to work with 
the public and I even worked for several years as a secretary at a 
mental hospital (Eastern State Hospital). I was 19 at the time and I 
worked in the adolescent building (they take children from 13-18 years 
of age) and even though I was just the ``secretary'' I did a lot of 
things with this children (took them shopping, to movies and even took 
four of them to meet a Dallas Cowboys football player), I was actually 
one of their rewards as they were on a points system and could turn in 
their positive points to have me spend time with them. I have worked in 
either retail or the grocery business for the last 15 years and it is 
hard work. You are constantly lifting, pushing, pulling, bending, 
climbing, etc. Which, is probably why I have all the physical problems 
I do today. When my daughter was 10 months old, I left my husband 
because he was physically abusive to me and when he threw her across 
the living room onto the couch, that was it, I left. I moved back to 
Virginia and while I could have applied for food stamps, and welfare, I 
didn't because I was able to work and I find a job within 3 weeks and 
while it barely covered living expenses and I could have still received 
help I didn't because like I said, I was capable of working and I did. 
Times were hard and we didn't have much but we survived and are all the 
better for it. Now that I do need the help and I can not work, my 
government refuses to give me the help that I and others so desperately 
need. It doesn't seem to matter what your doctor tell them that there 
is no way you can work, they keep telling you that you can. Since I am 
43, they tell me that I am too young to be disabled, only problem is 
that someone forgot to tell my body that. I used to play golf about 
four times a month, go dancing every weekend, go bowling twice a month, 
and play in pool tournaments--I can no longer do anything of theses 
things and believe if I could, I would love to be back out there 
living. Because, I am not living my life, I am surviving. Most people 
who are disabled and have chronic pain also suffer from depression 
because we often feel as if our lives our spiraling out of control and 
there is nothing we can do to stop it. All of the roadblocks that SSDI 
puts in front of us only makes dealing with our disabilities that much 
harder. There are days I can only get out of bed to use the bathroom 
and get something to drink and I have to use my walker to do that. 
While agree that there are people who take advantage of the system 
(let's say all those immigrants who receive SSDI for up to seven years 
just because they can not speak English) I believe that most of the 
citizens applying for SSDI are truly in need. Please believe me Sir 
when I tell you that I would rather be living my life they way I used 
to before becoming disabled rather than be at the mercy of a system who 
could give a damn what happens to all of us who have worked all of 
lives because we believe in our government and it was the right thing 
to do. I am asking you now, for each and everyone of you to do the 
right thing now. Please make the changes that are so desperately needed 
in this system. No American Citizen should have to wait for years and 
years to receive they help they need and worked for. No American should 
have to lose there homes, cars, possessions and some even lose their 
marriages to a system who has forgotten and seems to no longer care 
about, those of us who have made American what it is. I have always 
been proud to be an American but it would be even better to be a proud 
American who knows that my government is going to start taking care of 
those of us who need it first and those who are not American Citizens 
last. The way the system is set up now, it seems like SSDI makes it so 
hard because they are hoping that you either give up, die from your 
disability or take you own life because the fight has become to much 
and make no mistake, people taking their own lives because of this 
problem happens everyday. Can each of you go home and sleep tonight 
knowing that not only could you improve the system but that by 
improving it you just might be saving a life? A 23 year old ``boy'' 
killed himself because of this very thing, SSDI told him he was too 
young to be disabled (he also suffered from chronic spinal problems) 
but I guess he wasn't too young to take his own life. I wish that SSDI 
had to look the family in the eye and tell them that he was too young 
to be disabled maybe then, these things would not happen. I thank you 
for your time and listening to the voice of America and for doing the 
right thing.

                                 <F-dash>

                Statement of Diane Stone, Columbus, Ohio
    I applied for SSD over a year ago! I haven't worked in over 3 Years 
due to a back injury. I have been told by my physicians that I am 
permanently and totally disabled, and yet, I cannot draw SSD. I have 
worked for over 40 years, paying into this with the understanding that 
I would be able to draw this if I am disabled for more than a year! 
Imagine my chagrin!
    Getting SSD is like trying to catch a gnat with a tennis racquet--
nearly impossible! And, add to this that you make matters worse by 
forcing people to hire attorneys, who then get a nice chunk of the 
money, if and when, it is approved!
    I urge you to look at this system and look at the people--not just 
statistics--who are in need, and then do some revamping!
    Thank you for your consideration!

                                 <F-dash>

            Statement of Carolyn U. Sullivan, Ozark, Alabama
    I am one of the lucky ones. I applied for SSDI 01/03 and got my 
back pay 07/03. I am an RN of 25 years. I worked until I literally 
could not bend over to empty a foley catheter bag. My last night worked 
made me face the reality that I could no longer safely deliver patient 
care. you see, I have psoriatic arthritis and fibromyalgia as well as 
scoliosis, diabetes, and hypertension. my hands were so swollen, 
painful and weak I could not push the cardiac drugs through the iv 
tubing to a coding patient. luckily, someone was there who took over 
for me and the patient lived. I would work 2 nights and spend 2 days in 
bed literally hardly able to get to the bathroom due to my pain and 
stiffness. why did I continue to work in such shape? because I have 
children, and everyone knows that the disability process is filled with 
long drawn out denials and appeals with a physician who has never seen 
or examined you deciding your fate. as I stated, I was lucky. as a 
nurse, I had made sure since treatment was initiated on me over 10 
years ago that my physicians documented my condition thoroughly. I 
harassed my physicians until all my paperwork was submitted to SSDI. I 
had been told verbally over the phone that I was approved but never 
received any money. finally I got a contact number in Maryland and a 
very nice woman there discovered that my benefits had not been issued 
because a data entry error was made and the computer rejected it. 
rather than correct it, my claim was thrown on someone's desk and 
forgotten. this kind lady had my money direct deposited for me in 4 
days! and that was over the July 4th holiday. I was, again, lucky; my 
family of 4 did not starve due to the kindness of relatives and co-
workers. right before Christmas we were down to no food, in danger of 
losing our utilities and the 90.00 per month food stamps didn't feed 4 
people very well. my point is this: the disability process must be 
revamped. in this day of lightening fast computer technology, there is 
no excuse for 6 months to lapse without a decision. if SSDI is not 
willing to take the personal physician's medical records as an expert 
evaluation then a quick perusal by a medical professional is deserved. 
now, even though I am receiving SSDI, I will not be eligible for 
Medicare benefits until Jan. 05. until that time I have no health 
benefits. why the wait? I am curious. is the government hoping we will 
just die and not cost any more money? our government has really dropped 
the ball in taking care of its disabled citizens. the millions of miles 
of red tape and bureaucratic hoopla really must be revamped. I 
appreciate your consideration in this matter and hope that you still 
have the ability to put yourself in the other person's shoes; empathy 
is never misspent! Hoping that you restore my faith in the governmental 
process

                                 <F-dash>

       Statement of Vicki L. Sullivan, Philadelphia, Pennsylvania
    Dear ladies and gentlemen,
    Thank you for the opportunity to submit information related to 
delays in processing claims for SSDI and SSI through the Social 
Security Administration. I am writing this on behalf of my 22 year old 
daughter, Allison, and myself.
    We filed the initial claim for SSDI & SSI for my daughter when she 
was 17\1/2\ yrs old per the SSA requirements. That was in 1998. My 
daughter has Juvenile Rheumatoid Arthritis, Fibromyalgia, Irritable 
Bowel Syndrome, Gastro Esophageal Reflux Disease, Polycystic Kidney 
Disease, Polycystic Ovary Disease, Cervical Radiculopathy, 
Hypertension, Bronchial Asthma, Attention Deficit Disorder and is obese 
as a result of the cortisone with which she has been treated in the 
past. Allison has recently been diagnosed with Undifferentiated 
Connective Tissue Disorder while the Rheumatologist waits for her blood 
test results to come back positive for Systemic Lupus Erythematosus. We 
have submitted medical documentation repeatedly and been denied 
repeatedly. We are now awaiting the hearing with the Appeals Court 
which we have been told may take another 2-3 years.
    As is usual the Family Courts have stated that Allison's father is 
no longer responsible for supporting her since she has not been 
classified as disabled under SSA guidelines. I have been 100% 
financially responsible for her support since 1999. What effect has 
this had on our little family? First, let me tell you that I am a 
federal employee who was able to carry Allison as a dependent for 
health insurance purposes until she reached the age of 22 yrs. Again, 
without a determination from SSA that she is ``disabled'' the health 
insurance company cancelled her health insurance coverage without 
warning. Since she needed medical assistance and I could not afford it 
out of pocket, we had to apply for Disability Assistance through the 
Pennsylvania Dept. of Public Welfare. Allison now has medical coverage 
and we're having to start over with new doctors. More stress, more 
fatigue, more frustration for Allison and I as we try to have current 
med! ical evidence sent to SSA for her Appeal. I'm certain that SSA 
will use this as a reason to delay even longer.
    We live in a small apartment in Philadelphia and have no funds for 
extras. We barely cover basic living expenses. Recently I was required 
to have surgery and have been unable to work for 6 weeks for part of 
which I am NOT receiving pay. Allison's SSDI/SSI claim is becoming 
critical for she and I and our ability to maintain shelter, etc. but 
SSA says we have to wait another 2-3 years. How?
    I can tell you from personal experience that the SSA has not always 
taken so long to process/approve claims. Back in 1991, my own claim for 
SSDI took only 5 months from start to finish. During Allison's claim 
process I can tell you that SSA has contacted us on numerous occasions 
stating ``we did not receive documents'' and they'd require that we re-
submit them which we did. Two months later, the same story and again, 
re-submit. We have been told that SSA sent a request for medical 
documentation to various doctors but received nothing from them. Later, 
I discovered that all they did was send a letter and when there was no 
response from the doctor, they did nothing except to deny the claim. 
Shouldn't they have to do more than just send a single letter? Don't 
they have an obligation to actually request AND gather medical 
documentation when the patient is unable to gather that information 
themselves?
    Your requirement that this statement also be faxed to your office 
is unreasonable. I spend most of my time trying to figure out how I'm 
going to keep us in a place to live. If I had the money to buy a fax 
machine, I probably wouldn't be worried enough about SSA to respond to 
your inquiry. Please don't disregard this statement simply because I 
can't fax a copy to your office.
    I believe that the Social Security Administration has some fairly 
serious management issues that need to be resolved before we see more 
disabled people living on the streets, holding signs saying ``Waiting 
for SSI--Please Help me''. It's just wrong that anyone should be in 
this dire position when we live in the ``greatest'' nation of the 
world. President Bush wants $87 billion for the rebuilding of Iraq. 
Allison & I are only asking for her claim to be timely processed so she 
can receive the $500 monthly benefit to have the ``security'' of a 
place to live and medical care. Is this too much to ask? . . . 
Apparently.
    Thank you for your consideration.

                                 <F-dash>

        Statement of Carolyn Taliaferro, Jersey City, New Jersey
    I taught in an inner city school for 28.5 years, and worked part-
time 5 years while going to college. The job was very challenging and I 
loved working with the children.
    In September 1997, there was a major change in the district. We got 
a new superintendent. The administrative personnel were instructed on 
how to make life difficult for the senior teachers in the system. This 
was a financial action. You can hire two new teachers in place of one 
of the veterans. The turnover in young staff members was very high. It 
seemed to me that no one cared about the children. I endured the severe 
harassment until October 9, 1998. On that day, I walked away from my 
job never well enough to return. I used my sick days and retired in 
July 2000.
    I went to my family doctor in October 1998 and was diagnosed with 
depression and anxiety. My employer sent me to their doctor, a 
psychiatrist, to have an evaluation to get a medical leave. While 
waiting for my appointment, I saw a flyer for a support group run by a 
therapist. I called the number on the flyer and left a message for the 
person conducting the group. I began seeing a psychiatrist in February 
1999, when I had difficulty sleeping at night. I had been a patient of 
this doctor from February 1999 until October 2002. I am now being 
treated by another psychiatrist.
    In January 2001, I asked the therapist a tough question ``could I 
ever work again''; the answer was you cannot handle the stress of a 
job. I knew my teaching days were over, but I thought I could get a 
part time job. It took me a few months to accept this news. During my 
March appointment with the psychiatrist, I asked about applying for 
Social Security. He told me I had a temporary problem. I told him 
temporary problems do not last three years. I remember that day. I was 
having a relapse of my depression. I was in hell. I had a bad reaction 
between the medicine for the tremor and the depression. This doctor had 
decided to take me off the antidepressant six months before. He did not 
approve of the therapist sending me to see a neurologist for the tremor 
in my hands.
    I called Social Security and had a telephone interview in April 
2001. I decided I needed an attorney because, I was too sick to handle 
the paper work and I have trouble writing. I also knew I needed some 
legal muscle to handle my psychiatrist. The firm told me the decision 
would take a year. They made no guarantee that I would win the case. 
The firm assisted me in filling out all the forms. I did receive a 
favorable decision.
    In February 2002, I had a Mental Status Exam. The exam was done in 
my town at a center that does tests for Social Security. The exam was 
done by the book. It lasted 35 minutes. My depression raged for three 
or four days after this exam. The Disability Determination Service 
changed the adjudicator working on my case and I went back to this 
center for a physical exam in April 2002. The exam consisted of tests. 
I saw the doctor for about one minute. He asked me about one of my 
medications, and I gave him a very snappy reply. I did not know this 
doctor's name.
    I remember being approved. It was the end of May 2002. I had come 
home from shopping and had a bag with eggs. I went to get the mail and 
going into the house I dropped the bag breaking the eggs. I must say 
the law firm was very professional in working on my case. I would send 
a copy of the treatment notes to the lawyer's office and they would 
forward them on to the local Social Security office by certified mail. 
They would send me a letter when items were placed in my file at Social 
Security office. I was even sending in notes up until the day I was 
approved. The psychiatrist and therapist sent their notes directly to 
the attorney's office.
    I am a person who believes in GOD, and fate. I found a therapist 
and support group from a flyer in a psychiatrist's office. I happen to 
find an attorney from an ad in my local paper.
    Mr. Chairman, why should the process take 14 months from 
application to approval for a 55 year old person with my physical and 
psychological impairments of depression, severe anxiety, PTSD, 
agoraphobia, asthma and tremors of the hands? Just writing this 
statement is a very painful experience for me. I have to relive the 
trauma.

                                 <F-dash>

            Statement of George J. Thorpe, Cochran, Georgia
    Dear Sir:
    During the upcoming hearings on the Social Security 
Administration's management of the Office of Hearings and Appeals 
(OHA), the Committee will probably hear about how OHA has these 
initiatives that will improve service to the American public.
    It will be clearly evident that almost all of these initiatives 
will be computer based. Thereby placing every process in the Hearing 
Offices solely dependent upon a smooth functioning computer 
environment.
    The last attempt at this was an utter failure. It was called 
Hearing Process Improvement, or HPI. All levels of employees, from 
Administrative Law Judges down to the Hearing Clerks knew it would not 
work. Now employees are not even supposed to bring up HPI.
    Each Hearing Office has a Computer Assistant, GS-9, which is a 
clerical position, not a Information Technology position, that is 
totally responsible for the computer system in each Hearing Office. 
SSA/OHA Management has strongly been opposed to making these IT 
positions, even though the SSA field office computers are administered 
by GS-12 IT employees.
    The grade of the OHA Computer Assistants was raised from a GS-8 to 
a GS-9 only months ago. This was in direct response to a large number 
of grievances, and, the resulting bad publicity in the national press.
    If OHA is going to put all it's productivity eggs in the computer 
technology basket, it needs to maintain competitive IT positions to 
attract and keep knowledgeable, dedicated employees.
    Please ask them to explain these opposing approaches to OHA's 
attempts to improving the process.
            Respectfully submitted.

                                 <F-dash>

           Statement of Karen Upperton, Janesville, Wisconsin
    01/31/97
    TERMINATED EMPLOYMENT AT BLACKHAWK TECHNICAL COLLEGE DUE TO 
DISABLING ILLNESS
    02/02/98
    INITIAL SOCIAL SECURITY CLAIM FILED (CHRONIC FATIGUE SYNDROME, 
MULTIPLE CHEMICAL SENSITIVITIES, FIBROMYALGIA) (Representative: The 
Shaw Group, Belleville, IL)
    08/25/98
    INITIAL CLAIM DENIED
    09/08/98
    RECONSIDERATION FILED
    11/12/98
    RECONSIDERATION DENIED
    11/23/98
    HEARING FILED
    10/20/99
    HEARING BY ARTHUR SCHNEIDER, ADMIN. LAW JUDGE (Madison, WI) 
(Representative: Atty. Donald Becker, Madison, WI)
    06/29/00
    UNFAVORABLE DECISION BY ALJ, ARTHUR SCHNEIDER
    08/31/00
    REQUEST FOR REVIEW OF HEARING DECISION/ORDER (I wanted to prove)

          <bullet>  That my case for disability due to chronic fatigue 
        syndrome was not adjudicated according to SSR99-2p
          <bullet>  Legal counsel witheld pertinent evidence & made 
        misrepresentations concerning evidence
          <bullet>  Evaluation of the evidence by ALJ has inaccuracies, 
        is incomplete, inconsistent & biased
          <bullet>  Doctors did not send complete records
    11/20/00
    NEW COUNSEL REQUESTED DUPLICATE COPIES OF CASSETTES W/COMPLETE COPY 
OF ADMINISTRATIVE RECORD (Representative, Attorney Barry Schultz, 
Evanston, IL)
    06/06/02
    RECEIVED COPIES OF EXHIBITS AND DUPLICATE CASSETTES
    07/12/02
    SOCIAL SECURITY DISABILITY REQUEST FOR REVIEW

          <bullet>  Ms. Upperton's Multiple Chemical Sensitivites 
        Impairment is Disabling
          <bullet>  The ALJ's credibility determination is insufficient 
        as a matter of law
          <bullet>  The ALJ failed to properly analyze Ms. Upperton's 
        Chronic Fatigue Syndrome and Fibromyalgia and to address the 
        issues raised by SSR 99-2p
          <bullet>  ALJ did not adequately analyze Ms. Upperton's 
        complaints of Pain
          <bullet>  ALJ failed to analyze claimant's obesity and failed 
        to discuss requirements of Ruling 00-3p
          <bullet>  New Evidence (letters from 3 co-workers, Red Blood 
        Cell Analysis, Sleep Study,
          <bullet>  SAT Scores from 1966, which would prove required 15 
        point drop in IQ

    07/25/02
    DENIAL BY APPEALS COUNCIL--REQUEST FOR REVIEW OF THE ADMINISTRATIVE 
LAW JUDGE'S DECISION ISSUED ON JUNE 29, 2000

          <bullet>  My attorney stated it is always frustrating to 
        receive a decision from the Council so soon after sending the 
        argument, and not receiving any rationale for the denial. 
        However, this is typical of the Appeals Council.
          <bullet>  IS THERE FAIR REVIEW BY THE APPEALS COUNCIL?

    05/19/03
    FILING OF ADMINISTRATIVE RECORD
    07/17/03
    MEMORANDUM OF LAW IN SUPPORT OF PLAINTIFF'S COMPLAINT
    08/19/03
    ATTORNEY FOR FEDERAL GOVERNMENT RECOMMENDS REMAND----The attorney 
for the Regional Counsel's office, who drafts the briefs for the 
government, is asking the Appeals Council to agree to remand my case 
back for a new administrative hearing.
    09/10/03
    I (THE CLAIMANT) AGREE TO REVERSE DECISION OF ALJ AND REMAND FOR A 
NEW DECISION--According to Attorney Schultz, the Appeals Council could 
still issue a favorable decision themselves, or, more likely, they will 
remand to the ALJ for a new decision.
STRUGGLES THAT MY HUSBAND AND I HAVE EXPERIENCED WHILE WAITING FOR 
        SOCIAL SECURITY DISABILITY INSURANCE
    1/31/97
    LAST DAY OF WORK AT BLACKHAWK TECHNICAL COLLEGE

          <bullet>  No accommodations were allowed
          <bullet>  My long-term career outlook was now over, since 
        because of my illness I was not able to continue the training 
        program that would give me the Counselor's Certificate.
          <bullet>  I was very sick and in a lot of pain. Loss of 
        cognitive abilities the scariest.
          <bullet>  Almost half our household income was now gone
          <bullet>  We were unable to cover our accrued credit card and 
        medical expenses and had no other option but bankruptcy.

    Ongoing
    EXPENSES

          <bullet>  Doctors/Specialists
          <bullet>  Allergists, Nutripathic, Acupuncture Doctors, (not 
        covered by insurance)
          <bullet>  Vitamins, other nutrients, non-toxic personal and 
        household cleaning products--$200+/mo. (sensitive to medicines)
          <bullet>  Food (organic) $200+/mo. (just for me--allergic to 
        most foods)
          <bullet>  I couldn't go to doctors who specialize in treating 
        Chronic Fatigue Syndrome, and Multiple Chemical Sensitivities 
        because they are in far away states, and they charge too much. 
        If I'd had Social Security, I could have had my wish to see the 
        doctors I wanted to and possibly I could have had treatments 
        that worked.

    5/01
    AUTO ACCIDENT--My husband was driving at highway speed over the 
crest of a hill; and there is a car coming from the opposite direction 
that all of a sudden turns left in front of us. We hit the car on the 
passenger's side. These were both big cars, and they were `totaled'. 
Thank God we were not.

          <bullet>  bought used automobile $14,000--high interest loan
          <bullet>  medical bills and ambulance $7300 (we still owe on 
        these)
          <bullet>  pain and suffering, including reactivated Chronic 
        Epstein Barr Virus (per lab test), which is mono; and 
        considered one of the causes of CFS

    11/01
    TOXIC MOLD IN OUR HOME--Tests found a hidden leak behind the 
bathroom wall, it had leaked into the open return air ductwork system. 
There was also a leak from the roof.--I'd become so ill that we had to 
move out.--During that time the aerosolized mold from the ductwork 
attached to everything in the house. (But our insurance does not cover 
mold.) We got several quotes, and the expense of cleanup and mold 
remediation for everything was going to be close to what the house was 
worth. So we did the minimal (with high interest loans).

          <bullet>  motel room (Jan.--Apr. $3,000) my niece was able to 
        get this price for us
          <bullet>  new roof $5,500
          <bullet>  junk company to take possessions that were ruined 
        by mold, household mold cleaning, carpet cleaning, furniture 
        cleaning--$4,000
          <bullet>  mental and physical suffering--immeasurable

    4/03
    WE GAVE AWAY OUR HOME AFTER NINE YEARS OF PAYMENTS--Because of the 
existing mold problem and my hyper-sensitivity to mold, which was 
causing me increasing illness, we had to get out of that house. I also 
could not stand it during the months of April and November every year 
when the whole township was full of smoke from burning leaves.--This 
mold condition presented a legal problem so we utilized a lawyer who 
teaches real estate to make sure that everything was revealed to the 
buyers according to the tests that were done.--There was also an 
impending assessment of $!0,000 for sewer which would have made the 
house even harder to sell.
    WE HAD TO MAKE A MOVE

          <bullet>  We had no money to hire movers
          <bullet>  We now live in a rental duplex in Janesville.

    10/03
    WE MAY HAVE TO GO BACK IN FRONT OF THE SAME JUDGE

          <bullet>  I feel this judge is discrimining because I didn't 
        have an apparent physical disability; and possibly because I 
        have Chronic Fatigue Syndrome and Multiple Chemical 
        Sensitivities.
          <bullet>  The ALJ relied primarily on the psychological exam 
        by the doctor hired by the court; rather than my own 
        psychologist or any of my own doctors opinions. Chiropractors 
        were not acceptable medical sources.
          <bullet>  ALJ erroneously failed to consider concessions made 
        by vocational expert on cross-examination
          <bullet>  He also states in his decision that I did not 
        require an air purifier at the hearing. However, it is recorded 
        in the beginning where he himself confirmed that I had my air 
        purifier running and asked me to speak up louder to be heard. I 
        said I could turn the fan down with the purifier still on high.
          <bullet>  If you would like, I will provide a copy of the 
        ``Memorandum of Law in Support of Plantiff's Complaint by my 
        attorney

    THANK YOU FOR YOUR HELP--This has taken FOREVER!!!

                                 <F-dash>

              Statement of Glenda Videan, Hilton, New York
    About 5 years ago I started having trouble with my neck and 
shoulder and I was seeing a chiropractor for about 2 years when he 
informed me there was no more he could do for me. I saw my regular 
physician and it was discovered there were ruptured disc of vertebrae 
of disc 3, 4 and 5 in my neck.
    In March, 2001 disc 3,4 and 5 of my neck were fused together. 
Immediately after the operation I started to get excruciating headaches 
and have had them ever since. I have worked for 44 years. Along with 
these headaches I also have osteoporosis, osteoarthritis, foot problems 
in both of my feet, lower back problems, depression, and problems with 
my left leg. When the problems started with the headaches I started 
missing a lot of time from work at Eastman Kodak Company. I had worked 
there for 30 years. I was threatened with termination if I did not 
retire. So I retired at the age of 58.
    I cannot even drive to the other side of the city as I get confused 
as to where I am at. This is from the medication I am on. I can do some 
driving in the neighborhood but I have to depend on my husband for 
everything else. I do not sleep well without medication and even then I 
only sleep for 3 or 4 hours at a time. I am seeing a psychologist for 
the depression I am feeling. But I am still overwhelmed for the way I 
feel about my life.
    I signed up for Social Security Disability. I am on quite a bit of 
medication including 3 types of antidpressents, and 2 different type of 
pain medication and still the pain persists. After a year I finally got 
a hearing and I was denied. So I put in for an appeal. It has taken 
over a year to even get an appeal date. I was told I would hear from 
the Social Security Office at the end of November as to when the date 
for an appeal might be set up. I think this whole scenario of the time 
constraints is a bit overwhelming to me at this time.

                                 <F-dash>

                                         Milwaukee, Wisconsin 53219
                                                    October 2, 2003
Subcommittee on Social Security
Honorable E. Clay Shaw Jr.
Room B-318
Rayburn House Office Building
Washington, D.C. 20515
    Dear Congressman Shaw:
    I, Lucinda L. Vobach, on July 16, 2001, applied to the Social 
Security Office located at 6251 W. Forest Home Avenue, Milwaukee, WI 
53220, claims for disability insurance benefits and for supplemental 
security.
    Case Worker, Gigi Petaway, in the Milwaukee District (414/546-9036 
ext.1228) assisted me with the case. Ms. Petaway informed me that I 
will be denied disability insurance because I did not work enough 
quarters. Ms. Petaway also stated that I cannot apply for supplemental 
because I had some money in the bank. Ms. Petaway stated that I should 
attempt to apply for a claim at a later time. I requested that both 
claims be put on record. Ms. Petaway was a bit upset. I also requested 
copies of everything I signed. (Ms. Petaway still upset) I feel that 
Ms. Petaway did not have any authority to tell me I will be denied 
without getting the claims on record. She does not make the final 
decisions. If I did not have Ms. Petaway enter the claims into the 
computer I would be told I never applied. (Ms. Petaway last name on 
this date was Gigi Johnson)
    Ms. Petaway called to setup appointment for December 20, 2001. To 
go over my places of employment & to review any check stubs that I may 
have had. I provided employment history from 1990 to February 19, 2000, 
which was the last day I worked.

          Date of Denial: February 20, 2002
          Reconsideration: March 13, 2002
          Denial: August 29, 2002

    I, Lucinda, submitted a claim for Widow Disability on March 13, 
2002. (I could not apply any sooner because I was informed that I had 
to be 50 years old.) Case Worker on that day was, D. Flessner, who 
informed me that I should hear within 180 days. (Attorney Larry Farris 
UAW-GM Milwaukee, WI [414/482-7160] attended meeting with me.)
    August 29, 2002 I was denied Widow Disability. (Deceased husband, 
Dale R. Voback, SSN: 388-54-2194, DOB: 10/19/48)
    October 8, 2002 I submitted a request for hearing.
    I, Lucinda Vobach, have the following medical conditions: Stress; 
Depression; Anxiety; Loss of Concentration; bad feelings is this worth 
it any more; Carpel Tunnel on both arms and hands (since 1987 to 
present due to work); Knee problems right & left; Bone rubbing & 
Arthritis on both knees; Arthritis in toes; Right foot & ankle have 2 
metal pins & large done spur, which causes swelling if over used; Right 
leg has a laceration in front just below the knew & just above ankle, 
due to a car accident going back to 1970's; Varicose veins in both 
legs, right leg is very bad; psoriasis, due to nerves; rash under both 
breasts; sinus; high blood pressure; liver keeping good follow up with 
primary Dr. Holliday; high risk for heart problems.
    Surgery Carpel Tunnel: On January 5, 1987 Dr. Tyne performed a 
right elbow ulnar nerve compression. (The Dr. & I tried all methods 
before surgery) I returned to work sooner than I expected. I worked for 
a period of time and then pain returned. I felt the same as I felt 
before the surgery.
    I could not take anymore so went for second opinion.
    I went to see Dr. R. Stark (1987). I discussed with Dr. Stark the 
pain I was continuing to feel. Dr. Stark said he would try & help me. 
(NOTE: Doctors do not go against each other procedures with the methods 
or surgery.) At the time I did not care. Anything would be better than 
the pain, loss of sleep, & loss of work. Dr. Stark & I agreed to try 
multiple tests & any other methods before doing surgery.
    Surgery--Dr. Stark:
    January 17, 1988--Median Nerve Compression
    February 14, 1989--Right forearm & wrist (right elbow submuscular 
transposition)
    Improvement was the result of these surgeries, however I lost 25% 
of usage of arm and wrist. I cannot lift anything more than 20 lbs.
    I honestly believe that if I had gone to Dr. Stark initially I 
would not be experiencing the problems that I have now. I do understand 
that no surgery is guaranteed. I respect Dr. Stark's decision & 
methods. I will and have been referring anyone with Carpal Tunnel to 
see Dr. Stark. Regardless, I now know that a second opinion is 
beneficial to anyone seeking medical attention.
    I, Lucinda, have been trying to keep a job. However, as of February 
2000, I couldn't take it anymore. I am a person that gives 100% to 
whatever I do. I try to give the best that I cam. The harder I push the 
worse the pain gets, which in turn causes me to miss work. I currently 
have a difficult time doing the simplest of tasks. I admit you don't 
think about the loss of movement, sensation or other things until you 
can't do them anymore.
    I feel that when people see me they would automatically notice that 
something is wrong with me. For I do not walk with a cane, not in a 
wheelchair, I don't use crutches, nor do I have braces supporting my 
limbs. However, my problems are more internal. I still experience 
excruciating pain and sure there are scars from surgeries. Most 
defeating is that when people make judgments of me stating that things 
cannot be that bad, if I don't have any apparent disabilities. This 
assumption of others of me is what kills me because I deal with 
excruciating pain on a daily basis.
    I do know that there are those that have lied about their 
disabilities and that is why truly disabled people have to go through 
so much to prove their disabilities.
    What are the persons who have to wait 2 or 3 years to get approved. 
We cannot work! Who is going to pay the mounting bills, the 
accumulating back rent, buy food, and any pending Attorney fees. This 
is not even including if you have children! In today's world married 
couples who have children have to have both parents working just to 
support the household. Should one parent become ill where they are 
unable to work this puts increased pressure on the other parent and the 
children.
    The plain & simple fact is that one will lose their jobs over any 
medical complications or problems. If you are ill, you are unable to 
work. I speak for myself and others, who I know are faced with similar 
situations.
    People work in order to survive. I am not perfect, however I cannot 
see myself losing everything (as little as it may be) that I have 
worked so hard for. If I do lose everything because I cannot prove my 
disability, what do I have to live for?
    Yes, I am angry & I apologize if this has come across in this 
letter, however I don't know how else to verbalize what I am going 
through. I hope you can understand.
    Please do not disregard this next claim. I am speaking for my late 
husband, Dale R. Vobach.
    He died from Cancer. I, again, am not asking for pity nor sympathy. 
I wanted it noted that he applied for disability on January 29, 2001. 
Case Worker was Mrs. Dkgravik time 11:47 DOF.26 (not sure about name 
spelling)
    Dale's illness was noticed in February 1998. Dale stopped working 
in July of 2000. We were informed that a claimant gets paid from the 
day they applied once you're benefits are awarded. Dale did not receive 
benefits from the date of his claim. Dale received benefits only from 
January 2001 to May 2001. I feel that he only received that amount 
because he was informed by the doctors that he only had 6 months to 
live. It is a shame that one has to be on their death bed in order to 
get their entitlements. I speak out of respect for my husband Dale. 
Dale worked hard all through out his life, which can be noted by simply 
looking at his work history. I am definitely not blaming anyone for 
Dale's illness. Dale gave his illness a good fight and continued to 
work hard even though he was in pain. He only stopped working when the 
pain became unbearable.
    I would say to anyone who has had a loved one suffer this kind of 
pain; Do not give up their request, speak out. Do not stop asking 
questions, you have to keep striving until you reach someone who has 
the authority to right this wrong.
    I, Lucinda, & my late husband, Dale Vobach, did not nor plan to 
scam the Social Security Administration.
            Truthfully Signed by,
                                                  Lucinda L. Vobach

                                 <F-dash>

         Statement of Dorothy A. Weatherton, Minden, Louisiana
    I'm Ms. Dorothy Annise Weatherton,I slipped & fell 1-7-98 while 
working @ Isle Of Capri Casino,Inc. [E.T. A.L.] causing me to have a 
back problem,problems with my knee,bruse on my ride & wrist problems 
from time to time. 3-3-98 I was fired from IOCC for not being able to 
do my security officer job that I had done for 4\1/2\ years everyday, 
working 8 to 16 hours before the 1-7-98 accident.
    I filed for SSI and/or Disability March of 1998, but was denied, so 
I kept appealing it, but always denied, until my 2nd Hearing with Judge 
Bundy in Shreveport, La March 23, 2002 he told me to my face during the 
hearing that I was granted my full disability & he would get my paper 
work to me as soon as posible, but when I got my paper work it had 
denided on the paper. I requested a copy of the court report and/or 
tape, I was told it would take about 9 months before they can send me a 
copy of the court report & it would take about 2 more years before they 
can see whats really going on with my disability. Ms. Glenis Penn in 
Shreveport, La sent me a letter saying that I could not get SSI because 
of money I'm all ready getting, I'm not getting any money @ this time @ 
all, I'm stretching out my medication as much as I can,taking tylenol 
like it's candy with the medication I do have that the doctor gave me. 
It's hard not having any money coming in and some tall skinny girl is 
out parting with money thats mine!!! Let me back up R & B singer 
Sparkle (real name) Christine Michelle Baldwin and her wife Cassandra 
Faye Paul Gipson by way of Florida's gay law stole my drivers license 
and trying to make people think I'm Sparkle, I have never been that 
skinny & tall. see enclose picture of Sparkle & How Sparkle & her wife 
CassanDRA getting mail that belong to me only God know @ this time, I 
have submitted a complaint to the postal system on that matter!!! Isle 
Of Capri attorney Walter Salley is know for switching paper work & 
writing trickery papers, I have submitted a copy of a tape that was 
left outside my door @ my house, with the IOCC lawyer saying I would 
lose my Workers Compensation case if I filed new paper work for my 
medical bills etc., I had a hearing with Honorable Jacqueline K. Taylor 
3-99 & 4-8-99, Judge Taylor only ruled on what I had on my workers Comp 
1008 form which I asked for ``cont disabilty''. I tired to file adivice 
Judge Taylor that IOCC failed to pay in a timely manner etc., but Missy 
Long & James Braddock would not allow me to file any paper work @ IOCC, 
so I filed a claim with SSA May `1999. My Medical records from Bossier 
Medical Center when I was in a wreck June 8, 1996 will show that I was 
not born with a back problem like Dr. Edwin Simonton said and/or wrote 
in his medical report. However I subpoened my Medical records from 
Bossier Medical Center in 1998, but the Isle's attorney Walter Salley 
subpoened them again in 2001 Bossier could not find the medical records 
for some odd reason, which is proof what I need to get my disability a 
few years before Judge Bundy hearing. I heard several people say 
complain about the same thing, ``it's taken to long'' those of us who 
really need SSi and/or Disability we have to wait 2 to 5 years to get 
it, but people who are faking get theres in 3 months are less!!! I use 
to work 2 to 3 jobs before I slipped & fell, working with Vanessa Bell 
Armstrong & JJ @ Jive records, I had my own producation company Destin 
Dorothy Producation up & going before I slipped & fell, but it's on a 
stand still right now until I get my settlement money etc., hire some 
one to move my boxes for me due to the fact I can't pick up over 10 to 
15 lbs., no sitting low, nor standing long, I have a ``tens unit'' I 
use @ home, etc.. Now I do the best I can like my threpasit told me to 
do @ home because I don't have any money to go back & forth to threapy. 
It cost $4.00 to $5.00 a day to park and the cost of gas in ver high!!! 
I have no lights, gas or water @ the house I lived in, I had to move in 
with my mom until I get some income coming in. Momz has had open heart 
surgery and a copule of ballons to open her artery. Dad has arthritis 
real bad. I can tell u what type of storm whether it's a heavy rain or 
lite, by the way my body feel. I was trying to do mom a favor but do a 
little work out the other day when I raked the leaves for her, When i 
finished I just could move/walk. If anybody was videoing me @ that time 
it would have shown that I was not faking a back problem. Please do 
something about the length of time we have to wait to get money that we 
have worked for thats in the system!!! I have submitted letters etc. to 
Gov. Mike Foster & Senator Ms. Mary Landru on this issue,they are 
working on getting the issue solved as fast as possible according to 
the last letter I received.
    I wrote a poem in poetry.com,
    Titled: ``Fixing To Refix''
    Gov. Foster passed the bill saying workers com has to pay employees 
medical bills
    Somebody threw away Supreme Court 65 pages of exhibts
    Big G ask #3 who damaged the left eye?
    It's plan as day the Isle to Comply!
    Former Governor Edwards said it's hell inside!
    We may have to get with President Bush to let him know the system 
need a wouch!
            Very Truly.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
